<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-168]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-168

         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2657/S. 1383

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2004, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                          Capitol Police Board
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                          Library of Congress
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
85-935                      WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800   
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman
ROBERT F. BENNETT, Utah              RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska                  TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                     Terrence E. Sauvain (Minority)
                        Drew Willison (Minority)

                         Administrative Support

                              Erin McHale
                       Nancy Olkewicz (Minority)








                            C O N T E N T S

                              ----------                              

                        Thursday, March 27, 2003

                                                                   Page
General Accounting Office........................................     1
Government Printing Office.......................................    23
Congressional Budget Office......................................    41

                        Thursday, April 10, 2003

Library of Congress..............................................    55

                         Thursday, May 1, 2003

U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......    99
Capitol Police Board.............................................   125

                         Thursday, May 8, 2003

U.S. Senate: Office of the Secretary.............................   151
Architect of the Capitol.........................................   217
  











 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, MARCH 27, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:30 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell and Durbin.

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF DAVID WALKER, COMPTROLLER GENERAL
ACCOMPANIED BY:
        GENE L. DODARO, CHIEF OPERATING OFFICER
        STANLEY J. CZERWINSKI, CONTROLLER
        ANTHONY CICCO, JR., CHIEF INFORMATION OFFICER AND DEPUTY CHIEF 
            MISSION SUPPORT OFFICER


          opening statement of senator ben nighthorse campbell


    Senator Campbell. The subcommittee will come to order.
    This is my first hearing as chairman of the Legislative 
Branch Subcommittee, and today's hearing is the first of four 
hearings we plan to have to review the fiscal year 2004 
legislative branch budget request, which totals roughly $3.8 
billion. Two of our three witnesses this afternoon are also new 
to this subcommittee. This afternoon we will take testimony 
from three agencies, the General Accounting Office, the 
Government Printing Office, and the Congressional Budget 
Office.
    We will hear first from Mr. David Walker, Comptroller 
General. Mr. Walker is accompanied by his Chief Operating 
Officer, Mr. Gene Dodaro, and Mr. Stan Czerwinski, GAO's 
Controller. GAO's budget request of $472 million will 
accommodate all inflationary increases with no real significant 
change in its operations. We do want to understand the urgency 
of $4.8 million of your budget request, whether it is truly 
needed in the supplemental, or whether it can await the fiscal 
year 2004 appropriations.
    GAO will be followed by witnesses from the Government 
Printing Office, Mr. Bruce James, the new Public Printer, who 
will appear for the first time before this subcommittee. Mr. 
James will be accompanied by Mr. George Taylor, Deputy Printer, 
Mr. Frank Partlow, Chief of Staff, and Ms. Judith Russell, 
Superintendent of Documents.
    Mr. James, we look forward to hearing about the changes you 
are planning at GPO. We are very pleased to have underway a 
comprehensive general management review by the GAO requested by 
this committee, which we expect will help you as you make your 
plans. GPO's budget totals $135.6 million, and does include $10 
million for anticipated restructuring efforts.
    Finally, we will hear from Dr. Douglas Holtz-Eakin, the 
Director of the Congressional Budget Office, who will appear 
for the first time before this subcommittee. He will be 
accompanied by Mr. Barry Anderson, his deputy. The CBO's budget 
of roughly $34 million would provide for some additional 
employees and its cost of the Federal Accounting Standards 
Advisory Board.
    We are expecting a number of votes this afternoon, and so 
we will not have you read your statements. We will put them in 
the record, and Mr. Walker, you may proceed.
    Mr. Walker. Thank you, Mr. Chairman, for the opportunity to 
be here today and congratulations on your new position as 
chairman of this subcommittee. In addition to Mr. Dodaro and 
Mr. Czerwinski, I would also like to introduce Tony Cicco, our 
Chief Information Officer and Deputy Chief Mission Support 
Officer, who is also with me today. Now, to summarize a few 
highlights for the committee. We realize that you face tough 
budget choices this year and will continue to face them in the 
years ahead. As such, we are requesting, for fiscal year 2004, 
a modest increase of 4.1 percent in our current budget of $473 
million. This request includes the $4.8 million supplemental we 
previously requested for safety and security needs. If the 
Congress is able to fund our fiscal year 2003 supplemental 
request for security needs, we could reduce our fiscal year 
2004 budget request accordingly to a net 3.1 percent increase.
    Fiscal year 2002 was an outstanding year for GAO. We 
achieved record or near record performance results in virtually 
every key category. For example, over $37 billion in measurable 
financial benefits, a return on investment of $88 for every $1 
appropriated to us. Our performance results have increased 
significantly over the last 4 years, and we continue to lead by 
example. We are in the vanguard of the overall government 
transformation effort and are positioning GAO for the future.
    We also plan to work with our oversight committees and 
possibly this committee to seek human capital legislation that 
would make permanent some of the human capital flexibilities 
provided to us by Congress in fiscal year 2001 and recently 
extended to the executive branch in the homeland security 
legislation. We also plan to file the required statutory report 
on our fiscal year 2001 human capital legislation in the coming 
weeks.


                           PREPARED STATEMENT


    Mr. Chairman, we will just submit our testimony for the 
record and would welcome your questions.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before the Subcommittee today as the Comptroller General of the 
United States and head of the U.S. General Accounting Office (GAO). GAO 
is a key source of objective information and analyses and, as such, 
plays a crucial role in supporting congressional decision-making and 
helping improve government for the benefit of the American people. My 
testimony today will focus on GAO's (1) fiscal year 2002 performance 
and results, (2) efforts to maximize our effectiveness, responsiveness 
and value, and (3) our budget request for fiscal year 2004 to support 
the Congress and serve the American public. In summary:
  --In fiscal year 2002, GAO's work informed the national debate on a 
        broad spectrum of issues including helping the Congress answer 
        questions about the associated costs and program trade-offs of 
        the national preparedness strategy, including providing 
        perspectives on how best to organize and manage the new 
        Transportation Security Administration and Department of 
        Homeland Security. GAO's efforts helped the Congress and 
        government leaders achieve $37.7 billion in financial 
        benefits--an $88 return on every dollar invested in GAO. The 
        return on the public's investment in GAO extends beyond dollar 
        savings to improvements in how the government serves its 
        citizens. This includes a range of accomplishments that serve 
        to improve safety, enhance security, protect privacy, and 
        increase the effectiveness of a range of federal programs and 
        activities.
  --The results of our work in fiscal year 2002 were possible, in part, 
        because of changes we have made to transform GAO in order to 
        meet our goal of being a model federal agency and a world-class 
        professional services organization. We had already realigned 
        GAO's structure and resources to better serve the Congress in 
        its legislative, oversight, appropriations, and investigative 
        roles. Over the past year, we cultivated and fostered 
        congressional and agency relations, better refined our 
        strategic and annual planning and reporting processes, and 
        enhanced our information technology infrastructure. We also 
        continued to provide priority attention to our management 
        challenges of human capital, information security, and physical 
        security. We have made progress in addressing each of these 
        challenges, but we still have work to do and plan to ask for 
        legislation to help address some of these issues.
  --GAO is requesting budget authority of $473 million for fiscal year 
        2004. Our request represents a modest 4.1 percent increase in 
        direct appropriations, primarily for mandatory pay and 
        uncontrollable costs. This budget will allow us to maintain 
        current operations for serving the Congress as outlined in our 
        strategic plan and to continue initiatives to enhance our human 
        capital, support business processes, and ensure the safety and 
        security of GAO staff, facilities, and information systems. 
        Approximately $4.8 million, or about 1 percent, of our request 
        relates to several safety and security items that are included 
        in our fiscal year 2003 supplemental request. If this 
        supplemental request is granted, our fiscal year 2004 request 
        could be reduced accordingly.

                FISCAL YEAR 2002 PERFORMANCE AND RESULTS

    Fiscal year 2002 was a year of challenges, not just for GAO but 
also for the Congress and the nation. The nation's vulnerabilities were 
exposed in a series of events--America's vulnerability to sophisticated 
terrorist networks, bioterrorism waged through mechanisms as mundane as 
the daily mail, and corporate misconduct capable of wiping out jobs, 
pensions, and investments virtually overnight. As the Congress's 
priorities changed to meet these crises, GAO's challenge was to respond 
quickly and effectively to our congressional clients' changing needs.
    With work already underway across a spectrum of critical policy and 
performance issues, we had a head start toward meeting the Congress' 
needs in a year of unexpected and often tumultuous events. For example, 
in fiscal year 2002 GAO's work informed the debate over national 
preparedness strategy, helping the Congress determine how best to 
organize and manage major new departments, assess key vulnerabilities 
to homeland defense, and respond to the events of September 11 in areas 
such as terrorism insurance and airline security. GAO's input also was 
a major factor in shaping the Sarbanes-Oxley Act, which created the 
Public Company Accounting Oversight Board, as well as new rules to 
strengthen corporate governance and ensure auditor independence. 
Further, GAO's work helped the Congress develop and enact election 
reform legislation in the form of the Help America Vote Act of 2002 to 
help restore voter confidence.
    In fiscal year 2002, GAO also served the Congress and the American 
people by helping to:
  --Contribute to a national preparedness strategy at the federal, 
        state, and local levels that will make Americans safer from 
        terrorism
  --Protect investors through better oversight of the securities 
        industry and the accounting profession
  --Ensure a safer national food supply
  --Expose the inadequacy of nursing home care
  --Make income tax collection fair, effective, and less painful to 
        taxpayers
  --Strengthen public schools' accountability for educating children
  --Keep sensitive American technologies out of the wrong hands
  --Protect American armed forces confronting chemical or biological 
        weapons
  --Identify the risks to employees in private pension programs
  --Identify factors causing the shortage of children's vaccines
  --Assist the postal system in addressing anthrax and various 
        management challenges
  --Identify security risks at ports, airports, and transit systems
  --Save billions by bringing sound business practices to the 
        Department of Defense
  --Foster human capital strategic management to create a capable, 
        effective, well-managed federal workforce
  --Ensure that the armed forces are trained and equipped to meet the 
        nation's defense commitments
  --Enhance the safety of Americans and foreign nationals at U.S. 
        installations worldwide
  --Assess ways of improving border security through biometric 
        technologies and other means
  --Reduce the international debt problems faced by poor countries
  --Reform the way federal agencies manage their finances
  --Protect government computer systems from security threats
  --Enhance the transition of e-government--the new ``electronic 
        connection'' between government and the public.
    During fiscal year 2002, GAO's analyses and recommendations 
contributed to a wide range of legislation considered by the Congress, 
as shown in the following table.

    ----------------------------------------------------------------

 Table 1.--Selected Public Laws to Which GAO Contributed During Fiscal 
                               Year 2002

    Prescription Drug User Fee Amendments of 2002, Public Law 107-188
    Best Pharmaceuticals for Children Act, Public Law 107-1092
    No Child Left Behind Act of 2001, Public Law 107-110
    Food Stamp Reauthorization Act of 2002, Public Law 107-171
    Help America Vote Act of 2002, Public Law 107-252
    Homeland Security Act of 2002, Public Law 107-296
    Public Health Security and Bioterrorism Preparedness and Response 
Act of 2002, Public Law 107-188
    Aviation and Transportation Security Act, Public Law 107-71
    Department of Defense Appropriation Act, 2003, Public Law 107-248
    Department of Defense and Emergency Supplemental Appropriations for 
Recovery From and Response to Terrorist Attacks on the United States 
Act, 2002, Public Law 107-117
    Bob Stump National Defense Authorization Act for Fiscal Year 2003 
Public Law 107-314
    Foreign Relations Authorization Act, Fiscal Year 2003, Public Law 
107-228
    Small Business Paperwork Relief Act of 2002, Public Law 107-198
    Federal Information Security Management Act of 2002, Public Law 
107-347
    Sarbanes-Oxley Act of 2002, Public Law 107-204
    National Defense Authorization Act for Fiscal Year 2002, Public Law 
107-107
    Legislative Branch Appropriations, Fiscal Year 2002, Public Law 
107-68
    Improper Payments Information Act of 2002, Public Law 107-300
    Trade Act of 2002, Public Law 107-210
    Terrorism Risk Insurance Act of 2002, Public Law 107-297
    E-Government Act of 2002, Public Law 107-347

    Source: GAO.

    ----------------------------------------------------------------

    By year's end, we had testified 216 times before the Congress, 
sometimes on as little as 24 hours' notice, on a range of issues. We 
had responded to hundreds of urgent requests for information. We had 
developed 1,950 recommendations for improving the government's 
operations, including, for example, those we made to the Secretary of 
State calling for the development of a governmentwide plan to help 
other countries combat nuclear smuggling and those we made to the 
Chairman of the Federal Energy Regulatory Commission calling for his 
agency to develop an action plan for overseeing competitive energy 
markets. We also had continued to track the recommendations we had made 
in past years, checking to see that they had been implemented and, if 
not, whether we needed to do follow-up work on problem areas. We found, 
in fact, that 79 percent of the recommendations we had made in fiscal 
year 1998 had been implemented, a significant step when the work we 
have done for the Congress becomes a catalyst for creating tangible 
benefits for the American people.
    Table 2 highlights, by GAO's three external strategic goals, 
examples of issues on which we testified before Congress during fiscal 
year 2002.

    ----------------------------------------------------------------

                         TABLE 2.--ISSUES ON WHICH GAO TESTIFIED DURING FISCAL YEAR 2002
----------------------------------------------------------------------------------------------------------------
 Goal 1--Well-Being and Financial   Goal 2--Changing Security Threats and     Goal 3--Transforming the Federal
 Security of the American People         Challenge of Globalization                  Government's Role
----------------------------------------------------------------------------------------------------------------
Aviation security                  A-76 competitive sourcing               Contract management
Bioterrorism                       Anthrax vaccine                         Contracting for services
Blood supplies                     Ballistic missile defense               Corporate governance and
Child welfare                      Chemical and biological preparedness     accountability
Childhood vaccines                 Combating terrorism                     Debt collection
Coast Guard's security missions    Compact with Micronesia                 DOD financial management
Customs' cargo inspections         Conflict diamonds                       Electronic Government Act of 2002
Disability programs                Debt relief for poor countries          Electronic-government security
EPA cabinet status                 Encroachment on training ranges         Enterprise architecture
FBI reorganization                 Export controls                         Federal budget issues
Federal property management        Food aid                                Federal building security
 reform                            Foreign language needs                  Federal financial management reform
Food safety                        Gulf War illnesses                      Federal rulemaking requirements
Highway trust fund                 Information security aspects of         Freedom to Manage Act
Housing                             homeland security                      Human capital strategy
HUD management reform              International trade                     Illegal tax schemes and scams
Identity theft                     Nuclear smuggling                        Intergovernmental aspects of
Immigration enforcement            Organizational aspects of homeland       homeland security
Indian tribal recognition           security                               IRS modernization
Intercity passenger rail           SEC's human capital challenges          Medicaid financial management
Long-term care                     Strategic seaport protection            NASA's management challenges
Medicare payments                  Terrorism insurance                     President's Management Agenda
Nuclear waste storage              U.S. overseas presence                  Purchase card controls
Nursing homes                      Weapons of mass destruction             Securing America's borders
Postal Service challenges                                                  U.S. government's financial
Public health aspects of homeland                                           statements
 security
Retiree health insurance
SBA's human capital challenges
Social Security reform
Transit safety and security
VA health care
Welfare reform
Wildfire threats
Workforce development
----------------------------------------------------------------------------------------------------------------
Source: GAO.

    ----------------------------------------------------------------

    Congress and the executive agencies took a wide range of actions in 
fiscal year 2002 to improve government operations, reduce costs, or 
better target budget authority based on GAO analyses and 
recommendations, as highlighted in the following sections.
    Federal action on GAO's findings or recommendations produced 
financial benefits for the American people: a total of $37.7 billion 
was achieved by making government services more efficient, improving 
the budgeting and spending of tax dollars, and strengthening the 
management of federal resources (see fig. 1). For example, increased 
funding for improved safeguards against fraud and abuse helped the 
Medicare program to better control improper payments of $8.1 billion 
over 2 years, and better policies and controls reduced losses from farm 
loan programs by about $4.8 billion across 5 years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In fiscal year 2002, we also recorded 906 instances in which our 
work led to improvements in government operations or programs (see fig. 
2). For example, by acting on GAO's findings or recommendations, the 
federal government has taken important steps toward enhancing aviation 
safety, improving pediatric drug labeling based on research, better 
targeting of funds to high-poverty school districts, greater 
accountability in the federal acquisition process, and more effective 
delivery of disaster recovery assistance to other nations, among other 
achievements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As shown in table 3, we met all of our annual performance targets 
except our timeliness target. While we provided 96 percent of our 
products to their congressional requesters by the date promised, we 
missed this measure's target of 98 percent on-time delivery. The year's 
turbulent events played a part in our missing the target, causing us to 
delay work in progress when higher-priority requests came in from the 
Congress. We know we will continue to face factors beyond our control 
as we strive to improve our performance in this area. We believe the 
agency protocols we are piloting will help clarify aspects of our 
interactions with the agencies we evaluate and audit and, thus, 
expedite our work in ways that could improve the timeliness of our 
final products. We also believe that our continuing investments in 
human capital and information technology will improve our timeliness 
while allowing us to maintain our high level of productivity and 
performance overall.

    ----------------------------------------------------------------

                                TABLE 3.--ANNUAL PERFORMANCE MEASURES AND TARGETS
----------------------------------------------------------------------------------------------------------------
                                        Fiscal  Fiscal  Fiscal  Fiscal  Fiscal   Fiscal           Fiscal  Fiscal
                                         Year    Year    Year    Year    Year     Year   4-year    Year    Year
          Performance measure            1998    1999    2000    2001    2002     2002    avg.     2003    2004
                                        Actual  Actual  Actual  Actual  Target   Actual  Actual   Target  Target
----------------------------------------------------------------------------------------------------------------
Financial benefits (dollars in           $19.7   $20.1   $23.2   $26.4   $30.0  \1\ $37   $26.9  \2\ $32   $35.0
 billions)............................                                               .7               .5
Other benefits........................     537     607     788     799     770      906     775  \2\ 800     820
Past recommendations implemented            69      70      78      79      75       79     N/A       77      77
 (percent)............................
New recommendations made..............     987     940   1,224   1,563   1,200    1,950   1,419  \2\ 1,2   1,250
                                                                                                      50
New products with recommendations (in       33      33      39      44      45       53      42       50      50
 per-  cent)..........................
Testimonies...........................     256     229     263     151     200      216     215  \2\ 180     200
Timeliness (in percent)...............      93      96      96      95      98       96      96       98      98
----------------------------------------------------------------------------------------------------------------
\1\ Changes GAO made to its methodology for tabulating financial benefits caused about 11 percent of the
  increase in fiscal year 2002.
\2\ Four targets published in GAO's performance plan for fiscal year 2003 were subsequently revised based on
  more current information. Two were raised; two were lowered. The original targets were financial benefits, $35
  billion; other benefits, 785; recommendations made, 1,200; and testimonies, 210.

N/A=not applicable.
Source: GAO.

    ----------------------------------------------------------------

        MAXIMIZING GAO'S EFFECTIVENESS, RESPONSIVENESS AND VALUE

    The results of our work were possible, in part, because of changes 
we have made to maximize the value of GAO. We had already realigned 
GAO's structure and resources to better serve the Congress in its 
legislative, oversight, appropriations, and investigative roles. Over 
the past year, we cultivated and fostered congressional and agency 
relations, better refined our strategic and annual planning and 
reporting processes, and enhanced our information technology 
infrastructure. We also continued to provide priority attention to our 
management challenges of human capital, information security, and 
physical security. Changes we made in each of these areas helped enable 
us to operate in a constantly changing environment.

Congressional and Agency Relations
    Over the course of the year, we cultivated and fostered 
congressional and agency relations in several ways. On October 23, 
2001, in response to the anthrax incident on Capitol Hill, we opened 
our doors to 435 members of the House of Representatives and their 
staffs. Later in the year, we continued with our traditional hill 
outreach meetings and completed a 7-month pilot test of a system for 
obtaining clients' views on the quality of our testimonies and reports. 
We also developed agency protocols to provide clearly defined, 
consistently applied, well-documented, and transparent policies for 
conducting our work with federal agencies. We have implemented our new 
reporting product line entitled Highlights--a one-page summary that 
provides the key findings and recommendations from a GAO engagement. We 
continued our policy of outreach to our congressional clients, the 
public, and the press to enhance the accessibility of GAO products. Our 
external web site now logs about 100,000 visitors each day and more 
than 1 million GAO products are downloaded every month by our 
congressional clients, the public, and the press.
    In light of certain records access challenges during the past few 
years and with concerns about national and homeland security unusually 
high at home and abroad, it may become more difficult for us to obtain 
information from the Executive Branch and report on certain issues. If 
this were to occur, it would hamper our ability to complete 
congressional requests in a timely manner. We are updating GAO's 
engagement acceptance policies and practices to address this issue and 
may recommend legislative changes that will help to assure that we have 
reasonable and appropriate information that we need to conduct our work 
for the Congress and the country.

Strategic and Annual Planning
    GAO's strategic planning process serves as a model for the federal 
government. Our plan aligns GAO's resources to meet the needs of the 
Congress, address emerging challenges and achieve positive results. 
Following the spirit of the Government Performance and Results Act, we 
established a process that provides for updates with each new Congress, 
ongoing analysis of emerging conditions and trends, extensive 
consultations with congressional clients and outside experts, and 
assessments of our internal capacities and needs.
    At the beginning of fiscal year 2002, we updated our strategic plan 
for serving the Congress based on substantial congressional input--
extending the plan's perspective out to fiscal year 2007 and factoring 
in developments that had occurred since we first issued it in fiscal 
year 2000. The updated plan carries forward the four strategic goals we 
had already established as the organizing principles for a body of work 
that is as wide-ranging as the interests and concerns of the Congress 
itself. Using the plan as a blueprint, we lay out the areas in which we 
expect to conduct research, audits, analyses, and evaluations to meet 
our clients' needs, and we allocate the resources we receive from the 
Congress accordingly. Following is our strategic plan framework. 
Appendix I of this statement delineates in a bit more detail our 
strategic objectives and our qualitative performance goals for fiscal 
years 2002 and 2003.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We issued our 2001 Performance and Accountability Report that 
combines information on our past year's accomplishments and progress in 
meeting our strategic goals with our plans for achieving our fiscal 
year 2003 performance goals. The report earned a Certificate of 
Excellence in Accountability Reporting from the Association of 
Government Accountants. We issued our Fiscal Year 2002 Performance and 
Accountability Report in January 2003.
    Our financial statements, which are integral to our performance and 
accountability, received an unqualified opinion for the sixteenth 
consecutive year. Furthermore, our external auditors did not identify 
any material control weaknesses or compliance issues relating to GAO's 
operations.

Information Technology
    During the past year, we acquired new hardware and software and 
developed user-friendly systems that enhanced our productivity and 
responsiveness to the Congress and helped meet our initial information 
technology goals. For example, we replaced aging desktop workstations 
with notebook computers that provide greater computing power, speed, 
and mobility. In addition, we upgraded key desktop applications, the 
Windows desktop operating system, and telecommunications systems to 
ensure that GAO staff have modern technology tools to assist them in 
carrying out their work. We also developed new, integrated, user-
friendly Web-based systems that eliminate duplicate data entry while 
ensuring the reusability of existing data. As the Clinger-Cohen Act 
requires, GAO has an enterprise architecture program in place to guide 
its information technology planning and decision making. In designing 
and developing systems, as well as in acquiring technology tools and 
services, we have applied enterprise architecture principles and 
concepts to ensure sound information technology investments and the 
interoperability of systems.

Human Capital
    Given GAO's role as a key provider of information and analyses to 
the Congress, maintaining the right mix of technical knowledge and 
expertise as well as general analytical skills is vital to achieving 
our mission. We spend about 80 percent of our resources on our people, 
but without excellent human capital management, we could still run the 
risk of being unable to deliver what the Congress and the nation expect 
from us. At the beginning of my term in early fiscal year 1999, we 
completed a self-assessment that profiled our human capital workforce 
and identified a number of serious challenges facing our workforce, 
including significant issues involving succession planning and 
imbalances in the structure, shape, and skills of our workforce. As 
presented below, through a number of strategically planned human 
capital initiatives over the past few years, we have made significant 
progress in addressing these issues. For example, as illustrated in 
figure 3, by the end of fiscal year 2002, we had almost a 60 percent 
increase in the percentage of staff at the entry-level (Band I) as 
compared with fiscal year 1998. Also, the proportion of our workforce 
at the mid-level (Band II) decreased by about 8 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our fiscal year 2002 human capital initiatives included the 
following:
  --In fiscal year 2002, we hired nearly 430 permanent staff and 140 
        interns. We also developed and implemented a strategy to place 
        more emphasis on diversity in campus recruiting.
  --In fiscal years 2002 and 2003, to help meet our workforce planning 
        objectives, we offered voluntary early retirement under 
        authority established in our October 2000 human capital 
        legislation. Early retirement was granted to 52 employees in 
        fiscal year 2002 and 24 employees in fiscal year 2003.
  --To retain staff with critical skills and staff with less than 3 
        years of GAO experience, we implemented legislation authorizing 
        federal agencies to offer student loan repayments in exchange 
        for certain federal service commitments.
  --In fiscal year 2002, GAO implemented a new, modern, effective, and 
        credible performance appraisal system for analysts and 
        specialists, adapted the system for attorneys, and began 
        modifying the system for administrative professional and 
        support staff.
  --We began developing a new core training curriculum for managers and 
        staff to provide additional training on the key competencies 
        required to perform GAO's work.
  --We also took steps to achieve a fully democratically-elected 
        Employee Advisory Council to work with GAO's Executive 
        Committee in addressing issues of mutual interest and concern.
    The above represent just a few of many accomplishments in the human 
capital area. GAO is the clear leader in the federal government in 
designating and implementing 21st century human capital policies and 
practices. We also are taking steps to work with the Congress, the 
Office of Management and Budget, and the Office of Personnel 
Management, and others to ``help others help themselves'' in the human 
capital area.

Information Security
    Ensuring information systems security and disaster recovery systems 
that allow for continuity of operations is a critical requirement for 
GAO, particularly in light of the events of September 11 and the 
anthrax incidents. The risk is that our information could be 
compromised and that we would be unable to respond to the needs of the 
Congress in an emergency. In light of this risk and in keeping with our 
goal of being a model federal agency, we are implementing an 
information security program consistent with the requirements in the 
Government Information Security Reform provisions (commonly referred to 
as ``GISRA'') enacted in the Floyd D. Spence National Defense 
Authorization Act for Fiscal Year 2001. We have made progress through 
our efforts to, among other things, implement a risk-based, agencywide 
security program; provide security training and awareness; and develop 
and implement an enterprise disaster recovery solution.

Physical Security
    In the aftermath of the September 11 terrorist attacks and 
subsequent anthrax incidents, our ability to provide a safe and secure 
workplace emerged as a challenge for our agency. Protecting our people 
and our assets is critical to our ability to meet our mission. We 
devoted additional resources to this area and implemented measures such 
as reinforcing vehicle and pedestrian entry points, installing an 
additional x-ray machine, adding more security guards, and reinforcing 
windows.

                 GAO'S FISCAL YEAR 2004 BUDGET REQUEST

    GAO is requesting budget authority of $473 million for fiscal year 
2004 to maintain current operations for serving the Congress as 
outlined in our strategic plan and to continue initiatives to enhance 
our human capital, support business processes, and ensure the safety 
and security of GAO staff, facilities, and information systems. This 
funding level will allow us to fund up to 3,269 full-time equivalent 
personnel. Our request includes $466.6 million in direct appropriations 
and authority to use estimated revenues of $6 million from reimbursable 
audit work and rental income. Our requested increase of $18.4 million 
in direct appropriations represents a modest 4.1 percent increase, 
primarily for mandatory pay and uncontrollable costs. Our budget 
request also includes savings from nonrecurring fiscal year 2003 
investments in fiscal year 2004 that we propose to use to fund further 
one-time investments in critical areas, such as security and human 
capital.
    We have submitted a request for $4.8 million in supplemental fiscal 
year 2003 funds to allow us to accelerate implementation of important 
security enhancements. Our fiscal year 2004 budget includes $4.8 
million for safety and security needs that are also included in the 
supplemental. If the requested fiscal year 2003 supplemental funds are 
provided, our fiscal year 2004 budget could be reduced by $4.8 million. 
Table 4 presents our fiscal year 2003 and requested fiscal year 2004 
resources by funding source.

    ----------------------------------------------------------------

                        TABLE 4.--FISCAL YEARS 2003 AND 2004 RESOURCES BY FUNDING SOURCE
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Change--fiscal year
                                                               Fiscal Year  Fiscal Year        2003 to 2004
                        Funding source                             2003         2004    ------------------------
                                                                 Revised      Request       Amount      Percent
----------------------------------------------------------------------------------------------------------------
Total budget authority.......................................  \1\ $451,20    $472,627      $21,425   ..........
                                                                        2
Less: offsetting collections \2\.............................      (3,000)      (6,006)      (3,006)  ..........
Direct appropriation.........................................    $448,202     $466,621      $18,419          4.1
----------------------------------------------------------------------------------------------------------------
\1\ Excludes request for supplemental funds of $4.8 million.
\2\ Offsetting collections include reimbursable audit work and rental income.

Source: GAO.

    ----------------------------------------------------------------

    During fiscal year 2004, we plan to sustain our investments in 
maximizing the productivity of our workforce by continuing to address 
the key management challenges of human capital, and both information 
and physical security. We will continue to take steps to ``lead by 
example'' within the federal government in connection with these and 
other critical management areas.
    Over the next several years, we need to continue to address skill 
gaps, maximize staff productivity and effectiveness, and reengineer our 
human capital processes to make them more user-friendly. We plan to 
address skill gaps by further refining our recruitment and hiring 
strategies to target gaps identified through our workforce planning 
efforts, while taking into account the significant percentage of our 
workforce eligible for retirement. We will continue to take steps to 
reengineer our human capital systems and practices to increase their 
efficiency and to take full advantage of technology. We will also 
ensure that our staff have the needed skills and training to function 
in this reengineered environment. In addition, we are developing 
competency-based performance appraisal and broad-banding pay systems 
for our mission support employees.
    To ensure our ability to attract, retain, and reward high-quality 
staff, we plan to devote additional resources to our employee training 
and development program. We will target resources to continue 
initiatives to address skill gaps, maximize staff productivity, and 
increase staff effectiveness by updating our training curriculum to 
address organizational and technical needs and training new staff. 
Also, to enhance our recruitment and retention of staff, we will 
continue to offer a student loan repayment program and transit subsidy 
benefit established in fiscal year 2002. In addition, we will continue 
to focus our hiring efforts in fiscal year 2004 on recruiting talented 
entry-level staff.
    To build on the human capital flexibilities provided by the 
Congress in 2000, we plan to recommend legislation that would, among 
other things, facilitate GAO's continuing efforts to recruit and retain 
top talent, develop a more performance-based compensation system, 
realign our workforce, and facilitate our succession planning and 
knowledge transfer efforts. In addition, to help attract new recruits, 
address certain ``expectation gaps'' within and outside of the 
government, and better describe the modern audit and evaluation entity 
GAO has become, we will work with the Congress to explore the 
possibility of changing the agency's name while retaining our well-
known acronym and global brand name of ``GAO.''
    On the information security front, we need to complete certain key 
actions to be better able to detect intruders in our systems, identify 
our users, and recover in the event of a disaster. Among our current 
efforts and plans for these areas are completing the installation of 
software that helps us detect intruders on all our internal servers, 
completing the implementation of a secure user authentication process, 
and refining the disaster recover plan we developed last year. We will 
need the Congress' help to address these remaining challenges.
    We also are continuing to make the investments necessary to enhance 
the safety and security of our people, facilities, and other assets for 
the mutual benefit of GAO and the Congress. With our fiscal year 2003 
supplemental funding, if provided, or if not, with fiscal year 2004 
funds, we plan to complete installation of our building access control 
and intrusion detection system and supporting infrastructure, and 
obtain an offsite facility for use by essential personnel in emergency 
situations. With the help of the Congress, we plan to implement these 
projects over the next several years.

                           CONCLUDING REMARKS

    As a result of the support and resources we have received from this 
Subcommittee and the Congress over the past several years, we have been 
able to make a difference in government, not only in terms of financial 
benefits and improvements in federal programs and operations that have 
resulted from our work, but also in strengthening and increasing the 
productivity of GAO, and making a real difference for our country and 
its citizens. Our budget request for fiscal year 2004 is modest, but 
necessary to sustain our current operations, continue key human capital 
and information technology initiatives, and ensure the safety and 
security of our most valuable asset--our people. We seek your continued 
support so that we will be able to effectively and efficiently conduct 
our work on behalf of the Congress and the American people.
    As the Comptroller General of the United States, I am very proud of 
how, in a time of uncertainty, GAO staff responded with a positive 
attitude and did whatever their country required and demonstrated an 
unwavering resolve to continue their work. Knowing this organization as 
I do, I was not surprised. We at GAO look forward to continuing to help 
the Congress and the nation meet the current and emerging challenges of 
the 21st century.

 Appendix I: GAO's Qualitative Performance Goals for Fiscal Years 2002 
                                and 2003

    This appendix lists GAO's strategic goals and the strategic 
objectives for each goal. They are part of our updated draft strategic 
plan (for fiscal years 2002 through 2007).
    Organized below each strategic objective are its qualitative 
performance goals. The performance goals lay out the work we plan to do 
in fiscal years 2002 and 2003 to help achieve our strategic goals and 
objectives. We will evaluate our performance at the end of fiscal year 
2003.

Strategic Goal 1--Provide Timely, Quality Service to the Congress and 
        the Federal Government to Address Current and Emerging 
        Challenges to the Well-Being and Financial Security of the 
        American People
    To achieve this goal, we will provide information and 
recommendations on the following:
  --the Health Care Needs of an Aging and Diverse Population
    --evaluate Medicare reform, financing, and operations;
    --assess trends and issues in private health insurance coverage;
    --assess actions and options for improving the Department of 
            Veterans Affairs' and the Department of Defense's (DOD) 
            health care services;
    --evaluate the effectiveness of federal programs to promote and 
            protect the public health;
    --evaluate the effectiveness of federal programs to improve the 
            nation's preparedness for the public health and medical 
            consequences of bioterrorism;
    --evaluate federal and state program strategies for financing and 
            overseeing chronic and long-term health care; and
    --assess states' experiences in providing health insurance coverage 
            for low-income populations.
  --the Education and Protection of the Nation's Children
    --analyze the effectiveness and efficiency of early childhood 
            education and care programs in serving their target 
            populations;
    --assess options for federal programs to effectively address the 
            educational and nutritional needs of elementary and 
            secondary students and their schools;
    --determine the effectiveness and efficiency of child support 
            enforcement and child welfare programs in serving their 
            target populations; and
    --identify opportunities to better manage postsecondary, 
            vocational, and adult education programs and deliver more 
            effective services.
    --the Promotion of Work Opportunities and the Protection of Workers
    --assess the effectiveness of federal efforts to help adults enter 
            the workforce and to assist low-income workers;
    --analyze the impact of programs designed to maintain a skilled 
            workforce and ensure employers have the workers they need;
    --assess the success of various enforcement strategies to protect 
            workers while minimizing employers' burden in the changing 
            environment of work; and
    --identify ways to improve federal support for people with 
            disabilities.
  --a Secure Retirement for Older Americans
    --assess the implications of various Social Security reform 
            proposals;
    --identify opportunities to foster greater pension coverage, 
            increase personal saving, and ensure adequate and secure 
            retirement income; and
    --identify opportunities to improve the ability of federal agencies 
            to administer and protect workers' retirement benefits.
  --an Effective System of Justice
    --identify ways to improve federal agencies' ability to prevent and 
            respond to major crimes, including terrorism;
    --assess the effectiveness of federal programs to control illegal 
            drug use;
    --identify ways to administer the nation's immigration laws to 
            better secure the nation's borders and promote appropriate 
            treatment of legal residents; and
    --assess the administrative efficiency and effectiveness of the 
            federal court and prison systems.
  --the Promotion of Viable Communities
    --assess federal economic development assistance and its impact on 
            communities;
    --assess how the federal government can balance the promotion of 
            home ownership with financial risk;
    --assess the effectiveness of federal initiatives to assist small 
            and minority-owned businesses;
    --assess federal efforts to enhance national preparedness and 
            capacity to respond to and recover from natural and man-
            made disasters; and
    --assess how well federally supported housing programs meet their 
            objectives and affect the well-being of recipient 
            households and communities.
  --Responsible Stewardship of Natural Resources and the Environment
    --assess the nation's ability to ensure reliable and 
            environmentally sound energy for current and future 
            generations;
    --assess federal strategies for managing land and water resources 
            in a sustainable fashion for multiple uses;
    --assess federal programs' ability to ensure a plentiful and safe 
            food supply, provide economic security for farmers, and 
            minimize agricultural environmental damage;
    --assess federal pollution prevention and control strategies; and
    --assess efforts to reduce the threats posed by hazardous and 
            nuclear wastes.
  --a Secure and Effective National Physical Infrastructure
    --assess strategies for identifying, evaluating, prioritizing, 
            financing, and implementing integrated solutions to the 
            nation's infrastructure needs;
    --assess the impact of transportation and telecommunications 
            policies and practices on competition and consumers;
    --assess efforts to improve safety and security in all 
            transportation modes;
    --assess the U.S. Postal Service's transformation efforts to ensure 
            its viability and accomplish its mission; and
    --assess federal efforts to plan for, acquire, manage, maintain, 
            secure, and dispose of the government's real property 
            assets.

Strategic Goal 2--Provide Timely, Quality Service to the Congress and 
        the Federal Government to Respond to Changing Security Threats 
        and the Challenges of Global Interdependence
    To achieve this goal, we will provide information and 
recommendations on the following:
  --Respond to Diffuse Threats to National and Global Security
    --analyze the effectiveness of the federal government's approach to 
            providing for homeland security;
    --assess U.S. efforts to protect computer and telecommunications 
            systems supporting critical infrastructures in business and 
            government; and
    --assess the effectiveness of U.S. and international efforts to 
            prevent the proliferation of nuclear, biological, chemical, 
            and conventional weapons and sensitive technologies.
  --Ensure Military Capabilities and Readiness
    --assess the ability of DOD to maintain adequate readiness levels 
            while addressing the force structure changes needed in the 
            21st century;
    --assess overall human capital management practices to ensure a 
            high-quality total force;
    --identify ways to improve the economy, efficiency, and 
            effectiveness of DOD's support infrastructure and business 
            systems and processes;
    --assess the National Nuclear Security Administration's efforts to 
            maintain a safe and reliable nuclear weapons stockpile;
    --analyze and support DOD's efforts to improve budget analyses and 
            performance management;
    --assess whether DOD and the services have developed integrated 
            procedures and systems to operate effectively together on 
            the battlefield; and
    --assess the ability of weapon system acquisition programs and 
            processes to achieve desired outcomes.
  --Advance and Protect U.S. International Interests
    --analyze the plans, strategies, costs, and results of the U.S. 
            role in conflict interventions;
    --analyze the effectiveness and management of foreign aid programs 
            and the tools used to carry them out;
    --analyze the costs and implications of changing U.S. strategic 
            interests;
    --evaluate the efficiency and accountability of multilateral 
            organizations and the extent to which they are serving U.S. 
            interests; and
    --assess the strategies and management practices for U.S. foreign 
            affairs functions and activities.
  --Respond to the Impact of Global Market Forces on U.S. Economic and 
        Security Interests
    --analyze how trade agreements and programs serve U.S. interests;
    --improve understanding of the effects of defense industry 
            globalization;
    --assess how the United States can influence improvements in the 
            world financial system;
    --assess the ability of the financial services industry and its 
            regulators to maintain a stable and efficient global 
            financial system;
    --evaluate how prepared financial regulators are to respond to 
            change and innovation; and
    --assess the effectiveness of regulatory programs and policies in 
            ensuring access to financial services and deterring fraud 
            and abuse in financial markets.

Strategic Goal 3--Help Transform the Government's Role and How It Does 
        Business to Meet 21st Century Challenges
    To achieve this goal, we will provide information and 
recommendations on the following:
  --Analyze the Implications of the Increased Role of Public and 
        Private Parties in Achieving Federal Objectives
    --analyze the modern service-delivery system environment and the 
            complexity and interaction of service-delivery mechanisms;
    --assess how involvement of state and local governments and 
            nongovernmental organizations affect federal program 
            implementation and achievement of national goals; and
    --assess the effectiveness of regulatory administration and reforms 
            in achieving government objectives.
  --Assess the Government's Human Capital and Other Capacity for 
        Serving the Public
    --identify and facilitate the implementation of human capital 
            practices that will improve federal economy, efficiency, 
            and effectiveness;
    --identify ways to improve the financial management infrastructure 
            capacity to provide useful information to manage for 
            results and costs day to day;
    --assess the government's capacity to manage information technology 
            to improve performance;
    --assess efforts to manage the collection, use, and dissemination 
            of government information in an era of rapidly changing 
            technology;
    --assess the effectiveness of the Federal Statistical System in 
            providing relevant, reliable, and timely information that 
            meets federal program needs; and
    --identify more businesslike approaches that can be used by federal 
            agencies in acquiring goods and services.
    Support Congressional Oversight of the Federal Government's 
Progress toward Being More Results-Oriented, Accountable, and Relevant 
to Society's Needs
    --analyze and support efforts to instill results-oriented 
            management across the government;
    --highlight the federal programs and operations at highest risk and 
            the major performance and management challenges confronting 
            agencies;
    --identify ways to strengthen accountability for the federal 
            government's assets and operations;
    --promote accountability in the federal acquisition process;
    --assess the management and results of the federal investment in 
            science and technology and the effectiveness of efforts to 
            protect intellectual property;
    --identify ways to improve the quality of evaluative information; 
            and
    --develop new resources and approaches that can be used in 
            measuring performance and progress on the nations 21st 
            century challenges.
  --Analyze the Government's Fiscal Position and Approaches for 
        Financing the Government
    --analyze the long-term fiscal position of the federal government;
    --analyze the structure and information for budgetary choices and 
            explore alternatives for improvement;
    --contribute to congressional deliberations on tax policy;
    --support congressional oversight of the Internal Revenue Service's 
            modernization and reform efforts; and
    --assess the reliability of financial information on the 
            government's fiscal position and financing sources.

Strategic Goal 4--Maximize the Value of GAO by Being a Model Federal 
        Agency and a World-Class Professional Services Organization
    To achieve this goal, we will do the following:
  --Sharpen GAO's Focus on Clients' and Customers' Requirements
    --continuously update client requirements;
    --develop and implement stakeholder protocols and refine client 
            protocols; and
    --identify and refine customer requirements and measures.
  --Enhance Leadership and Promote Management Excellence
    --foster an attitude of stewardship to ensure a commitment to GAO's 
            mission and core values;
    --implement an integrated approach to strategic management;
    --continue to provide leadership in strategic human capital 
            management planning and execution;
    --maintain integrity in financial management;
    --use enabling technology to improve GAO's crosscutting business 
            processes; and
    --provide a safe and secure workplace.
  --Leverage GAO's Institutional Knowledge and Experience
    --improve GAO's use of Web-based knowledge tools;
    --develop a framework to manage the collection, use, distribution, 
            and retention of organizational knowledge; and
    --strengthen relationships with other national and international 
            accountability and professional organizations.
  --Continuously Improve GAO's Business and Management Processes
    --improve internal business and administrative processes;
    --improve GAO's product and service lines; and
    --improve GAO's job management processes.
  --Become the Professional Services Employer of Choice
    --maintain an environment that is fair, unbiased, family-friendly, 
            and promotes and values opportunity and inclusiveness;
    --improve compensation and performance management systems;
    --develop and implement a training and professional development 
            strategy targeted toward competencies; and
    --provide GAO's people with tools, technology, and a working 
            environment that is world-class.

    Senator Campbell. You claim you have achieved over $37 
billion in financial benefits, generating a return on 
investment of $88 for every dollar appropriated to you by the 
Congress. Can you explain what you mean by financial benefits, 
how you determine these benefits, and provide examples of some 
of your largest items?
    Mr. Walker. GAO produces financial benefits when its work 
contributes to actions taken by the Congress or the Executive 
Branch to: Reduce annual operating costs of Federal programs or 
activities; lessen the costs of multiyear projects or 
entitlements; or increase revenues from debt collection, asset 
sales, changes in tax laws or user fees.
    The funds made available in response to GAO's work may be 
used to reduce Government expenditures or reallocated by the 
Congress to other priority areas. To ensure conservative 
estimates of net financial benefits, reductions in operating 
cost are typically limited to 2 years of accrued reductions. 
Multiyear reductions in long-term projects, changes in tax 
laws, program terminations, or sales of Government assets are 
limited to 5 years. In addition, all financial benefits are 
calculated in net present value terms.
    GAO has established policies and procedures to guide the 
reporting of financial benefits. Estimates must be based on 
independent third party sources and reduced by any identifiable 
offsetting costs. The third parties are typically the agency 
that acted on GAO's work, a congressional committee, or the 
Congressional Budget Office.
    All accomplishment reports for financial benefits are 
documented and reviewed by another GAO staff member not 
involved in the work, and a senior executive in charge of the 
work. Also, a separate independent unit (Quality and Continuous 
Improvement) reviews all financial benefits and must approve 
benefits of $100 million or more, which amounted to 93 percent 
of the total benefits recorded in fiscal year 2002. Finally, 
all benefits over $1 billion are reviewed by GAO's Inspector 
General, which amounted to about 58 percent of our total 
financial benefits for fiscal 2002.
    The following table lists GAO's major financial benefits 
included in our fiscal year 2002 Performance and Accountability 
Report, followed by summary explanations of the work 
contributing to financial benefits over $500 million.
    [The information follows:]

      GENERAL ACCOUNTING OFFICE FISCAL YEAR 2002 FINANCIAL BENEFITS
                              [In millions]
------------------------------------------------------------------------
                          Description                             Amount
------------------------------------------------------------------------
Financial Benefits Exceeding $1 Billion:
    Preventing Inappropriate Medicare Payments: Advocated         $8,100
     Medicare program safeguards help recover or avoid improper
     payments..................................................
    Improving Farm Loan Programs: Improved controls over USDA      4,800
     loan administration reduces risk of defaults..............
    Reducing the Cost of Federal Housing Programs: Review of       4,800
     unexpended balances at HUD recaptures funds...............
    Adjusting Department of Defense (DOD) Estimates: DOD           1,500
     officials reduced foreign currency exchange estimates.....
    Reducing Nuclear Waste Treatment Costs: New DOE contract       1,500
     for Hanford Tank Waste Project expected to achieve
     significant cost reductions...............................
    Retaining the Substantial Gainful Activity Level:              1,124
     Preserving an inability-to-work test as a qualification
     for SSA disability insurance payouts......................
                                                                --------
        Subtotal--Financial benefits exceeding $1 Billion......   21,824
                                                                ========
Financial Benefits Between $500 Million and $1 Billion:
    Consolidation Initiatives at Department of Defense Computer      859
     Centers: DOD consolidation initiatives at its computer
     centers result in estimated savings and cost avoidances...
    Computerized Interfaces Identify Undisclosed Earnings: SSA       797
     use of computerized interfaces with Office of Child
     Support Enforcement database helps prevent or reduce SSI
     overpayments..............................................
    Delaying Full-Rate Reduction of the V-22: DOD restructuring      764
     of the Marine Corps program reduces program costs.........
    More Efficient Use of In-orbit Satellite Capabilities: DOD       702
     reduces excess capacity...................................
    Ensuring Contingency Funds are Spent Properly: DOD's fiscal      650
     year 2002 contingency funding reduced by Congress.........
    Reducing DOD Funding: DOD's fiscal 2002 working capital          639
     fund request reduced due to overestimate of bulk fuels....
    Targeting Tax Credits: Legislative changes in tax laws           564
     related to earned income tax credit eligibility rules and
     Section 936 tax credit achieve savings....................
    Contributing to the Military Base Closure and Realignment        545
     Process: DOD base closures and realignment result in cost
     reductions................................................
    Increasing Use of Excess Property: DOD improves inventory        526
     controls..................................................
                                                                --------
      Subtotal--Financial benefits between $500 Million and $1     6,046
       Billion.................................................
                                                                ========
      Total of 100 Financial Benefits Below $500 Million.......    9,900
                                                                ========
      Grand Total..............................................   37,770
------------------------------------------------------------------------
Return on Investment: $87.8 per dollar invested in GAO.

Financial Benefits Exceeding $1 Billion
    Preventing Inappropriate Medicare Payments.--Responding, in part, 
to a body of GAO work and recommendations, the Congress passed 
legislation in 1996 that increased funding from fiscal 1998 through 
fiscal 2003 for activities to help safeguard the Medicare program from 
improper payments. With this increased funding, the Department of 
Health and Human Services created a fraud and abuse control program and 
a Medicare integrity program for a variety of abuse-constraining 
activities. The increased funding for these two programs helped the 
Medicare program control improper payments by an additional $8.1 
billion for fiscal 2001 and 2002.
    Improving Farm Loan Programs.--In 1990, GAO designated the 
Department of Agriculture's Farm Loan Programs as a high-risk area 
because of billions of dollars of losses attributable to significant 
problems primarily with the department's direct loan portfolio. Since 
then, the department has implemented many of our recommendations to 
improve the program, and the 1996 Farm Bill incorporated our key 
legislative recommendations. These changes eliminated the revolving-
door credit for which the department had become known and gave farmers 
strong incentives to repay their loans rather than to seek loan 
forgiveness or loan refinancing that included write-offs of delinquent 
debt. During the 5 years following enactment of the 1996 Farm Bill, 
improvements in the program were estimated to reduce losses on direct 
loans by about $4.8 billion, compared with the losses for the 5 
preceding years.
    Reducing the Cost of Federal Housing Programs.--In response to GAO 
reports and recommendations over the past several years, the Congress, 
the Department of Housing and Urban Development (HUD), and the U.S. 
Department of Agriculture's Rural Housing Service took actions that 
produced financial benefits totaling $6.1 billion. Over $4.8 billion 
resulted from GAO's recommendation that HUD review unexpended balances 
in all of its programs to ensure timely expenditure of appropriated 
program funds. The remaining benefits resulted from a series of actions 
in response to our work. For example, the Congress (1) funded fewer new 
programs or set-asides than HUD had requested, (2) terminated Operation 
Safe Home, and (3) enacted legislation that replaced HUD's home 
mortgage assignment program with less costly alternatives. 
Additionally, the Rural Housing Service centralized its servicing for 
rural single family housing loans.
    Adjusting Department of Defense (DOD) Estimates.--GAO reviewed the 
reasonableness of the DOD's requests for fiscal 2001 for contingency 
funding. During internal DOD budget deliberations, DOD officials 
reduced the agency's foreign currency exchange estimates based on 
congressional action--due to GAO's efforts--by $1.5 billion for fiscal 
2002 and 2003. These adjustments did not affect readiness, and the 
Congress used the adjusted funds for other needs.
    Reducing Nuclear Waste Treatment Costs.--In 1996, GAO reviewed the 
Department of Energy's (DOE) Hanford tank waste privatization project 
and found many unresolved technical and financial uncertainties. In 
1998, GAO compared DOE's Hanford approach with several alternative 
contracting and financing strategies and suggested that DOE reassess 
its approach in light of significant cost growth. In June 2000, GAO 
testified that DOE should reevaluate its Hanford approach and consider 
other contracting and financing options. DOE subsequently terminated 
the Hanford tank waste project, and, after evaluating alternative 
contracting and financing options, awarded a new contract that is 
expected to achieve significant cost reductions--about $4 billion--over 
the life of the construction phase. The financial benefit for fiscal 
2003, 2004, and 2005 is about $1.5 billion.
    Retaining the Substantial Gainful Activity Level.--To establish and 
maintain eligibility for disability insurance benefits, beneficiaries 
must not only meet medical eligibility criteria but also demonstrate 
that they are not earning above a certain amount--known as the 
Substantial Gainful Activity (SGA) level. In March 2000, congressional 
hearings focused on the role of earnings in determining initial and 
continuing eligibility for disability benefits for individuals who are 
blind or have other disabilities. Prior to these hearings, bills 
introduced in the House and Senate had proposed eliminating the SGA 
level for the blind. While an advocate organization for the blind 
testified that it wanted the Congress to eliminate the SGA level for 
the blind, GAO responded that doing so would increase the costs of 
disability insurance and fundamentally alter the purpose of the 
disability insurance program by removing the connection between 
eligibility for benefits and the inability to work. As a result of our 
testimony, the Congress retained the SGA for the blind, resulting in a 
financial benefit of $1.124 billion in fiscal 2001 and 2002.
Financial Benefits Between $500 Million and $1 Billion
    Consolidation Initiatives at Department of Defense Computer.--GAO 
recommended that DOD deploy cost savings measures such as 
consolidation, modernization, and outsourcing of computer center 
activities and processes to make computer center operations more 
economical and efficient. As a result, the Defense Information Systems 
Agency--the agency responsible for managing Defense Enterprise 
Computing Centers--undertook a major DOD project that led to savings or 
cost avoidance over a 4-year period covering fiscal 1998 through 2001. 
More specifically, DOD estimated savings or cost avoidances of $700 
million from consolidation initiatives at computer centers, $39 million 
from consolidating software licenses, and $19 million from optimization 
of storage capabilities. The net present value of the estimated 
financial benefit is $859 million.
    Computerized Interfaces Identify Undisclosed Earnings.--In 1998, 
GAO reported that an Office of Child Support Enforcement database, 
known as the National Directory of New Hires, could be used to help 
prevent or reduce overpayments of supplemental security income that 
occur when recipients fail to fully disclose their earnings. We 
recommended that the Social Security Administration (SSA) develop 
computerized interfaces to access this database and detect undisclosed 
earnings during initial and subsequent determinations of eligibility. 
SSA developed these interfaces, gave all field offices direct access to 
the database, and instructed field staff to use the database for cases 
meeting specified criteria. These actions have resulted in financial 
benefits of about $797 million.
    Delaying Full-Rate Production of the V-22.--In January 2001, GAO 
briefed the Secretary of Defense's V-22 Blue Ribbon Panel about our 
findings on the aircraft. The Blue Ribbon Panel was formed to 
investigate the V-22 after a fatal crash in December 2000, just prior 
to the aircraft's planned full-rate production. The panel received 
information from GAO about reductions in development testing, test 
waivers, deficiencies identified during operational tests, and results 
of an earlier April 2000 crash investigation that also involved 
fatalities. Much of the information in our briefing about the V-22 had 
not been previously disclosed. The panel used the information to 
support its position that the V-22 was not ready for full-rate 
production and that only a minimum production rate should be continued 
during additional testing and evaluation of the aircraft. The Congress 
subsequently rescinded $446.5 million from the fiscal 2001 supplement 
request and reduced the fiscal 2002 request by $296.3 million. The net 
present value of the two actions is $763.8 million.
    More Efficient Use of In-orbit Satellite Capabilities.--In 1998, 
GAO reviewed DOD's development of the Space-Based Infrared System 
(SBIRS), under which the launch of the first SBIRS satellite was 
planned for fiscal 2002. We reported that implementing this plan would 
put eight excess satellites in orbit without providing sufficient 
ground processing capabilities for the data the satellites generated. 
We recommended that the Secretary of Defense review and assess launch 
alternatives. As a result, DOD delayed the launch of the first SBIRS 
satellite from fiscal 2002 to fiscal 2004 and subsequently delayed 
other such launches. These delays, which allow DOD to use existing 
satellites until the end of their expected lives and avoid 8 years of 
excess satellite capability, saved about $702 million in satellite 
costs.
    Ensuring Contingency Funds Are Spent Properly.--Since 1991, the 
Department of Defense has spent more than $25 billion in support of 
military operations in the Balkans and the Persian Gulf. In assessing 
DOD's use of contingency operations funds in fiscal 2000 and 2001, we 
identified millions of dollars in questionable expenditures resulting 
from limited guidance and oversight combined with a lack of cost 
consciousness. In responding to our findings, the Congress reduced DOD 
funding for those operations by $650 million in fiscal 2002. In 
commenting on our report, DOD also stated its intention to improve its 
guidance for and oversight over the use of contingency funds.
    Reducing DOD Funding.--GAO reviewed the reasonableness of DOD's 
fiscal year 2002 budget request for its Defense Working Capital Fund to 
assist subcommittees in their appropriation and authorization 
deliberations. GAO estimated the value of DOD's overstatement due to 
bulk fuels. On the basis of GAO's findings, the Congress adjusted DOD's 
budget request by $639 million.
    Targeting Tax Credits.--Several GAO studies in the early and mid-
1990s evaluated aspects of the design of the possessions tax credit and 
the earned income tax credit. As a result of these studies, the 
Congress modified the tax code, replacing the possessions tax credit 
with a less generous credit that will be eliminated in 2006 and 
tightening the eligibility requirements for the earned income tax 
credit. More current information on the 5-year impact of these changes 
points to $564 million in revenue savings that GAO has not claimed 
previously.
    Contributing to the Military Base Closure and Realignment 
Process.--Since 1979, GAO has issued a number of reports documenting 
excess infrastructure within the Department of Defense and supporting 
the need for a base closure and realignment process. The Congress 
authorized such a process and enacted legislation requiring us to 
provide it with a series of reports and testimonies validating DOD's 
implementation. We monitored and assessed all phases of the decision-
making process, including executive-level sessions, for compliance with 
congressional requirements. In addition, GAO staff assisted commissions 
that recommended base closures and realignments in 1991, 1993, and 
1995. The staff helped shape the commissions' decisions through 
analyses of issues associated with closing or realigning specific 
installations. Last year, we reported cost reductions of about $6 
billion associated with our work. Updated DOD data indicate further 
cost reductions of $545 million.
    Increasing Use of Excess Property.--GAO reported that $2.7 billion 
worth of military property recorded as shipped to disposal offices was 
never recorded as received, resulting in losses and write-offs of the 
property from the military services' books and inventory records. GAO 
recommended changes that avoided the write-offs and kept the items as 
part of the services' inventory records until the property was actually 
disposed of. As a result, the inventory was available for use by DOD 
customers during the period prior to disposal. For the first 2 years 
that the changes were in effect, they resulted in savings of $526 
million.

                      HUMAN CAPITAL FLEXIBILITIES

    Senator Campbell. You spoke about what you called human 
capital flexibility. What is an example of human capital 
flexibility?
    Mr. Walker. Two comments. First, in calendar 2000, this 
subcommittee was instrumental in helping us to achieve our 
first set of flexibilities. You gave us the authority to offer 
targeted early outs and targeted buyouts to realign our 
workforce rather than downsize our workforce. The Congress, as 
you know, passed a similar provision for the entire executive 
branch as part of the Department of Homeland Security Act. We 
served as a beta or test case for the entire Government.
    As far as looking forward, one of the things that I am 
looking to do, Mr. Chairman, is right now we have to 
automatically follow the executive branch for the across-the-
board pay increases that are mandated each year. I would like 
some additional flexibility so we do not have to follow them in 
lock-step. I want to make sure that our compensation is geared 
more toward the skills, knowledge, position and performance of 
our employees, rather than the passage of time and the rate of 
inflation.
    Senator Campbell. You are going to have to help me with 
some of this. As I understand it, about one-third of the GAO's 
resources go to support costs, which means activities that are 
not directly in support of the work for Congress. What are some 
of those support costs, and how does that compare with other 
Government organizations?
    Mr. Walker. I would respectfully suggest that everybody 
that works at GAO is contributing to mission, and if they are 
not contributing to mission, then we should not have them. It 
is as simple as that. There are differences, though, between 
the individuals who are actually doing the audits, the 
investigations, the evaluations, rendering the legal opinions, 
and adjudicating the bid protests versus those who are 
providing support services. Our numbers of staff providing 
support services are reasonable, and in line with other 
agencies; in fact, they are coming down.
    One of the things we have done over the last 4 years is 
reduce the number of so-called support services staff by about 
13 percent, while our overall number of staff has only gone up 
about 1 percent. So, we have taken that 13 percent and 
redeployed it to auditors, investigators and evaluators; those 
who are directly providing services to the Congress. We will 
continue to do that to the extent that we can.

                             FIELD OFFICES

    Senator Campbell. You have 11 locations, including one in 
my State, in Denver.
    Where is GAO's Denver office located?
    Mr. Walker. GAO's Denver field office is located in the 
Cesar E. Chavez Memorial Building at 1244 Speer Boulevard, 
Suite 800, Denver, Colorado.
    We would love to have you any time you want to come.
    Senator Campbell. Maybe I will try to visit that just so I 
can learn a little more about your Denver operation. We have 
terrible deficits and a lot of changes in our budget proposals, 
as you know. Do you intend to keep those 11 open? What are your 
plans, at least for the foreseeable future for your field 
offices?
    Mr. Walker. I do, Mr. Chairman. I think it is important to 
note that back in the early 1980's, GAO had 42 offices, 
including 3 overseas offices. When I came in, we had 16 offices 
and none overseas. I conducted a very extensive review and 
analysis, and we went from 16 to 11. I believe that these 11 
offices are appropriate for the foreseeable future.

                         FIELD OFFICE CLOSURES

    Senator Campbell. Did they just consolidate some of the 
other ones?
    Mr. Walker. We closed five offices, Mr. Chairman.
    Senator Campbell. Has that been a substantial savings to do 
that?
    Mr. Walker. These office closures enabled us to free up 
some resources to redeploy for other purposes and, therefore, 
to minimize additional budget requests to the Congress. By the 
way, some of the authorities Congress gave us helped us 
tremendously to achieve that objective as well.

                            WALKER V. CHENEY

    Senator Campbell. Now, I am not an attorney, so I do not 
follow an awful lot of the court cases like some of my 
colleagues, but tell me about the District Court's decision not 
to hear the Walker versus Cheney case. How does that affect 
you?
    Mr. Walker. We do not believe it will have a significant 
adverse effect on GAO and our ability to do our job. That was a 
case in which a Federal District Court Judge in Washington, 
D.C. dismissed the case for lack of standing.
    We believe it was wrongly decided, based in part on 
material factual errors. However, I decided not to appeal the 
case, primarily because it dealt with an area that only 
represents a narrow percentage of our work, namely the work 
dealing directly with the Office of the Vice President. Second, 
this case was viewed by many as being more of a political 
battle, and I do not want to get in the middle of a political 
battle. Third, it would have taken years to pursue, even if we 
had appealed the case. So, my view is the better part of valor 
was to move on and look for a better case in the future. The 
decision has not had an adverse affect on our access authority 
since then.
    Importantly, the judge did not directly address our 
statutory rights to information. He did not decide who was 
right or wrong. He just basically said that the judicial branch 
should not have to decide this dispute between the executive 
and the legislative branches. But we are monitoring the 
situation closely, and to the extent that we believe that we 
have any problems, we will come to the Congress for appropriate 
action.

                     EMERGENCY WARTIME SUPPLEMENTAL

    Senator Campbell. This week the White House submitted a $75 
billion request for this war and homeland security, which 
included $125 million for the legislative branch. Is any of 
that money in there intended to go to the GAO and what would 
you use it for?
    Mr. Walker. Well, Mr. Chairman, I am glad you asked that.
    We did ask for $4.849 million which will be used for 
safety- and security-related improvements, not just for GAO and 
our employees, but as you know, we are also a contingency site 
for the House of Representatives. In fact, we housed the House 
of Representatives during a 2-week period due to the anthrax 
event that occurred in the fall of calendar 2001.
    For the first time in history, OMB did not pass through the 
entire legislative branch request to the Congress. That is 
unprecedented. I believe it is inappropriate; it is a 
separation of powers issue. I would respectfully hope that the 
Congress would include that $4.849 million as part of the 
supplemental, because we believe it is not just necessary for 
GAO, it is also necessary because of our designation as a 
possible contingency site for the U.S. House of 
Representatives.

                            CLOSING REMARKS

    Senator Campbell. Thank you. Was the anthrax issue 2 years 
ago?
    Mr. Walker. Time flies, Mr. Chairman.
    Senator Campbell. Okay. I appreciate that. I have no 
further questions.
    Mr. Walker. Thank you, Mr. Chairman, and I would be happy 
to answer any additional questions for the record.
    Senator Campbell. Thank you. I think we may submit some, 
particularly Senator Durbin, since he is not yet here.
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF BRUCE R. JAMES, PUBLIC PRINTER
ACCOMPANIED BY:
        GEORGE A. TAYLOR, DEPUTY PUBLIC PRINTER
        FRANK A. PARTLOW, JR., CHIEF OF STAFF
        JUDITH C. RUSSELL, SUPERINTENDENT OF DOCUMENTS

    Senator Campbell. Our next panel is Mr. Bruce James, the 
Public Printer, and he will be accompanied by Mr. George 
Taylor, Mr. Frank Partlow, and Judith Russell, and I assume Mr. 
James will be the only one making a statement, is that right?
    Mr. James. Well, I am the only one making an opening 
statement, Mr. Chairman, but I may call on my colleagues if 
your questions are too tough.
    Senator Campbell. Go ahead, Mr. James.
    Mr. James. Well, I want to welcome you to the subcommittee, 
too, and I am looking forward to a long and good working 
relationship with you. As you know, I am the new Public 
Printer. I have been here since the beginning of December, just 
a little over 3 months, and have come to the conclusion that 
this is going to be the best job I have ever had. The reason 
is, it is the toughest.
    This is an interesting situation. The first 2 days I was on 
the job I spoke with our employees, gave five speeches over 2 
days. We never close, as you know, so I was in at 4 o'clock in 
the morning, I was in at 10 o'clock at night giving speeches, 
and what I talked to our employees about was the fact that the 
19th century was not going to return, and by that I mean that 
printing as our middle name--the Government Printing Office--
may well get in the way of how we view ourselves and how we 
viewed ourselves over the years.
    The United States Government Printing Office has a mission 
of making certain that we collect all Government documents, we 
process those documents, we catalog those documents, we 
distribute the documents to depository libraries throughout the 
United States, and we preserve those documents in perpetuity. 
The fact that some of our documents end up with ink on paper is 
not the main purpose of our mission, and what we are seeing for 
the first time is that the amount of material that is printed 
is going to fall below 50 percent. We believe as much as 60 
percent of the Government documents this year will be in 
digital form. They will not see ink on paper.
    It does not mean they will not be printed. They may well be 
printed from a personal computer, but they will not be printed 
at the United States Government Printing Office or by one of 
our printers. Therefore, what that means is that it is 
necessary that we face the future squarely, and that we design 
a business model for the Government Printing Office that is a 
21st century business model, and that is what we are starting 
to do.
    You probably noticed the article in this morning's 
Washington Post which talked about the GPO reorganization. I 
thought it was a good article. I thought they captured the 
spirit of what we are trying to do. We are reorganizing the GPO 
to be more flexible to provide much better customer service, to 
be able to drive decisionmaking in our organization down to 
lower levels, to increase the efficiency.
    We have also embarked on a strategic planning process that 
I think at the end of the day will result in a new GPO that is 
absolutely attuned to the future. It is a three-stage process. 
The first part of the process is what I call fact-finding, and 
what we are doing is, we are talking to our customers, we are 
talking to our employees, we are talking to the printers in the 
United States, we are talking with librarians, and we are 
trying to understand exactly where they are going in the 
future.
    We want to understand what our resources are truly, not 
anecdotally, but what our true resources are, and after we 
gather all these facts together it is my job to get everybody 
on the same page and get everybody to agree that these are the 
facts, and once we have agreement on the facts, then we will 
move forward to make a plan, and we expect that that plan will 
outline, as I say, a new business model for the GPO that will 
be based around a digital infrastructure that will offer to 
Congress solutions for some of the problems that we face 
together.
    As an example, if you today order a paper document from the 
Superintendent of Documents, that document will be delivered to 
you by the United States mail, it will come in a Government-
franked envelope, the penalty envelope. You tear that envelope 
open, and you have in your hands what you have every right to 
believe is an authentic United States Government document.
    On the other hand, if you download that same document from 
the Internet, you have no way of knowing today that that is an 
authentic document, so one of the problems that we have to 
address and solve is, how can we guarantee that information 
downloaded from a Government Web site is an authentic U.S. 
Government document?
    At the other end of the scale, if we print a document on 
paper, we have every reason to believe that document will be 
here 500, 600, 700, 800 years from now. Unless paper documents 
are exposed to direct sunlight, they will last forever.
    On the other hand, if we record it only on magnetic media, 
it may be gone in 10 years. So as long as Congress charges us 
with the responsibility for making certain this material will 
last in perpetuity, we have got to find a solution to this, 
too, and I believe this will be both a technical solution as 
well as a business solution.
    So we have to end up structuring our organization to take 
advantage of the new technological opportunities to make 
certain that we are not just repeating the past, that we are 
not living in the 19th century. A lot of that has to do with 
reforming our business practices. I think that I can report to 
you that at this point our labor organizations, our unions are 
solidly behind the direction we are going. We are working 
together in partnership to move this forward.
    I can address and I will address our request from you this 
year. As Mr. Walker said, we recognize, too, that Congress is 
going to be limited in what you can appropriate to legislative 
branch agencies this year, and we are mindful of that. We have 
two major areas that we are requesting funds for. One is the 
Congressional Printing and Binding Appropriation. That is to do 
your work. We anticipate that your work this year will result 
in a 1.7 percent increase over last year. That is what we are 
asking for.
    The second area is the Salaries and Expenses Appropriation 
for the Superintendent of Documents, and that is for the 
distribution of Government information throughout the country. 
We are asking for a 3 percent increase there for continuing 
operations, and that is basically to cover mandatory pay and 
benefit increases, as well as slight price level increases.
    We are also asking you to make two investments in the 
Government Printing Office this year. One of those investments 
is a $4.1 million allocation to allow us to replace 10-year-old 
technology, computer technology used to distribute digital 
information over the Internet. We simply have waited almost too 
long to make this kind of investment. We are ready to make it. 
We have the people in place to wisely spend the money.
    The second area we are asking for is a special $10 million 
appropriation to help us readjust our labor force. As you 
undoubtedly know, we have been operating the last few years in 
the red, and as I have examined the reasons why we have been in 
the red, it is very clear that our labor costs are above what 
is required to process the volume of work we have today, the 
volume and mix of work we have today, and we believe that we 
are in a position to reduce the labor force by about 10 
percent, or 300 people.
    We would like to be able to offer an incentive to our labor 
force to induce some of the people that are eligible for 
retirement to retire perhaps earlier than when they expected 
to. We anticipate that a $10 million investment on your part 
will result in an $18 million cost savings next fiscal year to 
us, so those are the two areas that we are asking you to 
participate with us in. I think that particularly these capital 
investments, are modest. They are less than 2 percent of our 
overall budget, probably should be higher than that, but I am 
not going to come to you with any proposition that I cannot see 
a clear payback to, and at this point I can recommend these to 
you. You will get a payback.

                           PREPARED STATEMENT

    I will be happy to answer any questions you might have, Mr. 
Chairman.
    [The statement follows:]

                  Prepared Statement of Bruce R. James

    Mr. Chairman and Members of the Subcommittee, it is a great honor 
to be here today to present the appropriations request of the U.S. 
Government Printing Office (GPO) for fiscal year 2004. It is also a 
great privilege. There are few posts in the Government and few Federal 
agencies that have stood the test of time as well as that of the Public 
Printer and the GPO. I intend to do my best to uphold the tradition of 
the office while providing the leadership required to guide the GPO 
into a new era, to ensure that it remains as relevant and necessary to 
the information needs of Congress, Federal agencies, and the public in 
the 21st century as it was for the first 140 years of its existence. 
With just over three months on the job, I have begun to carry out that 
promise.
    GPO's Mission.--GPO has a proud history, one built on innovation, 
craftsmanship, scale, flexibility, and a singular dedication to meeting 
the printing needs of the Federal Government and the information needs 
of the American people. It is one of the Nation's oldest and most 
venerable agencies, within which the official version of every great 
American state paper since President Lincoln's time has been produced.
    Today we are responsible for the production and distribution of 
information products and services for all three branches of the Federal 
Government. Many of the Nation's most important information products, 
such as the Congressional Record and all other legislative information 
supporting the U.S. Senate and House of Representatives, are produced 
at GPO's main plant, a 1.5 million square foot complex that is the 
largest information processing, printing, and distribution facility in 
the world. Working in partnership with the American printing industry, 
GPO also maintains a pool of private sector vendors nationwide to 
produce print and other information products for the Federal 
Government, ranging from Supreme Court decisions to IRS tax forms and 
crop reports for the Department of Agriculture.
    GPO's middle name--a name we are going to change--gets in the way 
of our true mission, which is keeping America informed by distributing 
the official information products of the Government, thereby sustaining 
one of the keystones of our 200-year old experiment in freedom: an 
enlightened public. This is a mission that traces its origins to our 
Founding Fathers. During the Constitutional Convention, James Wilson of 
Pennsylvania said, ``The people have a right to know what their agents 
are doing or have done, and it should not be in the option of the 
legislature to conceal their proceedings,'' creating the grounds for 
the constitutional requirement in Article I, section 5, that ``Each 
House shall keep a Journal of its Proceedings, and from time to time 
publish the same . . .'' Later, it was James Madison who eloquently 
said:

    A popular Government without popular information, or the means of 
acquiring it, is but a Prologue to a Farce or a Tragedy; or perhaps 
both. Knowledge will forever govern ignorance: And a people who mean to 
be their own Governors, must arm themselves with the power that 
knowledge gives.

    Congress moved early to establish the ``means of acquiring'' 
information that Madison spoke of. GPO's mission today traces its roots 
to an act of the 13th Congress, which provided for the distribution of 
congressional and other Government documents on a regular basis to 
libraries and other institutions in each state for that Congress and 
``every future Congress.'' This farsighted act established the 
antecedent for the Federal Depository Library Program, a program funded 
through GPO's appropriations, which today serves millions of Americans 
through a network of some 1,200 public, academic, law, and other 
libraries located in virtually every congressional district across the 
Nation. Along with that program, GPO today also provides public access 
to the wealth of official Federal information through public sales, 
through various statutory and reimbursable distribution programs, and--
most prominently--by posting nearly a quarter of a million Federal 
titles online on GPO Access (www.gpo.gov/gpoaccess), GPO's award-
winning Web site that is used by the public to retrieve more than 31 
million documents free of charge every month.
    New Strategic Direction.--Just as GPO's middle name gets in the way 
of understanding our true mission, the nature of what we do, printing--
once the world's only mass communications medium--has been eclipsed by 
revolutionary changes in electronic information technologies, 
principally the Internet. Where once printing predominated as the means 
of communication between the Government and the public, new and ever-
evolving strategies of communications are not only possible but have 
become mainstream practices, changing how America is kept informed.
    While printing will not disappear in our lifetime, its role in our 
lives--and in the lives of GPO's customers--has been forever changed. 
We are now in a period where we need to sort out what continues to 
belong in print and what best belongs in information retrieval systems 
that allow the public to define their own information needs, then 
search against databases of information that we construct to retrieve 
only what they need, only when they need it. Therein lies the challenge 
for GPO. Like every other manufacturing business in America, GPO must 
reinvent itself if it is to remain relevant and viable for the future. 
We must take a new look at the changing and emerging information needs 
of our customers and develop a deeper understanding of our true 
strengths so that we can plan for and build a new business model that 
will allow us to meet the information demands of our customers in the 
21st century. Then we must convince Congress and our customers to 
support our plan. As Public Printer, I lead this effort.
    To develop a plan that works, our first step is to determine the 
facts regarding GPO's strengths and weaknesses and the problems and 
opportunities facing us. We are already engaged in that process through 
participation in a wide-ranging General Accounting Office study of 
Federal printing and information policy, ordered by the Senate. In a 
related effort, the GAO is also conducting a general management review 
of our operations. When these studies are concluded later this year we 
will have a factual basis on which to build a strategic plan.
    The plan will present a new vision of GPO, establish specific and 
measurable short- and long-term goals and objectives, and contain 
budget and timetable details. Our next task will be to gain support for 
the plan from Congress, the Administration, and our customers, from the 
library and information communities, from the printing industry and the 
labor unions, and from all those who have a stake in the future of the 
goals of Federal information policy first articulated by the Founders. 
Then we must carry out the plan, to transform GPO into an information 
service equipped and staffed to meet the information demands of the 
21st century: an agency whose mission will be to capture digitally, 
organize, maintain, authenticate, distribute, and provide permanent 
public access to, the information products and services of the Federal 
Government.
    Transformation Process Begun.--Since I took office in early 
December, we have begun several initiatives to redirect the GPO's focus 
and begin transforming our operations:
  --Reorganization.--We have implemented an organizational model that 
        is relatively new to the Federal Government but widely used in 
        industry, wherein the chief executive officer (Public Printer) 
        focuses on organizational policy and long-range planning and 
        the second in command (Deputy Public Printer) serves as chief 
        operating officer focusing on the day-to-day operations of the 
        business. Working in collaboration with GPO's senior managers, 
        we have rolled out a new top-level organizational structure 
        that will be more responsive to the needs of our customers and 
        employees and serve in a transition phase over the next two 
        years.
  --Focus on Employees.--Through a series of round-the-clock meetings 
        to cover all three shifts, I've met with most of our employees 
        and their union representatives in our central office, and to 
        date I've visited GPO operations in Laurel, Philadelphia, 
        Denver, and Pueblo. I've asked for their help in retooling GPO 
        from top to bottom into an organization that will make us all 
        proud. The response has been highly positive: our employees are 
        ready and eager for change, and I continue to be impressed by 
        the superior quality of the personnel who staff the GPO. We've 
        begun recruiting efforts at colleges and universities around 
        the country to begin reversing the decades-long drain on GPO's 
        talent. We've implemented the first new employee incentive 
        program at GPO in over a decade to reward creativity, 
        dedication, and initiative. We've expanded our workforce 
        development budget to $3 million--just 1.5 percent of our 
        overall budget, but 5 times the amount previously allocated--to 
        ensure that no one is left behind as we transform our 
        operations, and we've altered our workforce development policy 
        to emphasize training that is mission-related, not simply job-
        related. We're expanding the use of digital communications 
        internally, and we've created a new Employee Communications 
        Office to provide employees with the information they need to 
        do their jobs effectively.
  --New Image.--We've redesigned GPO's logo to create a new image that 
        moves us away from printing and into the 21st century area of 
        digital information processing and multi-media dissemination.
  --Emphasis on Customer Service.--A principal goal is to redirect 
        GPO's operations toward customer service--helping our customers 
        meet their goals, rather than bending their needs to fit what 
        we provide. I've been meeting with Members of Congress, key 
        congressional staff, Federal agency heads, the heads of Federal 
        operations with congruent missions--such as the Postmaster 
        General, Director of the Bureau of Engraving and Printing, and 
        Director of the Mint, the library and information communities, 
        the printing industry, and others--to win support for the GPO 
        and increase our future business opportunities. I am especially 
        interested in exploring ways of helping Congress reinvent its 
        information products to help expedite its work.
  --Resolution of Printing Controversy.--One of my earliest meetings 
        was with Office of Management and Budget (OMB) Director Mitch 
        Daniels, where we reached an agreement to set aside the 
        contention between our agencies regarding Federal printing 
        policy. Since then, OMB sent the U.S. Budget to GPO for 
        production and the proposed policy change in printing has not 
        been issued. I have asked Mr. Daniels to walk forward with me 
        as we establish the facts about printing and information policy 
        and devise a policy that fits the 21st century, and I look 
        forward to working with OMB on this important task.
  --Technology Innovation and Partnerships.--I've also been meeting 
        with the top management of our suppliers--from printing 
        companies to equipment manufacturers--to explore the 
        opportunities for the GPO to assume a leadership position in 
        technological innovation in the digital information era. As 
        part of our reorganization I've created a new Office of 
        Innovation and Partnerships to get us moving on technology 
        opportunities. It will also guide us in the creation of 
        partnerships with other public and private sector entities to 
        carry out our mission. Partnerships--the use of which is 
        widespread in industry--will be critical to the transformation 
        of the GPO.
  --Depository Libraries of the Future.--In meetings with members of 
        the library community at the American Library Association 
        Midwinter Conference in Philadelphia, and at the upcoming 
        Regional Conference of the Depository Library Advisory Council, 
        I have challenged all to help us in developing a new depository 
        library program model that recognizes that more than 50 percent 
        of the information coming into the program is now only in 
        electronic form, never reaching ink-on-paper. This is one of 
        the biggest challenges that confronts us today, and its 
        resolution will directly impact the appropriations that are 
        provided annually for this purpose.
  --Contingency Planning.--Part of our reorganization was the creation 
        of a Contingency Planning effort, reporting to the Chief of 
        Staff, to plan for emergency preparedness, protection of our 
        employees, and continuity-of-government operations in concert 
        with similar planning efforts in Congress, Federal agencies, 
        the District of Columbia, and elsewhere. We are working 
        directly with the House and Senate to ensure continuity of 
        operations in the event of an emergency, and we are finalizing 
        operational improvements funded through the fiscal year 2001 
        emergency supplemental.
    GPO's Appropriations.--The transformation of GPO will be a 
collaborative process, one that involves all of GPO's stakeholders, 
especially Congress. With the transformation we will provide Congress, 
Federal agencies, and the public an agency equipped and staffed to 
bring about change in Federal information products and services. In 
order to make the transition happen, however, GPO needs funding not 
only to continue product and service provision, but to begin making the 
investments we know are needed now to position us for the future. Our 
appropriations request for fiscal year 2004 is targeted at these two 
objectives: maintenance of product and service quality, and investment 
in necessary technology improvements and critical workforce 
restructuring initiatives. With the proper funding, we will be able to 
carry out the task of remaking the GPO.
    GPO has three separate appropriation accounts: the Congressional 
Printing and Binding Appropriation, and the Salaries and Expenses 
Appropriation of the Superintendent of Documents, and the Revolving 
Fund.
    The Congressional Printing and Binding Appropriation covers the 
estimated costs of producing the Congressional Record, bills, reports, 
hearings, documents, and related products required for the legislative 
process. This appropriation is critical to the maintenance and 
operation of GPO's in-plant capacity, which is structured to serve 
Congress's information product needs. It also covers database 
preparation work on congressional publications disseminated online via 
GPO Access.
    The Salaries and Expenses Appropriation of the Superintendent of 
Documents is used to pay for costs associated with documents 
distribution and information dissemination functions required by law. 
The majority of the appropriation is for the Federal Depository Library 
Program (FDLP), under which Government publications and information 
products are disseminated to 1,200 Federal depository libraries where 
they are available for the free use of the public. Related statutory 
functions covered by this appropriation are cataloging and indexing, 
by-law distribution, and the international exchange distribution of 
U.S. Government publications. Finally, this appropriation provides the 
majority of funding for the operation of GPO Access.
    The Revolving Fund is structured to provide working capital for 
GPO's operations, and to fund routine improvements to equipment and 
facilities. Non-recurring or extraordinary costs are met by 
appropriations to the Revolving Fund for specific purposes.
    Continuation of Services.--For the Congressional Printing and 
Binding Appropriation, we are requesting $91.1 million for fiscal year 
2004, an increase of 1.7 percent over the funding recently approved for 
fiscal year 2003. This amount will cover all estimated congressional 
printing requirements for fiscal year 2004, as detailed in our budget 
submission.
    GPO is fully prepared to assist the Secretary of the Senate, the 
Clerk of the House, the leaderships of both Chambers, and Members, 
committees, and staffs in efforts to improve the utility of 
congressional information products and services to the legislative 
process and reduce costs through the elimination of waste and 
duplication of effort. Rather than solely responding to requests from 
Congress, I view GPO's role as one of providing expert advice and 
assistance to Congress in the area of legislative information products 
and services, and we will be proactive in exercising this role. We are 
also prepared to participate in the Legislative Branch Chief 
Administrative Officers Council mandated by the conferees on the 
Legislative Branch Appropriations Act for Fiscal Year 2003 (H. Rpt. 
108-10).
    For the Salaries and Expenses Appropriation of the Superintendent 
of Documents, we are requesting an increase of 3 percent, or $871,000, 
over the amount approved for fiscal year 2003 to cover mandatory pay 
and benefits increases as well as price level changes.
    The transition to a more electronic Federal Depository Library 
Program (FDLP) is continuing in fulfillment of direction from Congress 
that ``emphasis should be on streamlining the distribution of 
traditional copies of publications which may include providing online 
access and less expensive electronic formats.'' Nearly 60 percent of 
the 34,800 new FDLP titles made available during fiscal year 2002 were 
disseminated electronically. For fiscal year 2003 to date, nearly 60 
percent of the new titles made available to the public through the FDLP 
have been online. Through its electronic information dissemination 
component, the FDLP now delivers more content to users than ever 
before. However, in order to preserve public access, the distribution 
of tangible formats--defined as print, CD-ROM, and microfiche formats--
continues for those titles for which there is no acceptable online 
alternative. For fiscal year 2002, we distributed approximately 5 
million copies of 14,000 titles in tangible formats; overall, tangible 
formats comprised about one-third of all titles made available through 
the FDLP.
    Investment in GPO's Future.--To begin essential investment in GPO's 
future, we are requesting additional funds above the levels required 
for continuation of services. These funds, amounting to slightly less 
than 2 percent of GPO's total annual budget, represent a new point of 
departure for GPO.
    An additional $4.1 million is requested for the Salaries and 
Expenses Appropriation to replace obsolete technology used by the GPO 
Access system by upgrading its search and retrieval system, now nearly 
a decade old. These funds will also cover depreciation costs for GPO's 
new Integrated Library System and for our GPO Access mirror site 
operations, which are essential both to load-balancing for this 
heavily-used system as well as continuity of government operations. 
These are information technology investments that will yield proven 
results as two-thirds of all new titles today are electronic and 
significant growth in this area will continue.
    Also essential to GPO's future is $10 million we are requesting to 
be appropriated to the Revolving Fund to cover the costs associated 
with necessary workforce restructuring under retirement incentive 
authority established by law. This is an investment in human capital 
that will enable GPO to manage the size, composition, and skills of our 
workforce as required by our rapidly changing technology. The 
efficiency of operations will depend largely on our ability to increase 
the productivity of the workforce by developing needed skills, 
replacing aging systems, reengineering work processes, and achieving 
the right staffing levels. GPO last conducted a retirement incentive 
program in fiscal year 1994, reducing employment levels by 
approximately 350 at a cost of about $9.5 million.
    Legislative Changes.--Along with our appropriations request, we are 
seeking two technical legislative changes to Title 44, U.S.C., to 
improve our ability to attract and retain leadership talent and give us 
the authority to accept contributions of equipment and services as well 
as transfer or donate surplus equipment to appropriate entities. Both 
changes would significantly assist my vision of transforming the GPO.
  --We have submitted language requesting a revision to 44 U.S.C. 303 
        to increase the statutory pay levels of the Public Printer and 
        Deputy Public Printer. The current levels have been in place 
        for more than a decade and are causing pay compression for 
        GPO's senior level service. The maximum salary available to 
        GPO's senior level service is capped at Executive Level IV, 
        $134,000. By contrast, 60 percent of the Senior Executive 
        Service in the executive branch is paid at the current cap, 
        $142,500 (the same as Executive Level III), according to a 
        recent new report from the National Academy of Public 
        Administration. Without the ability to compete on a level 
        playing field with executive pay for the rest of the Federal 
        Government, much less with executive pay in the private sector, 
        we will be unable to recruit and retain the talent we need to 
        bring change to the GPO.
      While we have submitted language adjusting the pay Executive 
        Levels II and III, a more appropriate model exists in the pay 
        system for the Director and Deputy Director of the 
        Congressional Budget Office (CBO), adopted by Congress in the 
        Legislative Branch Appropriations Act for Fiscal Year 1999: the 
        Director is paid at ``the lower of the highest rate of 
        compensation of any officer in the Senate or any officer in the 
        House of Representatives.'' The Deputy is paid $1,000 less than 
        the Director. This model would satisfy our objective of 
        alleviating pay compression without raising the Public 
        Printer's pay to the level of the pay Members of Congress 
        receive.
  --We are also requesting authority to accept contributions of 
        property and services on behalf of the GPO. Currently, GPO is 
        not authorized by law to accept uncompensated contributions of 
        property and services. This authority will allow us to accept 
        the placement of prototype equipment for beta-testing and 
        systems trials without requiring a significant Government 
        investment, providing us with the flexibility we need to 
        evaluate new and emerging technologies onsite in this period of 
        rapid technological change. It will also permit us to operate 
        intern programs associated with academic printing, technology, 
        and management programs, and to work with the private and non-
        profit sector on the development of programs designed to 
        increase the public visibility of GPO's operations, such as the 
        creation of a printing museum similar to the U.S. Postal 
        Service Museum located nearby.
      The authority we are requesting is similar to donation acceptance 
        authorities possessed by many Federal agencies, such as the 
        Library of Congress, the U.S. Court of Veterans Appeals, the 
        Department of Housing and Urban Development, the Consumer 
        Product Safety Commission, the Department of Commerce, the 
        Administrative Office of United States Courts, and the 
        Department of Labor. However, the language we have submitted is 
        primarily for placeholder purposes with the recognition that it 
        may be subject to further revision. Of course, acceptance of 
        contributions of property and services would be subject to the 
        usual limitations covering donations to the Government.
  --Finally, we are requesting the authority to transfer or donate 
        surplus property. GPO's equipment profile will undergo 
        significant change in the coming period, and the appropriate 
        disposition of surplus property would be facilitated with the 
        authority to transfer or donate surplus property similar to 
        that possessed by the Administrator of the General Services 
        Administration. Currently, when any GPO property is declared 
        surplus it must be sold to the highest competitive bidder. In 
        addition to imposing an administrative burden in the conduct of 
        the sale, this process often results in a price that is 
        extremely low when compared to the actual value of the item 
        when in use. We are proposing language that would provide us 
        with discretionary authority to transfer or donate surplus GPO 
        property to specific governmental and non-profit entities such 
        as other Federal entities, educational or non-profit 
        institutions as defined by the Internal Revenue Code, or state 
        or local governments. In addition, it would allow us to donate 
        surplus publications rather than destroying them and selling 
        them as scrap paper.
    Representation Allowance.--We are requesting an increase for GPO's 
representation fund. The fund will be important in our effort to 
promote the concept of changing the GPO. We need to re-connect with our 
many vendors and customers as we attempt to regain our momentum and re-
establish ourselves as the premier agent for the collection, 
dissemination, and preservation of the Government's information. Its 
use also will afford the GPO many first hand opportunities to hear the 
concerns and needs of the people and institutions we serve, especially 
those that will be essential to our future success. The fund will be 
subject to established limitations on its use. We will continue to make 
it available for official councils and groups advising the Public 
Printer, such as the Depository Library Advisory Council.
    Mr. Chairman and Members of the Subcommittee, I truly believe GPO's 
appropriations request for fiscal year 2004 represents a new departure 
for this agency in preparing for the future. I thank you for your 
support and encouragement of change at the GPO, and I look forward to 
working with you and the Appropriations Committees in your review and 
consideration of our request. This concludes my prepared statement, and 
I would be pleased to answer any questions you may have.

    Senator Campbell. I have a couple, but before I do, I would 
like to invite Senator Durbin if he has any comments before we 
go on.
    Senator Durbin. I will just put my opening statement in the 
record.
    Senator Campbell. Your statement will be in the record 
then.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's hearing, the 
first of five budget oversight hearings to be held by the 
Legislative Branch Subcommittee this Spring.
    Mr. Chairman, I am happy to be working with you on this 
important bill this year. I had a great working relationship 
with your predecessor, Senator Bennett, and I am sure you and I 
will work very well together, too.
    This is an important Subcommittee. There are 12 other 
Appropriations Subcommittees that fund all of the Executive 
Branch Agencies and Departments. The Legislative Branch has 
this one Subcommittee in which we need to fund all of the tools 
and resources required of a co-equal branch of government.
    As you know, I was Chairman of this Subcommittee for most 
of the 107th Congress and believe that Senator Bennett, the 
other Subcommittee Members, and I accomplished many great 
things during the last few years.
    In fact, one of my accomplishments as a Senator that I take 
the most pride in is the student loan reimbursement program for 
Congressional staff that was initiated by this Subcommittee.
    We ask for tremendous sacrifices on the part of our staffs 
up here. The hours are long and highly unpredictable. The work 
is very demanding. And, frankly, the pay is not that great.
    Despite all of that, Hill staff are the most loyal, 
dedicated, and talented group of people I have ever met. 
Anything we can do, however small, to encourage young people to 
make public service a career is worth pursuing.
    More and more Member Offices and Committees are taking 
advantage of the student loan reimbursement program each year 
and that pleases me to no end.
    Today we are going to hear from three important Legislative 
Branch agencies, the General Accounting Office, the Government 
Printing Office, and the Congressional Budget Office. I join 
Chairman Campbell in welcoming David Walker, the Comptroller 
General of the United States, Bruce James, the U.S. Public 
Printer, and Douglas Holtz-Eakin, the Director of the 
Congressional Budget Office to today's hearing.
    Gentlemen, all of you seem to be requesting, with one or 
two exceptions, relatively modest cost-of-living increases for 
your organizations this year. Obviously, this is prudent, up to 
a point, during a time of both recession and war.
    However, it is important to the Members of this 
Subcommittee that you have the resources you need to do your 
jobs effectively and efficiently.
    To the extent that any of your budgets request have holes 
in them that are going to negatively impact your performance 
during fiscal year 2004, I hope you will share those concerns 
with us.
    Two points before I wrap up:
    First, Mr. Walker, I hope you will spend several minutes 
today discussing whatever plans or thoughts you have concerning 
access to executive branch information in light of the recent 
events surrounding the Cheney suit. We need to know what you 
need from Congress in order for you to be able to continue to 
be effective in your role as the investigative arm of Congress.
    Let me also say that I appreciate the way you have chosen 
to work with Congress on such a sensitive issue. This was a 
very delicate matter and I thought you navigated it pretty well 
under difficult circumstances.
    Second, Mr. James, I want to express my appreciation to you 
for your dogged determination to work with the OMB to try to 
get a truce declared in their on-going war against public 
printing. It seems that you are being given some time to make 
your case to the Budget Director, so, for the moment, I am 
willing to stand down on this issue. You showed up ready to 
work on Day 1 as the Public Printer and I respect that.
    I am looking forward to hearing your testimony about your 
plans to modernize the Government Printing Office.
    Mr. Chairman, I will conclude here and request that my 
entire statement, as well as a series of questions, be made a 
part of the record.
    Once again, congratulations on becoming Chair of this 
important Subcommittee.
    Thank you.

                             REVOLVING FUND

    Senator Campbell. Since we have one more witness before we 
run to vote, let me just do a couple of short ones. You talked 
about the losses you had and, as I understand it, those losses 
have totaled, since 1988 through 2002--$44.6 million. How do 
you operate with that many shortfalls over that number of 
years, and I know you just came on board. You might not know 
the total answer to that, but give me an idea.
    Mr. James. I can certainly explain to you where the money 
is coming from.
    Senator Campbell. I can, too, from here.
    Mr. James. I absolutely shake my head when I look back and 
see the losses and the fact that they have continued year after 
year after year. The enterprise has not been run as a business, 
as you might expect, when you see these losses.
    Senator Campbell. Is that what you would consider a major 
weakness, that it has not been run like a business?
    Mr. James. Absolutely. Absolutely. The losses have been 
funded by our revolving fund. The revolving fund consists of 
retained earnings. Those are earnings that have been built up 
over 50 years. The purpose of those retained earnings is to 
replace obsolete equipment, and what we have been doing instead 
is funding these losses year after year and, in essence, eating 
into our future.

                             GPO WORKFORCE

    Senator Campbell. I understand about half of your workforce 
is eligible for retirement. You talked a little bit about that, 
but if you have that many that are eligible for retirement, 
that means if you downsize on the number of people, you will 
just not hire replacements. It will be kind of a painless way 
of downsizing for the people that are working there, I assume. 
Is that right?
    Mr. James. Exactly. We are looking for a painless way to 
downsize. Now, clearly we will be adding people back into the 
organization, and I want to emphasize that, because for a 
period of 20 years the GPO dropped from 9,000 to 3,000 folks, 
and during that period they added almost no one into the 
organization, so today I have almost no one from 30 to 50 who 
is a manager in the organization, and that is seriously hurting 
succession, so while we are reducing the force in total, we 
will be selectively adding back in the skills that are required 
for the future.

                               TECHNOLOGY

    Senator Campbell. You also mentioned something about the 
19th century practices. I am not a real high-tech guy, but I 
will tell you that it seems to me every 2 years or 3 years the 
things you were using 2 or 3 years ago are already obsolete, so 
I can understand in your Department you are going to have to 
have a major effort to stay ahead of the curve on new 
technology.
    I will submit the rest of my questions to you in writing if 
it is all right with you, Mr. James.
    I would like to invite my colleague and friend, if there 
are any questions he has.
    Senator Durbin. Thank you, Mr. Chairman. It is good to be 
with you in your new capacity, and I look forward to working 
with you, and you have a great assistant there who has helped 
all of us over the years. Let me ask you, Mr. James, it sounds 
like when you get to the GPO, coming out of the private sector, 
it is not a business that you would have wanted to buy.
    Mr. James. I would have not bought it except for the 
opportunity. There is a tremendous opportunity here. It is what 
got me to leave the hills of northern Nevada and a wonderful 
living condition, the opportunity to come in here and look at 
this enterprise and figure out how to take it into the 21st 
century. What the Government Printing Office has accomplished 
on behalf of the country in the last 150 years is truly 
amazing.
    If you think about this, we have the record of the 
Government spread throughout the United States. There is no one 
action that could ever wipe out the record of the Government. 
We have people in every State in this Nation in the principal 
population areas able to walk into a library and access any 
document the Government has produced. It is a tremendous 
legacy, and my fear is that if we are not very careful, that we 
will leave this behind as we move into the digital world, and 
we may well lose the record of the Government. It is worth 
coming in and trying to figure this out.

                             PRIVATIZATION

    Senator Durbin. So the people who say, privatize it, get 
rid of it, it was inefficient and we can do this by contracting 
out, would you disagree with that conclusion?
    Mr. James. Well, I think they may be not well-informed, and 
I say this to you, Senator, actually during the Second World 
War the Government Printing Office became overwhelmed with the 
amount of work they had, and for the first time began to 
contract printing out to the private sector. They were amazed 
at how well that went, and it has continued ever since. Today, 
we contract out about 80 percent of the Government's printing 
requirements to the private sector. Last year, we had more than 
2,500 printing companies throughout the country in every State 
as contractors to the Government Printing Office.
    Senator Durbin. When you decided to bid on the 2004 Federal 
budget and turned in a bid, according to the news reports, 24 
percent lower than last year, was that to make a point, take a 
bath, or did you find that much efficiency?
    Mr. James. Let me say this, this transpired before I took 
office. The bidding process was completed when I came in, and I 
did have an opportunity to talk to Mr. Daniels about this 
before he made a final decision.
    In reviewing the bid that the Government Printing Office 
made, I thought it was a very intelligent bid. You know, there 
are two prices for a piece of printing. The first price is that 
when you give a printer a set of specifications you say, I want 
to print a 100-page book, it will be black and white, it will 
have this number of copies, this is what the manuscript will 
look like, and this is the date I need it.
    The final price is based on how many pages there actually 
were, how many changes you made to that manuscript, what kind 
of overtime you required for it. So what the Government 
Printing Office did was give the OMB a price for the 
specifications that they gave us. It happened to be about 
$100,000 below the year before. When the final bill is 
rendered, my guess is it will be similar to what it was last 
year.
    Senator Durbin. Thanks a lot. Thanks, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Thank you, and as I mentioned before, Mr. 
James, we will probably submit some questions in writing too, 
if you could answer them, we would appreciate it.
    Mr. James. Thank you, Mr. Chairman.
    Senator Campbell. Give my regards to all our friends in 
Reno, too.
    Mr. James. I will definitely do that.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell

                           CHALLENGES AT GPO

    Question. GPO faces many challenges--half of its workforce is 
eligible for retirement, more agencies are using electronic means of 
producing information rather than printed materials, the Administration 
last year challenged the legal requirement that all government printing 
be done through GPO.
    How do you plan to address these issues and what is your vision for 
GPO's future?
    Answer. We have begun to transform the Government Printing Office 
into an information service facility for the 21st century. With your 
support, we will restore GPO's leadership in the graphic arts industry 
and make GPO a reliable and responsive provider of Government 
information. Through an inclusive process, we are redefining GPO's 
mission and strategy to meet the challenges of today and the future. We 
are working with our customers and stakeholders to identify their needs 
and concerns. The demands of Congress, the agencies, and the public 
will guide us in identifying the optimal technologies to employ to meet 
those requirements. The GAO is presently conducting a congressionally-
mandated study of Federal Government information dissemination. The GAO 
is also conducting a management audit of GPO, which I requested. These 
studies will help us to focus on needed changes. The transformation of 
GPO will require investment in people and systems. The results will be 
improved effectiveness and efficiency and increased value to the 
customers we serve.
    Regarding OMB's challenge to the legal requirement to use GPO, I 
have asked OMB to cooperate with us in leading the GPO into the 21st 
century by addressing the issues most important to the future. For OMB 
to allow agencies to by-pass GPO would be a policy change geared to 
addressing the 19th century, not the 21st century. It is to the 
public's benefit to keep the GPO intact to lead in the transformation 
of the government's printing and information policy.
    While printing technology and practices are changing, librarians, 
historians, researchers, Members of Congress, and citizens will 
continue to need an easy to use, organized, predictable gateway to 
authenticated Government information and the knowledge that the 
information will be available to the public in perpetuity. OMB and GPO 
should cooperate in redesigning GPO to ensure the best interests of 
taxpayers are met.
    Question. How would you assess GPO's strengths and weaknesses? What 
gaps does GPO face in the number, skills, and competencies of its 
employees?
    Answer. GPO has great strength in the quality of employees and 
their dedication to GPO's mission. However, we need to ensure that GPO 
employees are trained in the right skills and motivated by an 
organization that promotes change, encourages initiative, and 
recognizes accomplishments. I have increased employee training 
significantly and we are now rewarding performance and initiative. Our 
workforce needs to develop more of the skills required to use the best 
available technologies to meet customer needs. This requires that the 
workforce become more highly trained with emphasis on digital formats, 
databases, and electronic communications. We have also begun to examine 
the constraints and excess costs associated with the building in which 
we operate. It is not suitable to efficient manufacturing operations.
    Question. How do you see the mission of GPO evolving in response to 
changing technology?
    Answer. GPO ensures the public's access to Government information. 
Since 1813 the Government has been gathering its information and 
documents, organizing and cataloging them, and making them available to 
the general public. GPO has carried out this mission with printing, 
then microfiche, later CD-ROMs, and now with online distribution of 
digital titles. Our mission is unique; no other agency of the Federal 
Government is charged with this responsibility or would begin to 
understand how to collect documents from all three branches, how to 
organize and catalog the documents so they are usable, how to 
distribute them to the 1,200 depository libraries, how to sell them to 
the public, and how to preserve permanent public access to Federal 
information and documents. We see a continued decline in the volume of 
paper documents and an increase in the use of electronic databases to 
access Government information. Increasingly, our role will be to 
capture digitally, store, authenticate, convert, and channel Government 
information to the public in all relevant media.
    Question. How will your interim reorganization help GPO move in the 
right direction? What are the objectives of the reorganization and how 
it will impact the services provided to Congress?
    Answer. The reorganization is designed to provide a greater 
customer focus, delegate decision-making, provide an enterprise view of 
technology, and make GPO more adaptable to change. Our principal goal 
is to redirect GPO's operations toward customer service--helping our 
customers meet their goals, rather than bending their needs to fit what 
we provide. We are especially interested in pursuing our vision of 
helping Congress to reinvent its information products to help expedite 
its work.
    Question. What actions will you take to make GPO operate in a more 
business-like manner?
    Answer. At this Committee's request, GAO is presently conducting a 
study of Federal Government printing and information policy. The GAO is 
also conducting a management audit of GPO, which we requested. These 
studies will help us to focus on needed changes. Over the next several 
years, the transformation of GPO will require investments in people and 
systems. The results will be improved effectiveness and efficiency and 
increased value to the customers we serve. We are implementing a buy-
out program to increase efficiency.
    Question. What actions does Congress need to take to help GPO 
operate in a more business-like manner?
    Answer. We urge that Congress support our request for $10 million 
for a separation incentive program that will result in a reduction of 
300 positions. More than half our workforce is eligible to retire. This 
investment is necessary to reduce costs and will result in a savings of 
about $18 million per year. An additional $4.1 million is requested for 
the Salaries and Expenses Appropriation to replace obsolete technology 
used by the GPO Access system by upgrading its search and retrieval 
system, now nearly a decade old. A new search engine must be acquired 
and the databases brought forward to take advantage of the new 
technologies and ensure that data will not be lost through 
technological obsolescence.

                        GPO OPERATING AT A LOSS

    Question. GPO is losing money in each of its business lines--a 
total of $44.6 million since 1988 through 2002, and $3.8 million for 
the first quarter of fiscal year 2003.
    How do you operate with these shortfalls?
    Answer. The shortfalls were funded from retained earnings, which 
otherwise would have been available to replace and modernize equipment 
and systems.
    Question. What are the principal reasons for your losses?
    Answer. The principle reason for the losses in the past was GPO's 
inability to adapt its operations and cost structure fast enough to 
respond to the rapid pace of changes in technology and how customers 
produce and access Government information. Moreover, GPO's building is 
not suited to the purposes employed, causing excess cost to be 
incurred.
    Question. When will you run out of money in the revolving fund?
    Answer. If we did nothing, GPO would run out of available cash in 
about 12-15 months. GPO is adopting new business models, proposing a 
separation incentive program, and taking other actions to bring revenue 
and expense into balance.
    Question. What assurance can you provide that appropriated funds 
are not supplementing the cost of providing printing services to 
executive agencies?
    Answer. An independent CPA firm audits GPO financial statements 
annually. GPO receives unqualified opinions--the highest assurance an 
auditor can give. GPO has an accounting system, that properly controls 
cost reporting in the revolving fund and maintains separate accounting 
over each of its appropriations.

                           CONTRACTING COSTS

    Question. GPO contracts out more than 80 percent of its work to 
private contractors.
    What is the basis for GPO's 7 percent surcharge for the 
administrative expenses it occurs for contracting on behalf of 
agencies?
    Answer. The surcharge covers all GPO expenses to administer our 
Printing Procurement Program. No funds are appropriated by Congress 
directly to GPO to support this program. GPO printing contracts are 
developed and carried out by knowledgeable printing experts via a 
package of procurement support services. This program saves agencies 
much more than the surcharge.
    The surcharge covers the cost of a wide variety of services: GPO 
reviews requisitions and offers suggestions for economizing; develops 
specifications; competes, awards, and administers contracts; performs 
press inspections and other on-site reviews to assure quality; performs 
quality control reviews utilizing a unique program that quantifies 
quality ranking factors that has become widely recognized throughout 
the industry; provides voucher examination and payment services; 
provides legal advice on contracting; and makes available a dispute 
resolution service through GPO's Board of Contract Appeals. These same 
services would have to be provided by each executive agency if they 
procured printing themselves, leading to huge additional costs for 
duplication of effort.
    Question. I understand this surcharge does not cover your costs in 
the procurement program. Why?
    Answer. In fiscal year 2002, our Printing Procurement Program lost 
$3.8 million on revenue of $470 million, a loss of about eight-tenths 
of one percent. This loss is because GPO has not reduced operating 
costs commensurate with the decline in printing procurement volume of 
over 30 percent in the past three years. Our plans are to reduce costs 
to turn these results around. We are developing a new business model 
that involves replacing legacy systems and implementing electronic 
commerce. Our planned separation incentive program will also help to 
reduce costs.
    Question. Is GPO exploring increased use of streamlined procurement 
vehicles to reduce GPO's transaction costs for smaller print 
procurements?
    Answer. We purchase excess press capacity throughout the Nation by 
allowing any of 13,000 GPO certified printers to compete for any job 
they are equipped to handle. The result is very inexpensive printing, 
perhaps less than half the cost that would be paid by a private sector 
purchaser or Government agency acting in its own behalf. The difficulty 
in purchasing extremely low cost printing as the GPO has traditionally 
done is that the originating Government customer can't pick the vendor 
nor the location where it's printed and therefore frequently feels 
isolated from and unable to control the process to ensure their desired 
results.
    Partially as a consequence of this dissatisfaction, GPO four years 
ago launched a test program we call Simplified Purchase Agreement 
(SPA). This program allows agencies to directly bid and purchase 
printing up to $2,500 from their choice of local printers without the 
requirement to accept the low bid. GPO provides only a limited palette 
of services such as pre-approving printers, bill payment, and 
depository requirements. Last year, the 43 Federal agencies that have 
adopted this program purchased 12,000 printing jobs directly on their 
own using this system. Early indications are that both agency 
satisfaction and the cost of printing are measurably higher.

                           IN-PLANT CAPACITY

    Question. GPO has a very large in-plant print operation--at least 
half of which is used to serve congressional print needs.
    What percent of the plant's capacity is utilized? What plans do you 
have for downsizing GPO's in-plant print capacity to the level 
required? Are GPO's current facilities and equipment sufficient for the 
21st century?
    Answer. Measured on the basis of 24 hours per day, 7 days per week, 
potential availability, capacity utilization of equipment is about 10 
percent. GPO is not staffed to run the equipment on a 24/7 basis but 
this is the predominate metric in the private sector. Our plans are to 
gear capacity to meet peak workload demands of the Congress. This will 
require the elimination of some equipment and this process has already 
begun. New technologies are being explored. It will be necessary to 
substantially retool the agency for the 21st century.

                 OFFICE OF INNOVATION AND PARTNERSHIPS

    Question. Please explain your new Office of Innovation and 
Partnerships, including its goals and approach and how you plan to 
obtain and use external scientific and technological expertise.
    Answer. As part of our reorganization, a recently renamed new 
Office of Innovation and New Technology has been established to 
identify, evaluate, and plan for the adoption of technology 
opportunities. It will also guide us in the creation of associations 
with other public and private sector entities to carry out our mission. 
Such associations, the use of which is widespread in industry, will be 
critical to the transformation of the GPO. We have been meeting with 
the top management of our suppliers--from printing companies to 
equipment manufacturers--to explore the future possibilities for 
technological innovation in the digital information business.

                   FEDERAL DEPOSITORY LIBRARY PROGRAM

    Question. What are the implications for the Federal Depository 
Library Program of the trend towards electronic documents? Why are 
libraries pulling out of this program? What do you see as the future 
for this program?
    Answer. GPO is spending a great deal of time talking to the 
libraries that participate in the program about its future and seeking 
their advice on the essential services that we need to offer to support 
the depository libraries as the FDLP becomes an increasingly electronic 
program. GPO is the only Federal agency charged with cataloging and 
ensuring both timely and permanent public access to the full spectrum 
of Federal information from all three branches of the Government. This 
mission will be increasingly important in an environment where 
Government information is posted to many web sites in many formats, 
making it difficult for the public to locate it initially and over 
time.
    Authentication of electronic Government publications is a key issue 
for all of our depository libraries. GPO is working on Public Key 
Infrastructure (PKI) security services initiative to address this 
concern by enabling Congress, the Judiciary, and Federal agencies to 
identify and mark official documents. This would enable users inside of 
Government and elsewhere, including depository libraries, to confirm 
the validity of the publications GPO makes available on the Internet 
for permanent public access. PKI technology will also enable secure 
electronic transactions among agencies as well as with consumers of 
Government services and make it easier to safeguard official Federal 
Government information.
    Fugitive documents are an increasing problem as fewer documents are 
printed through GPO and we must reach out to locate digital copies on 
agency web sites and through other sources. In the past, most of the 
documents were identified and obtained through the printing process. 
That is no longer true and, as a result, we need new tools and 
additional staff with different skills to locate and acquire 
publications for the program.
    Maintaining GPO Access as a state-of-the-art service on which 
Congress and other parts of the Government, depository libraries, and 
the public can rely for current and permanent public access is 
essential. When GPO Access began in 1994, GPO identified the necessity 
to refresh periodically the software and hardware that support the 
service and to migrate the data forward to take advantage of future 
generations of technology. The initial platform selected for GPO Access 
has been enhanced and expanded through the years to support the 
service, but it is now at least two generations behind state-of-the-art 
systems. A new search engine must be acquired and the databases brought 
forward to take advantage of the new technologies and ensure that data 
will not be lost through technological obsolescence. GPO is 
establishing and will need to maintain backup and mirror sites to 
ensure public access and to avoid interruptions in service in the event 
of a catastrophe. GPO must also create appropriate metadata to 
facilitate identification and preservation of government information. 
We have requested $4.1 million for that purpose in fiscal year 2004.
    We have 53 regional depository libraries, which receive and 
permanently retain all publications distributed by the FDLP. At their 
own expense, they provide public access and preserve the record of the 
nation as well as ensure permanent public access to the paper and other 
tangible publications distributed by GPO. That critical group of 
libraries has remained stable for many years, but they are increasingly 
feeling economic pressures that cause them to re-evaluate the enormous 
expense of maintaining large paper and microfiche collections of 
Government documents. We have begun a dialog with the regional 
libraries about the value of shared regional collections to reduce the 
burden on individual libraries, a central collection at GPO to assist 
them and serve as a library of last resort, and retrospective 
cataloging and digitization projects that would increase the 
utilization of the pre-1976 collections and allow selective reduction 
in the paper and microfiche collections.
    We also have about 1,200 other depositories, which take only a 
portion of the tangible items based on the needs of the constituents 
they serve. That group, which we call ``selectives,'' always has some 
fluctuation as the resources of the libraries and needs of their 
communities shift. 48 libraries withdrew from the FDLP between 
September 2000 and February 2003. 30 (62.5 percent) of these libraries 
were small academic and public libraries in economically disadvantaged 
areas. In response to this data, we are developing a pilot project that 
will help comparable libraries that remain in the FDLP to focus their 
collection and services on Government publications that are 
specifically applicable to community economic development. We will 
combine that recommended collection with specialized training on the 
utilization of the resources and seek training and other assistance 
from agencies with responsibility for small and minority business 
development. We may also provide workstations to these libraries since 
they may not be able to afford the initial investment in appropriate 
equipment. We hope this program will provide a strong economic benefit 
and real incentive for such libraries to remain in the program and 
utilize information available from the Federal Government to assist 
their communities.
    We have just returned from Reno, Nevada, where we participated in a 
meeting of the Depository Library Council and over 250 other members of 
the depository library community. That meeting focused heavily on the 
future of the program and the range of products and services that GPO 
needs to offer in the 21st century. On the way to Reno we stopped in 
Tucson to visit the University of Arizona, which has a major initiative 
underway to become the first all electronic depository library. The 
rapid transition to electronic publications, which now make up over 60 
percent of all items available through the FDLP, has challenged the 
depository libraries. The response has varied from library to library. 
Given the range of types and sizes of libraries in the program, it is 
not surprising that some have adapted rapidly and well while others are 
still struggling to adjust to the increased demands for training and 
user support necessitated by searching databases and handling 
electronic files in a wide variety of formats. We are providing as much 
support and training as we can, and we are planning a pilot project to 
place GPO staff in the field to work more directly with libraries to 
meet their training needs and advise them about best practices for 
managing a depository library.

                     ADDITIONAL SUBMITTED STATEMENT

    [Clerk's Note.--The subcommittee has received a statement 
from the American Association of Law Libraries, American 
Library Association, and Association of Research Libraries 
which will be placed in the record at this point.]

   Prepared Statement of the American Association of Law Libraries, 
  American Library Association, and Association of Research Libraries

    On behalf of the American Association of Law Libraries (AALL), the 
Association of Research Libraries (ARL) and the American Library 
Association (ALA), we write in support of the fiscal year 2004 budget 
request of the Government Printing Office (GPO). Collectively, these 
three associations represent thousands of individuals and institutions 
serving communities throughout the Nation, including the nearly 1,300 
federal depository libraries located in nearly every congressional 
district.
    AALL is a nonprofit educational organization with over 5,000 
members dedicated to promoting and enhancing the value of law 
libraries, fostering law librarianship and providing leadership and 
advocacy in the field of legal information and information policy. ARL 
is an Association of 123 research libraries in North America. ARL 
programs and services promote equitable access to and effective use of 
recorded knowledge in support of teaching, research. ALA is a nonprofit 
educational organization of 64,000 librarians, library trustees, and 
other friends of libraries dedicated to improving library services and 
promoting the public interest in a free and open information society.
Fiscal Year 2004 Budget Request Essential
    We are pleased to submit a statement for the record on the fiscal 
year 2004 appropriations for the Government Printing Office and the 
Superintendent of Documents Salaries and Expenses. We urge your support 
for the Public Printer's fiscal year 2004 budget request of 
$135,567,000 for the GPO that includes $34,456,000 for the Salaries and 
Expenses (S&E) Appropriation of the Superintendent of Documents and 
$91,111,000 for the Congressional Printing and Binding (CP&B) 
Appropriation. The S&E request includes $28.5 million to fund the 
Federal Depository Library Program (FDLP), $4.9 million for the 
Cataloging and Indexing Program, $.8 million for the International 
Exchange Program and $.2 million for the By-Law Distribution Program. 
This amount includes necessary increases to support the continued 
operation of the FDLP, its continuing electronic transition plans and 
the increased demands upon GPO Access.
    We urge you to approve the full S&E appropriations request for 
fiscal year 2004. The majority of the S&E appropriation is for the 
Federal Depository Library Program (FDLP), by which congressional and 
other important Government publications and information products are 
disseminated to the nearly 1,300 participating academic, public, 
Federal, law and other libraries nationwide. We find the request of 
$4.1 million to replace obsolete technology and upgrade the retrieval 
system for GPO Access to be of crucial importance, since each day 
thousands of Americans rely on the GPO Access system to locate the 
important electronic government information they need.
    The FDLP and GPO Access are vital to the dissemination and access 
of Federal government information to our citizens. We believe that the 
fiscal year 2004 S&E budget request is essential to the continued 
transition to a more electronic program and the continued success of 
GPO Access. Since GPO is responsible for permanent public access to the 
content of its Electronic Collection, funding to strengthen digital 
archiving and migration capabilities is a critically important 
component.

Growth of GPO Access and the Electronic Collection Impressive
    The FDLP is a unique program and one of the most effective, 
efficient and successful partnerships between Congress and the American 
public. The FDLP provides your constituents with equitable, ready, 
efficient and no-fee access to Federal government information in an 
increasingly electronic environment. Today Congress, government 
agencies and the courts increasingly are relying on state-of-the-art 
technologies to create and disseminate government information through 
the Internet.
    One of the critical keys to GPO's successful transition to a more 
electronic program has been the growth of the GPO Access system, a 
central access point within the GPO for electronic government 
information that today makes available to the public approximately 
225,000 titles. Created by Public Law 103-40, GPO Access has grown into 
a unique digital collection of official government databases from all 
three branches of government including the Congressional Record, the 
Federal Register and the Code of Federal Regulations. Currently an 
average of 31 million documents are downloaded by the public each 
month, a substantial increase from last year that attests to the 
importance and value of this award-winning system to the American 
public.
    GPO has continued to make excellent progress over the past year in 
enhancing its Electronic Collection. GPO constantly adds new data and 
products to the system, building a current collection of valuable new 
electronic resources. At the same time, GPO provides permanent access 
to core legislative and regulatory information and to agency 
information managed by GPO on GPO servers. Each year, this historic 
electronic collection grows, requiring GPO to meet its responsibility 
for ensuring permanent public access. This function presents probably 
the most difficult challenge of the networked electronic environment. 
Just as the government has an affirmative obligation to provide current 
access to its information, in the digital arena this obligation extends 
to ensuring the preservation of and permanent public access to 
electronic government publications.

FDLP Libraries' Significant Services and Investments
    Each participating federal depository library makes significant 
investments to ensure that the public has effective access to 
government information. For example, FDLP libraries invest in 
technologies to assist in accessing electronic government information. 
These investments exemplify the substantial costs that participating 
depository libraries incur in order to provide your constituents with 
equitable, ready, efficient and no-fee access to government information 
in both print and electronic formats. These costs include providing 
highly trained staff, adequate space, necessary additional materials, 
expensive equipment and Internet connections. The success of GPO Access 
cannot be measured without acknowledging the substantial costs covered 
by libraries.
    Federal depository libraries serve as important channels of public 
access to government publications and contribute significantly to the 
success of this Program. The government's responsibility to make 
government publications in both tangible and electronic formats 
available to depository libraries is successful because of the 
necessary partnerships developed between the Federal government, the 
GPO, and the Federal depository libraries. In order for GPO to continue 
to increase the amount of government information available for current 
and future public access through the Internet and in order for the 
Federal Government to fulfill its responsibilities for this 
partnership, it is critically important that Congress provide adequate 
funds to support the transition to a more electronic program.

Importance of Full Funding for the CP&B
    We also urge your support for the Public Printer's request of 
$91,111,000 for the Congressional Printing and Binding (CP&B) 
appropriation. Broad public access to legislative information, 
including the Congressional Record, the text of bills, as well as 
committee hearings, reports, documents and other legislative materials, 
is crucial to the ability of our citizenry to engage in the political 
process. Indeed, recent polls have demonstrated the public's increasing 
awareness of and thirst for information from their government, 
including Congress. Full support for the CP&B request will ensure the 
necessary electronic infrastructure to make congressional materials 
available in a timely manner for permanent accessibility through GPO 
Access and will maintain GPO's inplant printing operation for Congress.
    Chairman Campbell, we are very grateful to you and to members of 
the Subcommittee for your past support of GPO Access, the Federal 
Depository Library Program and GPO's Congressional Printing and Binding 
services. The investment in systems and services to provide the public 
with government publications in all formats will ensure that valuable 
electronic government information created today will be available and 
preserved for future generations. We respectfully urge your continued 
support by approving the Government Printing Office's fiscal year 2004 
appropriations request in its entirety. We ask that you please include 
this statement as part of the recent hearing record. Thank you very 
much.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS HOLTZ-EAKIN, DIRECTOR
ACCOMPANIED BY BARRY B. ANDERSON, DEPUTY DIRECTOR

    Senator Campbell. And our third and last panel will be Mr. 
Douglas Holtz-Eakin, Director of the Congressional Budget 
Office, accompanied by Barry Anderson, his Deputy Director, 
too. As with the other panels, Mr. Holtz-Eakin, if you would 
like to just make a verbal statement, we will put your complete 
written statement in the record.

      OVERVIEW OF THE CONGRESSIONAL BUDGET OFFICE'S BUDGET REQUEST

    Mr. Holtz-Eakin. Thank you, Mr. Chairman. I will submit my 
written statement for the record and just summarize briefly. 
You have our request before you. You know it is for just under 
$34 million, which represents a 6.6 percent increase over the 
previous year. I should note, however, that of that request, 
1.1 percent is funding for our contribution to a partnership in 
the Federal Accounting Standards Advisory Board. Excluding 
that, we have a core increase of 5.5 percent devoted to current 
baseline increases of 3.8 percent and then additional resources 
of 1.7 percent.
    Stepping back a bit, if you look at the CBO budget as a 
whole, what you see is the budget basically covers people, and 
our budget submission is configured to ensure that those people 
can be put in a position to meet our congressional customers' 
needs in what I think is a timely, flexible, and high-quality 
fashion.
    We have attempted to make sure that we devote enough 
resources to our baseline receipts estimation so as to overcome 
the difficulties over the last few years in anticipating 
fluctuations in tax receipts that are not fully explained by 
the status of the economy, and I can explore that in greater 
detail with you.
    We have tried to devote resources to ensure that we can 
hire in a successful fashion in some areas of the labor market 
which are quite difficult, in particular, specialists in the 
areas of health economics and financial economics. We have 
attempted to make arrangements so that we have flexibility with 
respect to visiting scholars, post-doctoral fellows, and a 
variety of intern kinds of appointments.
    This allows us to redeploy resources quickly as 
congressional needs require, develop relationships with 
possible sources of permanent hires, and improve our ability to 
maintain the kind of workforce that is essential for the 
Congressional Budget Office. And then we continually attempt to 
improve the level of communication with Congress. This year, we 
have undertaken to designate a senior member of the 
Congressional Budget Office staff, Sandy Davis, to a job as 
special assistant to the director, where he has primary 
responsibility for ensuring that we are in continuous and top-
flight communication with Congress on its needs and on 
timetables so that we can be responsive with the different work 
products that are important to Congress and be timely in our 
responses.
    We hope to build that enhanced communication into a 
strategic plan so that we are looking ahead to Congress' needs, 
building those anticipated needs into our work plans in a 
systematic fashion, and trying to upgrade the traditional 
practice of making sure that staff stay in communication--to 
regularize this process and to feed it into both the hiring 
process and decisions on things like visiting scholars.
    And finally, a portion of the budget is devoted to 
supporting our people at CBO in the areas of technology, where, 
in fact, the budget reveals cost savings from movements to more 
advanced forms of technology; disaster recovery, should we need 
to continue operations in unfortunate circumstances; and 
ongoing training and management training as well. So I think if 
you step back from the particulars of each of the budget items, 
what you will see is a budget that is really about the people 
at the Congressional Budget Office, and our strategy in 
constructing that budget is to make sure that those people 
respond quickly, accurately, and flexibly to the needs of 
Congress in fulfilling the job of the CBO.

                           PREPARED STATEMENT

    And with that quick overview, I would be happy to take your 
questions.
    [The statement follows:]

               Prepared Statement of Douglas Holtz-Eakin

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2004 budget request for the Congressional 
Budget Office. The mission of CBO is to provide the Congress with the 
objective, timely, nonpartisan analysis it needs about the economy and 
the budget and to furnish the information and cost estimates required 
for the Congressional budget process.

         OVERVIEW OF CBO'S BUDGET REQUEST FOR FISCAL YEAR 2004

    The Congressional Budget Office's fiscal year 2004 budget continues 
to be driven by the need to be competitive in a specialized labor 
market, with the added challenge of completing and maintaining an 
effective disaster recovery process. We are requesting $33,628,000 for 
CBO's operations during fiscal year 2004, an increase of 5.5 percent 
over 2003. In addition, funding CBO's portion of the cost of operating 
the Federal Accounting Standards Advisory Board (FASAB) adds 1.1 
percent (or $365,000) to our request, but that expense should be offset 
by cost reductions for other sponsoring agencies--the Treasury, GAO, 
and OMB--whose annual contributions will decrease. Together, those 
requirements total $33,993,000, or a 6.6 percent increase over our 
appropriation for fiscal year 2003.
    Of the 5.5 percent increase needed for CBO operations, 3.8 
percentage points represent a current-services baseline, while the 
remaining rise of 1.7 percentage points would fund three new positions 
and allow us to focus more resources on improving our economic 
forecasts and baseline projections of tax receipts. Mandatory increases 
in personnel costs alone would have required a 5.2 percent baseline 
budget increase, but they were offset somewhat by a 1.4 percent 
decrease resulting from savings in technology spending and other 
operating costs.
    In fiscal year 2004, CBO will focus on its core functions of 
scorekeeping, budget analysis, and economic and revenue forecasting. 
Our request will allow us to fund 236 positions--the same level 
originally requested for 2003. The three additional positions, along 
with some reallocation of existing positions, will allow us to increase 
the level of effort applied to improving our receipts baseline and 
enhancing our responsiveness to the Congress. We will also continue our 
visiting scholars program for postdoctoral fellows and midcareer 
academics with expertise in areas such as health economics, financial 
analysis, and macroeconomics. And we will continue to pursue a number 
of internal management initiatives to improve our human resources 
management, technology, publication quality, facilities, and business 
processes.
    Specifically, the fiscal year 2004 budget would:
  --Support a workload estimated at 2,300 legislative cost estimates 
        and mandate cost statements, 30 major analytical reports, and 
        40 other publications, and allow us to meet our obligations for 
        Congressional testimony.
  --Fund 236 full-time-equivalent positions (FTEs), adding three 
        positions for staff and visiting scholars to improve our 
        ability to make economic forecasts and project tax receipts.
  --Provide a pay adjustment of 3.7 percent for staff below the level 
        of senior analyst, consistent with the increase requested by 
        other legislative branch agencies and providing parity with the 
        military pay raise.
  --Fund a combination of promotions and merit increases for staff and 
        provide performance-based pay increases for managers and senior 
        analysts who no longer receive automatic annual across-the-
        board increases.
  --Continue to support process redesign and automation initiatives in 
        publishing, human resources, financial management, and other 
        areas.
  --Use reductions in spending for technology and equipment to offset 
        the cost of the three new positions and a portion of projected 
        price increases for administrative expenses.
  --Enable us to complete tasks related to our disaster recovery 
        strategy, including purchasing some equipment and moving 
        mission-critical servers and other IT infrastructure to the 
        Legislative Branch Alternative Computing Facility early in 
        fiscal year 2004.
    This request also includes a change in our legislative authority 
that would allow our appropriation to be available to pay an 
appropriate share ($365,000) of the costs of operating the Federal 
Accounting Standards Advisory Board.

          SUMMARY OF CBO'S BUDGET REQUEST FOR FISCAL YEAR 2004
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                    Staff       Amount
------------------------------------------------------------------------
Calculation of Base Appropriation, Fiscal Year          233     $32,101
 2003..........................................
    Plus Supplementals.........................  ..........  ...........
    Minus Rescissions..........................  ..........        (209)
                                                ------------------------
      Budget Base, Fiscal Year 2003............         233      31,892
                                                ========================
Proposed Changes for Fiscal Year 2004:
    Mandatory Pay and Related Costs............  ..........       1,668
    Price-Level Changes........................  ..........          89
    Program-Type Changes:
        Legislation............................  ..........  ...........
        Workload:
            Improve revenue estimates..........           3         519
            FASAB expenses.....................  ..........         365
            Net of other changes...............  ..........        (518)
    Equipment, Alterations, Maintenance,         ..........         (22)
     Repairs, etc..............................
                                                ------------------------
      Total Proposed Changes...................           3       2,101
                                                ========================
      Fiscal Year 2004 Budget Request..........         236      33,993
------------------------------------------------------------------------
Note: Columns and rows may not add up to totals because of rounding.

    The total fiscal year 2004 budget request in this table is $543,000 
higher than the amount submitted to OMB for inclusion in the 
President's budget as a result of information available after the OMB 
deadline. CBO will submit an amendment to OMB to reflect the change in 
our request.

                  ACCOMPLISHMENTS IN FISCAL YEAR 2002

    In fiscal year 2002, as part of its contributions to the 
Congressional budget process, CBO issued its annual report on the 
budget and economic outlook in January, which was based on the first of 
three sets of baseline budget projections prepared during the year. The 
outlook was followed by an analysis of the President's budgetary 
proposals.
    CBO also prepared about 750 formal cost estimates during 2002 and 
an even larger number of informal estimates for proposals or options 
being considered by the Congress. Legislation with a significant 
budgetary impact included the Economic Security and Assistance for 
American Workers Act of 2001, the Farm Security and Rural Investment 
Act of 2002, the Bob Stump National Defense Authorization Act for 
Fiscal Year 2003, the Medicare Modernization and Prescription Drug Act 
of 2002, the Terrorism Risk Insurance Act of 2002, and the Energy 
Policy Act of 2002.
    At the request of the Senate Budget Committee, we prepared a 
special analysis of the estimated cost of activities related to U.S. 
military operations in Afghanistan. In addition, we developed estimates 
of the cost of possible military operations in Iraq. We assisted the 
Budget Committees in their development of proposals for a Congressional 
budget resolution for fiscal year 2003.
    Our staff also responded to numerous committee requests during 2002 
on the status of obligations and outlays for funding provided in 2001 
for homeland security and for assistance to New York in the aftermath 
of the September 11, 2001, terrorist attacks.
    We also provided regular economic forecasts and detailed analyses 
of the state of the economy and of the Administration's economic 
forecast to the House and Senate Budget Committees as well as to other 
committees. A major focus was on how changes in taxes affect the 
economy.
    CBO testified before the Congress 16 times in fiscal year 2002 on a 
variety of budgetary and economic issues. A few examples are the Budget 
and Economic Outlook for the House Budget Committee, Projections of 
Medicare and Prescription Drug Spending for the Senate Finance 
Committee, and Social Security: The Challenges of an Aging Population 
for the Senate Special Committee on Aging.
    Responding to requests from Congressional committees for analyses 
of budgetary, economic, and programmatic issues is an important 
function of the agency. CBO studied a broad range of policy initiatives 
and legislative proposals in 2002 and issued 23 program analysis 
reports and more than 40 other publications.
    Medicare and Other Health Issues.--This area continues to put great 
demands on CBO, particularly work related to Medicare reform and 
prescription drug benefits for seniors and low-income individuals. To 
respond, we have reallocated resources from elsewhere in CBO. In 2002, 
we increased the number of analysts working full time on health care 
from 19 to 21 and concentrated more effort on Medicare reform and 
prescription drug issues. We also increased contractual support and 
spending for data. We now have 24 analysts devoted to health care and 
are working to increase that number to 27 (a net gain of eight analysts 
over 2001). We will also continue to shift more of the health staff to 
Medicare and drug-related work and by year-end will have nearly doubled 
the resources devoted to those priority areas as compared with 2001.
    In fiscal year 2002, a major effort was the examination of several 
complex proposals to add a new prescription drug benefit to Medicare, 
``modernize'' other features of Medicare's benefit package, and promote 
competition among providers of Medicare services. CBO provided 
information to committee staffs in both the House and Senate on the 
impacts of those options on federal costs and the consequences for 
other parties. CBO also presented testimony on prescription drug 
spending and prepared an important study, Issues in Designing a 
Prescription Drug Benefit for Medicare, which was released in October 
2002.
    In addition, we analyzed several other important health issues, 
including proposals to reform market-exclusivity rules in the 
prescription drug market to promote quicker entry by generic drugs; the 
federal costs and revenues and the effects on malpractice and health 
insurance premiums of options to reform the nation's medical 
malpractice tort system; and the federal budgetary and private-sector 
effects of proposals to regulate the operation of private health plans 
and health insurance providers (for example, ``patients' bill of 
rights'' legislation and parity in the coverage of mental health and 
medical/surgical benefits.)
    Social Security.--In fiscal year 2002, CBO continued to develop an 
analytical framework for examining proposals to restructure and 
partially privatize Social Security. In addition to using standard 
actuarial projection techniques (such as those employed by the Social 
Security Administration), we made significant progress in constructing 
a dynamic microsimulation model to produce long-term budget 
projections. The model helped CBO prepare several of its Fiscal Policy 
Briefs, prepare Congressional testimony on the long-term budget 
outlook, and analyze long-term options for CBO's 2003 Budget Options 
volume.
    National Security.--Defense-related accomplishments during fiscal 
year 2002 included supporting the Congress through direct assistance 
and published reports. Published reported included The Long-Term 
Implications of Current Defense Plans, an analysis for the Senate 
Defense Appropriations Subcommittee; Estimated Costs and Technical 
Characteristics of Selected National Missile Defense Systems; 
Increasing the Mission Capability of the Attack Submarine Force, a 
study of alternatives for that force produced at the request from the 
Senate Armed Services Committee; Accrual Budgeting for Military 
Retirees' Health Care, a paper for the House Budget Committee; 
Estimated Costs of a Potential Conflict with Iraq, an analysis for 
Senator Conrad and Congressman Spratt; and The Budgetary Treatment of 
Leases and Public/Private Ventures.
    Domestic Economic, Tax, and Financial Issues.--Significant 
publications in this area included a policy brief examining the sharp 
drop in revenue collections experienced in 2002; two reports that 
reviewed the effects of the September 11, 2001, terrorist attacks on 
the insurance industry and analyzed proposals for federal reinsurance 
risks from both terrorism and natural disasters; a review of recent 
productivity growth in the economy, its relationship to improvements in 
computer technology, and the prospects for such growth in the future; 
estimates of future investment needs for drinking water and wastewater 
infrastructure; the risks facing U.S. banks from their exposure to 
foreign financial losses; and the implications for banks and depositors 
of raising the limit on federal deposit insurance coverage.

               PRIORITIES FOR FISCAL YEARS 2003 AND 2004

    CBO's primary objectives will, as always, be to provide technical 
assistance and analytical support to the Congress in its work on annual 
budgets. That effort will include the preparation of baseline spending 
and revenue projections, analyses of the condition of the economy, cost 
estimates for authorization and direct spending legislation, and outlay 
estimates for appropriation bills. CBO will undertake studies of 
budgetary, economic, and programmatic issues that meet the needs of 
individual committees. During the next two years, CBO will also 
undertake major efforts to improve its baseline projections of tax 
receipts, to become more responsive to our Congressional clients, and 
to continue internal management improvements, including strengthening 
our planning process.

Improving Economic Forecasts and Baseline Projections of Tax Receipts
    The drastic swings in federal revenues that have occurred over the 
past decade have placed a premium on improving the state of the art in 
receipts forecasting. In the second half of the 1990s, when receipts 
rose faster than anticipated, and in the early 2000s, when the opposite 
occurred, CBO labored (along with other forecasters) to revise its 
revenue models and estimating methods. But we (and others) were 
hampered by the long lags between revenue collections and the 
availability of useful data on the nature of those collections, and by 
the fact that relationships between incomes and tax collections are 
more complex than previously appreciated. During 2003 and 2004, we plan 
further efforts toward improvement in that area and will add at least 
three staff-years in 2004 by hiring permanent staff, adding expert 
consultants, reallocating resources, and utilizing visiting scholars. 
Specifically, we will:
  --Review our current revenue models and estimating methods to 
        determine whether better procedures are available and identify 
        areas for further development.
  --Acquire additional expertise in the areas of revenue estimating and 
        related macroeconomic issues through additional hiring, 
        visiting scholars, and consultation with outside experts.
  --Attempt to get better and quicker access to IRS tax data and 
        utilize private-sector financial information to improve our 
        understanding of how changes in the economy and the markets 
        influence federal receipts.
  --Consult broadly with federal, state, and private forecasters who 
        are working on the same problem. For example, we will explore 
        bringing in a visiting scholar who has experience with 
        projecting tax receipts in a large state such as New York or 
        California.
    We will emphasize transparency in all of our analyses, estimates, 
and projections, but particularly in the revenue area, so that external 
experts can understand and critique our methods.

Responsiveness and Communications with Congressional Committees
    Another area we will begin to emphasize in 2003 will be our direct 
assistance to the Congress. We plan to do that in several ways:
  --Assigning a senior analyst with a broad knowledge of budget 
        analysis and the budget process to provide liaison to the 
        Congressional committees with whom CBO works.
  --Involving the Budget, Appropriations, House Ways and Means, and 
        Senate Finance Committees, as well as other frequent users of 
        CBO's services, in substantive discussions during our planning 
        process.
  --More generally, taking careful note of the timing and information 
        needs of all of our customers, working hard to meet delivery 
        dates, and keeping all committees for whom we work advised of 
        the status and progress of projects of interest to them.

Strategic Planning
    During the past few years, we have experimented with a variety of 
planning approaches for our mission work, as well as for our internal 
management agenda. The results of those planning efforts, as well as 
the resulting accomplishments, have been reflected in internal plans 
and to some extent in our annual budgets, appropriation testimony, and 
the fiscal year 2002 operating plan. During the next six months, we 
will begin a more deliberate strategic-planning process that will 
involve a comprehensive and careful assessment of customer needs, a 
deliberate weighing of customer priorities in relation to CBO's mission 
and capabilities, the selection of broad work areas and individual 
projects, and the setting of supportive internal management goals. We 
expect to have our plan available for inclusion with the submission of 
our 2005 budget.

Specific Work Priorities for Fiscal Years 2003 and 2004
    Medicare and Other Health Issues.--Reforming the Medicare program 
appears to be a continuing focus of Congressional interest. We expect 
to analyze a wide range of legislative proposals both to expand 
Medicare benefits and to modify existing program rules. Topics are 
likely to include adding a prescription drug benefit to Medicare, 
promoting greater competition among health plans in the program, and 
modifying Medicare's payments to providers in the traditional fee-for-
service sector. With Medicare's long-term budgetary difficulties 
gaining greater prominence, we also plan to focus efforts on developing 
a long-term model for estimating Medicare's future costs.
    Options for expanding health insurance coverage are also likely to 
be a major focus of legislative interest. We will issue a report 
providing alternative estimates of the number of people without 
coverage, and we expect to be called on to analyze a range of specific 
proposals in the areas of providing tax inducements for insurance 
coverage, expanding Medicaid and the State Children's Health Insurance 
Program, reforming rules regulating private health insurance, and 
requiring employers to offer coverage.
    Social Security and Employment Policy.--CBO continues to develop 
its capacity to produce cost estimates and impact analyses of Social 
Security for both current-law and reform proposals. With recent 
extensions of temporary unemployment benefits and the scheduled 
reauthorization of the Workforce Investment Act, CBO expects to 
continue to provide the Congress with analyses of legislative options 
to extend unemployment insurance benefits.
    Homeland Security.--Providing for homeland security and the 
creation of the Department of Homeland Security remain challenges for 
the Congress and priorities at CBO. We will continue to track homeland 
security spending through the budget and appropriations processes and 
will assist the Congress in making such spending transparent. We will 
also examine a number of issues related to public spending for homeland 
security and the provision of incentives to the private sector to 
mitigate risks associated with terrorist attacks.
    National Security.--Current work is focused on several broad themes 
and individual projects:
  --Expeditionary Forces.--Analyzing alternative approaches to 
        replacing current overseas forward basing of U.S. forces with 
        so-called expeditionary forces.
  --Aftermath of a Conflict with Iraq.--Assessing the implications of a 
        long-term occupation of Iraq for active-duty and reserve U.S. 
        military force structure.
  --Army Transformation.--Examining the Army's plans to transform its 
        forces to meet 21st-century threats, and alternatives to those 
        plans that might mitigate technical and budgetary risks.
  --Long-Range Strike Capacity.--Analyzing the cost-effectiveness of 
        alternatives to improve the ability to strike large numbers of 
        targets at long range.
    We will also study the effects of reform initiatives on aircraft 
logistics management and analyze the budgetary implications of trends 
in the use of contractors to perform military support functions.
    Tax Issues.--Work on federal tax policies will examine and report 
on a wide variety of issues involving the efficiency, complexity, and 
equity of the income tax system, including the growing effect of the 
alternative minimum tax and the use of tuition tax credits versus other 
alternatives for supporting higher education.
    Other Domestic Economic and Financial Issues.--Examples of current 
and planned work are:
  --Climate Change.--A report on the economics of climate change will 
        be issued soon, while ongoing work examines the macroeconomic 
        effects of reducing emissions of greenhouse gases.
  --Resources for Baby Boomers in Retirement.--This report will 
        describe sources of funds available to the baby boomers in 
        retirement and put in context concerns about the cost of Social 
        Security and Medicaid.
  --Transportation.--A report is being prepared on options for 
        passenger rail. Work will support Congressional committees as 
        they reauthorize federal highway, transit, and aviation 
        programs.
  --Administrative Costs of Private Retirement Accounts.--Nearing 
        completion, this paper analyzes how program design can raise or 
        lower the administrative costs of private accounts intended to 
        supplement or replace Social Security.
  --The Internet and Intellectual Property.--Two studies are ongoing. 
        The first analyzes policy proposals to speed deployment of 
        high-speed Internet connections. The second looks at possible 
        changes to copyright law in light of the growth of digital 
        technology.
  --Tort Reform.--Topics being studied include the economic costs and 
        benefits of the tort system, the implications of tort reform 
        for economic growth, and an assessment of the economic effects 
        of state-level tort reforms undertaken from the mid-1980s to 
        the present.

INTERNAL MANAGEMENT STRATEGY: PROGRESS AND PRIORITIES FOR FISCAL YEARS 
                             2003 AND 2004
 
   In addition to focusing directly on its mission, CBO, like any 
successful organization, must devote resources to attracting talented 
people, developing their skills, and equipping them properly. It must 
also organize its key work processes to be as efficient as possible and 
capitalize on technology whenever possible.
Enhancing Recruitment and Retention
    During fiscal years 2003 and 2004, we will continue to pursue the 
same goals and initiatives in order to identify, hire, and retain a 
highly talented and diverse workforce.
    1. Strengthen Recruitment Strategy.--Our goal has been to focus our 
efforts on quickly filling key vacancies, particularly in hard-to-
attract disciplines, while building a more diverse workforce.
    Our emphasis here stems from the general difficulty of filling very 
specialized positions with highly qualified staff and from the 
experience of the late 1990s, when CBO experienced an unusual number of 
vacancies and was unable to replace employees quickly. As a result, we 
devised a recruitment and retention strategy that allowed us to fill 
vacancies faster and begin meeting our annual staffing goals. To 
achieve those ends, we raised offering salaries for new Ph.D. and 
master's degree candidates, simplified our application process and 
drastically shortened the time from application to job offer, 
advertised critical vacancies more aggressively, began using 
recruitment bonuses for hard-to-fill specialities, and implemented an 
awards program for outstanding performers.
    In fiscal years 2003 and 2004, our college and university 
recruitment program will remain focused on graduate students in 
economics, public policy, and related programs at a variety of schools 
and continue to add more schools with diverse student populations. We 
will also:
  --Continue to develop and expand our competitive ``scholars,'' 
        focusing on hard-to-staff areas such as macroeconomics, 
        financial economics, tax, and health economics;
  --Provide training to managers and staff on effective recruitment 
        techniques and interviewing skills; and
  --Add an on-line job-application module and additional job 
        information to our Web site.
    2. Improve CBO's Training Program.--Our goal is to improve 
management and job skills by investing in our people through training, 
education, and professional development.
    CBO has always invested in the job skills of its employees, but the 
amount we spend on job training and professional development has been 
far less than that of other high-impact organizations, and much less 
than management and training experts recommend. In recent years, we 
have increased our training expenditures by 30 to 40 percent while 
eliminating less cost-effective training and providing skill training 
to a much higher percentage of our staff. In fiscal year 2002, roughly 
70 percent of CBO employees received training. And during the past 
three years, we have provided more than two-thirds of our managers with 
training in leadership and communications skills.
    During fiscal years 2003 and 2004, we will:
  --Continue to provide management training to our senior staff and 
        provide management-development training to up to a dozen high-
        performing analysts with leadership potential;
  --Develop training plans for new employees and find ways to deliver 
        critical skills training to newer employees more quickly.
    3. Modernize and Revitalize the Working Environment.--Our goal has 
been to reconfigure and renovate much of our space to use it more 
efficiently and provide a high-quality work environment for new 
employees and those who were in inadequate space.
    Most of CBO's space was configured shortly after the agency's 
creation over 25 years ago--in a building designed primarily for file 
storage. At that time, there were no desktop computers, many more 
support staff, less specialization, and a less competitive employment 
marketplace. Consequently, a significant percentage of our space was 
configured for clerical staff, and many analysts had work space that 
was in passageways or open bays. In cooperation with staff of the 
Architect of the Capitol and the Superintendent of House Office 
Buildings, we developed strategies to address our space problems with 
modest expenditures. Thus, by the end of December 2002, we finished 
reconfiguring roughly 57 percent of our usable floor space. The result 
is about 134 offices renovated, with a net gain of 47 private offices 
and three conference rooms with modern audio-visual equipment.
    During fiscal years 2003 and 2004, we plan to renovate another 50 
offices and, in the process, essentially eliminate remaining 
substandard offices, while realizing a net gain of 10 private offices.
Streamlining Operations and Redesigning Key Processes
    As mentioned above, we have also devoted significant attention to 
automating and modernizing our internal processes.
    4. Process Redesign and Automation.--Our goal has been to modernize 
and automate key internal processes to provide better services and 
information electronically, while reducing the time needed to use and 
support administrative functions.
    In fiscal year 2002, we began a major thrust to modernize our work 
processes, with a wide range of process redesign and automated system 
development efforts. Several new systems were completed during the 
year, including a tracking system for projects, a Web-based ordering 
system for supplies, a reservation system for our conference rooms, and 
a tracking system for job applicants. We also implemented an innovative 
Intranet site, which is now our primary information source for internal 
policy guidance, new application programs, internal services, 
databases, and Internet-based journals and research tools.
    In fiscal years 2003 and 2004, we will:
  --Develop and implement a new publication distribution system;
  --Design and implement a Human Resources Information System (HRIS);
  --Install an asset management system;
  --Implement a service-request software system for computer 
        assistance; and
  --Upgrade our financial management system in cooperation with the 
        Library of Congress.
Publishing and Communications Priorities
    The value of CBO's work to the Congress and the public derives from 
the quality, readability, and availability of its publications. 
Although the demand for printed publications remains strong, the use of 
electronic versions is growing every year.
    5. CBO's Publications and Production Processes.--Our goal is to 
produce high-quality publications that are easily identifiable as CBO 
products and to reengineer our production processes to become more 
timely and efficient.
    As usage of CBO's Web site has increased, we have been able to 
print fewer copies of reports and reduce inventory costs. Increasingly, 
we are targeting the distribution of our reports to put them in the 
hands of policymakers and other interested readers but avoid excess 
printing. Instead, we are relying more on electronic notification and 
distribution. To provide Congressional offices with advance access, we 
began e-mailing them some shorter publications and Internet links to 
some longer documents. We also finished modernizing the format and 
production process for our reports so that they all have a consistent 
and professional look readily identified with CBO. We also designed and 
began issuing a new product line--Policy Briefs--which capture the 
important aspects of major policy issues, such as the budgetary impact 
of society's aging population, in just a few pages, for use by busy 
staff and Members.
    In fiscal years 2003 and 2004, we will implement a PC-based report 
distribution system to replace the current mainframe system. The new 
distribution system will target distribution more precisely, to those 
who want specific kinds of publications; improve staff productivity; 
and support e-mail notification and distribution of reports. We also 
plan to further improve our graphics production process, take advantage 
of the improved print quality made possible by printing directly from 
electronic files, and eliminate some production rework. In addition, we 
will expand the use of Policy Briefs to cover more areas of CBO work 
and issue them more frequently. Finally, we plan to survey users of CBO 
documents to glean suggestions for additional improvements in our 
written products.
    6. CBO's Web Site (www.cbo.gov).--Our goals are to respond to the 
growing demand for electronic products and to enhance the site's 
functionality and accessibility.
    Use of CBO's Web site continues to increase dramatically each year, 
from about 2.3 million page requests in 2001 to about 4.9 million last 
year. Although the site was quite serviceable, we undertook a 
comprehensive redesign. On the basis of suggestions from users, we 
developed a better search function, recatalogued publications on the 
site, and improved navigation.
    In fiscal years 2003 and 2004, our Web site will continue to 
evolve. Anticipated improvements include adding new sections, such as 
one with extensive information on the federal budget, a notification 
system for job applicants, and a comprehensive searchable archive of 
all CBO publications dating back to 1975. That archive will make some 
1,100 reports and nearly 900 testimonies available on-line and on CD 
and will allow us to ``print on demand'' as Members, staff, and the 
public request hard copies. Our redesign of the on-line versions of our 
various publications will also be completed.
Technology
    Highly effective organizations must build a staff of skilled 
employees and then provide them with the technology they need to do 
their work. That is especially critical at CBO because the broad scope 
of our work and the tight deadlines under which we often operate 
necessitate modern information and computing tools.
    7. Maintain CBO's Technological Edge.--Our goal is to use the best 
technology systems economically available to support the agency's 
mission while improving the performance of those systems and raising 
employees' productivity and satisfaction.
    In fiscal year 2002, we replaced our oldest desktop systems, 
upgraded network infrastructure, and improved network security. To 
reduce timesharing costs, we moved most statistical processing and data 
storage from the Library of Congress to an in-house platform. We also 
made substantial progress in replacing our mission-critical Budget 
Analysis Data System, which is more than 20 years old, with a PC-based 
application. That new application will provide improved capability and 
yield operating-cost savings.
    In fiscal years 2003 and 2004, we plan to:
  --Complete the redesign and implementation of the Budget Analysis 
        Data System during 2003; and
  --Consolidate a variety of existing data backup processes into one 
        enterprise-wide backup system.
    We will also continue to replace our oldest workstation hardware 
and software, upgrade important routers and switches, replace some 
high-speed printers, and continue to support process redesign and 
automation efforts with programming assistance.
    8. Prepare for Disaster Recovery.--Our goal is to refine existing 
plans and develop resources that would allow the prompt restoration of 
CBO's mission-critical support to the Congress.
    The events of September 11, 2001, and the closure of the Ford House 
Office Building a month later reemphasized the importance of disaster 
recovery. Those events caused us to rethink our response strategy. The 
nature of the closure of the Ford building left our network, systems, 
and data intact, permitting us to quickly restore essential services to 
the Congress, but with considerable difficulty. In 2002, we improved 
our data system backup, moved surplus IT equipment to off-site storage, 
and devised a robust emergency recovery strategy.
    In fiscal years 2003 and 2004, we will complete the implementation 
of that strategy as we:
  --Mirror our CBO Web site, our internal Intranet, and other mission-
        critical databases and programs at a secure off-site facility;
  --Provide staff with highly secure remote access to e-mail 
        application programs, analytical data, and the CBO Intranet, 
        which contains hundreds of journals, research tools, and useful 
        Internet links;
  --Strengthen our emergency wireless communication capabilities; and
  --Upgrade our e-mail and network operating systems to be more fault-
        tolerant.
    We will also complete the planning for and make the move to the 
Legislative Branch Alternative Computing Facility, establish reciprocal 
agreements for emergency work centers with the Library of Congress and 
other federal entities, and increase the quantity of off-site 
emergency-use hardware we have available.
    9. Enhance Network Security.--Our goal is to strengthen network 
security for the core network as well as for the separate network 
established to store and process sensitive data from the IRS, Social 
Security Administration, and Department of Health and Human Services.
    Some of CBO's analyses and model-development efforts require access 
to sensitive government data. Generally, that sensitivity forces us to 
adhere to strict security procedures dictated by the providing agency. 
As our use of sensitive data has grown, so has our need to increase 
security measures.
    In fiscal year 2003, we plan to substantially complete this effort 
by implementing automated auditing of secure data access to ensure that 
we are complying with all data- use agreements, completing an internal 
audit of network security and addressing any issues identified, and 
verifying that remote work sites are adequately safeguarded. We will 
then periodically perform data-security audits.

                               CONCLUSION

    Mr. Chairman, in recent years, CBO has worked very hard to meet the 
needs of the Congress and to rebuild its staff during a period of great 
competition in the labor market. To do so, we have raised starting 
salaries for new graduates and undertaken a variety of efforts to make 
CBO a more desirable employer for talented economists and policy 
analysts. The recent budget increases provided by this Committee, along 
with our extensive efforts to reduce our nonpayroll costs, have allowed 
us to return to full strength while modernizing our products, 
processes, technology, and facilities.
    Nonetheless, we continue to have the same concerns as all federal 
employers: our salaries are not always competitive, many new graduates 
shun government service, anticipated retirements are worrisome, and 
replacing staff in high-demand disciplines is neither easy nor quick. 
Our new recruitment and retention initiatives, for which we need your 
continued support--the visiting scholars' program, performance and 
recruitment bonuses, training and professional development authority, 
and student loan repayment--will provide us with additional tools we 
can use in our efforts to attract the best and the brightest to serve 
the Congress.
    Finally, the additional staff resources that we have requested are 
critical to my efforts to improve CBO's economic forecasts and revenue-
estimating processes.

                    CHANGES SINCE TERRORIST ATTACKS

    Senator Campbell. It seems to me that almost every agency 
that we deal with has had some major changes since 9/11, kind 
of foisted on them, obviously, but CBO has a little bit more of 
a buffered existence. Have there been any major changes with 
your workload or internal agency changes since 9/11, as there 
has been with so many other agencies?
    Mr. Holtz-Eakin. Well, I can let Barry Anderson, who has 
actually been at the Congressional Budget Office during the 
entire period, respond to that most directly.
    Mr. Anderson. The workload, no. I would have to say our 
workload is about the same. We have answered more requests, 
about, for example, the potential cost of the war in Iraq, and 
we also were called by the budget committees--and, in fact, 
volunteered to them right after 9/11--to talk about the 
potential economic damage that 9/11 could have caused for the 
economy. But that was a relatively small amount of work with 
respect to the entire workload. The budget process, Mr. 
Chairman, just seems to go on and on, ever more complex, but 
not much impacted by that.
    With respect to the actual working conditions, though, it 
has, I would say, relatively dramatically affected the staff. 
First of all, it has affected them psychologically. The fact 
that we work on Capitol Hill--the fact that one of those planes 
could have been headed directly our way--has had a major 
impact. In the Ford House Office Building in which we are 
located, there is a day care center, and that really has had an 
impact, particularly right after the event.
    Senator Campbell. Is that day care center still there?
    Mr. Anderson. It is still there, and there have been a 
number of security provisions implemented in the building and 
in the area around it that were not in effect on 9/11; and 
people see that, and they recognize that, and they act 
differently.
    Second of all, right after 9/11, as you may recall, there 
was the anthrax, and we were out of our building for almost 3 
weeks because of that, too. That dramatically changed our 
disaster recovery procedures. When that happened back in 
October of 2001, I think we had only three or four laptops in 
the agency. Now we have 60 or 70.
    Senator Campbell. Where were you working when you had to 
vacate your offices during the anthrax scare?
    Mr. Anderson. We had six different locations. We went, hat 
in hand, to agencies, almost every one of which was very 
generous with us in giving us space.
    Senator Campbell. They were all downtown here somewhere?
    Mr. Anderson. Some of them--the Library of Congress 
provided some; the Department of the Interior, NASA, 
International Trade provided some. OMB staff had a space that 
they had vacated, that they had reserved in case they had to 
vacate the Old Executive Office Building, an entire floor of 
1800 G Street, and that provided the biggest amount of space. A 
third or more of our staff were there for several weeks. 
However, the space was one thing; the computers were another. 
And I would have to say, looking back, that is where we were 
least prepared. We were able, sort of by the skin of our teeth, 
to continue to provide services to the Congress during that 
time. Were that or anything like that to happen again, we would 
be so much better prepared now. It has drastically changed the 
way we think about things--backing up materials, backing up 
databases, being able to access materials off-site, those types 
of thing.
    Senator Campbell. Thank you. Senator Durbin.

               RESOURCES TO IMPROVE BASELINE FORECASTING

    Senator Durbin. Thank you very much.
    Mr. Holtz-Eakin, may I ask you, in your statement, you said 
that you are going to devote more resources to improving 
economic forecasts and projections of tax receipts. I would 
like to ask how much of that is just an effort to be more 
accurate and how much of that reflects this new philosophy of 
dynamic scoring, where we have to look at the world through 
different eyes than we have during the course of the history of 
the Republic?
    Mr. Holtz-Eakin. This really reflects an effort to be 
better in our baseline forecasting, independent of any issues 
associated with dynamic scoring. The revenue swings over the 
late 1990s and the most recent couple of years involve a nexus 
of macroeconomic performance (a boom and a bust), financial 
performance (changing compensation patterns, movements toward 
more bonuses, options, profit-sharing plans), and integration 
of the receipts from the corporate and individual income taxes 
and from their respective alternative minimum taxes. This has 
presented a really difficult technical challenge in trying to 
anticipate receipts in each year. The request is meant to 
reflect our needs for specialists in those areas, including 
those visiting scholars who may bring to us some wisdom from 
the States that rely heavily on those kinds of receipts, 
California and New York.
    Senator Durbin. So virtually all the forecasters have been 
wrong pretty consistently. Has the CBO been more in error or 
less in error than most of the forecasters in the past few 
years?
    Mr. Holtz-Eakin. Although I have been here only 2 months, I 
can proudly say that the CBO's record is outstanding and that 
the agency has made smaller errors in absolute value than most 
forecasters.

                     STUDENT LOAN REPAYMENT PROGRAM

    Senator Durbin. So you do not think any restatement from 
CBO would call for--never mind. I will not go any further with 
that.
    You talked a lot about the brain drain in Federal 
Government. This is not unique to your agency. In fact, Senator 
Voinovich, our colleague, has really focused on this as a major 
part of his Senate activity in the Government Affairs 
Committee, and you also noticed here a student loan repayment 
program, and I might say to the chairman, this is one of the 
things that came out of a year or two of my chairmanship of 
this, or my chairmanship of this subcommittee to try to retain 
and recruit very good people to Government service, where there 
are many disincentives. Student loan repayment turned out to be 
one of the incentives. Now, are you using that now? I see in 
your statement you refer to it.
    Mr. Holtz-Eakin. I want to thank you for your efforts. To 
walk into a situation where you have this kind of recruiting 
tool is a big advantage.
    The repayment provisions have not yet been used. We have 
set up a program where individuals can get up to $6,000 each 
year, a total of $40,000. Should they accept this incentive, 
they would be required to stay at CBO 3 years; otherwise, they 
would have to pay it back.
    During fiscal year 2002, we did not use that. We did not 
have a budget until late in the year, and it was not necessary 
to deploy the incentive. We have built into our 2004 request a 
larger use of the incentive. We are looking for the right 
opportunities in the recruiting process to deploy it in a way 
that enables us to take a relatively modest program at its 
outset and hire strategically, especially in the tough areas I 
mentioned.
    Senator Durbin. I thank you for that, and I think many of 
us are coming to learn, as we look at the debt that our kids 
are carrying out of college, that this is a new reality when it 
comes to job search, and if you do not deal with it, you are 
likely to be a victim of it, and I think it is good that we are 
starting to open our eyes to that.
    Thank you very much, Mr. Chairman.

                           SUBCOMITTEE RECESS

    Senator Campbell. I want to thank our witnesses. You got 
done just in time. You heard the beepers. We are going to have 
to go vote. We will stand in recess until April 10 at 1:30, 
when we will take testimony from the Library of Congress.
    Thank you so much for being here. The subcommittee is 
recessed.
    [Whereupon, at 2 p.m., Thursday, March 27, the subcommittee 
was recessed, to reconvene at 1:30 p.m., Thursday, April 10.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:29 p.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Bennett, Stevens, and Durbin.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS AND CHAIRMAN OF THE BOARD OF 
            TRUSTEES FOR THE CENTER FOR RUSSIAN 
            LEADERSHIP DEVELOPMENT
ACCOMPANIED BY:
        GENERAL DONALD L. SCOTT, DEPUTY LIBRARIAN
        KENNETH E. LOPEZ, DIRECTOR OF SECURITY

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order.
    Senator Durbin is running a little late. He will be along 
in 10 or 15 minutes. But we will go ahead and start.
    We meet today to hear from Dr. James Billington, the 
Librarian of Congress, on the fiscal year 2004 request for the 
Library of Congress. Dr. Billington is accompanied by Deputy 
Librarian General Donald Scott and a team of others.
    I met both of you in my office. I appreciated that 
opportunity to talk to you.
    The Library's request of $540 million represents an 
increase of $44 million over the current year and 124 
additional staff. As I understand it, the budget request can be 
reduced by the amount of the funds provided in the pending 
fiscal year 2003 supplemental, a total of $7.4 million. Major 
increases are requested for additional security measures, 
particularly new police officers, funds for the ongoing 
establishment of an audiovisual conservation center in 
Culpeper, Virginia, as well as routine increases in payroll and 
that needed for inflation.
    Other areas of emphasis in your budget, Dr. Billington, is 
the alternate computing facility, which is to be operational 
this summer, continuing to reduce the backlog of uncataloged 
items in the Library and increasing the budget for the Veterans 
History Project, to name a few.
    And with that, we will go ahead and start. If you would 
like to submit your complete testimony for the record, that 
will be included. And if you would like to diverge from that, 
that will be fine, too.
    Excuse me. Before we start, I did not realize that Senator 
Stevens had come in.
    Senator Stevens. They were exposed to me yesterday at the 
Rules Committee, Mr. Chairman. So I am here to listen again.
    Senator Campbell. Okay. You have no statement, then, 
Senator?
    Senator Stevens. No, thank you.
    Senator Campbell. Okay. Why do we not go ahead and start?

                 EMERGENCY SUPPLEMENTAL APPROPRIATIONS

    Dr. Billington. Thank you, Mr. Chairman. And thank you, 
also, for the committee's support of the supplemental 
appropriations request. If it is approved, the Library's next 
budget would be decreased to $29.9 million, rather than $44 
million, which would be only a 5.5 percent increase. Most of 
that 5.5 percent, 79 percent, would be for mandatory pay and 
price level increases.

                          UPCOMING CHALLENGES

    The Library is, in effect, in the process of superimposing 
a massive digital electronic library on what is already the 
world's largest traditional library of artifacts. For fiscal 
year 2004, we will face special challenges in implementing new 
security measures, a police force merger, and planning to 
replace the 42 percent of our current staff who will become 
eligible to retire in the next 5 years; also requiring and 
preparing this long-awaited, much-needed national audiovisual 
conservation center, most of which is coming to us through a 
very generous donation from the Packard Humanities Institute; 
and finally, acquiring, preserving, and ensuring rights-
protected access to this explosion of materials that are 
produced in digital format, as well as the continuing pile-up 
of analog items, of which we add 10,000 a day.
    The events of September 11, the constant threat of 
terrorism, war in Iraq, have greatly increased the importance 
of the Library's mission to gather and make accessible the 
world's knowledge for the Nation's good. We serve in many ways 
as the Nation's strategic information reserve. And we provide 
Congress with authentic information, principally through CRS, 
the Congressional Research Service, and the Law Library. Last 
year, CRS experts delivered over 800,000 responses to a wide 
variety of Congressional inquiries.
    The unique global resources also play a special role. One 
of our Middle Eastern experts discovered and translated not so 
long ago a rare 1991 autobiography written by Osama bin Laden, 
which named some of his cohorts. The report was made available 
to the Congress and the Government agencies and is now 
available for research in our African and Middle Eastern 
reading room.
    Another example, our Law Library, which has the largest 
collection of Afghanistan laws in the world, helped reassemble 
that country's laws, most of which were destroyed by the 
Taliban. The Law Library found a unique two-volume set of the 
laws that was unavailable elsewhere, reconstructed it. It has 
been distributed to 1,000 institutions in Afghanistan.
    The final example of this kind is our Federal Research 
Division, which did a study on terrorism in 1999. It was 
commissioned by the National Intelligence Council. And 2 years 
before 9/11, the study noted that members of al Qaeda could 
conceivably crash an aircraft into the Pentagon, CIA 
Headquarters, or The White House. That report is now available 
on our website.
    Our new national plan for digital preservation was approved 
by the Congress last December. And it establishes an approach 
for the capture and preservation of important websites, 
including those that are dealing with issues of urgent 
importance to the Congress. The average life span of a website 
today, Mr. Chairman, is 44 days. So we are taking the lead on 
acquiring and preserving this digital material and will be 
asking eventually to adapt the mandatory deposit requirement of 
the Copyright Act to the digital environment so we can more 
efficiently deposit online materials.

                 LIBRARY OF CONGRESS FUNDING PRIORITIES

    Most of our requested increase, as I have said, is for 
mandatory pay and price increases. The Library does not seek 
support for any new functions. What we are simply doing is 
getting the adequate support for the resources needed to 
perform the historic service in a radically changed and 
increasingly changing environment. That involves improving 
physical security, support collections security and management, 
including the new center at Culpeper. It involves managing our 
growing collections and incorporating the rapidly changing 
technology into all our operations right across the board, 
supporting the Copyright Office's reengineering efforts, for 
instance, and enhancing access by the Congress to CRS products 
wherever and whenever the Congress needs, increased CRS 
research capacity to manipulate the large data sets upon which 
CRS analysts rely, and incentives to enhance staff retention.
    We are requesting funding that will support 4,365 full-time 
equivalent positions, which is an increase of 124 FTEs. That 
number is still 184 fewer FTEs than we had in 1992 before the 
explosion of the Internet, before the great growth of 
collections and security measures that have been required in 
recent years.
    So, Mr. Chairman and Senator Stevens, to whom we continue 
to be indebted in many ways in this institution, we thank you, 
especially for your support in recent years, but also for the 
Congress over 203 years. The Congress of the United States has 
been the greatest single patron of the Library in the history 
of the world. And it has created and sustained the largest 
repository of human knowledge. So we are deeply grateful for 
your confidence and support.
    I would just point out a couple of items. This is the 
strategic plan that was sent to you separately. I testified 
this morning before Senator Lamar Alexander's committee on the 
use of the Library's collections by teachers and students in K 
through 12. There is a brochure here that may be of interest to 
you, which describes all of our online facilities and how they 
are being used educationally.
    You also have a sample of different parts of the website. 
We also did a listing recently of services that we perform for 
the Congress, in addition to the ones you are familiar with in 
CRS, as well as potential ones that we could activate very 
rapidly should the Congress want them. So you may have already 
received copies of this, but we will pass these over.

                              NEW WEBSITE

    And finally, sir, we wanted to give you the first news of a 
new website that just went up today. It is celebrating the 
100th anniversary of Harley-Davidson.
    Dr. Billington. Hog Heaven----
    Senator Campbell. The Wright Brothers did a little 
something, too, in 1903, as you remember.
    Dr. Billington. This celebrates 100 years, including 
images, posters, all of America's most recognized motorcycle. 
And I brought three special examples from the new web 
presentation, which we thought you might like to have in larger 
scale.
    The first is a photograph from our prints and photographs 
collection of somebody with one of the early motorcycles in 
1910. This one is the 1915 Harley-Davidson advertisement in 
Motorcycle Illustrated. You could buy a motorcycle for $275 
back in those days.
    Senator Campbell. I got my oil changed the other day, and 
it cost that much.
    ``HD'' stands for hundreds of dollars, by the way.
    Dr. Billington. Finally, from the Motion Picture, 
Broadcasting and Recorded Sound we have Jayne Mansfield with 
her Harley in ``Miss Traffic Stopper of 1962.''
    Senator Campbell. I will keep that one.
    Well, thank you. Somebody must have told you how to get my 
attention.
    Dr. Billington. Thank you.
    Senator Campbell. Did General Scott have any additional 
comments for this?
    General Scott. Yes, sir, I do.
    Senator Campbell. All right. I have some questions I would 
like to ask. But I would also like to note with interest the 
former chairman, Senator Bennett, is here. And if Senator 
Bennett or Senator Stevens either has a statement, why, if they 
would like to proceed.
    Senator Bennett. No, sir, Mr. Chairman. We are just 
admiring the expert way in which you are handling----
    Senator Campbell. You mean the way Dr. Billington is 
handling me.
    Senator Stevens. It was Harley-Davidson that the rich folk 
bought. There was another one. It was called the JD, the Junior 
Davis. Did you know about the Junior Davis?
    Dr. Billington. Well, that looks like it will have to be 
another website.
    Senator Stevens. JD. They were, what, 80 horsepower?
    Senator Campbell. Yes, they were small.
    [The statements follow:]

               Prepared Statements of James H. Billington

    I appreciate the opportunity to discuss the Library of Congress 
budget request for fiscal year 2004. The Congress of the United States 
has created the largest repository of human knowledge in the history of 
the world and has preserved the mint record of American intellectual 
creativity. The Library's mission of making its resources available and 
useful to the Congress and the American people and sustaining and 
preserving a universal collection of knowledge and creativity for 
future generations is more important than ever in today's environment.
    The Library is supporting the war effort by making available to the 
Congress information resources that continue to gain in importance as a 
critical strategic asset as people are turning to on-line digital 
resources for more and more information, and Congress and the nation 
are using the Library of Congress's expanding digital resources at an 
ever-increasing rate. The Library processed more than two billion 
electronic transactions on our Web sites in fiscal year 2002, and that 
number seems likely to exceed three billion in fiscal year 2003. 
Technology has made it possible for the Library to extend its reach far 
beyond the walls of its buildings in Washington to every corner of the 
world.
    Our founding fathers linked governance to learning, and legislation 
to libraries, from the first time the Continental Congress convened--in 
a room opposite a library--in Philadelphia on Monday, September 5, 
1774. Article I, Section 8 of the Constitution was designed to promote 
``the progress of science and useful arts.'' The first joint committee 
of the Congress in the new capital of Washington, D.C., was created for 
its library. Congress created the world's first nationwide network of 
library-based higher educational institutions in 1862 when the Morrill 
Act built land grant universities--underscoring the basic Jeffersonian 
belief that democracy, to be dynamic, had to be based on more people 
using knowledge in more ways.
    The Library of Congress is uniquely positioned to support the work 
of the Congress and the creative dynamism of America in the early 21st 
century. Three central features of the Library point the way.
  --The Library of Congress (through its Congressional Research Service 
        and Law Library) provides the principal research support for 
        the Congress. The Library also serves the American people, 
        along with other institutions, as a source of knowledge 
        navigation for the increasingly chaotic profusion of 
        information and knowledge flooding the Internet.
  --The Congress's Library is America's strategic reserve of the 
        world's knowledge and information. With more than 126 million 
        items in its collections, the Library is the only institution 
        in the world that comes anywhere close to acquiring everything 
        important for America (except for medicine and agriculture, 
        which have their own national libraries) in whatever language 
        and format it is produced. The Library's unique web of 
        international exchanges, and of overseas procurement offices 
        (Islamabad, Cairo, Jakarta, New Delhi, Nairobi, and Rio de 
        Janeiro), together with purchases and its U.S. copyright 
        deposits, generate an estimated inflow of 22,000 items a day, 
        of which we retain 10,000.
  --The Congress's Library is the central hub of two important 
        knowledge networks: America's national network of libraries and 
        other repositories, and an international network of major 
        libraries. The Library of Congress is recognized as a leading 
        provider of free, high-quality content on the Internet. Just as 
        the Congress endorsed the Library of Congress providing other 
        libraries its cataloging data for print material in the early 
        20th century, so it has now mandated its Library in the early 
        21st century to create the metadata and plan for a distributed 
        national network for storing and making accessible digital 
        material.
    The Library is a knowledge center for accumulating information and 
helping distill it into scholarly knowledge and practical wisdom. We 
are constructing a national collaborative effort, at Congress's behest, 
to preserve digital materials for our national information reserve. The 
Library submitted a National Digital Information Infrastructure and 
Preservation Program (NDIIPP) plan to the Congress for establishing a 
national network of committed partners who will collaborate in a 
digital preservation architecture with defined roles and 
responsibilities. The plan was approved in December 2002, and the 
Library now plans to launch practical projects and research that will 
develop a national preservation infrastructure. Funding for the NDIIPP 
plan has already been appropriated by the Congress. Most of it will 
require matching private sector contributions.
    Thanks to the continuing support of the Congress, its Library is in 
a position both to sustain its historical mission in the new arena of 
electronic information and to make major new contributions to the 
global and domestic needs of the United States in an increasingly 
competitive and dangerous world. In the new networked world, the 
Library must combine leadership functions that only it can perform with 
catalytic activities relying on new, networked partnerships with both 
other nonprofit repositories and the productive private sector. The 
Library will need the staff, the structures, and the focus to perform 
only those roles that are central to its mission and which it is 
uniquely equipped to perform. To do so the Library must sustain most of 
its present operations but at the same time face three major changes 
that will reach across all aspects of the Library in the next decade.
  --The Library's marvelous workforce must to a large extent be 
        retrained or renewed. Facing a disproportionately large number 
        of experienced personnel at or nearing retirement age, we must 
        create a workforce that will in the aggregate provide an even 
        greater diversity of both backgrounds and technical skills. The 
        staff for the 21st century must include highly skilled and 
        well-trained experts in both new technologies and the 
        traditional scholarly and substantive subjects required by the 
        richness and variety of the collections. This personnel need 
        is, in many ways, the most important single requirement the 
        Library will face in the next decade.
  --The Library will have to create new structures, both technical and 
        human, of sufficient flexibility to enable the Library to deal 
        with the fast-moving ever-changing electronic universe, and to 
        integrate digital materials seamlessly into the massive analog 
        collections of the Library. These structures must be set up in 
        such a way that they can work effectively in an increasingly 
        distributed and networked environment, and simultaneously 
        guarantee fast and full global coverage for the Congress. The 
        Library has been largely able to provide information in the 
        analog universe; but it may have to share this responsibility 
        with others in the digital network if they can guarantee quick 
        responses to Congressional and CRS requests.
  --The Library must concentrate more of its overall energies and 
        talents on developing the deep substantive scholarly expertise 
        that will enable the staff to navigate, authenticate, and 
        analyze knowledge for the Congress and the nation. It will be 
        important in the future not only to provide access to the 
        Library's collections, but to extend and deepen the objective 
        guidance that both the Congress and the scholarly world will 
        need in confronting the inundation of unfiltered electronic 
        information.
    For fiscal year 2004, the Library continues to face daunting 
challenges in: (1) implementing security measures and a police force 
merger; (2) acquiring, preserving, and storing--and ensuring rights-
protected access to--the proliferating materials that are produced in 
both analog and digital formats; (3) planning to replace the 42 percent 
of our current staff who will become eligible to retire between now and 
the end of fiscal year 2008; and (4) changing the Library's operations 
by incorporating constantly evolving methods for communicating 
information.
    The Library's budget request is driven primarily by our mission to 
acquire, process, make accessible, and store some three million new 
artifactual items annually, while at the same time harvesting the 
exponential growth of electronic materials. Additional fiscal year 2004 
budget resources are needed mainly for managing our growing 
collections, incorporating rapidly changing technology into our 
operations, and covering mandatory pay raises and unavoidable price 
increases. The Library seeks support in its fiscal year 2004 budget 
request not for any new functions, but simply for the resources needed 
to perform our historic service in a radically changing environment.
    To meet these challenges, the Library requests additional fiscal 
year 2004 budget funds to improve physical security and support 
collections security and management (including the construction of the 
National Audio-Visual Conservation Center at Culpeper, Va.); to support 
the Copyright Office's reengineering efforts; and to enhance access to 
Congressional Research Service (CRS) products and increase CRS research 
capacity in critical areas.
    For fiscal year 2004, the Library of Congress requests a total 
budget of $576.6 million ($540.1 million in net appropriations and 
$36.5 million in authority to use receipts), a net increase of $44.5 
million above the fiscal year 2003 level. The requested increase 
includes $23.6 million for mandatory pay and price-level increases, and 
$48.3 million for program increases, offset by $27.4 million for 
nonrecurring costs. The Library's fiscal year 2004 budget request is a 
net increase of 8.4 percent above fiscal year 2003.
    Requested funding will support 4,365 full-time-equivalent (FTE) 
positions, an increase of 124 FTEs over the fiscal year 2003 target of 
4,241. The Library is assuming staffing at the fiscal year 2003 target 
level and requesting the additional FTEs largely to implement security 
standards and to support the Library's massive artifactual collections.
    The fiscal year 2004 budget increase is needed to fund the 
following major initiatives (which I will address in detail later in 
this statement):
  --Physical Security ($17.5 million and 62 FTEs).--Additional police 
        are required to staff new posts and implement Capitol Hill 
        security standards. Funding is also required to implement the 
        new alternative computer facility, a new public address system, 
        and enhanced emergency preparedness procedures.
  --Collections Security and Management ($14.1 million and 30 FTEs).--
        The National Audio-Visual Conservation Center (NAVCC) at 
        Culpeper, Va., will enable the Library to redress significant 
        limitations in its ability to store, secure, preserve, and 
        provide access to more than 900,000 films and 2.6 million audio 
        materials. The NAVCC will be constructed in two phases: in 
        2004, storage building and infrastructure; and in 2005, 
        processing building and nitrate storage. Additional NAVCC 
        funding of $11.1 million and 8 FTEs is required in fiscal year 
        2004 to maintain the construction schedule. It is essential to 
        demonstrate this level of public support if we are to secure 
        the unprecedentedly large private-sector support that we expect 
        to receive when this facility is conveyed to the U.S. 
        Government. The Library also requires $3 million and 22 
        temporary FTEs to improve the collections security and 
        management of its other vast collections, including reducing 
        the arrearage of unprocessed items.
  --Copyright Office ($7.8 million).--Funding is required to restore 
        the one-time $5.7 million fiscal year 2003 base reduction 
        resulting from the availability of fiscal year 2002 
        supplemental no-year funding, and $2.1 million is required to 
        support the ongoing reengineering project.
  --Congressional Research Service ($2.7 million).--The Congress must 
        have uninterrupted access to the policy expertise and 
        information resources needed to address key public policy 
        issues. CRS is requesting additional resources to ensure 
        continuity of business operations, to enhance capacity for 
        database management, and to reform workforce practices that add 
        incentives to encourage staff retention, which in turn will 
        enhance the quality, access, and timeliness of its 
        Congressional research and information services.
  --Other Core Programs and Mandated Projects ($6.2 million and 28 
        FTEs).--Several of the Library's core programs require 
        additional resources, including the mass deacidification 
        program, the Integrated Library System, the Law Library 
        acquisitions program, the talking books program, the Office of 
        Inspector General, and the Library's space management program. 
        In addition, several congressionally mandated programs require 
        the resources adequate to accomplish their assigned missions: 
        the Veterans History Project; the Meeting of Frontiers program, 
        the National Film Preservation Foundation, and the retail sales 
        program.
    Concurrent with the submission of this budget request, the Library 
has submitted an fiscal year 2003 supplemental appropriations request 
of $7.4 million for two physical security items that are included in 
our fiscal year 2004 physical security budget request of $17.5 million. 
If approved, the two items would immediately support our emergency 
management program and alternative computer facility, and the Library's 
fiscal year 2004 budget request could be reduced by $7.4 million.

                     THE LIBRARY OF CONGRESS TODAY

    The core of the Library is its incomparable collections and the 
specialists who interpret and share them. The Library's 126 million 
items include almost all languages and media through which knowledge 
and creativity are preserved and communicated.
    The Library has more than 28 million items in its print 
collections, including 5,706 volumes printed before the year 1500; 12.3 
million photographs; 4.9 million maps; 2.6 million audio recordings; 
900,000 motion pictures, including the earliest movies ever made; 5.1 
million pieces of music; and 56.1 million pages of personal papers and 
manuscripts, including those of 23 U.S. Presidents, as well as hundreds 
of thousands of scientific and government documents.
    New treasures are added each year. Notable acquisitions during 
fiscal year 2002 include: one of the earliest maps to identify the 
United States as an independent country (Carte des Etats De L'Amerique 
Suivant le Traite de paix de 1783, Dediee et presentee a s. Excellence 
Mr. Benjamin Franklin), with extensive marginal text reporting the 
military events of the American Revolution; the comprehensive papers of 
Jackie Robinson, including more than 7,000 items on all aspects of his 
life; 26 rare Afghan monographs smuggled out of Afghanistan during the 
Taliban era; 67 North Korean movies and additional North Korean videos; 
and the Prelinger Collection of more than 48,000 historical motion 
pictures, which brings together a variety of American ephemeral 
advertising, educational, industrial, amateur, and documentary films of 
everyday life, culture, and industry in 20th century America.
    Every workday, the Library's staff adds more than 10,000 new items 
to the collections after organizing and cataloging them. The staff then 
shares them with the Congress and the nation--by assisting users in the 
Library's reading rooms, by providing on-line access across the nation 
to many items, and by featuring the Library's collections in cultural 
programs.
    Every year the Library delivers more than 800,000 research 
responses and services to the Congress, registers more than 520,000 
copyright claims, and circulates more than 23 million audio and braille 
books and magazines free of charge to blind and physically handicapped 
individuals all across America. The Library annually catalogs more than 
300,000 books and serials, providing its bibliographic records 
inexpensively to the nation's libraries, thus saving them millions of 
dollars annually.
    The Library also provides Congressional offices, federal agencies, 
libraries, and the public with free on-line access, via the Internet, 
to its automated information files, which contain more than 75 million 
records. The Library's Internet-based systems include major World Wide 
Web services (e.g., Legislative Information System, THOMAS, 
<www.loc.gov>, <www.AmericasLibrary.gov>, Global Legal Information 
Network, the Library of Congress On-line Public Access Catalog 
[<www.catalog.loc.gov>], and various file transfer options).

                    FISCAL YEAR 2002 ACCOMPLISHMENTS

    Fiscal year 2002 was an exciting year for the Library of Congress. 
Major achievements include the completion of the congressionally 
mandated National Digital Information Infrastructure and Preservation 
Program plan; the addition of 14 new multimedia historical collections 
to the American Memory Web site, increasing to more than 7.8 million 
the number of items freely available on-line; responding to the 
September 11th terrorist attack and subsequent anthrax incidents by 
providing focused research support for the Congress on terrorism and 
homeland security and by acquiring and preserving historically 
significant items for a worldwide record of the events and their 
aftermath; improving the security of the Library's people, collections, 
and buildings; reducing the Library's arrearage of uncataloged 
collections by more than one million items; and recording more than 2 
billion electronic transactions on the Library's Internet Web sites.

                           PHYSICAL SECURITY

    The Library is requesting a $17.5 million and 62-FTE increase to 
support improved security of the Library's people, collections, and 
buildings. Components of the increase are:
  --Police Staffing.--The Library is requesting $4.8 million and 54 
        FTEs as the first increment of increasing the Library's police 
        force by 108 FTEs, including four support personnel. The 
        increase in police staffing cannot wait until the merger with 
        the Capitol Police is completed. Enhanced security and new 
        posts require more police to ensure that all building entrances 
        are staffed at the standard level, that new and enhanced 
        exterior posts are staffed, and that overtime is not excessive.
  --Alternative Computer Facility (ACF).--The Library is requesting 
        $2,759,000 and 2 FTEs for ongoing operational costs of the ACF, 
        including hardware and software maintenance and networking and 
        telecommunications costs. In addition, $1,863,000 is required 
        for CRS to implement its portion of the ACF, including the 
        purchase of hardware, software, and contract staff to plan, 
        design, and establish data linkages with the Library's Capitol 
        Hill computer center and to reprogram its request tracking 
        system. The Library's computer operations remain vulnerable to 
        a Capitol Hill disaster until the ACF is brought on-line.
  --Public Address System.--To provide effective communications for all 
        emergency situations, the Library is requesting $5.5 million to 
        implement a public address system for its three Capitol Hill 
        buildings and for the special facilities center. The current 
        inadequate public address system is built into the existing 
        fire alarm system, maintained by the Architect of the Capitol 
        (AOC). While improvements to the fire alarm system are being 
        considered; by 2007, the proposed upgrades would not meet the 
        Library's current operational requirements. These include: 
        communicating effectively in emergency and non-emergency 
        situations; reaching all areas throughout the Library 
        buildings; providing accurate and timely information; advising 
        staff appropriately to mitigate risk and potential loss of 
        life; and evacuating buildings expeditiously and in an orderly 
        manner. To protect its staff and visitors in today's uncertain 
        environment, the Library needs these improvements now.
  --Security Enhancement Plan Additional Requirements.--The Capitol 
        Hill security enhancement implementation plan approved by the 
        Congress in 1999 called for the consolidation of the Library's 
        two police command centers, the installation of a new intrusion 
        detection system, and improved police communications. The 
        Library is requesting $2.1 million and one FTE to meet 
        additional requirements associated with these tasks, including 
        $1 million for additional card readers and door alarms.
  --Emergency Management.--The Library is requesting $511,000 and 5 
        FTEs to establish an Office of Emergency Management and create 
        a medical emergency coordinator position. The part-time 
        collateral duty for the Library's existing staff who perform 
        emergency management responsibilities is inadequate for today's 
        challenges. The office would coordinate emergency planning, 
        training, and operations (response and recovery). The medical 
        emergency coordinator would provide research, analysis, and 
        interpretation of medical issues. Funding the Library's 
        security request will enhance the Library's ability to protect 
        its priceless staff and collections and lessen the 
        vulnerability of the entire Capitol Hill complex by making the 
        Library's security more compatible with that of the complex as 
        a whole.

                  COLLECTIONS SECURITY AND MANAGEMENT

    A total of $14.1 million and 30 FTEs is requested for the 
preservation, security, and management of the Library's collections. 
Funding is requested for the following:
  --$11 million for the National Audio-Visual Conservation Center.--The 
        National Audio-Visual Conservation Center (NAVCC) located in 
        Culpeper, Va., will be a world-class, state-of-the-art 
        conservation center that will, for the first time, consolidate 
        and integrate the Library's Motion Picture, Broadcasting, 
        Recorded Sound Division (MBRS) administrative, acquisitions, 
        processing, storage, preservation, laboratory transfer, and 
        reformatting activities in one central facility. Audiovisual 
        materials contain an ever-increasing percentage of the 
        historical record. Principally funded by what will be the 
        largest private gift in the history of the Library, it is 
        essential at this stage to demonstrate Congressional sustaining 
        support for this largely privately funded public resource. The 
        NAVCC will enable the Library to redress significant 
        limitations in its current ability to store, preserve and 
        provide access to its moving image and recorded sound 
        collections in the following ways:
    --Collections Storage.--The Library's moving image and sound 
            collections are currently housed in storage facilities in 
            four states and the District of Columbia. When the NAVCC is 
            opened, the Library for the first time will be able to 
            consolidate all its collections in a single, centralized 
            storage facility that provides space sufficient to house 
            projected collections growth for 25 years beyond the NAVCC 
            move-in date.
    --Preservation Reformatting.--The NAVCC Film and Sound & Video 
            Preservation Laboratories are being designed to increase 
            significantly the number of items preserved for all types 
            of audiovisual formats. Without the NAVCC, the Library's 
            current preservation rate would result in the preservation 
            of only 5 percent of its total endangered sound and video 
            materials by the year 2015. By contrast, we project that 
            the new NAVCC laboratories will enable us to preserve more 
            than 50 percent of these endangered collections in the same 
            10-year period after move-in.
    --Digital Repository and Access.--The NAVCC will also include a 
            Digital Audio-Visual Preservation System that will preserve 
            and provide research access to both newly acquired born-
            digital content, as well as analog legacy formats. This new 
            system is contributing to the Library's overall development 
            of a digital content repository and uses a new paradigm of 
            producing and managing computer-based digital data.
      The bulk of the $11 million fiscal year 2004 NAVCC budget request 
        is for collections storage shelving. This includes $3.6 million 
        for high-density mobile shelving that will be used to fill the 
        large vault rooms in the main collections building and $4.1 
        million for special shelving to outfit the more than 120 
        smaller vaults that will be separately constructed and 
        dedicated to the storage of nitrate motion picture film. The 
        shelving will maximize storage capacity for the many moving 
        image and recorded sound formats held by the MBRS Division. The 
        fiscal year 2004 request also includes $1 million for 
        telecommunications equipment and cabling; $1,285,000 and 6 FTEs 
        for digital preservation; $694,000 for security equipment; and 
        $240,000 and 2 FTEs for administrative support. Collections 
        shelving, security equipment, and telecommunications cabling 
        and equipment (regular Library operational costs) are required 
        to maintain the schedule for implementing this critical 
        facility, which will ultimately hold more than 900,000 films 
        and 2.6 million audio materials. The facility will be 
        constructed in two phases: in 2004, non-nitrate storage 
        building; in 2005, processing building and nitrate storage. 
        Funding this year is critical to meeting this construction 
        schedule as well as helping to finalize the private-sector 
        investment in this facility, which is estimated to exceed $120 
        million. The AOC contribution of $16.5 million for the 
        acquisition of the facility has already been appropriated, but 
        the AOC requires $1.3 million in additional fiscal year 2004 
        resources for operations and maintenance of the facility.
  --$1,900,000 to secure the collections by improved inventory 
        management.--The Library's collections security plan requires 
        tracking incoming materials using the Library of Congress 
        Integrated Library System (LC ILS). The Library has embarked 
        upon a multiyear program to enhance the accountability of 
        collections serials and several special-format collections. 
        Additional contract resources are requested to check in serial 
        issues as they are received, create item records for serials as 
        individual issues are bound, barcode and link each self-
        contained serial volume and incoming non-rare monographs, and 
        convert 10,000 Japanese, Chinese, and Korean serial titles from 
        manual files to the LC ILS. Using the LC ILS, the Library also 
        proposes to use contract resources to: establish on-line 
        records for 2,500 American Folklife Center ethnographic 
        collections; achieve effective tracking, circulation, and 
        inventory control for the 850,000 items in the collections of 
        the Rare Book and Special Collections Division; and prepare 
        holdings records for nearly 250,000 manuscript boxes in the 
        Manuscript Division.
  --$1,157,000 and 22 FTEs to reduce the Acquisitions Directorate 
        arrearage.--The Library has not received a sizable infusion of 
        new staff to help meet its obligation to reduce the arrearage 
        for more than a decade. The current level of staffing will not 
        permit the Library to meet the congressionally mandated 
        arrearage reduction goals for fiscal year 2004 and beyond. The 
        Library is asking for a three-year extension in meeting its 
        non-rare print and non-print arrearage targets, along with the 
        temporary staff needed to meet the targets within the revised 
        time frame.

                            COPYRIGHT OFFICE

    The Library's Copyright Office promotes creativity and effective 
copyright protection, annually processing more than 520,000 claims. 
Each year, the office transfers about 900,000 works, with an estimated 
value of more than $30 million, to the permanent collections of the 
Library. The office also records more than 10,000 documents referring 
to approximately 250,000 titles and responds to more than 360,000 
requests for information a year.
    In fiscal year 2002, the Copyright Office was provided $7.5 million 
in supplemental appropriations to cover potential receipt shortfalls 
due to the disruption of U.S. mail delivery following the anthrax 
incidents. Once all the mail was processed, at the end of fiscal year 
2002, $5.6 million of the supplemental appropriations remained 
available and was subsequently used to offset the fiscal year 2003 
appropriation, requiring the Copyright Office to use its remaining no-
year funds for basic operations in fiscal year 2003. For fiscal year 
2004, restoration of the funds is needed to support the Copyright 
Office's operations. The Library also requests $2.1 million to keep the 
Copyright Office's re-engineering project on schedule, which is 
critical to meeting its mission in the digital age. The Copyright 
Office must replace outdated information systems that have evolved over 
the past 20 years with modern technology that promotes the use of 
electronically received applications and works. The Register of 
Copyrights will provide more details about this critical project in her 
statement.

                     CONGRESSIONAL RESEARCH SERVICE
 
   As a pooled resource of nonpartisan analysis and information, CRS 
is a valuable and cost-effective asset to the Congress. To carry out 
its mission, CRS staff provide a wide range of analytic and research 
services, including close support to the Members and committees 
throughout the legislative process by interdisciplinary research, which 
includes reports and consultations, analyses of alternative legislative 
proposals and their impacts, assistance with hearings and other phases 
of the legislative and oversight processes, and analysis of emerging 
issues and trend data.
    In addition to funding for the CRS portion of the ACF, CRS is 
requesting additional resources in three areas: (1) $1,460,000 to 
develop technical solutions that ensure that the Service's materials 
are available to the Congress whenever and wherever they may be 
required; (2) $759,000 to add specialized technical capacity for 
database management activities; and (3) $535,000 for incentives that 
encourage staff retention. The resources respond to the Congressional 
mandate and will enhance CRS effectiveness and efficiency through 
improved business processes and updated workforce policies. The CRS 
Director will provide more details of the request in his statement.

               OTHER CORE PROGRAMS AND MANDATED PROJECTS

    The Library is requesting a total increase of $5.2 million and 28 
FTEs for core programs and projects and for congressionally mandated 
projects. Components of the increase are:
Core Programs
    Mass Deacidification.--The Library requests $919,000 to support the 
fourth of five increments required in our 30-year (one generation) mass 
deacidification program. The Congress approved the first three 
increments of this critical preservation program, and the Library 
requests a planned increase of $919,000 to continue to scale up to $5.7 
million by fiscal year 2005. By 2005, the Library plans to have reached 
the capacity to deacidify 300,000 books and 1,000,000 manuscripts 
annually.
    Law Library Purchase of Materials.--The Library is requesting 
$360,000 to increase the fiscal year 2003 budget of $1.5 million for 
purchasing law materials above the normal inflationary increase. The 
current base is not sufficient to acquire a comprehensive collection to 
support the Congress, and as a result, the Law Library is no longer 
able to respond quickly to key Congressional questions on issues such 
as anti-terrorism, foreign taxation, international criminal court, etc.
    Library of Congress Integrated Library System.--The Library is 
requesting a total fiscal year 2004 budget of $1,289,000 for the LC 
ILS, an increase of $384,000. The increase would support implementation 
of this mission-critical system for collections control and security, 
including additional bar code scanners and printers.
    Space Moves.--The Library is requesting $1.3 million for contract 
services to expand our capacity to handle space moves within the 
Library's three Capitol Hill buildings. As the Library re-engineers its 
business processes, additional capacity is required to make space 
changes to facilitate the new work flows. This additional capacity 
would enable the Library to avoid serious delays in the implementation 
of space improvements, which reduce the effectiveness and efficiency of 
operations.
    Inspector General Computer Security Audits.--The Office of the 
Inspector General (OIG) is requesting an increase of $200,000 and 2 
FTEs to ensure that agency-wide and system-level information technology 
security reviews covering operational and technical controls, policy, 
and management are performed. The new auditors are required to address 
the Library's longstanding weaknesses in information technology 
security.
Congressionally Mandated Projects
    Veterans History Project (VHP).--In fiscal year 2003, the Congress 
approved $476,000 and 6 FTEs for this massive project. The overwhelming 
nationwide reaction to this popular program has exceeded our 
expectations, and the Library requests an additional $579,000 and 7 
FTEs to respond to the demands of this mandated program for interviews 
of a potential veteran population of 18 million.
    Meeting of Frontiers.--In fiscal year 1999, the Congress 
appropriated $2 million to digitize and place on-line materials from 
both Russia and United States to tell the story of the American 
exploration and settlement of the West, the parallel Russian 
exploration and settlement of Siberia and the Far East, and the meeting 
of the Russian-American frontier in Alaska and the Pacific Northwest. 
To date, the Web site for the project includes about 100,000 images. 
The Library is requesting $375,000 and 3 FTEs to continue the project 
in fiscal year 2004, including digitizing more items and continuing and 
promoting the educational use of the materials in both countries.
    National Film Preservation Foundation.--Authorization for the 
National Film Preservation Board and the National Film Preservation 
Foundation expires on October 11, 2003. As part of the reauthorization 
legislation for the film foundation, the Library is seeking to increase 
the government's matching contributions from $250,000 to $500,000. The 
film foundation has a proven track record of preserving our film 
heritage through matching private-sector grants, which is a cost-
effective way to address this critical need. The foundation has 
supported a large number of small preservation centers all across 
America.
    Retail Sales Programs.--The Library requests $715,000 and 5 FTEs to 
provide capital for the retail sales program, including the Sales Shop 
and the Photoduplication Service. The added funding would support 
additional e-commerce and marketing efforts designed to generate 
profits from the Library's retail sales program, which would be used to 
benefit the Library's core programs. Without an initial infusion of 
capital, the Library will be able to implement only incremental 
improvements toward making these programs into profit centers that can 
support other Library activities.

   NATIONAL LIBRARY SERVICE FOR THE BLIND AND PHYSICALLY HANDICAPPED

    The Library administers a free national library program of braille 
and recorded materials for blind and physically handicapped persons 
through its National Library Service for the Blind and Physically 
Handicapped (NLS). Under a special provision of the U.S. copyright law 
and with the permission of authors and publishers of works not covered 
by the provision, NLS selects and produces full-length books and 
magazines in braille and on recorded disc and cassette. The Library 
distributes reading materials to a cooperating network of regional and 
subregional (local, nonfederal) libraries, where they are circulated to 
eligible borrowers. Reading materials and playback machines are sent to 
borrowers and returned to libraries by postage-free mail. Established 
by an act of Congress in 1931 to serve blind adults, the NLS program 
was expanded in 1952 to include children, in 1962 to provide music 
materials, and in 1966 to include individuals with other physical 
impairments that prevent the reading of standard print.
    The fiscal year 2004 budget maintains program services by funding 
mandatory pay and price-level increases totaling $1,068,000 and 
restores a $1 million one-time base reduction for purchase of talking 
book machines, which is offset by a $1 million decrease for a one-time 
payment to the National Federation of the Blind. Restoring the one-time 
base cut and funding the fiscal year 2004 increase is necessary to 
ensure that all eligible individuals are provided appropriate reading 
materials and to maintain a level of sound reproduction machines able 
to satisfy basic users' requirements without delays. The budget 
continues to support the exploration of alternative digital 
technologies, which will ultimately lead to a new delivery system to 
replace the current analog cassette tape technology.

                     LIBRARY BUILDINGS AND GROUNDS

    The AOC is responsible for the structural and mechanical care and 
maintenance of the Library's buildings and grounds. In coordination 
with the Library, the AOC has requested a fiscal year 2004 budget of 
$47.1 million, an increase of $9.8 million. The AOC budget includes 
funding totaling $4.2 million in appropriations for four projects that 
were requested by the Library.
    As mentioned earlier in this statement, the National Audio-Visual 
Conservation Center in Culpeper, Va., is being constructed, and the AOC 
requires operations and maintenance funding of $1,263,000 during fiscal 
year 2004 to support this critical project. Assurance of the government 
support is critical in leveraging the far larger amount (which has now 
increased to well over 75 percent of the total) that we are raising 
privately for this project.
    The three other Library-requested projects support the security of 
the Library's collections, the design of a logistics warehouse at Fort 
Meade, Maryland, and space modifications in the James Madison Building. 
Library-requested projects are prioritized based on critical need and 
in accordance with both the security needs and the strategic plan of 
the Library. I urge the committee to support the Architect's Library 
Buildings and Grounds budget, which is critical to the Library's 
mission.

                        AUTOMATED HIRING SYSTEM

    Fiscal year 2002 was the first full year of operation for a new 
hiring process that was implemented to resolve outstanding motions 
pending in the Federal District Court related to the Library's hiring 
and selection procedures for professional, administrative, and 
supervisory technical positions. As I reported last year, the Library 
encountered implementation problems associated with the new hiring 
process, including a new automated hiring system. I am pleased to 
report that significant progress has been made. Managers made 300 
professional, administrative, and supervisory technical competitive 
selections in fiscal year 2002 using the new process. This compares 
favorably with 187 such selections during fiscal year 2001 and a five-
year average of 190 positions during the period of fiscal year 1996-
2000. The new process is content-valid (i.e., a strong linkage exists 
among job requirements, application questions, and interview questions 
developed by subject matter experts), and the new process enables the 
Library to reach a wider applicant pool because of its on-line 
capabilities.
    We are absolutely committed to a fair hiring system that meets both 
competitive selection requirements and timeliness goals.

                            FEDLINK PROGRAM

    The Library's FEDLINK revolving fund program coordinates services 
and programs on behalf of federal libraries and information centers, 
including the purchase of library materials. The Faxon Company, a 
FEDLINK vendor that provides subscriptions to participating libraries, 
filed for Chapter 11 bankruptcy protection on January 27, 2002. As part 
of the bankruptcy case, the Library has established a claim of 
approximately $2.5 million for unfilled orders for FEDLINK libraries.
    Faxon and its bankrupt parent company, RoweCom, Inc., intend to 
submit a reorganization plan that calls for the purchase of their 
operations by EBSCO Industries and the resumption of service to 
libraries. At the time of the preparation of this statement, the 
ultimate liability for the Library or the FEDLINK revolving fund 
customers is unknown, but the Library believes a substantial portion of 
the orders will be filled and the claim thereby satisfied. The Library 
will continue to update the committee on the status of this issue and 
any potential need for a deficiency supplemental for the FEDLINK 
revolving fund.

                                SUMMARY

    The Library of Congress is in a critical period when it must, in 
effect, superimpose a select library of digital materials onto its 
traditional artifactual library if it is to continue to be a responsive 
and dynamic force for the Congress and the nation. We are not seeking 
appropriations for any new functions, but rather trying to sustain our 
historic core function of acquiring, preserving, and making accessible 
knowledge and information that is now being generated and communicated 
in a radically new, and particularly impermanent medium.
    Technology change and the growth of our collections will continue 
to drive our budget plans. The Congress deserves great credit for 
supporting all the work that the Library of Congress is doing to 
preserve and make accessible the nation's creative heritage and the 
world's knowledge. Consistently for 203 years, on a bipartisan basis, 
our national legislature has been the greatest single patron of a 
library in the history of the world. As the keeper of America's--and 
much of the world's--creative and intellectual achievements, the 
Library of Congress is keenly aware of the awesome responsibility it 
has been given as we embrace the wonders and opportunities of the 
digital age.
    With Congressional support of our fiscal year 2004 budget, the 
Library of Congress will continue its dedicated service to the work of 
the Congress and to the creative life of the American people.
    On behalf of the Library and all its staff, I thank the Committee 
for its support, and look forward to working for and with the Congress 
to acquire and transmit knowledge for America.

                                 ______
                                 
               Center for Russian Leadership Development

    Chairman Campbell, Senator Durbin and Members of the Subcommittee: 
The Open World Russian Leadership Program began as a pilot exchange 
program in the Library of Congress in 1999 (Public Law 106-31). The 
Open World Program is now conducted by an independent legislative 
branch entity, the Center for Russian Leadership Development--soon to 
be re-named the Open World Leadership Center. June 2003 marks the 
beginning of the fifth year of the program, which already has 6,265 
alumni (as of April 1, 2003) from all 89 political units of the Russian 
Federation.
    Funding for Open World in fiscal year 2003 was finalized only on 
February 20, 2003, in Public Law 108-7, which also authorized a number 
of significant changes. The program's scope was expanded to include the 
11 remaining Freedom Support Act countries, as well as the three Baltic 
states. The Center's name will change on May 15th to the Open World 
Leadership Center to reflect this expanded mission. The scope of the 
Russian program has also been expanded to include cultural, as well as 
political, leaders. The Center's fiscal year 2004 request of $14.8 
million will allow the program to continue to operate in Russia, to 
maintain its efficient operations and low per capita outlay, and to 
develop pilot expansion programs in two to three countries of the 
former Soviet Union and the Baltics if Congress so authorizes after 
Open World pilots are undertaken in fiscal year 2003.
    The Center's proposed expansion pilots must be approved by this 
subcommittee before being implemented. Let me outline for the members 
of the subcommittee the approach we are taking toward this planning and 
what we expect shortly to recommend to the Center's board and 
ultimately to you. The program expansion requires a number of steps 
before and after the subcommittee's approval:
  --strategic assessment of U.S. foreign policy goals and objectives 
        for each country, as well as an assessment of past and planned 
        U.S. government aid;
  --assessment of success factors, including the availability of 
        appropriate nominating and host organizations, and logistical 
        and language support;
  --consultation with the Department of State and an assessment of the 
        availability of assistance from the U.S. Embassy for each new 
        pilot country;
  --publication of grant hosting guidelines and review of submitted 
        proposals;
  --grant awards and program implementation, including travel logistics 
        and visas;
  --development of appropriate evaluation tools.
    Once approval has been granted to proceed with expansion pilots, 
implementation will take a minimum of 16 weeks. Tightened visa 
regulations in almost all U.S. embassies necessitate a lead time of 12 
weeks, which takes into account the possible need for in-person 
interviews for a substantial number of delegates. We hope to have all 
travel for this year's exchanges completed by October 2003, although 
this target could change depending on when the pilots are approved. In 
our Russia program, we have already brought 357 participants this year 
through April 9, 2003.
    Our implementation schedule will not allow the results of the 
pilots to be considered by this subcommittee before action is expected 
to be completed on the fiscal year 2004 budget. Because the Center's 
appropriation is made to its Treasury Department trust fund, funding is 
not restricted to fiscal year obligations. The Center proposes, 
therefore, to maintain a reserve of $2 million to be available to fund 
additional countries. A total of 1,600 participants would be brought 
from the Russian Federation since the beginning of 2003; a total of 160 
participants would be brought from expansion states with an evaluation 
mechanism sufficient to support a decision with regard to program 
continuation or further expansion. The Open World Program might serve 
as a useful model for programs to accompany significant U.S. aid to 
nations in support of democratic reforms and institutions. A draft 
timetable and assessment chart are included as Attachments A and B, 
respectively.
    We are requesting $14.8 million for fiscal year 2004, an increase 
of 14.8 percent over the fiscal year 2003 funding level in order to be 
able to expand the fiscal year 2003 pilot programs in as many as three 
new countries into more full-fledged programs. The decision on how many 
and which programs will be so developed will be based on our assessment 
of the successes of the pilots, and the need to maintain the hosting of 
Russian civic leaders at a level comparable to previous years. The 
fiscal year 2004 request is also premised on the continued and modest 
growth of the Russian Cultural Leaders program, another element of 
expansion mandated in the appropriations for fiscal year 2003.
2002 Program Overview and Highlights
    In 2002 Open World welcomed its largest number of participants 
since the program's inception--2,531--more than ten times the number of 
participants in 2001, when the Center was being created as an 
independent entity, and a 58 percent increase over 2000. A fact sheet 
for the Open World Program is included as Attachment C, but let me 
highlight elements of the 2002 program.
  --The program's reach in both the Russian Federation and the United 
        States is broad and deep.
  --We continue to find young leaders with increasingly significant 
        political experience behind them: 50 percent are working in 
        local, regional, and federal government entities; 21 percent, 
        in education and the media (an area exploding in both number 
        and diversity of outlets in Russia); 17 percent, in Russia's 
        still nascent NGO sector.
  --Home hosting in 2002 has been sustained for 85 percent of 
        participants and the availability of new American host sites 
        continues to expand each year.
    A new theme-focused recruitment effort attracted a higher-caliber 
candidate and allowed host organizations and local host communities to 
develop programs with greater professional benefit for participants. 
This focus increased satisfaction with programs and built professional 
as well as personal ties across the two countries--creating in many 
cases ongoing links that expand the benefit of the 10-day intensive 
training program.
    Eight themes were developed in collaboration with the U.S. Embassy 
in Moscow and with U.S. organizations and foundations working in 
Russia: rule of law, economic development, women as leaders, health, 
education reform, environment, federalism, and youth issues (including 
drug, alcohol, and HIV/AIDS intervention programs). Rule of law (17 
percent) and women as leaders (14 percent) were among the largest 
theme-groupings.
  --2002 Participants represented 47 ethnic groups and 86 of 89 regions 
        (total program representation now reaches 55 ethnic groups and 
        89 of 89 regions).
  --Average age of delegates in 2002 was 38.
  --The Center hosted 53 arriving groups (on unique travel dates) 
        comprised of 464 delegations.
  --Most groups arriving in Washington, D.C., received a political and 
        cultural orientation at the Library of Congress.
  --At the suggestion of our Board members and in recognition of the 
        importance of including more of the Muslim population of Russia 
        in Open World, we have made a significant effort to recruit 
        participants from such traditionally Muslim regions as Adigei, 
        Bashkortostan, Dagestan, Karachaevo-Cherkesskaia, and 
        Tatarstan, and have selectively chosen delegates from Chechnia 
        and Ingushetia. The proportion of Open World delegates who are 
        Muslim reflects the percentage of Muslims in the Russian 
        population, and Open World is prepared to increase its 
        recruitment of this population if Members of Congress and our 
        Board request such action.
  --Women comprised 54 percent of the delegates, reflecting the 
        addition of the ``women as leaders'' theme in 2002.
  --Participants in 2002 were hosted in 372 communities in 48 states 
        (including Alaska and Hawaii); overall Open World hosting has 
        reached all 50 states.
  --Colorado hosted 113 participants; Illinois, 168; Utah, 91; Alaska, 
        59; South Dakota, 24.
  --Eighteen host organizations received grants in 2002 (eight 
        organizations were first-time hosts, including the Alaska State 
        Legislature. This is the first elected body to serve as a 
        collective host. We hope to expand the model to other state 
        legislatures as the significance of Russia's regional 
        legislatures grows).
  --Grant applications to host in 2003 (with only civic guidelines 
        posted) already total 23, with hosting capacity of over 4,200 
        participants--and with 10 organizations requesting to host for 
        the first time.

History
    The Open World Russian Leadership Program was initiated as a result 
of a discussion among key Members of Congress in April 1999 and 
launched six weeks later with press announcements in Washington and 
Moscow. The original sponsor of the legislation that created Open World 
(Public Law 106-31) was Senator Ted Stevens (R-Alaska), who now serves 
as Honorary Chair of the Center's Board of Trustees. The program 
continued as a pilot at the Library of Congress until December 2000, 
when Congress created the independent Center for Russian Leadership 
Development (Public Law 106-554) and authorized the Library of Congress 
to continue housing the center and providing administrative support for 
its operations.
    From its inception, Open World has enjoyed strong support from 
Members of Congress. Five members serve on its Board of Trustees 
(Attachment D). This year 34 Members of Congress and five justices of 
the Supreme Court welcomed Open World delegations, joined by 13 
governors; 33 mayors of major cities; state legislators; and community 
and civic leaders in 48 states. At a time when the United States has an 
enhanced understanding of the value of public diplomacy, Open World 
stands as the largest ``people-to-people'' exchange since the 
establishment of the Fulbright-Hays Program and the Peace Corps.
    The Open World Program was created in a few short weeks at a time 
when U.S.-Russian relations were at a particularly difficult point 
during the late spring of 1999. In the intervening years, relations 
between Russia and the United States improved, particularly after the 
tragic events of September 11, 2001.
    Unfortunately, relations between Russia and the United States in 
April 2003 are again strained, and anti-American sentiment is again 
evident in Russia. The percentage of Russians holding unfavorable 
opinions of the United States has risen to a level roughly equivalent 
to opinion tracked during the NATO bombing of Yugoslavia in the spring 
of 1999 (Attachment E). At that time, Congress expressed its judgment 
on the importance of this country's relations with Russia by 
appropriating funds for a new Russian Leadership Program--which the 
Library of Congress organized. We brought 1,975 young emerging 
political leaders from Russia to the United States for the first time 
for brief stays to observe America's democracy and market economy 
firsthand. The participants were active leaders, not scholars; they 
stayed in homes, not hotels; they saw the United States with their own 
eyes and made their own judgments; they immersed themselves in a single 
community.
    Open World participants are the leaders of a struggling but 
emerging democracy in all 89 regions of Russia--not just in Moscow with 
its veneer of fast food restaurants and American television and films. 
Open World participants stay in, and establish often continuing links 
with communities all over America--not just with New York and 
Washington. Thanks to Open World, there are now hundreds of cities and 
towns whose mayors, regional and city legislators, judges, prosecutors, 
educators, entrepreneurs, women leaders, and NGO leaders have been 
welcomed into American communities and homes. While here, these Russian 
leaders have observed and discussed jury trials, health care delivery, 
AIDS prevention, high school drug intervention programs, the nature of 
federalism in emerging democracies, and the financing and building of 
small and medium-sized businesses.

Then and Now
    The Open World Program was initiated in 1999 and is even more 
important today--because cementing Russia's engagement with the West is 
one of the most critical continuing challenges for American foreign 
policy. Russia has a geopolitical position bordering on many of the 
most potentially threatening regions in the world; and it has one of 
the world's largest stores of weapons of mass destruction and of 
untapped natural resources. It is aggressively trying to replace a long 
authoritarian tradition with a fragile democracy; and surprisingly few 
of its leaders have had any experience of how an open society operates.
    The State Department--with whom we consult and work closely (the 
Open World Program is housed in the U.S. Embassy in Moscow) has 
testified this year that Russia is now well on its way in its 
transition to democratic governance and a market economy. Because 
Freedom Support Act assistance to Russia is being phased out over the 
next several years, in part to devote funding to Central Asia, the 
State Department is looking to other assistance and exchange programs, 
such as Open World, to continue to support fundamental change in 
Russia. It is clearly an important priority for the United States to 
engage in public diplomacy and provide increased aid to the states of 
Central Asia, which have understandably received greater attention 
since September 11, 2001. But the work of Russia's emerging and still 
struggling generation of future leaders is not over--it has scarcely 
begun. Opportunities to bring the next generation of Russian leaders--
committed to democracy and real progress--remain strong.
    U.S. visits offered by the Open World Program remain the single 
most important and cost-effective means of continuing a positive and 
productive Russian engagement with the United States whatever the 
fluctuations in our diplomatic relations. The program's home in the 
Legislative Branch secures not only the involvement of Members of 
Congress but a direct connection to the communities and states members 
represent--communities that host Russian Open World leaders in 
unprecedented numbers in American homes and that directly reflect 
American values and ideals.
    A closer look at three program areas will help members of the 
subcommittee better appreciate its reach and impact in Russia:

            Rule of Law
    Since launching the Open World specialized rule of law program in 
2001, the Center for Russian Leadership Development has quickly become 
one of the premier organizations working to support Russian jurists as 
they implement judicial reforms. In 2002, 213 Russian judges 
participated in Open World's specialized program in which five Supreme 
Court justices and two Supreme Commercial Court justices participated. 
Each delegation was hosted for a week in the court of a prominent U.S. 
federal or state judge, who planned and participated in the delegate's 
intensive agenda. In 2002, 42 U.S. judges hosted their Russian 
counterparts, and dozens more--including U.S. Supreme Court Chief 
Justice William H. Rehnquist and Associate Justices Sandra Day 
O'Connor, Anthony M. Kennedy, Ruth Bader Ginsburg, and Stephen G. 
Breyer--played an active role in the Russian jurists' professional 
programs.
    Activities included observing court proceedings; shadowing American 
judges; visiting corrections facilities, police departments, and law 
schools; and participating in roundtables with judges and other legal 
professionals. Topics covered included judicial ethics and 
independence, court administration and security, case management and 
trial procedures. Several delegations also used their Open World visits 
to establish or strengthen sister-court relationships with their host 
courts. Participants were prepared for their community visits by a two-
day orientation program in Washington, D.C., conducted by U.S. judges 
and judicial staff with the Administrative Office of the U.S. Courts 
and the Federal Judicial Center, the federal courts' research and 
education arm.
    U.S. federal host judges were recruited by, and in many cases 
members of, the International Judicial Relations Committee of the U.S. 
Judicial Conference, the federal courts' policy-making body. State host 
judges were members of the Russian American Rule of Law Consortium, a 
network of partnerships among the legal communities of seven Russian 
regions and seven U.S. states.
    Open World worked closely with the Russian Federation Council of 
Judges (the policy-making body for the country's all-federal courts of 
general jurisdiction) and the Supreme Commercial Court of the Russian 
Federation in selecting candidates for the program.
    A special focus of this Open World rule of law programming in 2002 
was jury-trial procedure. The jury-trial system, which was banned 
throughout the Soviet era, was reinstituted on a pilot basis in the 
early 1990s in nine Russian regions. The recent passage of President 
Putin's judicial reform package includes the nationwide expansion of 
jury trials for serious criminal cases. Judges, prosecutors, and 
defense attorneys throughout Russia must now quickly become familiar 
with jury procedures. In response, Open World 2002 included programming 
and hands-on exposure to observe how American-style jury trials are 
conducted for three delegations made up of teams of prosecuting 
attorneys, defense attorneys, and judges.
    Open World 2002 included a new focus on legal education. Twenty-
four deans and faculty of Russian law schools participated in visits 
hosted by Cleveland State University College of Law, George Washington 
University Law School, Rutgers Law School, University of the Pacific 
McGeorge School of Law, University of Maine School of Law, and Vermont 
Law School. Court administrators were also included in the Open World 
2002 specialized rule of law programming, with one delegation 
participating in a court management program hosted by the National 
Center for State Courts in Arlington, Virginia, and in Portland, Oregon 
(where they attended the annual meeting of the National Association of 
Court Managers), and several more high-level court administrators 
joined other delegations.

            Women as Leaders
    The women as leaders theme was a major new focus for the 2002 Open 
World Program in recognition of the markedly increased role of women in 
the new generation of emerging Russian leaders. Aiming to promote the 
professional advancement of women in many fields, the women as leaders 
program gave 361 Russian women new leadership skills, resources, and 
training. The 2002 program targeted specific groups of women, including 
politicians; entrepreneurs; journalists; and activists addressing human 
trafficking and domestic violence. Many women were recommended by 
first-time Open World nominating organizations recruited to nominate 
for this new theme, such as the League of Women Voters, the Alliance of 
American and Russian Women, the Association of Women Journalists, and 
Russia's Ministry of Labor and Social Development.
    During their U.S. visits, participants job shadowed their American 
counterparts, attended leadership training seminars, met with prominent 
researchers and specialists in their given fields, and visited women's 
organizations and other NGOs to learn new strategies for fundraising, 
membership, volunteer recruitment, and advocacy. For example, Vital 
Voices Global Partnership, which works to expand women's roles in 
politics, civil society, and business, conducted an effective training 
program for a group of thirteen Russian women working against the 
serious problem of human trafficking as researchers, counselors, 
activists, and NGO and government leaders. While in the United States, 
the Russian women not only learned about practical strategies to fight 
trafficking, they also built new partnerships with their American 
counterparts involved in this issue, as well as among themselves. The 
importance of creating a support network with other anti-trafficking 
advocates in Russia was summed up by one participant from a small city 
in Russia's Far East, who said, ``I found out we are not alone. I'm 
from so far away, but there are so many of us.''

            Election 2002
    The fall 2002 election cycle enabled the Open World Program to show 
delegates American democracy in action as part of the program's 
federalism and women as leaders themes. Delegations visited polling 
stations; met with candidates, campaign officials, and journalists; 
received demonstrations on voting technology; and observed candidates 
campaigning. To prepare these delegations, a special presentation on 
American elections and the media was given at the D.C. orientation 
session.
    One such delegation included a department head from the Russian 
Federation Presidential Press Service and prominent women journalists. 
This delegation met with the White House Communications Director, 
attended a White House briefing, visited the Baltimore Sun, met with 
Maryland candidates and political campaign officials and attended 
election night receptions. The Alaska State Legislature hosted two 
delegations of regional legislators and elections officials from the 
Russian Far East for elections-related activities that included 
following candidates as they campaigned door-to-door and analyzing the 
election results with state legislators.
Links to Open World Alumni
    Open World seeks to extend the value and significance of the brief 
U.S. visit for its 6,265 alumni with continuing links to American hosts 
and opportunities to meet and work collaboratively with other Open 
World alumni and alumni of other U.S. government-funded exchange 
programs. Open World made a commitment from its inception to track all 
program participants; ours is the single largest and most current 
database of such alumni in Russia. Because of the number of Open World 
alumni, their distribution throughout all regions, and our ability to 
locate them quickly through the database, U.S. government officials at 
the embassy, consulates, Regional Initiative offices, U.S. Foreign 
Commercial Service offices and other federal agencies meet and work 
regularly with them. Ambassador Vershbow recently met with our alumni 
in Perm and at American Corner openings in Arkhangelsk, Kaliningrad, 
Saratov, and Saint Petersburg.
    Open World's alumni bulletins and English-Russian website provide 
the means for communication and enhanced professional opportunities. 
Alumni are eager to provide Open World with topical articles and to 
report on their projects. Privately-funded efforts in 2003 will expand 
opportunities for training, professional development, and 
communication. Particular efforts will be made to link Open World 
alumni with Muskie and FLEX alumni in order to increase and multiply 
the strong U.S.-Russian political and cultural ties these programs each 
embody.
    Alumni are also contributing to local and regional newspapers, 
sharing their experiences and bringing a new perspective on America to 
local readers. In several cities alumni have organized thematic 
conferences upon their return to Russia. One such example was a 
conference on youth policy in America held in Barnaul on International 
Students' Day. Open World alumni explained how local government, the 
business community, and the nonprofit sector in the United States all 
work together to educate young people. Conference attendees received 
lists of American organizations eager to cooperate with them on youth 
issues. One of the youth leaders in Barnaul, Aleksey Ustiugov, said 
that ``on Open World I was able to study all aspects of the U.S. 
educational system and establish relations with youth organizations. 
The program not only fosters mutual understanding, but also strengthens 
trust and friendship between our nations.''
Achievements and Goals
    Open World has engaged and connected American and Russian leaders 
and citizens at all levels of our political system in unprecedented 
numbers.
    Open World has engaged Americans in more than 900 communities in 
all 50 states in public diplomacy. The United States has no finer 
advocates than our own citizens and community leaders who are actively 
involved in the public, private, and voluntary sectors.
    Opportunities to host Open World participants have expanded each 
year in communities all over America. Interest in building mutual 
understanding has increased. Many communities have hosted every year 
since the program began and maintain strong ties to communities and 
colleagues in Russia.
    The effectiveness of the Open World Program has been recognized by 
the Congress, which has now authorized new nation pilots beyond Russia.
    Open World provides a new, cost-effective model for both 
encouraging democratic development abroad and encouraging citizen 
engagement in public diplomacy at home. This model can probably be 
expanded to many other nations.
    Open World's visitors and hosts express best the program's focus 
and results:

            U.S. Ambassador to Russia Alexander Vershbow
    I would just like to thank Open World for giving Russians the 
chance to take part in these exchanges, which in turn help them 
transform the social and economic life of their regions, and this vast 
country as a whole. Your program touches the lives of individuals, but 
their good works in turn will affect and inspire an entire generation 
of Russians.

            Supreme Court Justice Sandra Day O'Connor

    Nothing holds more promise for achieving the long-term security and 
prosperity of the world community than the rule of law. Nations that 
adhere to the rule of law share certain common understandings that 
reach across cultural and political divides. The Open World Russian 
Leadership Program plays a vital role in this dynamic process.

            Judge Paul A. Magnuson, District of Minnesota
    Through this demanding program, Russian judges and legal personnel 
immerse themselves in the U.S. system of justice by partnering with a 
leading Federal or State judge and living as part of an American 
community. Besides the intensive study and knowledge gained relating to 
case management, scheduling, court administration, jury selection, plea 
agreements, pretrial detention procedures, the adversarial process, 
etc.--there are also profound lessons learned about American society, 
the esteemed position of Judges, and the principles of the rule of law. 
It is clear to me, that the judges and legal professionals 
participating in Open World are taking these lessons home with them and 
sharing them with their colleagues, multiplying many times the 
effectiveness of the Open World rule of law exchange program.

            Chairman of the Council of Judges of the Russian Federation 
                    and Supreme Court Justice Yuriy I. Sidorenko

    During the course of the visits, the Russian judges were successful 
in forming solid, fundamental, long-lasting, and fully productive 
relationships between the Russian and American judiciaries. The 
programs allowed the Russian judges to get acquainted with the system 
of justice in the United States and, because of this, they were able to 
further progressive legal reform in Russia. Last year's program 
provided us with a special opportunity to familiarize ourselves with 
the jury trial system in the United States, which, as is well known, is 
once again being introduced in Russia.

            Open World ``Women as Leaders'' Participant Irina Zamula, 
                    City of Ulan Ude, Buryat Republic, Aide to Russian 
                    State Duma Deputy

    The U.S. Library of Congress Open World program is unique. The 
program makes it possible to strengthen relations between our two 
countries at the level of inter-personal relations, and through 
contacts between ordinary citizens, who are able to see, hear and 
understand one another. The many meetings--gave us a lot. But the most 
important thing--they provided us the opportunity to change our 
stereotypical views toward American society.

                                 ______
                                 
   Prepared Statement of Marybeth Peters, The Register of Copyrights
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the Copyright Office fiscal year 2004 budget 
request. This budget provides the resources for the Copyright Office to 
continue to play a leadership role in addressing, with the Congress, 
the increasingly important and complex copyright issues arising from 
the expanding use of digital technology and computer networks, and to 
fulfill the statutory responsibilities given the Copyright Office in 
our Nation's copyright law.
    In my testimony last year, I urged action on a $7.5 million 
supplemental appropriation request to offset a potential loss of 
receipts due to the anthrax-related disruption of U.S. Postal Service 
mail delivery on Capitol Hill. I begin my testimony this year by 
thanking the committee for approving that request. This funding enabled 
us to maintain our basic operations and ensured that we continued to 
meet public service requirements. We are very grateful that the 
committee recognized the need for this funding and acted so promptly to 
meet it.
    The held mail began to arrive in late April and we made a concerted 
effort to process it, and the fees it contained, as quickly as 
possible. We met our goal of processing all of this held mail by 
September 30th. As a result, the Office only used $1,850,000 by the end 
of fiscal year 2002, and $5,650,000 of the supplemental funds remained 
available. The Office is now, as directed by Congress, using the 
remaining supplemental funds for basic operations in fiscal year 2003. 
Our fiscal year 2003 annual appropriation was reduced by the same 
amount. A principal part of the fiscal year 2004 request I put before 
you today is to restore this $5,650,000 in base funding.
    Our only program change request for fiscal year 2004 is for 
$2,100,000 in new net appropriations and spending authority to build 
integrated information technology systems to support our reengineered 
Copyright Office business processes. The Office is designing these IT 
systems to improve our services to the public and to meet the demand 
for these services online. Copyright Office online services can be a 
major source for the deposit of digital works to the Library of 
Congress. The new net appropriation will be part of the $4.61 million 
in fiscal year 2004 spending for IT systems analysis, design, and 
development. I will address our reengineering program in greater detail 
later in my testimony.

                      THE COPYRIGHT OFFICE MISSION

    The Office's fiscal year 2004 budget request supports the Copyright 
Office's mission to promote creativity by administering and sustaining 
an effective national copyright system. The Office carries out the 
following functions:
  --Administration of the United States Copyright Law.--It processes 
        claims for copyright registration, documents for recordation, 
        and works deposited under the mandatory deposit provisions of 
        the law. It creates public records of these actions and 
        provides copies of deposited works for the Library's 
        collections. For more than 130 years, copyright deposits have 
        been a primary source of works for the Library, especially 
        works by American authors. The Office also administers the 
        law's compulsory licensing provisions, and convenes arbitration 
        panels to determine royalty rates, terms and conditions of 
        licenses, and the disposition of royalties.
  --Policy Assistance, Regulatory Activities, and Litigation.--The 
        Office assists congressional committees in drafting and 
        analyzing legislation relating to intellectual property; 
        carries out important regulatory activities under the Digital 
        Millennium Copyright Act; represents the U.S. Government at 
        international meetings and diplomatic copyright conferences; 
        advises the U.S. Trade Representative, the State Department, 
        and the Commerce Department on domestic and international 
        copyright laws; and assists the Courts and the Department of 
        Justice in litigation involving copyright issues.
  --Public Information and Education.--The Copyright Office provides 
        information to the public about United States copyright and 
        related laws and Copyright Office practices and procedures, and 
        conducts searches, which may be certified, of the copyright 
        records. The Office conducts outreach to inform the public 
        discussion of copyright issues.

                FISCAL YEAR 2004 BUDGET REQUEST SUMMARY

    For fiscal year 2004, Offsetting Collections Authority remains at 
the same level as fiscal year 2003--$23,321,000. This authority is 
based on projected annual fee receipts of $21,500,000, and the use of 
$1,821,000 from the Copyright Office no-year account.
    The Copyright Office no-year account balance totaled $3,850,000 as 
of September 30, 2002. In the current fiscal year the Office will use 
$1,821,000 from the no-year account to partially fund the ongoing 
reengineering program. In fiscal year 2004, the Office proposes to 
continue using no-year account funds for the reengineering program: (1) 
$1,441,000 to partially fund the IT improvements; and (2) $380,000 to 
implement other aspects of reengineering. The use of the no-year funds 
will essentially deplete this account.

      REVIEW OF COPYRIGHT OFFICE ACCOMPLISHMENTS AND FUTURE PLANS

    I would like to briefly highlight some of the Office's current and 
past work, and our plans for fiscal year 2004.
Policy and Legal Responsibilities
    The policy and regulatory work of the Copyright Office is largely 
dictated by the Congress, through responsibilities it gives the Office 
directly in the Copyright Act and through its setting of the 
legislative agenda in this area. Digital technology brings both 
opportunities and problems to the use of copyrighted works. Much is at 
stake in policy deliberations in this area--both in economic terms and 
in advancing education and learning. As such, our policy and regulatory 
work in this area is both increasingly technical and often contentious. 
The proceeding we completed last year on setting rates and terms for 
``webcasting'' and the anticircumvention rulemaking now underway are 
illustrative of this trend.
    On the legislative front, we are pleased that the Technology, 
Education and Copyright Harmonization (TEACH) Act was signed into law 
last year. The TEACH Act promotes digital distance education by 
implementing the recommendations made in my May 1999 report to Congress 
titled ``Report on Copyright and Digital Distance Education.'' At the 
request of the Senate Judiciary Committee, the Copyright Office played 
a key role in bringing about the compromise reflected in the 
legislation by facilitating negotiations between the affected parties.
    We also worked closely with the Judiciary Committees of both houses 
on the issues raised by two 1999 rulings in which the Supreme Court 
determined that the doctrine of sovereign immunity prevents states from 
being held liable for damages for violations of the federal 
intellectual property laws even though states enjoy the full protection 
of those laws. Under current law, copyright owners are unable to obtain 
monetary relief under the copyright law against a state, state entity, 
or state employee unless the state waives its immunity. I testified on 
February 27, 2002, in support of S. 1611. At the request of the 
Judiciary Committees, the Office moderated negotiations between 
intellectual property owners and public universities over the proposed 
legislation, convening a series of meetings over a period of several 
weeks. Through this process, the affected parties were able to reach 
tentative agreement on some issues.
    In a similar manner, over the past year we have advised Members and 
staff on important issues such as piracy in peer-to-peer networks and 
the protection of authentication measures affixed to or embedded in 
certain copyrighted works.
    Congress is also continuing to study options for reform of the 
copyright arbitration royalty panel (CARP) system which the Office 
administers. CARPs are temporary panels composed of hired arbitrators 
who set or adjust royalty rates and terms of statutory licenses, and 
determine royalty distributions. These panels have been operating under 
the auspices of the Copyright Office and the Library of Congress since 
Congress eliminated the Copyright Royalty Tribunal (CRT) in 1993.
    I testified at a June 13 hearing before the House Subcommittee on 
Courts, the Internet, and Intellectual Property to consider how 
effective the CARP process has been thus far and ways in which it can 
be improved. In that testimony, I reviewed the findings of a report on 
CARP reform that the Office had prepared in 1998 at the request of the 
Subcommittee, and I commented on the need to reform the CARP process. 
The Subcommittee held another hearing on this topic this month, and I 
provided testimony then as well. I would note that changes in the 
arbitration system could result in functions that are now funded from 
royalty pools being funded from appropriations. If reform legislation 
is enacted this session with new requirements, our fiscal year 2004 
request would need to be adjusted accordingly.
    As I mentioned, this past year we completed what was perhaps the 
most widely-noticed, and one of the most controversial, CARP 
proceedings the Office has ever undertaken. It involved setting rates 
and terms of payment for two statutory licenses that allow for the 
public performance of a sound recording by means of digital audio 
transmissions, ``webcasting'', and the making of ephemeral recordings 
in furtherance of these transmissions. Under CARP procedures, the panel 
proposes rates and terms and I make a recommendation to the Librarian 
on whether to accept these proposals, or to reject them if they are 
arbitrary or contrary to law. The Librarian, in a June 20 order, 
accepted my recommendation to halve the CARP-proposed rates applicable 
to Internet-only transmissions made by webcasters and commercial 
broadcasters, while accepting the CARP-proposed rates for Internet 
retransmissions of radio broadcasts made by these same services.
    Later in the year, Congress passed into law the Small Webcaster 
Settlement Act. This Act declares that all payments to be made by non-
commercial webcasters during the period of October 28, 1998 until May 
31, 2003, which have not already been paid, shall not be due until June 
20, 2003. With respect to small webcasters, SoundExchange was 
authorized to negotiate agreements with small webcasters; such 
agreements would cover the period from October 28, 1998 through 
December 31, 2004. Once the terms of such agreements were published by 
the Copyright Office in the Federal Register, they would be effective. 
The law required that the royalty payments in these agreements be based 
on a percentage of revenue or expenses, or both, and include a minimum 
fee. These terms would apply in lieu of the decision by the Librarian. 
To encourage agreements, payments of small webcasters would be delayed 
up to December 15, 2002, the date for any agreements to be concluded. 
An agreement was concluded on December 13 and published by the Office 
in the Federal Register of December 24, 2002.
    The section 1201 anticircumvention rulemaking we are currently 
conducting is mandated by the Digital Millennium Copyright Act, which 
provides that the Librarian may exempt certain classes of works from 
the prohibition against circumvention of technological measures that 
control access to copyrighted works. The purpose of this proceeding is 
to determine whether there are particular classes of works as to which 
users are, or are likely to be, adversely affected in their ability to 
make noninfringing uses due to the prohibition on circumvention of 
access controls. The first anticircumvention rulemaking under the DMCA 
was completed in October 2000. The current rulemaking will conclude 
this October.
    The Copyright Office continues to provide ongoing assistance to 
executive branch agencies on international matters, particularly the 
United States Trade Representative (USTR), the Patent and Trademark 
Office (PTO), and the Departments of State and Commerce. There is a 
full agenda of international intellectual property issues in 
international fora, such as those presented in free trade agreements, 
and bilateral negotiations.
    Copyright Office staff were part of the U.S. delegation in the May 
13-17, 2002, and November 4-8, 2002 meetings of the World Intellectual 
Property Organization (WIPO) Standing Committee on Copyright and 
Related Rights, which is considering among other things, a possible 
treaty on the protection of broadcasting organizations. In cooperation 
with the PTO, staff prepared a proposed treaty text that became the 
U.S. proposal and which differed in its scope from the proposals of 
others because of its inclusion of certain activities of webcasters.
    Staff served as part of the U.S. delegation in the World Trade 
Organization (WTO) Council on TRIPS (trade-related aspects of 
intellectual property rights), which met in November 2001 and March, 
June, and September 2002. The TRIPS Council is responsible for 
monitoring the operation of the TRIPS Agreement, and, in particular, 
how members comply with their obligations under it. The Council reviews 
the intellectual property laws of member countries for compliance with 
TRIPS obligations.
    Copyright Office staff were members of the U.S. delegation to the 
November 2001 and September 2002 meetings of the Intellectual Property 
Negotiating Group of the Free Trade Area of the Americas and were 
instrumental in preparations, including the redrafting of U.S. treaty 
proposals. We also participated in the drafting and negotiation of the 
intellectual property provisions of bilateral Free Trade Agreements 
with Chile and Singapore, including the drafting of proposed text, and 
have also taken part in preliminary discussions concerning a possible 
bilateral agreement with Morocco and multilateral agreements with 
groups of nations in Central America and southern Africa.
    As part of its responsibility to provide information and assistance 
to federal departments and agencies and the Judiciary on copyright 
matters, the Copyright Office has assisted the Department of Justice in 
a number of cases, most notably in defending the challenge to the 
Copyright Term Extension Act (CTEA), resulting in the recent decision 
by the Supreme Court in Eldred v. Ashcroft upholding to CTEA.
Registration, Recordation and Cataloging Operations
    The Copyright Office registered and cataloged more than one-half 
million claims for copyrighted works during fiscal year 2002, despite 
the effects of anthrax incidents on Capitol Hill mail and the 
subsequent postal disruption which hampered the flow of claims into the 
Office. The Office received 526,138 claims to copyright covering more 
than 800,000 works and registered 521,041 claims. The Cataloging 
Division received 520,752 registrations in fiscal year 2002 and created 
cataloging records for 578,658. The Division reduced the amount of 
registrations awaiting cataloging from 183,204 to 78,379, a decrease of 
57 percent.
    The Documents Recordation Section received 12,600 documents for 
recordation and cleared 10,506, covering nearly 218,000 titles of 
works.
    During the fiscal year, the Copyright Office transferred to the 
Library of Congress for its collections 896,504 copies of registered 
and unregistered works valued at $31,302,048.
Licensing Activities
    During fiscal year 2002, the Copyright Office administered eight 
CARP proceedings that included five rate adjustment proceedings and 
three distribution proceedings. Of the five rate adjustment 
proceedings, four involved setting rates and terms for the section 114 
digital performance right in sound recordings, and the section 112 
statutory license for the making of ephemeral recordings to facilitate 
these transmissions. The fifth proceeding involved setting rates and 
terms for the section 118 statutory license for the use of certain 
copyrighted works in connection with noncommercial broadcasting.
    The Copyright Office administers the compulsory licenses and a 
statutory obligation under title 17. The Licensing Division collects 
royalty fees from cable operators for retransmitting television and 
radio broadcasts, from satellite carriers for retransmitting 
``superstation'' and network signals, and from importers and 
manufacturers of digital audio recording products for later 
distribution to copyright owners. In fiscal year 2002, the Office 
distributed approximately $110 million to copyright owners. The 
Division deducts its full operating costs from the royalty fees and 
invests the balance in interest-bearing securities with the U.S. 
Treasury.
Copyright Education
    Copyright education is a particularly important aspect of our work, 
as more and more people implicate copyright laws in their daily online 
activities. The Copyright Office responds to public requests for 
information in person, through its website, and via email, telephone, 
and correspondence. It also engages in outreach programs to educate the 
public about copyright issues.
    In fiscal year 2002, the Office as a whole responded to 358,604 
requests for direct reference services, including 57,263 email 
inquiries, of which some 10,000 were on the issue of webcasting. The 
Public Information Section assisted 25,005 members of the public in 
person, taking in 17,644 registration applications and 2,884 documents 
for recordation. The Section answered 123,106 telephone inquiries, 
10,783 letter requests, and 31,681 email requests for information from 
the public, representing an over 100 percent increase in the use of 
email communications. This increase in electronic mail requests is 
partly a result of the public using an alternative means of 
communication during the mail disruption and website modifications that 
made it easier to contact the Office by email.
    The Copyright Office website continued to play a key role in 
disseminating information to the copyright community and the general 
public, with 13 million hits on key pages during the year, an 8 percent 
increase over the prior year.
Reengineering Program
    Over the past three years, we have been undergoing intensive 
planning and design to improve each of the public services I have just 
described. The Office's Reengineering Program will reshape the delivery 
of our public services. We are very grateful for the support this 
Committee has given this important effort.
    The program is progressing along four fronts: process, 
organization, facilities, and information technology. All of these 
areas are linked to each other and have to proceed together. We are 
making good progress and our request for fiscal year 2004 will allow us 
to maintain this momentum. Our goal is to complete implementation of 
our new processes and IT systems in fiscal year 2005.
    This budget requests $2,100,000 to support the development of 
integrated information technology systems for our reengineered public 
services. This request will augment the $2,500,000 to be obtained from 
the Office's base budget. The entire reengineering program depends on 
the development and implementation of new information technology 
systems. So many of the efficiencies we will gain will be from using 
new and better technology, and having all our systems integrated rather 
than working through numerous stand-alone systems as we do now.
    Our fiscal year 2004 request, and our information technology work 
as a whole, is based on careful planning that has been done over the 
past two years. We have completed an extensive study and planning 
effort to design business processes which improve the delivery of our 
public services and allow the public to secure these services online to 
the maximum extent possible. Once we developed processes that we 
believe will enable us to best serve the public, we completed an IT 
requirements analysis, which identified logical systems components and 
potential software packages. This year we plan to award a contract, 
through a government-wide agency contract (GWAC), to begin the work of 
building integrated information technology systems.
    The $2.1 million in new net appropriations will be part of an 
overall $4.61 million budget for this IT systems development work.

                               CONCLUSION

    We expect this will be a busy Congressional session addressing 
copyright matters; we will continue our close collaboration with the 
committees and individual Members on these often complex and wide-
reaching issues. As we continue to fulfill the responsibilities given 
us under the copyright law, including making over one-half million 
registrations each year, we are also intent on maintaining the progress 
of our Reengineering Program to improve these services. Our fiscal year 
2004 request permits us to meet these challenges.

                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to appear before you today to present the fiscal 2004 
budget request for the Congressional Research Service (CRS). Our 
request focuses on two areas of critical importance to the mission and 
continued success of CRS: ensuring continuity of business operations 
and investing in a new generation of workers who choose public service. 
Before discussing the details of our request, however, I would like to 
thank the Subcommittee for its generous support of our fiscal 2003 
budget.

           ASSISTING THE CONGRESS IN A CHANGED WORLD SETTING

    I come before you today at a time of unprecedented circumstances 
for the Congress, for our Nation, and for the world. We are a Nation at 
war. Beyond increasing efforts to ensure the safety and security of our 
staff and systems here on Capitol Hill, CRS continues to work closely 
with Members and Committees in both Houses on a multitude of issues. 
The mission of CRS is to contribute to an informed national 
legislature--a mission of critical importance during a time of foreign 
turbulence and domestic uncertainties. Our country's past experience, 
from the Civil War to Vietnam, suggests that during wartime Congress 
faces enormous challenges in exercising its constitutional legislative 
and oversight responsibilities. During the Civil War the Congress 
created the Joint Committee on the Conduct of the War to investigate 
military operations. Although subject to criticism for its procedures 
and operations, some scholars have credited the Committee for 
contributing significantly to the war effort. The experience of World 
War II, which saw the creation of the so-called ``Truman Committee'' to 
oversee an unprecedented growth in military spending, led to a 
determination by Congress that it required independent, objective 
analytical support in order to design legislative solutions to the 
problems facing the country and to evaluate effectively the proposals, 
policies, and operations put forward by the Executive Branch. 
Consequently, the Legislative Reorganization Act of 1946 included the 
first statutory charter for CRS with a commitment that Congress would 
have access to research expertise at the same level of quality 
available to the President.
    Similar developments occurred during the Vietnam War, when Congress 
was again forced to make critical decisions on issues affecting U.S. 
foreign policy, military capability, economic policy, and domestic 
stability. Congress again concluded that it needed additional support 
in order to evaluate the implications of competing legislative 
proposals and to monitor the myriad programs administered by the 
Executive Branch. As a result, the Legislative Reorganization Act of 
1970 enhanced the mission and functions of the Legislative Branch by 
expanding the roles and mandates of the Congress' support agencies, 
including CRS, leading to a rapid increase in our staff and research 
capabilities.
    The United States is engaged in a period of international conflict 
that is likely to be more complex and threatening than any we have 
faced before. While traditional and conventional military action may be 
intense, as exemplified by Iraq and Afghanistan, the combination of 
world-wide terrorist networks and rogue states possessing lethal 
weaponry leaves us with the prospect of continuing risks and 
uncertainty, both at home and abroad--this war on terrorism is a war 
without boundaries and with no end in sight. In all of the times that 
the U.S. government has had to confront a war and organized terrorism, 
the challenges have never been as great, nor the consequences of 
failure more potentially catastrophic. The budgetary implications of 
this war on terrorism and the needs of homeland security are enormous 
and will continue to rise, as will numerous questions about how much is 
adequate, how priorities should be set, and how resources should be 
allocated. New policies and programs may be needed to defend against 
conventional, biological, chemical, and nuclear attack by improving our 
threat assessment and response capabilities, federal coordination, law 
enforcement capabilities, and public health services. Indeed, most of 
the issues on the Administration and Congressional agendas are being 
reexamined and reshaped. Congress must be prepared to address these 
challenges in both the short and long term, and CRS must be prepared to 
help you.
    Building on our already close working relationship, my goal is for 
CRS to be there with you at every step of the way as you examine a 
range of critical issues with vital consequences for all Americans. The 
activities supporting the war and homeland security may involve 
difficult tradeoffs between the need for greater security on the one 
hand, and important economic, social, and constitutional considerations 
on the other. Similarly, budgetary realities may well require tough 
choices among competing priorities, as new responsibilities for 
establishing stable and democratic regimes overseas are superimposed on 
multiple requirements for military preparedness, domestic and social 
programs, counter-terrorism and intelligence capabilities, and economic 
stimulus.
    Mr. Chairman, I am grateful for the opportunity CRS has had to 
serve you during this difficult time in our nation's history, and I am 
proud that so many Members and staff have called upon us to deliver the 
type of objective, nonpartisan assistance that only CRS can provide. 
Each Member who has called to request a briefing, and each staffer who 
has called to discuss the implications of a particular policy issue or 
problem, has given us an opportunity to contribute. We identify the 
policy problems the Congress is likely to face, seek out solutions to 
those problems and analyze the implications of those solutions for 
policy. We undertake this legislative research often in anticipation of 
the legislative agenda and in collaboration with you, your colleagues, 
and staff. Thus, we are ready to offer the full analytic/research 
capacity of the Service to you when you need it. Congress can continue 
to rely on CRS to advise and assist the Congress in the analysis, 
appraisal, and evaluation of legislative proposals, in order to assess 
the advisability of enactment, estimate the probable consequences of 
such enactment, both intended and unintended, and examine alternative 
options. This work must be done in a manner that is confidential, 
objective, and nonpartisan, and that offers a balanced treatment of the 
issues involved and a range of options for legislative action. Our 
statutory charter makes it clear that our sole mission is to serve the 
Congress. The financial investment that I seek in this year's budget 
request is an investment with multiple benefits: (1) to continue to 
serve the Congress whenever and wherever you need us--within a flexible 
and secure technical infrastructure; (2) to enhance our research by 
establishing capacity to procure, create, maintain and manipulate the 
large data sets upon which CRS analysts rely to conduct their public 
policy assessments of legislative proposals and specific program 
implementation; and (3) to provide CRS managers with flexible tools and 
incentives that can be used to encourage staff retention.

CONTINUITY OF BUSINESS OPERATIONS TO SERVE THE NEEDS OF CONGRESS AT ALL 
                                 TIMES

    Much of your attention today is focused on security matters--both 
here at home and abroad. The first set of initiatives that I present to 
you relates to safeguarding further the Service's infrastructure to 
ensure that CRS will be ready to support your work needs at any time, 
any place, and in any situation.
    The tragic events of September 11, 2001, and the anthrax incidents 
on Capitol Hill, mandate different and additional organizational 
procedures for every business entity, in both the public and private 
sectors, to confront and guard against the ongoing threat of terrorism. 
Through a shared effort with the House and Senate, CRS and the Library 
of Congress will implement an Alternative Computing Facility and 
Disaster Recovery site. With the additional funding that we are 
seeking, we will plan, design, and implement a backup facility that can 
support CRS and the Congress by mirroring the current technical 
environment. The alternative site will provide us with the 
functionality to resume service to Congress in the event that the 
Madison Building computer facilities are no longer available.
    Second, like most government information technology organizations, 
CRS has mission-critical technical applications that need to be 
available in a secure environment 24 hours a day and 7 days a week (24/
7) under a variety of threat scenarios. Our Inquiry Status and 
Information System--ISIS--is the mission-critical application used to 
receive confidential requests from Congress, assign the work to CRS 
analysts, track the work status through completion, and provide 
managers with key performance statistics and indicators. The current 
architecture of the ISIS application cannot support secure 24/7 access 
from remote locations or when the Library's computer facilities are not 
available, a condition that we will have corrected by the end of fiscal 
2004 if funded.
    The last initiative is in response to a Congressional requirement 
stated in the fiscal 2003 Appropriations Act. The Congress directed CRS 
to take steps to ensure that the Service's materials are available to 
Congress whenever and wherever they may be required. Meeting this 
congressional mandate requires that CRS staff--the creators of the 
research and information materials--be as mobile as Congress and be 
able to work from a variety of places other than their own offices. 
This need can arise in a number of different circumstances--including 
normal work situations as well as emergencies.
    Under normal circumstances, for example, a CRS staffer working 
closely with a conference committee late at night in the Capitol may 
require secure access to statistical data that the committee needs to 
decide the final version of a distribution formula for a particular 
program. An example of an emergency situation is the anthrax incident 
that occurred in October 2001 and forced the evacuation of a number of 
congressional and Capitol Hill buildings, including the Madison 
Building. All CRS staff and many congressional staff had to work from 
alternative locations for varying amounts of time. During this period, 
CRS staff could not access information and research materials stored on 
their personal computers or on CRS servers and, had the emergency 
lasted much longer, they would not have been able to support Members 
and committees as required.
    In both normal and emergency work situations, CRS staff need secure 
access to the full range of information and research systems currently 
available through the Library's computer center and CRS' servers. From 
wherever they might be located, our staff need to be able to receive 
and track requests that Members and committees place by phone or via 
the CRS Web site. To respond to these requests and perform the required 
analyses, staff need access to the full text of their research and 
information sources as well as to their raw data and databases to which 
the Service subscribes or which it builds in-house. CRS staff need to 
be able to create reports and other products that respond to 
congressional requests and they need to get those reports and products 
to Congress by uploading them to a Web site or including them in a 
secure email message for delivery. I am requesting funds to develop and 
implement technical solutions that will provide staff with remote 
access, from a variety of alternative work sites, to electronic 
research and information resources so that analysis can be conducted 
wherever CRS staff may have to work.
    Our goal is continuity of basic business operations. Accordingly, I 
am requesting $3.3 million to establish the CRS alternative computing 
facility, to make ISIS portable, and to develop technical solutions to 
support the Congress at any time, at any location. Concurrent with the 
submission of this budget request, the Library submitted a fiscal 2003 
supplemental appropriation request, on behalf of CRS, for $1.863 
million. If that request is approved, CRS can begin immediately with 
implementation of our portion of the ACF and the ISIS reprogramming, 
leaving $1.460 million for our fiscal 2004 needs.

        ADDING CRS CAPACITY FOR DATA BASE MANAGEMENT ACTIVITIES

    Congress looks to CRS for analysis and information that is derived 
from large data sets and surveys because much of the data needed is not 
collected by executive branch agencies or the states. CRS relies 
increasingly on quantitative analysis to support its work for 
committees and Members. Examples of some of the Service's most recent 
efforts include: analysis of caseload data in the TANF program, 
simulation of alternative policy options for child care tax credits, 
and a historical analysis of foreign aid. To meet this growing demand 
most efficiently, CRS must build permanent, skilled capacity to assign 
basic data collection, acquisition, maintenance, cataloging, data 
manipulation, and processing tasks.
    In fiscal 2002, the Congress provided CRS with funding to enhance 
its research capacity by building a more powerful technical 
infrastructure and adding staff who could perform high-level 
statistical analyses. Given the growing number, size and complexity of 
data sets, the maintenance of these data sets now requires a Service-
wide investment that ensures sound data management practices and 
supports the integrity and authoritativeness of the data. The data 
management activities include data acquisition, data library functions 
and data preparation--a professional skill set with industry standards. 
CRS is at a point where we need to add capacity to handle these new, 
increasing, and on-going, critical business functions that support the 
research efforts being performed by top analytic staff. Our fiscal 2004 
proposal will enhance our overall research by establishing specific 
capacity to procure, create, maintain and manipulate large data sets 
upon which CRS analysts rely. The proposal includes contract staff for 
the technical data upkeep of these data sets and one new permanent 
librarian to ensure business continuity and integrity of the data 
content. The additional staff, with specialized data skills, will 
implement industry-standard practices for data management uniformly 
throughout the Service. This new capacity will assure: (1) 
authoritativeness and timeliness of the data through regularly 
scheduled, and often frequent, data refreshment activities; (2) rapid 
access to the data through use of industry-standard data base 
structure, cataloging, and maintenance activities; and (3) consistent 
use and interpretation of the content through standard cataloging and 
data manipulation activities. To establish a new capacity and a formal 
structure for data base management activities, I am requesting $0.759 
million.

   INVESTING IN THE FUTURE: INCENTIVES THAT ENCOURAGE STAFF RETENTION

    The last, albeit no less important, focus of our fiscal 2004 budget 
request addresses updating management tools that meet the work needs 
and expectations of a new generation. We are making substantial process 
in hiring new staff and meeting our FTE targets. With Congress' help 
over the past several years, CRS has made significant staffing 
investments through our multi-year succession initiative and new 
staffing approvals for experts in information technology, combating 
terrorism, and multiple policy aspects of or related to the aging of 
the American population. We have integrated the concepts of succession 
and transition staffing into our formal strategic and annual program 
planning efforts and I want to assure you that I continue to adjust 
existing staff and resources to align with the Congress' legislative 
needs. We are asking Congress' assistance to help us to enhance the 
productivity, efficiency, and attractiveness of CRS as both a first 
choice research service-provider to the Congress and as a first choice 
work-place to a new generation of workers who are electing public 
service as a career. To maximize fully our research capacity and 
talent, we must provide the requisite ``work tools'' that staff need to 
produce the highest analytic quality product for the Congress, and we 
must do our best to retain a highly skilled, well-trained, and 
motivated workforce.
    In terms of retaining the talent drawn to CRS, I am requesting 
funding to initiate a Loan Forgiveness Pilot Program. Retention is a 
top priority for CRS because the Service will need a large number of 
stable, experienced staff to replace those who will be retiring in the 
next few years. CRS has already invested considerable money and effort 
to acquire and develop its current work force to prepare for the 
upcoming retirements. Expanding this investment plan to retain a high 
quality staff makes good business sense and ensures our ability to 
maintain our capacity to serve the Congress as retirements of senior 
staff occur. This program will allow CRS to initiate a pilot program 
that provides for the repayment of student loans. Assisting staff in 
repaying student loans allows us to use this benefit selectively to 
ensure continuity of service over the next years. During the one-year 
pilot, CRS would determine eligibility, against a set of pre-determined 
criteria, for no more than 70 percent of analysts and computer 
specialists hired over the past three years, plus 20 incumbents in 
selected at-risk positions whose loss would seriously impair CRS' 
ability to achieve its strategic goals and objectives.
    We are also seeking a modest increase to our travel, training, and 
awards budget allocations--again as retention incentives. CRS currently 
has approximately half the training funds per employee when compared to 
Executive Branch agencies. An attendant benefit of this modest 
investment is to provide new staff with continuing training experiences 
that foster their ability to assume quickly the responsibilities of the 
veteran staff they are replacing. Members of this bright new generation 
seek out organizations that are willing to offer opportunities for 
continued training and to provide learning experiences that foster 
professional growth, development, and rapid integration into the 
business content and culture. Further, travel and training 
opportunities are vital to the veteran research staff to keep them 
abreast of often changing research approaches, information, and 
research results. These off-site experiences keep them networked into 
policy research communities and enrich their analysis through exposure 
to new ideas, techniques, and information research tools. To establish 
incentives to encourage staff retention, I am requesting $0.535 
million.

            STATUS OF FISCAL 2003 NEW CAPACITY INITIATIVE

    I want to thank you once again for providing CRS with the half-year 
funding in fiscal 2003 to acquire 12 additional research staff to 
address terrorism, homeland security, and an aging U.S. population. We 
expect to have 11 of these staff selected by the end of this fiscal 
year, with the last one to be hired by the end of the calendar year. 
They bring capacities such as biotechnology, epidemiology, physics, 
engineering, gerontology, and transportation safety. Given the current 
world situation, the addition of this new expertise will be invaluable 
to the Congress with the work CRS undertakes to support your 
deliberations.

                               CONCLUSION

    In closing, Mr. Chairman, I appreciate the opportunity to appear 
before you and your colleagues today. CRS is the only source of public 
policy information and research analysis focused solely on the 
Legislative Branch. We take seriously our mission to contribute 
substantively to the overall knowledge base of the Congress by 
providing comprehensive and reliable analysis, research, and 
information services that are responsive, confidential, objective, 
authoritative, and timely. As a shared staff resource for the entire 
Congress, CRS is a cost-effective means of enhancing the Legislative 
Branch's capacity for meeting its constitutional responsibilities 
during this time of continued challenge.
    Once again, CRS continues to adjust existing resources to align 
with the Congress' needs. Our fiscal 2004 request reflects new measures 
and capacities that cannot be drawn from existing resources. I hope you 
find that we are meeting our mission, and that we are doing so in a way 
that warrants your continued trust and support.

                 RUSSIAN LEADERSHIP PROGRAM--OPEN WORLD

    Senator Stevens. Have you called attention to the letter 
you filed about the Open World Program?
    Dr. Billington. No, but I am happy to----
    Senator Stevens. I just want to call to the attention of 
the members that this is a program created by a bill I 
introduced that was Dr. Billington's idea, a very successful 
one. And I say that advisedly. Dr. Billington and I will go 
over and have a celebration in Russia concerning this program 
over the weekend. And I look forward to that. And maybe you 
will help me get out of here.
    Senator Campbell. I think it works the other way around, 
Senator. You have to help me get out of here.

                             POLICE MERGER

    Let me proceed with a few questions myself. We talked at 
length about the Library Police merging with the Capitol 
Police. I am particularly interested in that, I guess maybe 
because I was a deputy sheriff years ago. I had an opportunity 
to talk to Speaker Hastert a couple days ago, because I 
understood that he was not supporting that merger.
    He said he did not see the need for merging them and having 
all the training go to the Library of Congress Police that 
would be simply checking books in and out. So I think there has 
been a disconnect on information somewhere. Would you explain 
to the committee which people are going to merge that work for 
the Library of Congress, which would actually need police 
training, which will not merge and do not need training? 
Because I want to pass that on to him.
    Dr. Billington. Yes. I think I will defer----
    Senator Campbell. General Scott.
    General Scott. Yes, sir.
    Mr. Chairman and members of the committee, our Library of 
Congress Police consists of 131 police officers. These police 
officers are empowered with the full force of the law on the 
premises of the Library of Congress. Their primary 
responsibilities are to man the entrance and exit points in the 
Library of Congress.
    In that context, they differ, their duties differ, from 
other police on Capitol Hill, in that not only are they 
concerned with what comes in the building, but they are very 
concerned about what goes out of the building. They conduct 
exit inspections, looking particularly for library properties, 
such as manuscripts, books, records, all that make up our 
collections.
    Of that number, 131 police, all of them have to have 
training as police officers in order to maintain their 
credibility and their status. Of that number, about 70 percent 
man the entrances and exits. Then there is another percentage 
that operates the police command center. But, that is basically 
what our police do that is different than what the other police 
officers do.
    Senator Campbell. I see. I understand that Speaker Hastert 
does not support that 3-year effective date that I understand 
is now pending in the supplemental conference. So we need to do 
some work with him apparently.

                    LIBRARY OF CONGRESS POLICE FORCE

    Let me go on with some more police questions that are of 
interest to me, too. The Library is requesting 51 additional 
officers in the fiscal year 2004 budgets. Are they needed now 
at this state, or is there any particular deadline by which you 
think it is going to be imperative that they are online?
    General Scott. Yes, sir. We are requesting 51 police 
officers in this particular fiscal year 2004 budget. These 
officers were identified as part of the Library's coordination 
with the Capitol Police back in 1999. At that time, we were all 
looking at our security requirements to ensure that, one, we 
had all of our positions currently identified and those that we 
expected to bring online in 2004.
    We submitted our request for 51 new officers because we 
have new posts that we have to man. We have not coordinated the 
hiring of these new officers with the Capitol Police. We are 
not resisting doing that. As a matter of fact, we look forward 
to doing that, because, where we can, we attempt to meet the 
hiring standards of the Capitol Police.

                         POLICE STAFFING STUDY

    Senator Campbell. Is that what you call a posting study?
    General Scott. Posting study?
    Senator Campbell. Yes. I am not sure what that term means. 
Do you recognize that term?
    General Scott. I do not recognize it, but I will ask my 
director of security, if you do not mind.
    Senator Campbell. Yes. Please identify yourself for the 
record.
    Mr. Lopez. Kenneth Lopez, Director of Security, Library of 
Congress. And the question was, sir?
    Senator Campbell. What is a posting study?
    Mr. Lopez. A posting study is essentially what we do--we 
call it a staffing study. It is where you look at your posts, 
and you determine what your minimum staffing level is for that 
particular post, depending on the function of the post and the 
time of the day.
    Senator Campbell. I see.
    Mr. Lopez. And that is essentially what we do, too. The 
term is different than what we use, but it is the same 
principle.
    Senator Campbell. I see. Well, any additional officers that 
you bring on, they will not negatively impact that impending 
time frame for the merger, will they?
    Mr. Lopez. I do not know what the time frame is that has 
been identified.
    Senator Campbell. Is it 3 years? A minimum of 3 years, yes.
    Mr. Lopez. It would not negatively impact us, if we were 
able to hire the people. Because we are asking for approval to 
hire these new police officers in fiscal year 2004, and were 
able to bring them onboard, then it would not leave any 
weaknesses in our perimeter.

                       DIGITAL FUTURE INITIATIVE

    Senator Campbell. Let me go back to you, Dr. Billington. 
This might not be in your mission but, the rebuilding of Iraq 
is on everybody's minds now. You told me that you will not be 
taking on any new functions. Is there anything that the Library 
of Congress does for new and emerging democracies? For example, 
Iraq does not obviously have libraries that experience a kind 
of total freedom of expression that we have in this country. Is 
there any connection at all with the Library of Congress and 
emerging or rebuilding or new democracies?
    Dr. Billington. Well, yes. There is quite an historic 
connection to that part of the world. We have six overseas 
offices. It is not quite formally our responsibility, but since 
these offices are in the region for instance, we have offices 
in Islamabad, Cairo, New Delhi, Jakarta, Nairobi, and Rio de 
Janeiro--there may be a role for us to play.
    After the first Gulf War, for instance, a good deal of the 
reconstruction of the National Library of Kuwait was from our 
duplicates in the Cairo office. And we would certainly want to 
be helpful with whatever we have in Cairo, Islamabad, and New 
Delhi.
    I mentioned the example of the Law Library replenishing the 
basic law codes of Afghanistan. This is very frequently the 
case. As far as the countries of the Middle East are concerned, 
our overseas offices--where we do the procuring, not only for 
the Library of Congress, but for other research libraries in 
America that cover the Middle East--may be useful in helping 
Iraqi Libraries. I note that we are in fact the largest Arabic 
language library in the world. We can, and we want to be, 
helpful in any way that we can.
    In addition, we are exploring with our online services ways 
to connect to the Middle East. We are going international with 
a project called Global Gateways; one of our leading Arabic 
curators is in Cairo at the moment, exploring a joint project 
with the National Library of Egypt, which is encouraging.

                          EMERGING DEMOCRACIES

    Finally, in the former Communist countries, at the 
direction of the Congress, we sent over teams, largely from the 
Congressional Research Service, to explore the possibility of, 
where they were establishing new parliaments, to advise them 
how they can establish a nonpartisan research base.
    Senator Campbell. Is that under the provision that Senator 
Stevens had talked about?
    Dr. Billington. No. That is an earlier program than the one 
that Senator Stevens mentioned, Open World, which is a new and 
even larger initiative which the Library launched in 1999 with 
Russia. The former effort was aimed at building a kind of 
miniature Congressional Research Service for Eastern European 
nations. One of the things people do not remember is when 
people have not had freedom, and they set up a legislature, if 
they do not have any information, they do not have any 
knowledge. Democracy has to be knowledge based. I mean, it is 
one of the great lessons of the American experience.
    And so--and after the war, for instance, in Japan and 
Korea, they set up diet libraries. They had not had them 
before, but it was an imitation of the Congress' initiative in 
Japan and South Korea. So this has also been done for all of 
the countries of the former Soviet empire.
    Now more recently, the very visionary legislation which 
Senator Stevens championed, resulted in the emergence of what 
is now called Open World. Congress recently changed the name 
from the Russian Leadership Program. Open World has been 
expanded this year. Both Houses have approved the idea of 
exploring two or three new countries for pilot programs. And we 
are now analyzing where they are most needed. Talking with the 
State Department and with others, we have narrowed the list 
down to five.
    And two of the five being considered, for instance, are the 
former Islamic republics of Kyrgyzstan and Uzbekistan, both of 
which have American bases in them and have been very supportive 
to the United States, both of the war on terrorism and more 
recently with Enduring Freedom in Iraq. So--as well as looking 
into the Ukraine, Lithuania, and other----
    Senator Campbell. Is Belarus a candidate for that?
    Dr. Billington. Yes, Belarus is one of the five being 
considered--Belarus, Lithuania, Ukraine, Uzbekistan and 
Kyrgyzstan. And since Congress has changed the name to Open 
World, we now have a mandate to expand beyond Russia. I know 
CRS has had people from Mexico saying they would like to 
explore the possibility at various times of looking into this.
    When Nigeria moved in a democratic direction, we had a 
delegation from Nigeria that came into my office and was very 
interested in how CRS functions. But, of course, they are 
thinking in more modest terms.
    I think there is a great deal the Library can do and has 
done, both in terms of restocking and helping their libraries 
develop and also in terms of the Internet, where we have this 
big international presence, but also in terms of possibly 
helping them support their legislatures.
    In many of these emerging democracies, the executive branch 
has engulfed all the other branches of Government. I might just 
say that the experience in the last year with the Russian 
Leadership, the Open World Program, has been particularly good 
because we have invited judges over, to help develop an 
independent judiciary. We have had 300 or so judges over, and 
many of them have established sister court relationships with 
American courts. And it has been a very stimulating thing.
    That program, the Russian Leadership Program, which is now 
being modeled out for possible other areas, has the great 
virtue of bringing people to see how the American system works. 
It is not travel. They stay in one community. And they have 
come from all 89 regions of Russia and stayed in all 50 States. 
Our participants reflect more than 50 different ethnic groups 
participating from Russia. We forget that Russia is a big, 
multi-ethnic society, as are we.
    So it has been very successful--more than 40 percent of 
these have been women, which is totally new. And, of course, as 
you look around the world, that is another area ripe for more 
full democratic development in many emerging democracies. So I 
think exposure to the American system, through Open World which 
is modeled on the 1.5 percent of the Marshall Plan that was 
designated for training young Germans after the war, is 
successful because it brings young Russian leaders over here to 
see for themselves how America works. They see things that we 
take for granted.
    And so I think there are a number of ways in which the 
Library, for one reason or another, has gotten into this kind 
of activity and we would want to be helpful at the Congress' 
instruction in terms of where the legislative branch sees its 
priorities. All I would stress is that for a new democracy, a 
functioning legislature is essential. One of the progressive 
things that has happened in Russia is they moved from ruling by 
presidential decree, which is basically what President 
Yeltsin--for all his other good qualities--was doing in the 
last years--to getting through laws that are stamped by a 
legislature which broadly represents the whole country. Even if 
the legislature is weak and even if maybe there are other 
things wrong with it, it is still a great step forward and one 
of the more decisive steps in making sure you do not revert to 
kind of absolute autocratic rule.
    Senator Campbell. Oh, I think the effort we have put 
forward as a nation to help any of the emerging democracies is 
really important. The last few years, I have been the Chairman 
of the Helsinki Commission.
    And speaking of Belarus, I have met five times with a young 
legislator of Belarus, three times in international meetings 
and twice he came here. Interesting enough, every time after I 
met with him, he got put in jail, which does not speak very 
well to my prestige in Belarus, I guess. But he told me that 
two of his colleagues, who were taken out of the parliament, 
were never heard of again. Two more that he served with are 
still in prison. So they have a real adversarial relationship 
with the president of Belarus.
    But any kind of information we can get in to their hands 
that would help promote democracy are probably really well 
received by the people.
    Dr. Billington. We have a classic problem in choosing--take 
Belarus and Lithuania. One is quite a repressive society, as 
you know, Belarus. The other is a very open, democratic 
society, even going into NATO and so forth. And you want to 
reward the good guys, but you also want to help the people who 
are having difficulty.
    Exactly the same juxtaposition between Uzbekistan and 
Kyrgyzstan. Kyrgyzstan is an amazingly progressive, functioning 
democracy in very difficult circumstances. Uzbekistan is much 
more authoritarian. So how do you judge which one to invest 
your small pilot efforts in? There is an argument can be made 
for both, but it is not easy to decide.

                    SECURITY--CAPITOL VISITOR CENTER

    Senator Campbell. Let me do this in rounds, so that Senator 
Bennett can participate in this, too.
    Senator, if you would like to ask a few questions?
    Senator Bennett. Well, thank you, Mr. Chairman. I do not 
have any specific questions.
    I am glad you are pursuing the Russian project, because 
that is one that is near and dear to Senator Stevens' heart. 
And during my stewardship, we kept a warm blanket around to 
keep it going. And I am glad to see that it still receives the 
support that I think it deserves.
    The only question I would have, going back to the issue of 
the police merger, I am assuming, Dr. Billington, General 
Scott, that as the visitors center progresses, you are paying 
attention to the integration between the Library and the 
Capitol that will occur as a result of the visitors center and 
the tunnel. I do not know if you have any feel for how many 
visitors to the Library will come through the tunnel or if you 
are planning to steer all of your visitors through the visitors 
center, as a security measure.
    Because from a terrorist point of view, the Capitol campus 
is the number one target in the world. And while the Capitol is 
the symbol that the terrorists want to take down on television, 
the Library of Congress, particularly the Jefferson Building, 
is close enough that they would take that, if they could not 
get into the Capitol. So--well, you understand all this. We 
have had this conversation.
    But have you looked into the visitors center, or are you 
making plans for the impact on the visitors center? And I would 
be interested in knowing if you are planning to redirect 
traffic yourself to the Library through the visitors center or 
if you are going to keep separate entrances open.
    Dr. Billington. I would just say I think this is going to 
greatly increase the security and the efficiency and also the 
convenience to people who want to see the exhibits and see the 
beauty of the great hall and so forth, because very often they 
have to wait out in the snow or in the cold in rather long 
lines. The efficiency of having one major entry point for 
visitors is very good.
    We also hope that the Capitol Visitor Center will be able 
to dramatize not so much something about the Library of 
Congress, but something about the Congress that is 
insufficiently appreciated and understood, namely that this 
legislature has preserved the mint record of private creativity 
in the United States through the copyright deposit system.
    This is a unique thing. No legislature has ever done this 
in any other part of the world. We have the largest performing 
arts library in the world, music and movies and all of this. To 
demonstrate this, not as a Library of Congress collection, but 
as a work of preservation of the legislative branch of 
Government, will be a great thing.
    So we anticipate a great increase in visitors, but at the 
same time a commensurate increase in security protection by 
having this main entry point to the whole complex and relating 
it. I do not know if General Scott has further comments.
    General Scott. Well, I would just add, Senator, that we 
certainly will comply and cooperate, fully cooperate, with 
whatever standards there needs to be in order to make sure that 
we do not have a weak link at any point in the entry or exit of 
this Capitol complex. I am not aware that we have come to any 
final conclusion as to where visitors are going to be routed 
yet. I think that is yet to be planned and coordinated.
    But I just want to share with the committee that Dr. 
Billington has always stressed that we will cooperate fully 
with securing the Capitol complex.
    Mr. Lopez. I would like to say, sir, that we are meeting on 
an ongoing basis with the Capitol Police and the Architect of 
the Capitol to facilitate passage between the two entities, 
even if there were separate entrances, to use the connecting 
tunnel for our exit inspection and also utilizing the Capitol's 
entrance into the visitors center as essentially our entrance 
into the Library, if they came through the visitor center 
tunnel. But we have not reached the point about talking about 
that as the only entrance until a decision is made.
    Senator Bennett. Thank you, Mr. Chairman.

                        AUTOMATED HIRING SYSTEM

    Senator Campbell. In 2001, the Library installed a new 
automated hiring system that was required by a court order. 
What is the status of that system? And will you be able to hire 
up to the level that Congress authorized for fiscal year 2003?
    Dr. Billington. Well, we have increased both the quantity 
and the speed of our hiring very dramatically after some 
initial problems with adjustment to it. But General Scott can 
speak to the details, because he has been watching this very 
closely.
    General Scott. Thank you, Dr. Billington.
    Senator Campbell. Yes, please.
    General Scott. Yes, sir, Mr. Chairman. Yes, we have made 
substantial progress in using the automated hiring system to 
fill our hiring needs. This past fiscal year, we hired 300 good 
quality applicants using the system. Now that compares 
favorably, very favorably, with only 190 hires in the 
administrative and professional categories of a year ago.
    We continue to look at that system and develop a fully 
functioning merit selection system, so that we have a pool of 
applicants that are not only highly qualified, but a pool that 
gives us diversity and everything else that you would want to 
have in a modern system.
    So yes, in summary, we are not satisfied with where we are, 
but the system has demonstrated that it is meeting our hiring 
needs.
    Senator Campbell. Thank you.
    Dr. Billington. We used to have an average of 18 applicants 
for a position. We now have an average of 94. So getting it out 
electronically gives a much richer pool. And that is a real 
plus. That gives you added possibilities for diversity in every 
sense of the word and for surveying a very wide panel. So I 
think it does reach out much more effectively, as well.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                                [NDIIPP]

    Senator Campbell. Let me ask you something about the 
National Digital Information Infrastructure and Preservation 
Program. You recently received the committee's approval to 
proceed with spending $25 million of the $100 million that was 
appropriated for that program. What is the status of that 
effort now?
    Dr. Billington. Well, the National Digital Information 
Infrastructure and Preservation Program is a three-stage 
process. The appropriation has already been made, just a few 
pennies under $100 million, $5 million of which was released to 
start this process. We have had a couple hundred experts 
involved. We had a whole series of strategy meetings with 
convened groups. We had a small group of Government agencies 
that we had to specially consult with under the legislation. 
And we have devised this--we submitted this plan, which was 
approved by five different Congressional committees. There is a 
thicker appendix backup to the plan as well.
    And now we are going on to the next stage, which was 
designed to be a release of another $20 million; and we asked 
to have included in that release the first $15 million of the 
$75 million which needs to be matched. So we are not starting 
on the match right away, but we will hope to be planning for 
that this summer and begin to see if we can get either in-kind 
or cash matching.
    Now what has happened is that we have defined specific 
things that have to be accomplished in the next phase. We have 
developed a kind of base technical architecture for this 
network. And we have worked with a whole series of partners 
very effectively, in the information technology industry, 
libraries and archives, the producers of intellectual property, 
the consumers of the material, all the different interest 
groups.
    So we have sort of a basic agreement that we will now 
further develop and refine the architecture. We will begin to 
form partnerships for a series of pilot projects. The aim of 
this, of course, is to acquire, find ways of acquiring and 
preserving and getting rights-protected access to the amazing 
amount of materials that is being produced on the Internet that 
does not survive, and which very often is born digital, and 
only available in digital forms. The average life of a website 
is only about 44 days.
    In addition to beginning the partnerships and perfecting 
the technical architecture, the National Science Foundation and 
other collaborating Government agencies also are going to be 
doing research. This is a tremendous conceptual problem as 
well.
    We will come back to the committees once again with the 
results of this and hope to have the release of the remaining 
$60 million. This is all money that is already appropriated. 
But we are moving ahead on the schedule that was established 
with what is a very complex problem and with the end result of 
which is going to be a distributed network of people who will 
work together to preserve what is of lasting importance on the 
Internet for future generations. The technical architecture 
will be based on an agreed set of protocols, support metadata, 
so that the content is preserved and secure. We will probably 
be having a lot of conversation with the Congress about 
possible legislation.
    But this has been, I think, a very creative thing. It is 
moving ahead very well. We have had wonderful cooperation. I 
must say, the private sector has given a lot of help. There is 
the implication that everyone will participate and pitch in 
with something quite new, which is distributed responsibility 
for our public national trust.
    The other thing that is important, is that the Library has 
unique experience. It is one of the reasons that I think they 
all agree that the Library of Congress should play a central 
role in this. We did not put them up to that, but they feel it 
is extremely important. We did set the standards for cataloging 
in the print world, so that all libraries could use it. 
Cataloging is a continuing benefit to the whole library system 
of America with the books and what we call analog artifactual 
containers of knowledge and creativity.
    Now in the new digital world, it is going to be much 
tougher. But we still have the basic responsibility of working 
with the National Institute of Standards and Technology and 
Commerce and other Government agencies, and with the private 
sector, to set standards that will be uniform, even though the 
responsibility for executing it will be a distributive one.

                        VETERANS HISTORY PROJECT

    Senator Campbell. Thank you. You are also requesting 
approximately $1 million for the Veterans History Project, 
which is something I think is really overdue and important. 
That was created to collect taped and written accounts of war 
veterans. I assume that means dead or alive going back 
throughout history. The budget you have requested is about 
double the current year's budget. Have you had any problems in 
trying to implement that program?
    Dr. Billington. I think there are no problems that a little 
more help at the center of it would not mitigate, which is why 
we have made this request. It has been an extraordinary 
response.
    Senator Campbell. How do you start cataloging them? Do you 
go through the National Archives or the Department of Veterans 
Affairs or something to find people to interview?
    Dr. Billington. We have working arrangements with several 
hundred national organizations and local organizations--all 
kinds of partners that we work with. We are archiving the whole 
business. They send in their accounts. We have sent out 100,000 
instruction kits of how to prepare accounts and how to conduct 
the interviews. We work through any local organization that 
wants to partner with us. Forty-two of the 100 Senators have 
set up projects in their own States and have specified people 
that we can work with in their States or in their communities. 
About one-third of the House of Representatives has done that 
in their districts.
    We have got a system whereby it is collected through the 
Archive of American Folk Life, which now has permanent status 
within the Library of Congress. They have some experience with 
the overall history and the recording of accounts, because they 
have recorded, as you probably know, some 10,000 wax disks 
dating back to the 1890s with the Native Americans and 3,000 
long-playing records on which so much of that oral history is 
recorded.
    Staff located in the Folklife Center are the people who are 
archiving these histories. They deal with multiple formats. We 
also accept diaries. Some people have moving testaments of 
letters written during the war.
    Senator Campbell. Do you work with tribes, too?
    Dr. Billington. Yes, sir. We have some groups that we have 
worked with, both in Seattle and in Nebraska, if I remember 
correctly. Of course the famous Navajo Code Talkers have been 
the absolute heroes of our last two national books festivals. 
We are working with a wide variety of groups. We also work 
with--let me make sure I get the name right here.
    General Scott. I can fill you in on that.
    Dr. Billington. General Scott, needless to say has been 
intimately involved in overseeing this project.
    General Scott. Yes, sir.
    Dr. Billington. By the way, it is all wars, not just the 
20th Century, that we are commemorating.
    General Scott. Right. We do have one staff person who is 
dedicated for outreach with various minorities in our country. 
We do have several projects, and including one with a Native 
American tribe that is located in or is associated with the 
Oglala Lakota College on the Pine Ridge Indian Reservation.
    We are also working with the Soaring Eagle Foundation in 
Seattle which also is involved with the Veterans History 
Project. We also are working closely with the National Congress 
of American Indians.
    Our aim here is to not try to do all of the collecting of 
the various stories ourselves, but to have as many partnerships 
all across America as we possibly can. What we found is that in 
certain regions of the country you have very strong veteran 
service organizations. But we have also found that for many of 
those veterans organizations minorities do not usually flock to 
those organizations. That is why we have dedicated one of our 
service members as minority outreach.
    Senator Campbell. I might point out that they do not flock 
to the larger, maybe the larger things, for instance, like the 
VFW. Some of the minority groups might not join the downtown 
VFW. But those VFW groups that are focused just on one ethnic 
background or something like that----
    General Scott. Yes, sir.
    Senator Campbell [continuing]. They do join.
    General Scott. Right.
    Senator Campbell. The largest VFW, for instance, in 
Montana, the largest VFW chapter is the Cheyenne Indian VFW. It 
is larger than any of them, in Billings or any other cities. So 
I guess it depends on how they feel, whether they identify with 
other people that are already in it or something.
    I might mention to you, too, that there is a man, Dr. 
Herman Viola, and he used to be at the National Archives.
    Dr. Billington. Oh, I know him very well.
    Senator Campbell. He has written dozens of books. And he is 
doing one now that I think ought to be really interesting that 
you might tell your staff person about, that deals with Indian 
veterans. You might want to contact Herman, because he is doing 
one now on American Indian veterans going clear back to the 
late 1800s. It is not out yet, but he has a lot of 
documentation that might be interesting.
    General Scott. Yes, sir, we will. We will follow up on 
that.
    Dr. Billington. That is very good. Actually, in the 
percentage of veterans in wars, the minority percentage is 
higher than the general population percentage. So this is a 
very important frontier. It is another reason, frankly, that we 
need a little more help at the center. We are not doing this 
all. We are just getting the instructions out.
    One of the best things about it is the intergenerational 
quality. What is best is the various ways these interviews are 
conducted that involve young people interacting with seniors. 
The most moving is young people who discover things about their 
great uncle they never knew he had experienced. It really is a 
wonderful thing. It was unanimously endorsed by the Congress. 
We got $3 million from the AARP when it started, although we 
got very little initially.
    We do feel now it has reached a stage where more support is 
needed. We have about 75,000 of these accounts. But there are 
19 million veterans; 1,500 die every day--we are racing against 
time. We want to get these stories--many of the veterans have 
never talked about their experiences. I can say, as a 
historian, just looking at some of this stuff--and I have 
conducted a few interviews myself--it is going to change the 
writing of history, because we will now see wars from the 
bottom up, rather than from just the top down.
    Senator Campbell. I think it is a really important program.
    Let me yield to Senator Durbin.

                        USE OF LIBRARY RESOURCES

    Senator Durbin. Thank you, Senator. I apologize for being 
late. We had an emergency meeting of the Illinois and Iowa 
delegations over the future of an arsenal, and I wanted to be 
certain that I made an appearance there.
    But I am glad I could join you here today. Thank you and 
thanks to Dr. Billington and General Scott for what you are 
doing at the Library of Congress.
    I would like to address an issue which is near and dear to 
me that I have discussed with both of these gentlemen as 
recently as yesterday. If you read the latest issue of Atlantic 
Magazine, you may be surprised to learn, that Adolf Hitler was 
not only a megalomaniac, but he was also a bibliophile and 
collected a vast amount of books. When the Allied troops 
liberated Germany, they took that collection and turned it over 
to our friends at the Library of Congress. And across the 
street now is Adolf Hitler's book collection with his 
nameplates in the books.
    Now the reason that that caught my attention was that I 
never dreamed that he was a book collector.
    Dr. Billington. He burned a lot of them.
    Senator Durbin. Yes, he burned a lot. Nor did I know that--
--
    Senator Campbell. He was an art collector, too, of sorts.
    Senator Durbin [continuing]. His collection was across the 
street at the Library of Congress, amid probably other 
collections, but I think it is one of the major ones. We had a 
conversation yesterday. We talked about all of the treasures 
and assets of the Library of Congress that are virtually 
unknown to the rest of the world. I think it is time that we 
stopped hiding this light under a bushel. I think in order to 
let the American people and the world know what we have, we 
have to do a little better job of telling the story.
    I think you do that. And I think websites are going to open 
up a lot of access that just did not exist several years ago. 
But there is another area that strikes me where we have great 
potential. If you visit the National Gallery or any of the 
Smithsonians or any of the museums, major museums, in any city 
in this country, you will find great collections of wonderful 
things and a great gift store that allows you, in leaving with 
that positive feeling about this institution, to take home 
something that caught your eye, a reproduction of a work of art 
or something that you want to treasure yourself and share with 
your family.
    I think we can do more with the Library of Congress in this 
regard. I think there is an opportunity to take some of the 
more outstanding things in the collection of the Library of 
Congress and safely reproduce them in a form that will generate 
revenue for the Library, to be reinvested in its activities and 
also give the American people a better opportunity to 
understand what a great treasure we have in the Library of 
Congress.
    And I might add, Mr. Chairman, this committee is really on 
the front line of this. In the not-too-distant future, maybe 2 
years, we will have a Capitol Visitor Center. Within that 
Capitol Visitor Center, we will find millions of people 
accessing the United States Capitol again under the best 
circumstances, in a secure way, so that there is no doubt about 
their security or the security of the building.

                        RETAIL SALES ACTIVITIES

    Attached to that Capitol Visitor Center will be tunnel 
access to the Library of Congress. So these same hundreds of 
thousands of visitors will have a chance to make a turn in 
their visit to Washington and come over to see the Library of 
Congress, many for the first time. I think that, too, is going 
to be another opportunity for access to the Library and access 
to perhaps some retail operation where they can leave the 
Library with something that means a lot to them.
    I have not even touched on E-commerce, which I think I 
would like to ask you about, if I could. I have talked to some 
people. And they said, for example, if you took some of the 
extraordinarily rare maps in the Library of Congress and 
produce them in limited edition for sale, with the revenue 
coming back to the Library, there would be a lot of people 
interested in it.
    Tell me what you have done so far--we have talked about 
this for a year or two--and what you envision the next step to 
be in this process.
    Dr. Billington. Well, I will just say one word, because 
General Scott has been overseeing this. We have moved, and 
largely in response to your very effective and helpful 
suggestions, and done a test of online marketing. After 9/11, 
we had to close our Madison shop. We now have one in the 
Jefferson. It is small. We will certainly want to look into the 
idea of expanding it, as you suggest.
    But on the question of E-commerce, since we are a huge web 
presence as it is, this is very clearly promising. And the 
experiments that General Scott supervised this past year have 
shown real promise with that. But I will let him tell the 
story, because he has been doing a good job for it, moving us 
into a more aggressive business posture, as you have suggested.
    General Scott. Yes, sir. The first thing we have done is we 
have made some real progress towards making some profits on 
some of the items that we have marketed, particularly on the 
website. During last year, we marketed some of the gift shop 
items through Yahoo. And for a very modest investment, because 
we did not have additional money to really go out and hire 
somebody, we were able to make $73,000, which really came out 
to be about a 24 percent return on the investment.
    With that, we have also come out with a business strategy 
and an implementation plan that we feel confident that if we 
could have some seed money--that is what we have asked for in 
this budget--we could make this a much more profitable 
operation.
    We did talk about a map, putting one of the rare maps up. I 
am pleased to say that Beacher Wiggins, who is our Acting 
Director for Library Services now, has started already to 
research that project. We are going to see where that is going 
to take us. I do think we have put together a plan that 
identifies what we need to do between now and the next couple 
of years. If we can get this seed money, I think we will be 
able to come back and tell you our progress next year.
    Senator Campbell. Is this the plan that the Congress 
directed in the fiscal year 2003 to----
    General Scott. Yes, sir.
    Senator Campbell. And in your request this year, as I 
understand it, you are requesting $715,000, 5 FTEs, and that it 
will be the seed money to----
    General Scott. Yes, sir.
    Senator Campbell [continuing]. Do the infrastructure and 
the marketing and so on?
    General Scott. That is correct, sir. It is just a 1-year 
request that we are asking for.
    Senator Campbell. And you had a 23 percent----
    General Scott. We had a 24 percent return on investment.
    Senator Durbin. I want to just say, Mr. Chairman, I will 
not dwell on it any longer since I came in late, but I think we 
want to take care that we maintain our first responsibilities. 
You have a fiduciary responsibility to the contents of the 
Library of Congress. We all do as part of this effort, and that 
has to be protected.
    We certainly do not want to see commercial exploitation of 
things that are very sensitive and important. We want to take 
care that we pick those items that can be merchandised in a 
tasteful and thoughtful and responsible way. And I trust that 
is exactly what you are going to do.
    There have been some controversies in some agencies of 
government about commercialization. We are not going to get 
close to those. I think there are things that we can share with 
the American people and, with the revenue from that, enhance 
your great institution.
    Thanks, Mr. Chairman.
    Senator Campbell. Let me add, too, though, I mean, some 
things you will market. But I have visited the Library a number 
of times. And I have traveled a lot, like Senator Durbin has. I 
have been to the Roman baths in Rome, for instance, and some of 
the great cathedrals in St. Petersburg. And I have to tell you 
that the mosaics on the floor of the Roman baths and the 
mosaics in the cathedrals of St. Petersburg I do not think are 
any nicer than the ones you have in this building.
    And it would seem to me that part of the marketing ought to 
be to get people to come and see the things that you are not 
going to be able to send them as a souvenir. And, I would 
commend that. In fact, I do all the time. People come into our 
office and ask us, ``We only have half a day. What do you think 
we ought to see around here besides the Capitol?'' I always 
recommend the Library of Congress, specifically because of 
those outstanding mosaics that are on the wall.
    So, from that standpoint, I do not really see that as 
commercialization. That is something they own, as American 
citizens and taxpayers. And it is certainly an educational 
experience for youngsters. And I think a lot could be done with 
that, if you want to increase the tourism over there.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, I have two or three other questions. What I am going 
to do, since I do have another meeting, however, is submit 
those to you and ask you if you would get back to us to put on 
the record in writing.
    General Scott. Yes, sir.
    Dr. Billington. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell

                             POLICE REQUEST

    Question. The Library has approximately 130 police officers, which 
are to be merged with the U.S. Capitol Police over the next few years. 
The Library is requesting an additional 51 officers in its fiscal year 
2004 budget. Why are these officers needed now? Have you asked the 
Capitol Police to undertake a postings study for these additional 
officers? How will you ensure bringing in these officers at this time 
will not negatively impact the impending merger?
    Answer. The Library plans to open or expand ten new police posts in 
fiscal year 2004 in connection with the completion of 1999 supplemental 
appropriations perimeter security construction. Additionally, some of 
the requested FTEs would be used to bring current police posts to the 
minimum staffing level to ensure officer and staff safety. The Capitol 
Police have not been asked to conduct a postings study for the 
additional Library police officers. However, the Library has completed 
a comprehensive post staffing analysis supporting this request. The 
Library does not believe that bringing on the requested new officers 
would negatively impact an impending police merger. These additional 
FTEs would be needed under the current or a merged structure, as the 
requirements remain the same.

                            HIRING PROBLEMS

    Question. In 2001 the Library installed a new automated hiring 
system that was required by Court order. You reported in last year's 
hearing that it was resulting in some significant delays in hiring 
personnel with unqualified people getting through the initial screening 
process. What is the status of this system and will the Library be able 
to hire up to the level the Congress authorized for fiscal year 2003? 
What is the average amount of time required to hire a new person, and 
what accounts for the improvement over last year?
    Answer. After various systems and process improvements, the Library 
is hiring quicker and in higher numbers than ever before. On average, 
fiscal year 2002 selections occurred 110 calendar days after postings 
opened, as compared to 178 calendar days under the previous hiring 
process. The Library achieved this savings largely by reducing 
processing time within Human Resources Services. The Library also made 
300 selections in fiscal year 2002, a notable improvement over the 
previous 190-selection average. The Library is working hard to meet the 
fiscal year 2003 hiring requirements, despite working under eight 
continuing resolutions for almost 6 months of the fiscal year, which 
always impacts hiring.

                          CRS--HIRING PROBLEMS

    Question. Last year Congressional Research Service (CRS) identified 
some areas where it needed to increase its staffing--homeland security 
and terrorism, and aging-related issues. Have you been able to hire-up 
or otherwise fill the need you identified in these areas?
    Answer. Of the twelve new positions approved for fiscal year 2003, 
five positions were posted by March 31, 2003: (1) Public Health & 
Epidemiology--Combating Terrorism; (2) Infrastructure Systems 
Analysis--Combating Terrorism; (3) Science & Technology, Biochemistry--
Combating Terrorism; (4) Economics of Aging--Aging; and (5) Economics 
of Health Care--Aging.
    Another six positions will be posted by early June 2003: (1) 
Islamic and Arabic Affairs--Terrorism; (2) Actuary--Aging; (3) Senior 
Demographer--Aging; (4) Bio-ethical Policy--Aging; (5) Genetics--Aging; 
and (6) Gerontology--Aging.
    The projected on-board dates for the four positions supporting 
Combating Terrorism, that have already been posted, vary from July 
through September. The last Combating Terrorism position, a Librarian, 
will be posted in fiscal year 2004. The projected on-board dates for 
the seven Aging positions begin in August 2003, with the final two 
reporting in October 2003.

                          DIGITAL INITIATIVES

    Question. The Library has a National Digital Library program with 
funding of about $20 million. Through this program the Library has 
digitized many parts of its collection and made them available through 
the Library's web site. In addition, the Library is shepherding a 
multi-agency, government/industry effort called the National Digital 
Information Infrastructure Preservation Program (NDIIPP). How do these 
two programs relate to one another? The Library recently received this 
Committee's approval to proceed with spending $25 million of the $100 
million appropriated for NDIIPP. What is the status of this effort? The 
next step will be securing matching funds from other organizations, 
totaling $75 million. Have you begun this process? Do you envision the 
need for significant additional appropriations in the next few years 
for digital initiatives or to implement the NDIIPP?
    Answer. Through the Library's efforts to build a digital library, 
The National Digital Library (NDL) program, the Library learned how to 
convert analog materials and deliver content electronically. Building 
upon the know-how gained in developing a digital library and handling 
digital materials, the NDIIPP's goal is to develop a national strategy 
for collecting and preserving digital content. The NDIIPP program is a 
special program to develop a national strategy to collect and preserve 
current digital content that only exist in ``born digital'' form. 
NDIIPP is funded by a special appropriation, whereas, the NDL is an 
ongoing part of the Library's budget base.
    The NDIIPP plan was accepted by Congress on December 3, 2002. The 
next phase of the NDIIPP plan has two major components: a network of 
cooperating institutions and partners, and the technical framework, 
communication networks, services, and applications that support the 
cooperating network of partners.
    The plan envisages a three-tiered research and investment program 
which suggests targeted core capacity investments that will be subject 
to matching funds in pilot projects and experiments that will run for 1 
to 5 years, beginning in fiscal year 2003. ``Core capacities'' refer to 
the shared knowledge, expertise skills, and consensus deemed essential 
to support collaborations among partners that comprise the digital 
preservation network.
    The Library does not envision the need for appropriations support 
in the next few years for the NDIIPP beyond the $100 million Congress 
has already appropriated for NDIIPP.
    The Library is in the process of updating its internal digital 
initiative strategy. This includes identifying the need for any 
additional NDL appropriated base funding support for fiscal year 2005 
and beyond.

                            CRS CONTRACTING

    Question. CRS' budget includes a $3 million increase for 
contracts--roughly 40 percent over the current year. Yet according to 
the Inspector General, in many instances CRS' consulting contracts are 
not cost effective and do not comply with regulations. The IG found at 
CRS consistent trends of limited or no competition, insufficient cost 
analysis and inadequate sole source justifications. Why should we 
provide this increase in view of these problems, and have these 
deficiencies been fixed?
    Answer. Per the Library's Inspector General (IG), the information 
driving the question about the CRS contracting may have been taken out 
of context. The majority of the audit conditions and recommendations 
were focused on the Library's Contract Services, not the CRS. Two of 
the three contracting issues addressed in the Senate question, 
competition and inadequate sole source justifications apply exclusively 
to the Library's Contract Services functions. The remaining issue, 
which relates to insufficient cost analysis, pertains to and has been 
partially corrected by CRS through training of the CRS contract 
specialist.
    The IG recognizes the absence of viable alternatives or competitors 
with regard to the highly specialized, interim research or analytic 
capacity for which CRS typically contracts under its statutory, non-
competitive authority. The CRS non-competitive research capacity 
contracts are generally short-term and low dollar value contracts; 
therefore, performing extensive cost analysis on every individual 
contract would create an administrative burden and cost that could 
potentially exceed any savings. However, in following the spirit of the 
recommendation, CRS has consulted with the IG regarding the pricing of 
two unusual contracts--one contract was with a medical research 
corporation that included a sizable overhead fee, and the other 
contract was with an individual who cited a previously approved rate 
determination by an IG from another federal agency. The IG supported 
the CRS pricing concerns and we were able to achieve some savings on 
both contracts as a result.
    CRS has agreed to include cost reviews--where appropriate--in their 
updated contract policy guidelines, which will satisfy the audit 
recommendation.
    The CRS budget request included a $2.7 million increase in 
contracts; however, $1 million of that request was subsequently 
approved under the fiscal year 2003 supplemental. Of the $1.7 million 
remaining, nearly all of it is for contract staff who will support the 
CRS technology infrastructure for research and the creation and 
dissemination of CRS products. CRS will acquire these services through 
one of the existing General Service Administration (GSA) pre-competed 
contract vehicles--most likely Federal Systems Integration and 
Management Center (FEDSIM). The remaining $18,000 is for training 
contracts, which will be acquired competitively.

                     REMOTE ACCESS TO CRS MATERIAL

    Question. What is CRS doing to enable members of Congress and staff 
to access CRS from remote locations (e.g. traveling abroad)? What are 
the costs involved with making this possible?
    Answer. The Senate Sergeant-At-Arms provides members and staff with 
the means for connecting remotely to the Senate network. Once connected 
to that network, members and staff have secure access to the entire CRS 
Web site and to CRS staff through the Senate email system. Over the 
last several years, CRS has put significant effort into ensuring that 
its Web site offers the full range of CRS services, including access to 
all CRS products arranged by issue area or by user search-term, and the 
names, phone numbers, and email addresses of CRS experts in specific 
issue areas. From the CRS Web site, members and staff can also place 
requests, register for CRS seminars, and access CRS reference services.

             BOOKS FOR THE BLIND AND PHYSICALLY HANDICAPPED

    Question. Last year the National Library Service for the Blind and 
Physically Handicapped was planning to convert to digital format in 
lieu of cassette tape, the books and materials it provides to the blind 
community. With an inventory of more than 700,000 cassette tape 
machines, this will be very expensive. How much will you need and when 
will you request additional funds?
    Answer. The National Library Service for the Blind and Physically 
Handicapped projects that a total of approximately $75 million will be 
required to fund the transition from analog cassette to a digital 
format over a period of at least 5 years. An initial request will be 
submitted in fiscal year 2005.

                          SUBCOMMITTEE RECESS

    Senator Campbell. With that, thank you so much for this 
material you brought me. I certainly do appreciate it. And I 
will read that 100-year anniversary of Harley-Davidson with 
great interest.
    This subcommittee is recessed.
    [Whereupon, at 2:23 p.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 1, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Bennett, and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF WILLIAM H. PICKLE, SERGEANT AT ARMS

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The hearing will come to order. We are 
going to try to start right on time. Senator Durbin is on his 
way, but I understand we have a 10:15 vote, and if we can, what 
we will do is I will have him run to vote, and I will keep 
things together, or I will go vote first, while he keeps the 
things together here, but in the essence of time, we will go 
ahead and start with my statement.
    I appreciate hearing from Sergeant at Arms Bill Pickle and 
the Capitol Police Board today, which is chaired by Mr. Pickle. 
Thank you for being here. You hold down two jobs, in that 
respect, as Sergeant at Arms and the Head of the Capitol Police 
Board, but if you want to combine your statement on both, that 
will be fine. Whatever you would like to do would be fine.

                    SERGEANT AT ARMS BUDGET REQUEST

    The Sergeant at Arms budget request totals $198 million, a 
significant increase over the current level, largely due to the 
request for the new warehouse, the Capitol Visitor Center 
projects, as well as additional staffing. I certainly look 
forward to working with you.

                     CAPITOL POLICE BUDGET REQUEST

    Our second panel will be testimony on the fiscal year 2004 
budget for the Capitol Police, and you can either come back, or 
deal with it in your first comments. And on the second panel, 
you will be accompanied by board members, Bill Livingood and 
Alan Hantman. And Chief Terrance Gainer will also make a 
statement.
    The request for the Capitol Police totals $290 million, and 
provides 401 additional staff, for a total of 2,406 by the end 
of fiscal year 2004. Your plans to increase staffing, training, 
and improve professionalism of the force are very ambitious 
and, in general, I am very supportive, having been a former law 
enforcement officer. As a deputy sheriff years ago, I have 
always tried to emphasize the importance of training and 
professionalism, and having necessary manpower, too, but we 
certainly want to make sure that the effort is underpinned with 
a good, strong strategic plan in guiding those efforts.
    I know I speak for all of my colleagues here when I say 
that we are very indebted to the Capitol Police force. They 
work some long shifts. When I come in the gate in the morning, 
I often talk to the people at the gate about their long hours, 
and I am sure they appreciate the overtime, but still, it does 
take a toll on the family when you are trying to get home to 
see your children, too.
    When Senator Durbin gets here, I may cut in to your 
testimony, Mr. Pickle, for his opening statement. But in the 
meantime, why not go ahead?

                       SERGEANT AT ARMS STATEMENT

    Mr. Pickle. Thank you very much, Mr. Chairman. It is, 
indeed, an honor to be here today and I appreciate the 
opportunity. Also, it is an honor to have been elected as the 
37th Senate Sergeant at Arms of the United States Senate. I 
will pledge to you today that I will be very forthright and 
responsive to you and this committee, and I will do everything 
I can to justify the Senate's faith in me.
    As you said, Mr. Chairman, we are requesting $198.2 million 
in this fiscal year 2004 budget. This is an increase of $40.7 
million, or just over 25 percent. It is a big increase, 
undoubtedly.
    Fifty-six percent of the increase, or just over $22 
million, is for one-time acquisitions that provide long-term 
benefits to the Senate. This includes $13.5 million for a new 
mail processing and warehouse facility. It also includes $7.7 
million to relocate the Senate recording studio to the new 
Capitol Visitor Center, and $1.5 million to furnish and equip 
the Senate side of the Capitol Visitor Center.

                           WAREHOUSE FACILITY

    The new mail processing and warehouse facility will enable 
us to eliminate $700,000 in annual recurring costs. These costs 
include expenses for leases and package processing. The current 
warehouses are dispersed throughout the D.C. area, but they do 
not meet minimum GSA requirements, and the costs to do so would 
be very significant.
    Besides meeting the GSA requirements, the new warehouse we 
are looking for will also provide more space so that the Senate 
can take advantage of volume purchases. It will also provide 
better quality storage, so that the Capitol's furniture and 
fixtures that are warehoused there will have a longer, useful 
life, and it will provide climate control and other features to 
meet the special needs of the Senate Curator and the Senate 
Librarian.

                            RECORDING STUDIO

    Looking at the recording studio, what we hope to do is move 
into a state-of-the-art facility when it relocates to the 
Capitol Visitor Center. Other offices will also move to the 
Capitol Visitor Center, and this budget request funds the 
purchase of furniture, fixtures, and equipment for all the 
offices that will occupy the new Visitor Center, the Senate 
side, that is.

                          ONGOING INITIATIVES

    The balance of this roughly 25 percent increase, or $17.9 
million, will fund ongoing initiatives. And of that amount, 
$5.9 million will fund package processing and a full year of 
maintenance for the alternate computing facility. Once the mail 
processing and warehouse facility is approved and completed, 
the package processing funds will be eliminated.
    Providing additional resources to install, support and 
maintain the Senate's computing infrastructure will cost $4.7 
million, and this will be accomplished through our IT support 
contract, a fairly new contract and one that has been extremely 
beneficial to us in the last few months.
    Funding the COLA, or the cost of living adjustments, and 
salary increases will cost $4.2 million, and the remaining $3 
million will be spread across various programs in the Senate 
Sergeant at Arms office.

                         SERGEANT AT ARMS STAFF

    Mr. Chairman, I have been here all of 7 weeks, and so I am 
a real expert as you can tell, but in that short time, I have 
seen some of the accomplishments of this extremely hard-working 
staff that I have. They are dedicated; they work long hours. 
And in all my years of public service and working for a number 
of what I think are just outstanding agencies, I do not think 
there is a better, more professional staff than what we have in 
the Sergeant at Arms Office.
    They have a number of challenges before them. They have 
faced a number of challenges very successfully, and I am sure 
we are going to meet the challenges together, especially with 
the help of this committee.

                        ROLE OF SERGEANT AT ARMS

    Certainly, the role of the Sergeant at Arms Office has 
changed over the years. I was first exposed to it about 25 
years ago, and when I was exposed to it at that time, it was a 
much different environment. Today, it has just enormous 
challenges, duties, and responsibilities.
    We say that we balance the need to keep the people's house 
open so that the American public and the people around the 
world can see our democracy in action, and we do, indeed, do 
that, and we do it with the competing needs and interests for 
the safety of the members, staff, and the visitors. We balance 
providing efficient common services, with delivering individual 
services and solutions to Senate offices, and we work to use 
the taxpayers' money very responsibly, while providing 
outstanding service.
    We will provide you, this committee and the Senate, with 
the best security, service, and support that we can. That is 
our challenge, and that is what we intend to do, sir.
    My written testimony today will focus on the progress in 
two key areas, Senate security and emergency preparedness, and 
the services and the support that the Office of the Sergeant at 
Arms provides to the Senate community. I would like to offer 
that testimony for the record.

                           PREPARED STATEMENT

    Senator Campbell. Your complete written testimony will be 
included in the record. You can abbreviate it, if you would 
like.
    Mr. Pickle. Thank you. I would be happy to take any 
questions with the balance of my time, sir.
    Senator Campbell. Okay. Thank you.
    [The statement follows:]

           Prepared Statement of Honorable William H. Pickle

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify before the Committee on Appropriations as I begin my 
service to the Senate community. It is an honor to be elected the 37th 
Senate Sergeant at Arms, and I pledge to you that I will serve the 
Senate faithfully.
    I am respectfully requesting a total budget of $198,240,000, which 
is an increase of $40,656,000, or 25.8 percent over the fiscal year 
2003 budget. The $40.6 million increase will fund a variety of 
programs.
    Over half of this amount (56 percent, or $22.7 million) is for one-
time acquisitions that provide substantial long-term benefits to the 
Senate community. This includes $13.5 million for a new mail 
processing/warehouse facility and $9.2 million to relocate the Senate 
Recording Studio and furnish the Senate space in the Capitol Visitor 
Center (CVC).
    The new mail processing/warehouse facility will enable us to 
eliminate $1.5 million annually in recurring costs, including lease 
expenses and outsourcing expenses for package processing. The current 
warehouse facilities do not meet minimum GSA requirements and the costs 
to meet those requirements would be significant. Other long-term 
benefits this facility will afford are volume discounts for Secretary 
of the Senate and Sergeant at Arms purchases; a longer useful life for 
furniture and fixtures warehoused for use in the Capitol; and 
specialized storage to meet the needs of the Senate Curator and the 
Senate Librarian.
    Relocating the Senate Recording Studio to the Capitol Visitor 
Center and furnishing the Senate side of the Visitor Center will move 
the Recording Studio into a state-of-the-art facility in the CVC and 
provide furniture, fixtures, and equipment to outfit and support its 
operation. The relocation will cost $7.7 million and the furnishings 
will cost $1.5 million.
    The balance of the requested increase (44 percent or $17.9 million) 
will fund initiatives that are ongoing. We are requesting $5.9 million 
to fund a full year of maintenance of recent security enhancements at 
the Alternate Computing Facility and the outsourcing of package 
processing--upon approval and completion of the mail processing/
warehouse facility, the funds for outsourcing package processing will 
be eliminated. The IT Support Contract will require $4.7 million to 
provide additional resources to install, support, and maintain the 
Senate's computing infrastructure. Funding of the COLA and salary 
increases will cost $4.2 million. The final $3.1 million are spread 
across the programs in the Office of the Sergeant at Arms.
    Mr. Chairman, I come before you with six weeks of experience as 
Sergeant at Arms. In that short time, I have already seen some of the 
accomplishments this hardworking and dedicated office has achieved. I 
have also seen some of the challenges that we face and some of the 
opportunities that present themselves. Our budget request will enable 
us to meet the challenges we face.
    The role of this office has changed dramatically over the years. 
The duties and responsibilities of the Sergeant at Arms have expanded, 
become more complex, and increasingly interdependent, requiring us to 
balance the Senate's competing needs.
    We balance the need to keep the ``People's House'' open so that the 
American people and the world may see our great democracy at work with 
the need to keep the Capitol safe for Members, staff and visitors. We 
balance providing efficient, common services with delivering individual 
services and solutions to Senate offices. We work to use the taxpayers' 
money responsibly while providing outstanding service and support to 
the Senate. The Office of the Sergeant at Arms will provide you the 
best security, service, and support that we can, and we will work with 
this Committee in doing so.
    Our testimony today will focus on the Senate's progress in two key 
areas: the Senate's security and emergency preparedness and the 
services and support the Office of the Sergeant at Arms provides to the 
Senate community.

                  SECURITY AND EMERGENCY PREPAREDNESS

    Before September 11, 2001, the preparedness of the Capitol complex 
paralleled the preparedness of the rest of the United States. While we 
had more security in place than the rest of the country, we pursued it 
on an as-needed basis, not in a comprehensive or integrated way. When 
we identified specific threats, we responded. For example, the Capitol 
Police implemented security upgrades in the three years following the 
tragic shootings of Detective John M. Gibson and Officer Jacob J. 
Chestnut in July 1998. We had also started working on security of the 
mail, and had some rudimentary continuity of operations plans in place, 
but we had no comprehensive strategy for ensuring the safety of the 
Senate. No one had ever attacked the Senate at the level we experienced 
in 2001, so we did not fully comprehend how much we needed additional 
security measures to save lives and restore Senate operations.
    September 11, 2001, provided a wake-up call, and we responded. 
Thankfully, with the preliminary work we were doing, we were in a 
position to respond rapidly when the bioterrorist anthrax attacks 
occurred on October 15, 2001.

Security Strategy
    The wake-up call of September 11 and the Senate's experience with 
our nation's largest bioterrorist attack on October 15 underscored the 
need for an enhanced, comprehensive security strategy for the Senate in 
2001. The strategy that emerged ensures the continuation of the Senate 
under any circumstance and protects Members, staff, and visitors, while 
maintaining the essential public nature of the Senate. I am committed 
to continuing that tradition and strategy.
    Our strategy accomplishes its objectives by establishing a layered 
defense based on threats that we know and those we can anticipate. It 
creates security plans and takes actions to prevent incidents from 
occurring. It includes training and exercise programs to ensure 
preparedness. And the strategy identifies the resources we need to 
manage the consequences and respond appropriately to ensure the 
Senate's continuity of operations if an incident does occur. It 
eliminates single points of failure, and develops system redundancy, 
mobility, and flexibility to ensure that the Senate can continue to 
function even in the face of an emergency.
    The programs and resources to implement this strategy are in place. 
The people who implement the programs know the urgency of completing 
them, and continue to move forward quickly, and deliberately.
    Our Office of Security and Emergency Preparedness (OSEP) 
coordinates its activities with those of the U.S. Capitol Police and 
other agencies to implement Senate security, emergency preparedness, 
and continuity of operations plans and programs. It combines its 
efforts with other offices within the Sergeant at Arms organization to 
make sure that all of our work takes security concerns into account. 
And OSEP works with every Senate office, here and in Senators' home 
states, to bring the Senate community the equipment, information, 
assessments, and training it needs.
    The Senate funded many of our programs with an emergency 
supplemental appropriation to support life-safety, threat reduction, 
emergency preparedness, continuity of government and operations, and 
consequence management and recovery programs. The emergency 
appropriation totaled $632.9 million for the entire legislative branch. 
The Office of the Sergeant at Arms received $58.2 million to fund 
Senate-specific security and continuity-related programs. We worked 
with this Committee and the Committee on Rules and Administration to 
establish the best ways to use these funds, and I want you to know that 
we are using them wisely.
    My office and the Office of the Secretary of the Senate are working 
with the Architect of the Capitol, the Attending Physician, and the 
United States Capitol Police to ensure that all of our interdependent, 
but separately funded, programs are integrated and synchronized. The 
efforts of these groups have substantially improved the Capitol's 
overall security posture and established a solid foundation for future 
improvements. We could not have done this without the dedicated support 
of the Senate Leadership, this Committee, and the Committee on Rules 
and Administration

Security
    A hallmark of the Senate's comprehensive security strategy is 
taking reasonable precautions to prevent incidents from occurring. Risk 
assessment falls under this area, as do perimeter security, many 
activities of the USCP, mail and package handling, and the security 
assessments we have done for virtually all Senate state offices across 
the country.
    Risk Assessment.--To increase our understanding of the threats we 
face, we assembled a Legislative Branch Emergency Preparedness Task 
Force (LBEPTF) that started a thorough threat and vulnerability 
assessment of the Senate in September 2001. The Task Force expanded its 
assessment to House facilities in October 2001. LBEPTF completed the 
assessment in January 2002 and published it in April 2002. It resulted 
in many immediate improvements (e.g., fire alarm markings and 
functionality, exit markings, and publication of evacuation plans). The 
assessment also identified long-term actions for the Senate's security 
and preparedness and we have moved forward on those actions.
    U.S. Capitol Police.--One urgent need that has been identified is 
that the U.S. Capitol Police force (USCP) was not sufficiently staffed, 
trained, or equipped to accept the expanded duties the new threat 
situation required. To address this problem, with agreement of the 
Congress, the U.S. Capitol Police force will increase its full-time 
equivalent (FTE) staff positions and its capabilities. There were 1,481 
FTEs in 2001, and the size of the force is growing. At the same time, 
the USCP increased its internal ability to respond to hazardous devices 
and materials by adding personnel, equipment, and vehicles to its 
Hazardous Devices Section.
    The USCP also increased the number of posts and added more roving 
patrols including vehicle, bicycle, and K9 patrols. Importantly, the 
USCP has established or increased its liaison positions and officer 
exchanges with intelligence organizations and other law enforcement 
agencies throughout local and federal government. The Office of the 
Sergeant at Arms works closely with the USCP on increased security 
procedures for daily and special events, access control, and screening 
measures.
    I am a member of the Capitol Police Board, and this year, I chair 
the Board (the chairmanship alternates with the House Sergeant at Arms 
annually). My position on the Police Board helps ensure that the 
security efforts of the USCP align with the priorities and direction of 
the Office of the Sergeant at Arms.
    Perimeter Security.--I am pleased to inform you that the 
implementation of the initial phase of the Perimeter Security Plan, 
first proposed in 1998, was completed in 2002. After September 11, 
2001, we were asked to develop a plan to provide a similar level of 
protection to Senate Office buildings. My office and other security 
experts developed a plan, and the Committee on Rules and Administration 
recently approved it. The Architect of the Capitol will soon begin 
implementation of the enhanced perimeter security plan.
    Physical security measures represent one aspect of perimeter 
security and the Capitol Police force represents another. The physical 
security measures include bollards and pop-up vehicle barriers. The 
Capitol Police force staffs the revised access checkpoints and enforces 
procedures, staffs the expanded use of K9 patrols, enforces the 
restriction of oversized vehicles, and supports other measures that 
safeguard against vehicle-borne threats. Together, the Police and 
enhanced physical security measures prevent attacks from vehicles or 
their contents.
    To prevent other attacks, we improved visitor access and screening 
procedures for all Senate Office Buildings. When we offer public 
Capitol tours, we screen the visitors outside the Capitol. We enhanced 
that screening as well as the screening of visitors on staff-led tours 
coming from the Senate Office Buildings.
    The Office of the Sergeant at Arms has also undertaken other, less 
visible, security improvements and safety systems that significantly 
improve the Senate's overall security posture. We implemented extensive 
security at the Capitol Visitor Center project during its construction 
that includes background checks of workers, off-site vehicle screening, 
physical inspections, a vehicle x-ray system, K9 explosive detection 
sweeps, and strict access control and monitoring measures.
    Mail Handling.--Throughout the October 2001 anthrax event, we 
gathered information that would be useful in our efforts to prevent 
similar incidents; to prepare in the event an incident does occur; and 
to create plans, training, and resources to manage the consequences and 
respond appropriately to an incident and ensure the Senate's continuity 
of operations. We worked with the Department of Defense, the White 
House Office of Science and Technology Policy, the United States Postal 
Service, package delivery service companies, local couriers, the 
Committee on Rules and Administration, and Senate offices to develop 
procedures to improve the safety and security of Senate mail.
    During January 2002, this office established the Legislative Mail 
Task Force (LMTF), made up of representatives from medical and 
scientific agencies as well as those described above. Its purpose is to 
ensure safe and timely mail delivery. The LMTF remains operational and 
is still investigating ways to provide better and safer mail delivery 
to the legislative branch.
    We sealed mailing chutes and removed unmonitored mailboxes in the 
Senate Office Buildings and the Capitol to eliminate the possibility of 
a harmful agent being deposited in them. We also adopted mail handling 
safety procedures that include irradiating, x-raying, testing, and 
holding all mail until we receive negative test results.
    We worked with all offices across the Senate, conducting briefings 
and providing information so staff would know how to identify 
suspicious mail and report it promptly to the Capitol Police and Senate 
postal officials. We also advised Senate offices that they should only 
accept letters and packages from uniformed Senate Post Office employees 
displaying a valid ID, or from bona fide couriers.
    These procedures have become the model for other agencies in the 
legislative branch. Since resuming mail delivery to the Senate, we have 
delivered over 25,000,000 safe letters and have reduced the time to 
deliver them from an average of several weeks to six days. Moreover, we 
leveraged our existing people and resources to create our own mail-
handling program, costing the Senate several million dollars less than 
other legislative branch agencies that outsource their mail handling 
programs.
    Package Handling.--The Package Tracking and Management System that 
we developed and implemented last summer is a great example of 
cooperation within the Office of the Sergeant at Arms to bring new 
services to the Senate community. Our IT Support Services staff 
developed this new Web-based system using requirements from the Senate 
Post Office, the Committee on Rules and Administration, and our user 
community, along with vital participation from our Customer Support and 
Training areas. The system enabled us to deliver more packages during 
its first four weeks of use than our vendor had been able to deliver 
during the previous five months. The technology cost less than $50,000 
to implement, compared to our package vendor's proposed $1.5 million 
solution. Using the system we developed in-house, we deliver safe 
packages three days (on average) after we receive them, which is 
considerably less time than the several weeks that was the norm under 
the previous system. We are working with the Committee on Rules and 
Administration to see if we can reduce that time even further.
    Capitol Visitor Center (CVC).--Congress had planned to build a 
Capitol Visitor Center for several years, not only to improve security, 
but also to provide better visitor services. Until September 11, the 
project moved slowly. After September 11, as part of the emergency 
supplemental appropriation, funds for the CVC were approved, and 
construction began.
    In 2000, almost three million people visited the Capitol and during 
peak season over 18,000 people visited the Capitol each day. Tons of 
equipment, food, and other material move into and out of the Capitol 
daily. These provide critical services but they also create risks to 
the Capitol complex.
    The CVC will help us better control the flow of visitors and 
material moving in and out of the Capitol, without reducing public 
access. Once the CVC is completed, we will have just as much public 
access through fewer access points, and we will have better screening 
and control of everyone and everything that comes into the Capitol. 
That screening will take place in the CVC instead of near Capitol 
doors.
    Because of the design of access points, we will be able to better 
screen, and isolate and remove an individual or group that poses a 
security risk. Deliveries to the Capitol will go through the CVC, which 
will include a remote delivery-vehicle screening facility. This 
facility will make it both easier to deliver goods to the Capitol and 
safer to accept those goods. The design incorporates many blast-
resistant features as well as systems that will minimize the risk of 
airborne hazards within the CVC and the Capitol.
    CVC construction and the implementation of the 1998 Perimeter 
Security Plan created one challenge: Parking. When the CVC construction 
project was approved, planners found that as many as 350 staff members 
would have to move to parking spaces farther from the Capitol. Our 
Parking team worked with the Architect of the Capitol, the U.S. Capitol 
Police, and the Committee on Rules and Administration to create 359 
parking spaces. Many of the spaces came from reconfiguring existing 
parking spaces (i.e., converting parallel parking spaces to diagonal 
spaces and converting the former locations of construction trailers 
into parking lots). These efforts have already saved over $1 million in 
leases for parking spaces, and we expect that they will save over $3 
million before the CVC construction is finished. The solution is 
secure, near the Capitol, and convenient for Senators and staff. It 
also makes good use of existing resources and taxpayers' dollars.
    State Offices.--In 2001, we had little information on the level of 
security of Senators' state offices. Some assessments had been done 
over several years, but we had old, inconsistent information. We moved 
aggressively to address this problem by establishing a plan to conduct 
comprehensive, on-site security assessments at all Senators' state 
offices. We finished the assessments for all offices that were in place 
in the fall of 2002, and implemented a system whereby every newly 
established office will be assessed as well.
    These surveys will enable the Sergeant at Arms to understand fully 
the security needs of our state offices, make recommendations, 
prioritize security needs, and improve security. This will be an on-
going, multi-year project and will involve physical modifications, 
monitoring, and staff training.
    As we think about the security of the Senate since the tragic 
events of September 11, 2001, we are proud of our progress. We have 
moved forward on a wide range of initiatives, and as a result, have the 
pieces in place to keep threats out of the Capitol and the Senate 
Office Buildings.

Emergency Preparedness
    Emergency preparedness addresses how people will learn about an 
event and respond to it. Since September 2001, the Office of the 
Sergeant at Arms has enhanced the Senate's preparedness through alarms 
and equipment, emergency notification, and training.
    Alarms and Equipment.--In response to the LBEPTF Risk Assessment, 
we worked with the AOC and the USCP to test and, where necessary, 
upgrade the alarms and emergency equipment in every Senate Office 
Building. We worked with Senate offices to ensure each has an emergency 
action plan, we implemented evacuation procedures and assembly areas 
for every building, and we regularly conduct evacuation drills. We also 
recently added wireless annunciators to notify people of an incident, 
provide instructions on appropriate steps to take, and provide more 
information as an event unfolds. The Architect of the Capitol is 
upgrading building fire alarms, and is integrating both the alarms and 
the annunciators into the USCP command center system. With the Capitol 
Police, we are conducting office security briefings to review and 
reinforce office emergency action plans.
    Emergency Notification Procedures.--We have established redundant 
and flexible communications, taking advantage of existing systems and 
expanding them to enhance and streamline our emergency notification 
capabilities. We provided BlackBerry devices and updated electronic 
pagers to Senators and key staff. The USCP has a telephone system that 
can call individuals at pre-designated numbers in case of emergency. 
Approximately 1,000 Senate telephones are connected to the Group Alert 
System, which the USCP controls and can activate when needed, under 
direction from the Sergeant at Arms. A wireless alert broadcast system 
and the ongoing upgrade of building alarms and public address systems 
will further improve emergency notification. The evacuation alarm 
systems already include both audible and visual alarms. Together, these 
systems provide broad emergency notification capabilities to the 
Senate. With the establishment of the Alternate Computing Facility, we 
will be able to implement additional emergency notification measures.
    Chemical, Biological, and Radiological Protection.--In the fall of 
2001, the Capitol Police Board recognized the need to expand protection 
in this area. One result was the purchase of a large number of 
Quick2000 Escape Hoods, which provide rapid protection from chemical, 
biological, or other hazardous particulates for Members, staff, and 
visitors to the Capitol. We have distributed Quick2000 Escape Hoods to 
each office and throughout the Senate Office Buildings. Along with the 
Capitol Police, we have trained almost 6,000 Members and staff on the 
notification process and on the donning of these hoods. We are 
undertaking other projects that further expand our ability to protect 
the Senate from chemical, biological, radiological, and other airborne 
hazards.

Continuity of Operations and Government
    The events of the fall of 2001 underscored the need for strong 
continuity of operations and continuity of government planning. The 
Senate has demonstrated its ability to respond to attacks, but we need 
to enhance and rehearse our plans so we will know what to do in advance 
of an incident.
    As part of the Legislative Branch Emergency Preparedness Task 
Force, the Defense Threat Reduction Agency assessed our infrastructure 
and recommended ways to improve it. We are now working to implement 
their recommendations. This will help ensure that the Senate can 
continue to function even in extreme emergencies.
    Infrastructure Protection.--The Office of the Sergeant at Arms was 
working to protect essential infrastructure services in the summer of 
2001. We accelerated that work significantly after September 11. We are 
implementing alternate locations for critical communications services, 
we upgraded our telecommunications backbone, and we expanded our 
conferencing capability. We also created continuity plans for critical 
enterprise computing and data services and have security measures in 
place for computing networks.
    One recommendation of the Defense Threat Reduction Agency was to 
procure a new fiber system. We are working to procure a new fiber 
system that will enhance the Senate's day-to-day network operations and 
enhance Briefing Center operations.
    Alternate Computing Facility.--In conjunction with the House and 
other legislative branch agencies, we are establishing an Alternate 
Computing Facility that will back up the computing and 
telecommunications infrastructure.
    Other initiatives to enhance the Senate's telecommunications 
infrastructure include projects to ensure that essential 
telecommunications services will be available in the event Capitol Hill 
is evacuated and to provide redundant and mobile communications and 
broadcast capabilities. One example is the ongoing fitting-out of the 
mobile recording studio vehicle and procurement of mobile 
communications vans to ensure the Senate maintains flexibility and 
mobility in these communications and broadcast services.
    Fly-away Kits.--We are creating a recommendation for a suite of 
technology that offices should acquire for their continuity of 
operations. The suite will include standard and supported portable 
computers, storage devices, printers, and network components that 
offices can use in an emergency situation. The offices will be able to 
configure the equipment off-site if they no longer have access to their 
Capitol Hill spaces and local IT resources.
    Information Security.--The Office of the Sergeant at Arms has a 
significant focus on information security. Sergeant at Arms IT security 
experts worked with experts from the General Accounting Office to 
evaluate the Senate's security controls and to recommend improvements. 
We implemented the recommendations and significantly improved the 
Senate's overall computer security. Because of good technical and 
management controls, the Senate computing infrastructure remained 
secure despite threats from various viruses and worms, including the 
``SQL Slammer'' worm in January 2003 (SQL stands for Structured Query 
Language).
    Briefing Centers.--We have established Briefing Center facilities 
for emergencies that deny the use of the Senate Office Buildings and 
the Capitol. All Briefing Centers are within walking distance of the 
Capitol. In the event of an emergency, one Briefing Center will be 
activated and all Senators informed of that location.
    Briefing Centers will provide security, communications, 
information, and caucus space for Members (and one designated staff 
member because of the limited space available) during the critical 
period immediately following an incident. The essential function of 
accounting for Senators also takes place at this location. While we 
envision a Briefing Center being in place only for a brief period, the 
Sergeant at Arms and the Secretary of the Senate have provided the 
ability for the Senate to do legislative business, if necessary.
    Alternate Chambers.--We have established Alternate Chamber 
facilities if the Capitol is not available but the Senate needs to be 
in session. The Sergeant at Arms and the Architect of the Capitol have 
completed all the modifications of the infrastructure, including 
connectivity to the Legislative Information System, communications, and 
broadcast systems so that the Secretary of the Senate can provide the 
full range of legislative services in an Alternate Chamber.
    An additional Alternate Chamber location is established off Capitol 
Hill and that site is on-track to be available this year. Alternate 
Chamber locations on and off Capitol Hill, as well as other continuity 
of government locations, will enable the Senate to continue to meet its 
Constitutional obligations in the event that the Capitol or District 
are not available.
    Transportation.--We expanded our transportation resources to make 
sure we can move Senators and key staff in an emergency. We added three 
24-passenger buses, two 15-passenger vans, and a 10-passenger van to 
our fleet. Additionally, we have arrangements to provide additional 
transportation and support if the Senate needs to move away from 
Capitol Hill.
    Continuity Planning.--Senate offices are well along in developing 
continuity of operations plans, and we are working to complete this 
critical program as soon as possible. These plans are updated every 
year. The Office of the Sergeant at Arms continues to conduct training 
and provide assistance to offices as they enhance their plans and the 
supporting documents.
    Exercise of Plans.--The Office of the Sergeant at Arms, with the 
Secretary of the Senate, conducted a series of seminars and small-scale 
exercises from May 2002 to July 2002 culminating in a successful full-
scale exercise in August 2002 that tested continuity plans and 
procedures. This exercise tested alert and notification systems and the 
activation of a Briefing Center and the Alternate Chamber. It 
demonstrated that the Senate's supporting legislative systems will 
operate in the Briefing Center and Alternate Chamber environments. In 
December 2002, the USCP completed an exercise of its internal command 
and control operations. The Sergeant at Arms' Office of Security and 
Emergency Preparedness regular exercise program will help 
institutionalize these plans and provide the framework to evaluate and 
adjust them as needed.

Preparing for the Future
    The Senate established necessary plans and programs to meet its 
security, emergency preparedness, and continuity planning requirements. 
We need to maintain the momentum of the last 18 months to be prepared 
now, and to meet evolving threats. We have a framework to ensure the 
process continues.
    The Office of Security and Emergency Preparedness (OSEP) is the 
group of professional staff within the Sergeant at Arms Office charged 
to build on that framework. OSEP's mission is to consolidate and 
sustain the Senate's security, preparedness, and continuity planning. 
These efforts will ensure that this great body is able to adapt to the 
changing threat environment, to develop and coordinate security and 
emergency plans and policies, and to implement change. We trust the 
Senate will continue to provide the resources for OSEP to conduct 
necessary, periodic exercises that rehearse mission-critical systems 
and evaluate Senate readiness. OSEP should also conduct semi-annual 
Leadership briefings to report on the state of preparedness of the 
Congress and on the progress of evolving security plans.
    The United States must have enduring Constitutional government. By 
working with common goals and the strong support of the Senate and 
Congressional Leadership, we have created the foundation to make sure 
that our Constitutional government will ensure. We must build on that 
foundation, so this institution continues and our security remains 
effective.

                   SERVICE AND SUPPORT FOR THE SENATE

    My office has dozens of other accomplishments that support the 
Senate. Let me highlight some of them.
    The Office of the Sergeant at Arms has a long tradition of 
providing customer support, infrastructure improvements, and transition 
support. We work with the Senate community to streamline and simplify 
Senate processes. This work sometimes may be invisible, but it provides 
the infrastructure that supports this very public institution. We 
employ a staff of dedicated, innovative, and cost-conscious individuals 
who are committed to the best interests of this institution and those 
we serve.
    We also have a long tradition of introducing new technologies to 
the Senate that serve as platforms for great forward-looking 
improvements in productivity and constituent services. Some brief 
examples are the microcomputer, which was not adopted by Senate offices 
as automatically as you might imagine today; the introduction of local 
area networks, and then connecting them using a Senate Fiber Network; 
and the Internet. These technologies have been leveraged to radically 
change the way we do our jobs.
Implementing the Senate Messaging Infrastructure (SMI)
    The Senate Messaging Infrastructure is another of the fundamental 
technologies that will alter the way we do our jobs, though we cannot 
yet foresee all the benefits. Its implementation will support many of 
our security initiatives and enable us to provide services that support 
key Senate functions. The Office of the Sergeant at Arms is almost 
finished with the full implementation of this important program.
    Even though we have not quite completed our implementation, the 
Senate already has a much more robust, reliable, and maintainable e-
mail infrastructure. Since the end of January 2003, we have seen almost 
no enterprise-wide e-mail problems and Senate offices have received 
their e-mail reliably, quickly, and efficiently.
    Let me briefly describe the history of the Senate Messaging 
Infrastructure. In the summer of 1998, we began a project to 
investigate and implement a replacement for Lotus cc:Mail, which the 
Senate had been using since 1987, and which the vendor would no longer 
support. The project's goal was to establish an enterprise-wide system 
as the basis on which the Senate could deploy multiple services far 
into the future. Although e-mail is currently our principal focus, the 
Senate Messaging Infrastructure will support the Senate in ways we 
cannot yet foresee in addition to the ways we are already anticipating.
    After studying the alternatives and consulting with the Senate 
community, we recommended to the Rules Committee that the combination 
of Microsoft Outlook and Exchange was the best choice for the Senate. 
In May 2000, the Sergeant at Arms asked for Rules Committee approval to 
begin implementation.
    In June 2000, the Committee approved a $6.4 million contract with 
Compaq Computer Corporation to begin implementing Outlook and Exchange. 
These systems include functionality and capabilities far beyond basic 
electronic mail, including calendaring and group scheduling, contacts 
management, note organization, and task management. The systems also 
provide a base infrastructure for other Senate applications, including 
the BlackBerry Communications system. Many other products are available 
to add to enterprise messaging systems, such as instant messaging and 
video conferencing.
    After a successful pilot, the migration from Lotus cc:Mail to 
Microsoft Exchange began in August 2002 and is now 80 percent complete. 
We have migrated 110 of 138 Senate offices, and 28 remain to be 
migrated. E-mail flows smoothly, even as the volume of e-mail continues 
to grow larger and larger. We now process nearly two million Internet 
e-mail messages a week and we have processed as many as 500,000 in a 
single day.
    The messaging infrastructure encountered periods of instability 
last fall and at the beginning of this year. We stopped the migrations 
in mid-January to find out why. We found two reasons: (1) our 
migrations reached previously unknown product limitations and (2) we 
had to upgrade our software. By March 15, we successfully stabilized 
the centralized system components and all 110 migrated offices by 
making the necessary upgrades. On March 26, we presented technical 
options to the remaining 28 offices for completing the migration. We 
expect that all offices that choose to migrate will be completed before 
the summer begins, and we are exploring more long-term design 
alternatives to overcome the product limitations. We regularly brief 
the Senate offices' systems administrators and administrative managers 
on our progress.
    We expect that we will soon integrate Exchange with other systems. 
For example, integrating the Senate Voice Mail system into SMI would 
enable the system to translate messages into a computer-readable format 
that could be forwarded as an attachment to an electronic mail message, 
or be put on a Web page for retrieval over the Senate intranet. Voice 
mail could even be set up to receive incoming fax transmissions and 
route them to the proper destination via electronic mail. We are also 
working with vendors to procure applications to support wireless e-mail 
and data; these applications will not rely on the Internet to 
communicate.
    Integrating InfoXchange, the Senate's fax broadcast system with 
Outlook and Exchange would enable offices to maintain their broadcast 
lists themselves, receive faxes in a centralized place, and distribute 
incoming faxes via e-mail. Offices could also keep their existing fax 
numbers but route them to a pool of telephone lines that could handle 
large numbers of calls. The system could translate incoming faxes into 
electronic files, the offices could identify their faxes, and the 
system could electronically mail the incoming faxes to the offices.
    Through all of our work, our priorities are to establish a stable 
Senate-wide system that works well and can support our disaster 
recovery and Continuity of Operations plans, while ensuring that 
personal office data remains private and secure.
Serving Our Customers in the Senate Community
    The Office of the Sergeant at Arms provides Senate offices the 
information, tools, and support they need to work efficiently and 
effectively. We assign customer support analysts to each office; we 
produce materials to help staff learn about equipment, policies, and 
the Senate; and we develop and host the Senate's intranet Web site and 
information services.
    The Joint Office of Education and Training, and Office Support 
Services help the Senate take advantage of the services we offer. These 
groups distribute information, promote new services, and arrange for 
briefings, including briefings on security, mail handling, SMI 
implementation, package management, Computers for Schools, Web services 
assessments, and wireless modems.
    We overhauled the Senate's intranet home page and the Sergeant at 
Arms sections of Webster to make them much more user-friendly and more 
function-based rather than hierarchical. We renewed our information 
services contracts and executed an ongoing promotional project to 
ensure that all Senate staff members know about the information 
resources available to them. We are also visiting every Senate office 
to promote Web-related support services and to gather information about 
offices' Web requirements.
    Finally, we developed a new publication, SAA Update that provides 
timely information about new and ongoing Sergeant at Arms projects to 
Senate offices.
Improving the Senate's Infrastructure & Capabilities
    We have enhanced the Senate's infrastructure and capabilities with 
improvements in every area of the Sergeant at Arms organization. I will 
point out some of the highlights.
    Recording and Photo Studio Digital Migration.--We are continuing 
with the migration of the Recording Studio and the Photo Studio to 
digital technologies. This will provide Senators with higher quality 
pictures and services for their constituents. The Recording Studio 
project modernizes the way the Senate provides the broadcast signal of 
both the Senate proceedings and individual Senators' productions by 
utilizing an enhanced digital television signal. It will also provide 
expanded desktop access to television news, Senate proceedings, and 
Committee hearing coverage. The Photo Studio modernization project 
replaces analog-, chemical- and film-based processes and systems with 
networked digital imaging capabilities. This will provide more 
immediate access for printing, ordering, and downloading images by 
Senate offices and will enable customers to track photo orders online.
    The Recording Studio successfully relocated its operations over the 
past year to accommodate the Capitol Visitor Center service tunnel 
construction. We took advantage of the move to improve our studio 
facilities by accomplishing part of the digital migration. Once the CVC 
is complete, the Recording Studio will move into that facility, and we 
will finalize the digital migration project. Relocating to the CVC will 
enable us to cover 12 Committee hearings simultaneously, up from the 
four we can cover currently.
    Printing, Graphics and Direct Mail (PGDM) instituted an online 
ordering process for all printing, photocopying, and graphics services, 
and produced over 1 million documents for the Senate that were ordered 
from desktop computers. During the past three years, we made process 
improvements that reduced PGDM's staff by 13 percent, reduced operating 
expenses by $2.5 million, and saved Senate offices over $4 million in 
postage expenses. These improvements include establishing Quality 
Improvement Teams that reduced errors 86 percent and employee 
absenteeism 40 percent; converting leased, analog, stand-alone 
photocopiers to purchased, digital, networked printers that have 
improve service and reduced expenses by $1.2 million; and educating 
Senate staff on letter-addressing procedures enabling outgoing mail to 
qualify for maximum mailing discounts.
    We enhanced our document archiving capability by introducing CD/ROM 
and DVD services for Senate offices. These services enable offices to 
access and retrieve archived information from their desktops, and send 
and print information, as they need it.
    The IT support we provide the Senate improved when we signed a new 
support contract that covers the acquisition, installation, and ongoing 
support of Senate offices' networks. We have seen much better 
performance from our new vendor. The February 2003 customer 
satisfaction surveys show that 94 percent of customers described the IT 
Help Desk's services as either very satisfactory or excellent. The IT 
Help Desk receives an average of 1,428 customer trouble calls per 
month.
    We have instituted an online catalog to begin streamlining the 
process of ordering IT products. We also replaced the servers and 
software that handle all incoming and outgoing Internet e-mail with 
more powerful servers. This improves the Senate's ability to handle 
large peaks of Internet e-mail traffic.
Supporting the Transition
    The transition from the 107th to the 108th Congress was a success. 
The 108th Congress brought 11 new Members to the Senate, and the 
Sergeant at Arms organization supported them in myriad ways during the 
transition.
    Transition Office.--We coordinated all the activities of the 
Transition Office for the new Senators of the 108th Congress, providing 
full-time staff to support the new Senators until they could retain 
their own staffs, and assisting offices with their moves into swing 
suites.
    Office Support During the Transition.--The end of the 107th 
Congress and the opening of the 108th Congress saw 93 state office 
openings, closings, or moves, all of which we accomplished with minimal 
disruption. We provided demonstrations of constituent correspondence 
management systems to staff representing all of the new Members, and 
successfully installed their selections. These new installations were 
the first to integrate fully with the Senate Messaging Infrastructure.
    The State Office Liaison helped the offices of newly elected 
Senators acquire and negotiate leases for commercial and federal office 
space in their home states. The Liaison also helped re-elected Senators 
negotiate renewal or relocation leases and did so in connection with 
security assessments.
    We moved the ten new Members to their temporary suites in the 
Senate Office Buildings. We also have moved a total of 21 Members from 
their temporary or former locations into new permanent office space.
    For departing Senators, the Office of the Sergeant at Arms staff 
met with administrative managers to provide information on archiving 
requirements, provided microfilm and CD/ROM services to archive 
Members' documents, shipped Members' archives to depository libraries, 
moved packages and mail items to Senators' home states, and scanned 
more than 26,000 photo images to CD/ROM.
    In addition to providing logistical and technical support, 
departments across the Sergeant at Arms organization provided 
information and guidance to new offices. Our administrative services 
department developed materials and our Joint Office of Education and 
Training provided training for administrative managers on the functions 
and services available to them at the Senate and on the rules and 
regulations of this institution.
Working Collaboratively to Improve Services to the Senate
    The Office of the Sergeant at Arms is committed to overcoming 
organizational barriers to do what is best for the Senate. We work with 
Senate colleagues to provide support for training and procurement, and 
many of our initiatives dovetail with those of other organizations, 
especially the Secretary of the Senate.
    Our Joint Office of Education and Training, which the Sergeant at 
Arms and the Secretary of the Senate jointly sponsor, provides training 
that supports the work being done in all Senate offices, both in 
Washington D.C. and in the states. The training offered includes 
general professional development, Senate-specific information, computer 
training on Senate supported software, support for security and 
emergency preparedness initiatives, and health promotion.
    Just over the past year, the Sergeant at Arms Procurement group 
supported contracting for upgrades to the studios of the Republican 
Conference and the Democratic Technology and Communications Committee. 
It worked with the Secretary of the Senate to procure a new point-of-
sale application for the Senate's gift shop. And it helped the 
Appropriations Committee acquire a new appropriations tracking system.
    In addition, the Procurement group, along with the Technology 
Development group, worked with the Secretary of the Senate to procure a 
product and the related vendor support to upgrade the Senate's external 
Web site, www.senate.gov. The Secretary of the Senate manages the site 
and the Sergeant at Arms provides the infrastructure. Together with the 
Secretary's office, the Office of the Sergeant at Arms redesigned and 
redeveloped an all-new www.senate.gov that integrates a powerful 
content management tool and improves the organization of information on 
the site.

                     BUDGET BUILT ON BUSINESS MODEL

    Mr. Chairman, in constructing our budget request, I instructed 
staff to use the same business model as my predecessor and his 
predecessor. This means that each department conducts a top-down and 
bottom-up review when it constructs its long-range program and budget 
planning activities. All of our department directors and managers look 
for program efficiencies and cost-cutting savings in all mission areas. 
They evaluate and eliminate duplication and redundancy wherever 
practical. We leverage technology to achieve greater efficiencies and 
improve program effectiveness. We believe that the fiscal year 2004 
budget will provide the resources necessary to meet the needs and 
requests of the Senate.

                               CONCLUSION

    Mr. Chairman and Members of the Committee, the Office of the 
Sergeant at Arms is in a unique position: We balance keeping the 
``People's House'' open so that all of America and the world can see 
our great democracy in action against the need to keep the Capitol 
safe. We balance providing efficient, common services against 
delivering individual services and solutions to Senate offices. We work 
to use the taxpayers' money responsibly while providing outstanding 
service and support.
    As our testimony today shows, and their work--particularly over the 
last year and a half--demonstrates, the more than 700 people who work 
in the Office of the Sergeant at Arms are extraordinary public 
servants. On their behalf, my commitment to you and the Senate is that 
the Office of the Sergeant at Arms will provide you the best security, 
service, and support we can.

           Attachment I.--Financial Plan for Fiscal Year 2004
          office of the sergeant at arms--united states senate

                                                EXECUTIVE SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                                                              Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $43,161      $48,271       $5,110         11.8
    Expenses................................................      $38,013      $47,025       $9,012         23.7
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $81,174      $95,296      $14,122         17.4
Mandated Allowances & Allotments............................      $55,113      $59,731       $4,618          8.4
Capital Investment..........................................      $16,779      $38,019      $21,240        126.6
Nondiscretionary Items......................................       $4,518       $5,194         $676         15.0
                                                             ---------------------------------------------------
      TOTAL.................................................     $157,584     $198,240      $40,656         25.8
                                                             ===================================================
Staffing....................................................          829          846           17          2.1
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a proposed budget 
of $198,240,000, up $40,656,000, or 25.8 percent. The salary budget 
request is $48,271,000, up $5,110,000 or 11.8 percent and the expense 
budget request is $149,969,000, up $35,546,000 or 31.1 percent. The 
staffing request is 846, up 17 FTEs.
    For the second consecutive year, we have increased funds for 
security initiatives. The fiscal year 2004 budget request for security 
is $20,891,000, an increase of $5,912,000 or 39.5 percent over fiscal 
year 2003. The most significant aspects of the total security request 
are the alternate computing facility ($1,154,000 in salaries for 17 
FTEs and $4,096,000 in expenses); enhanced communication services 
($3,900,000); secure mail and package processing protocols ($631,000 in 
salaries 17 FTEs and $3,079,000 in expenses); personnel and operating 
expenses requested for the Office of Security and Emergency 
Preparedness ($987,000 in salaries for 10 FTEs and $2,352,000 in 
expenses); and security upgrades for Member state offices ($2,744,000 
in expenses).
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
  --The General Operations and Maintenance Salaries budget request is 
        $48,271,000, an increase of $5,110,000 or 11.8 percent. The 
        increase includes $1,870,000 to fund a 3.9 percent COLA, 
        $1,095,000 to fund merit increases, $884,000 to add 17 FTEs, 
        and $1,261,000 to fund other adjustments. The additional staff 
        will augment our security team, improve operations, expand 
        services, and meet new requirements for the Senate community.
  --The General Operations and Maintenance Expenses budget request for 
        existing and new services is $47,025,000, an increase of 
        $9,012,000 or 23.7 percent. The increase includes $3,700,000 
        for the higher costs of the Senate's new IT support contract, 
        which was awarded in Spring 2002 and which provides additional 
        resources to install, support and maintain the Senate's PCs; 
        $2,000,000 to screen Senate packages ensuring the safety and 
        security of Senate staff and property; $947,000 for maintenance 
        on data communication networks and systems; $618,000 for 
        maintenance costs on mainframe software; $502,000 for increased 
        management consulting services for security initiatives; 
        $332,000 to procure software and hardware for Internet and 
        Intranet services; $311,000 for maintenance support for the 
        Senate Messaging Infrastructure; and $210,000 for professional 
        services to support financial management projects that will 
        enable us to meet all appropriate audit standards and to 
        enhance budget and contract management systems.
  --The Mandated allowances and allotments budget request is 
        $59,731,000, an increase of $4,618,000 or 8.4 percent. The 
        increase includes $1,934,000 to pay the rent for federal and 
        commercial office space which has been increasing at an annual 
        rate of approximately 8 percent nationwide; $1,313,000 for 
        enhanced telecommunications; $1,111,000 for local and long 
        distance services for Washington D.C. and state offices; 
        $968,000 for Desktop/LAN installation and support; $745,000 for 
        computer equipment for Members, Committees, Officers, and 
        Leadership; and $100,000 for the Appropriations Analysis and 
        Reporting System. These increases are partially offset by a 
        decrease of $1,669,000 for Member mail systems maintenance.
  --The Capital investments budget request is $38,019,000, an increase 
        of $21,240,000 or 126.6 percent. We request $13,500,000 for the 
        acquisition of a new mail processing/warehouse facility that 
        will replace and consolidate our three warehouse locations. Our 
        current facilities do not meet GSA minimum requirements, are 
        functionally obsolete, and our largest location in Alexandria 
        has an expiring lease which the landlord will not renew on a 
        long-term basis. The new support facility will consolidate the 
        Alexandria warehouse and the two smaller warehouses into one 
        space that will meet the Senate's long-term space needs. It 
        will include modern physical security, optimal storage 
        configuration, and material handling equipment. In this 
        facility, we will be able to implement efficient operating 
        procedures and an inventory control system. Importantly, the 
        new facility will meet the all the space needs of the Secretary 
        of the Senate and the Sergeant at Arms. It will include museum 
        quality environmental controls for the Senate Curator and 
        climate control for the Senate Gift Shop, Stationery Store and 
        the Senate Library. The new support facility will include a 
        mail and package screening area for the Senate Post Office. 
        This will enable the Senate to save $750,000 in operating costs 
        annually and improve service by assuming responsibility for the 
        package screening service that is currently performed by a 
        vendor. The Senate Post Office will also upgrade the existing 
        mail screening infrastructure to current standards.
      The budget request includes $7,675,000 to relocate the Recording 
        Studio to the Capitol Visitor Center. The relocation will 
        enable expended coverage of up to 12 simultaneous committee 
        hearings through a central production facility. Concurrent with 
        the relocation, we plan to upgrade the chamber audio system and 
        our television and radio production facilities. As a result of 
        this and the final phase of the Digital Migration Project, the 
        Senate will have a truly state-of-the-art studio for Senate and 
        Committee broadcasts as well as for communication with 
        constituents.
      Facilities will need $1,485,000 to acquire furniture and 
        equipment for core Senate space in the CVC.
      IT Research and Deployment will require $1,500,000 for consulting 
        services and analysis of software for the redesign of the CCMS, 
        which will better enable Senate offices to efficiently 
        communicate with constituents. Increased functionality for the 
        CCMS/Email filtering system will cost $185,000 and list server 
        capabilities will cost $154,000.
      Operations will start several additional projects: Replacement of 
        outdated publishing equipment will cost $745,000; replacement 
        of a 12-year old outgoing mail sorter with updated equipment 
        will cost $500,000; replacing the current data collection and 
        job tracking systems will cost $500,000; and replacing the 
        outdated ID system will cost $150,000. Updating the equipment 
        will enable us to reduce maintenance and postage costs, track 
        job costs, and produce higher quality products. The Post Office 
        will acquire a custom designed mail sorter for $750,000 and a 
        mail delivery truck that will expedite the sorting and delivery 
        of incoming mail for $60,000.
      Network Engineering requires $3,432,000 for upgrades to network 
        switches, firewalls, the Network Management System, and the 
        state office wide area network.
  --Nondiscretionary items fiscal year 2004 budget request is 
        $5,194,000, an increase of $676,000 or 15.0 percent compared to 
        fiscal year 2003. The request consists of three projects that 
        support the Secretary of the Senate: contract maintenance for 
        the Financial Management Information System (FMIS), $2,596,000; 
        enhancements to the Legislative Information System (LIS), 
        $1,968,000; and requirements definition for enhancements to the 
        Senate Payroll System, $630,000.
     Attachment II.--Fiscal Year 2004 Budget Request by Department
    The following is a summary of the SAA's fiscal year 2004 budget 
request on an organizational basis.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                         Department                                       Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $10,942      $12,351       $1,409          12.9
Operations.................................................      $28,584      $55,618      $27,034          94.6
Technology Development.....................................      $29,578      $36,667       $7,089          24.0
Senate Messaging Infrastructure Project....................       $5,165         $945      ($4,220)         81.7
IT Support Services........................................      $49,915      $55,269       $5,354          10.7
Office Support.............................................      $26,502      $29,330       $2,828          10.7
Staff Offices..............................................       $6,898       $8,060       $1,162          16.8
                                                            ----------------------------------------------------
      TOTAL................................................     $157,584     $198,240      $40,656          25.8
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and analyzed in detail 
beginning on the next page.

                                                CAPITOL DIVISION
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                      Capitol Division                        Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $5,783       $6,689         $906         15.7
    Expenses................................................       $1,915       $2,418         $503         26.3
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $7,698       $9,107       $1,409         18.3
Mandated Allowances & Allotments............................       $2,744       $2,744           $0  ...........
Capital Investment..........................................         $500         $500           $0  ...........
Nondiscretionary Items......................................           $0           $0           $0  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $10,942      $12,351       $1,409         12.9
                                                             ===================================================
Staffing....................................................          135          137            2          1.5
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, Media Galleries and the Office of Security and Emergency
  Preparedness.

    Operations and maintenance salaries increase $906,000, or 15.7 
percent, to $6,689,000. This increase will fund the addition of two 
FTEs, $170,000; an expected 3.9 percent COLA, $416,000; merit funding, 
$115,000; and other adjustments, $205,000. The Office of Security and 
Emergency Preparedness requires two FTEs to direct, develop and monitor 
the processes and procedures needed to ensure security on Capitol Hill 
and to work on the Continuation of Operations Plan (COOP).
    Operations and maintenance expenses increase $503,000, or 26.3 
percent, to $2,418,000 primarily for increased management consulting 
services for security initiatives.
    The allowances and allotments budget request for state office 
security initiatives remains flat for fiscal year 2004.
    The capital investments budget request for COOP related purposes 
remains flat for fiscal year 2004.

                                                   OPERATIONS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                         Operations                           Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $15,658      $17,209       $1,551          9.9
    Expenses................................................       $6,629       $8,893       $2,264         34.2
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $22,287      $26,102       $3,815         17.1
Mandated Allowances & Allotments............................           $0           $0           $0  ...........
Capital Investment..........................................       $6,297      $29,516      $23,219        368.7
Nondiscretionary Items......................................           $0           $0           $0  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $28,584      $55,618      $27,034         94.6
                                                             ===================================================
Staffing....................................................          353          363           10          2.8
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group: Printing, Graphics and Direct Mail, Parking
  Office, ID Office, Photo Studio, and Hair Care Services; Recording Studio, Post Office, and Facilities.

    Operations and maintenance salaries will increase by $1,551,000 or 
9.9 percent to $17,209,000. This increase is due to the addition of ten 
FTEs, $400,000; budgeting for an expected COLA, $609,000; merit 
funding, $408,000; and other adjustments, $134,000. Central Operations 
is increasing its staff by four FTEs. Three FTEs will be required to 
properly staff the warehouse facility and one additional FTE is needed 
to provide administrative support. The Post Office is requesting four 
FTEs to ensure that packages and mail are accurately tested, sorted and 
delivered in a timely manner and two FTEs to provide administrative 
support to the Superintendent of Package Delivery and Special Services.
    Operations and maintenance expenses budget request is $8,893,000, 
an increase of $2,264,000 or 34.2 percent compared to fiscal year 2003. 
This increase is due to costs to screen Senate packages by a contractor 
providing more secure package processing, $2,000,000; uniform parking 
lot and street signage, $100,000; and to update furniture inventory, 
$100,000.
    The capital investment budget request is $29,516,000, an increase 
of $23,219,000 or 368.7 percent compared to fiscal year 2003.
    We request $13,500,000 for the acquisition of a new warehouse/mail 
processing facility that will replace and consolidate our three 
warehouse locations. Our current facilities do not meet GSA minimum 
requirements, are functionally obsolete, and our largest location in 
Alexandria has an expiring lease which the landlord will not renew on a 
long-term basis. The new support facility will consolidate the 
Alexandria warehouse and the two smaller warehouses into one space that 
will meet the Senate's long-term space needs. It will include modern 
physical security, optimal storage configuration, and material handling 
equipment. In this facility, we will be able to implement efficient 
operating procedures and an inventory control system. Importantly, the 
new facility will meet all the space needs of the Secretary of the 
Senate and the Sergeant at Arms. It will include museum quality 
environmental controls for the Senate Curator and climate control for 
the Senate Gift Shop, Stationery Store and the Senate Library. The new 
support facility will include a mail and package screening area for the 
Senate Post Office. This will enable the Senate to save $750,000 in 
operating costs annually and improve service by assuming responsibility 
for the package screening service that is currently performed by a 
vendor. The Senate Post Office will also upgrade the existing mail 
screening infrastructure to current standards.
    The budget request also includes $7,675,000 to relocate the 
Recording Studio to the Capitol Visitor Center. The relocation will 
enable expended coverage of up to 12 simultaneous committee hearings 
through a central production facility. Concurrent with the relocation, 
we plan to upgrade the chamber audio system and our television and 
radio production facilities. As a result of this and the final phase of 
the Digital Migration Project, the Senate will have a truly state-of-
the-art studio for Senate and Committee broadcasts as well as for 
communication with constituents.
    Facilities will begin to acquire furniture and equipment for core 
Senate space in the CVC, $1,485,000.
    Several additional projects will commence in Operations: $745,000 
to replace outdated publishing equipment; $500,000 to replace a 12-
year-old outgoing mail sorter with update equipment; $500,000 to 
replace existing data collection and job tracking systems; and $150,000 
to replace the outdated ID system. The updated equipment will enable us 
to reduce maintenance and postage costs, allow job cost tracking and 
produce higher quality products. The Post Office will acquire a custom 
designed mail sorter to provide better accuracy, expedited sorting, and 
a safer working environment and a mail delivery truck which will 
expedite the delivery of incoming mail, $750,000 and $60,000, 
respectively.

                                         TECHNOLOGY DEVELOPMENT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
              Technology Development Services                             Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $8,768       $9,809       $1,041          11.9
    Expenses...............................................      $11,934      $17,420       $5,486          46.0
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $20,702      $27,229       $6,527          31.5
Mandated Allowances & Allotments...........................           $0           $0           $0   ...........
Capital Investment.........................................       $4,358       $4,244        ($114)          2.6
Nondiscretionary Items.....................................       $4,518       $5,194         $676          15.0
                                                            ----------------------------------------------------
      TOTAL................................................      $29,578      $36,667       $7,089          24.0
                                                            ====================================================
Staffing...................................................          125          126            1           0.8
----------------------------------------------------------------------------------------------------------------
The Technology Development Services Department consists of the Systems Development Services, Network Engineering
  and Management, Enterprise IT Systems, Internet/Intranet and Research Services, and IT Security.

    Operations and maintenance salaries will increase $1,041,000, or 
11.9 percent, to $9,809,000. This increase is due to the addition of 
one FTE, $74,000; funding for an expected COLA, $352,000; merit 
funding, $234,000; and other adjustments, $382,000. Systems Development 
is adding two FTEs for a Senior Information Technology Specialist to 
support and maintain new and existing enterprise servers and a Senior 
Software Specialist to assist with the Legislative Information System. 
Partially offsetting this increase is a decrease of one FTE in Network 
Engineering.
    Operations and maintenance expense budget request is $17,420,000, 
an increase of $5,486,000 or 46.0 percent compared to fiscal year 2003. 
This increase is due to funding the operational support for the Senate 
Messaging Infrastructure Project, $3,400,000; maintenance on data 
communication networks and systems, $947,000; maintenance costs on 
mainframe software, $618,000; delivery of an expanded Sergeant at Arms 
organization intranet portal, $300,000; and increased maintenance costs 
for voice equipment, $298,000.
    Capital investments budget request is $4,244,000, a decrease of 
$114,000 or 2.6 percent compared to fiscal year 2003.
    Network Engineering requires $3,432,000 for upgrades to network 
switches, firewalls, the Network Management System, and the state 
office wide area network.
    Nondiscretionary items budget request is $5,194,000, an increase of 
$676,000 or 15.0 percent compared to fiscal year 2003. The request 
consists of three projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System 
(FMIS), $2,596,000; enhancements to the Legislative Information System 
(LIS), $1,968,000; and requirements definition for enhancements to the 
Senate Payroll System, $630,000.

                                     SENATE MESSAGING INFRASTRUCTURE PROJECT
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                        SMI Project                                       Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................         $423         $441          $18           4.3
    Expenses...............................................       $3,593         $504      ($3,089)         86.0
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............       $4,016         $945      ($3,071)         76.5
Mandated Allowances & Allotments...........................           $0           $0           $0   ...........
Capital Investment.........................................       $1,149           $0      ($1,149)        100.0
Nondiscretionary Items.....................................           $0           $0           $0   ...........
                                                            ----------------------------------------------------
      TOTAL................................................       $5,165         $945      ($4,220)         81.7
                                                            ====================================================
Staffing...................................................            5            5            0   ...........
----------------------------------------------------------------------------------------------------------------

    Operations and maintenance salaries will increase $18,000, or 4.3 
percent, to $441,000. This increase is due to funding for an expected 
COLA, $16,000, merit funding, $10,000, and other adjustments, ($8,000).
    Operations and maintenance expenses decrease $3,089,000, or 86.0 
percent, to $504,000. The SMI Project is expected to move into the 
maintenance phase by fiscal year 2004. Technology Development Services 
is funding maintenance for SMI beginning in fiscal year 2004. The SMI 
project team will be redeployed to address other initiatives for the 
Sergeant at Arms. An organizational structure and charter will be 
developed. The project is requesting $504,000 in operations and 
maintenance funding, mainly for consulting services supporting major 
initiatives.
    Capital investments decrease $1,149,000, or 100.0 percent due to 
the completion of the SMI project.

                                               IT SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                    IT Support Services                                   Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $5,694       $6,274         $580          10.2
    Expenses...............................................      $12,446      $15,547       $3,101          24.9
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $18,140      $21,821       $3,681          20.3
Mandated Allowances & Allotments...........................      $27,750      $29,689       $1,939           7.0
Capital Investment.........................................       $4,025       $3,759        ($266)          6.6
Nondiscretionary Items.....................................           $0           $0           $0   ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $49,915      $55,269       $5,354          10.7
                                                            ====================================================
Staffing...................................................          101          102            1           1.0
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Desktop/LAN Support, IT/Telecom Support, IT Research and
  Deployment, and Equipment Services branches.

    Operations and maintenance salaries increase $580,000, or 10.2 
percent, to $6,274,000. This increase is due to the addition of one 
FTE, $75,000; budgeting for an expected COLA, $223,000; merit funding, 
$153,000; and other adjustments, $130,000. IT Research and Deployment 
is adding one FTE as a senior information technology specialist to 
support the new CCMS applications.
    Operations and maintenance expense budget request is $15,547,000 in 
fiscal year 2004, an increase of $3,101,000, or 24.9 percent compared 
to fiscal year 2003. This increase is primarily due to an increase in 
the cost of a new IT contract awarded in Spring 2002, $3,700,000, which 
provides additional resources to install, support, and maintain the 
Senate's PC's.
    Allowances and allotments budget request is $29,689,000 in fiscal 
year 2004, an increase of $1,939,000 or 7.0 percent compared to fiscal 
year 2003. This budget supports voice and data communications for 
Washington D.C. and state offices, $17,941,000; maintenance and 
procurement of Members' constituent mail systems, $4,255,000; 
procurement and maintenance of office equipment for Members' Washington 
D.C. and state offices, $3,475,000; Desktop/LAN installation and 
specialized support, $3,418,000; and the Appropriations Analysis and 
Reporting System, $400,000. The increase in Telecom Services costs is 
attributed to major new initiatives that include upgrading older 
telephone systems in state offices, improving service over wide-area 
network to provide multimedia capabilities and to take advantage of new 
technology and continued efforts to ensure critical telecommunications 
can be maintained under any circumstance.
    Capital investments budget request is $3,759,000, a decrease of 
$266,000, or 6.6 percent compared to fiscal year 2003.
    IT Research and Deployment will require $1,500,000 for consulting 
services and analysis of software for the redesign of the CCMS which 
will better enable Senate offices to efficiently communicate with 
constituents. Increased functionality will be added to the CCMS/Email 
filtering system and list server capabilities will be added, $185,000 
and $154,000 respectively.
    The Wireless PDA project will commence with enhancements to 
BlackBerry type systems, $300,000. The Public Key Infrastructure 
Project will commence, $250,000, and will provide an encryption and 
authentication system to secure outbound electronic messages to 
constituents.

                                             OFFICE SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                   Office Support Services                    Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $1,846       $1,995         $149          8.1
    Expenses................................................          $37          $37           $0            0
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $1,883       $2,032         $149          7.9
Mandated Allowances & Allotments............................      $24,619      $27,298       $2,679         10.9
Capital Investment..........................................           $0           $0           $0  ...........
Nondiscretionary Items......................................           $0           $0           $0  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $26,502      $29,330       $2,828         10.7
                                                             ===================================================
Staffing....................................................           28           28            0  ...........
----------------------------------------------------------------------------------------------------------------
The Office Support Services Department consists of the Customer Support, Help and IT Request Processing, and
  State Office Liaison branches.

    Operations and maintenance salaries will increase $149,000, or 8.1 
percent, to $1,995,000. This increase will fund an expected COLA, 
$70,000, merit funding, $47,000, and other adjustments, $31,000.
    Operations and maintenance expenses will remain flat at $37,000.
    The allowances and allotments budget request increases $2,679,000 
or 10.9 percent to $27,298,000. Factors contributing to this increase 
are projected increases in rent for federal and commercial office 
space, $1,934,000 and funding for computer allocations, $745,000.

                                                  STAFF OFFICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                       Staff Offices                                      Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $4,989       $5,854         $865          17.3
    Expenses...............................................       $1,459       $2,206         $747          51.2
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............       $6,448       $8,060       $1,612          25.0
Mandated Allowances & Allotments...........................           $0           $0           $0   ...........
Capital Investment.........................................         $450           $0        ($450)  ...........
Nondiscretionary Items.....................................           $0           $0           $0   ...........
                                                            ----------------------------------------------------
      TOTAL................................................       $6,898       $8,060       $1,162          16.8
                                                            ====================================================
Staffing...................................................           82           85            3           3.7
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Human Resources, Administrative Services,
  Financial Management, Special Projects, and Information Technology.

    Operations and maintenance salaries increase $865,000, or 17.3 
percent, to $5,854,000. This increase is due to the addition of three 
FTEs, $166,000; budgeting for an expected COLA, $185,000; merit 
funding, $128,000; and other adjustments, $387,000. Financial 
Management will be adding two FTEs to support the audited financial 
statement project and to support contract administration. 
Administrative Services is adding one FTE to provide administrative 
support to the Office of Security and Emergency Preparedness and for 
Special Projects.
    Operations and maintenance expenses increase $747,000, or 51.2 
percent, to $2,206,000. Information Technology increases $280,000 for 
management consultants. Financial Management increases $210,000 for the 
audited financial statement project, contract management support, 
budget system enhancements, and software maintenance. Special Projects 
increases $100,000 for miscellaneous expenses. Human Resources 
increases $75,000 for physical abilities and medical guidelines updates 
and labor relations training for management and supervisors. 
Administrative Services increases $25,000 for the fare subsidy increase 
and the installation and monthly service fees for TV cabling in the 
Conference Center.
    All capital investments will be completed by fiscal year 2004.

    Senator Campbell. You have been here 7 weeks. Okay. We will 
give you 1 more week to figure out a plan to protect all 
Americans who visit the Capitol. Would that be enough time?
    Mr. Pickle. We will master that, sir.
    Senator Campbell. You will master it.
    Well, I say that somewhat in jest, but I understand that 
the demands of your job have risen considerably since the last 
Sergeant at Arms was here. It is not going to be easy, and the 
committee will certainly give you all the support and help that 
we can.

                           BUDGET PRIORITIES

    In the categories of your budget, you have significant 
increases, but the subcommittee allocation might not be up to 
the task. More than likely, it is going to be below what is 
going to be proposed for the Legislative Branch agencies. So we 
may have to make some reductions.
    Do you have a priority list, things that you literally have 
to have, and those things that could be put off?
    Mr. Pickle. I think we do, but I think rather than give you 
a quick answer now, I think we really ought to look at this--
there are some things that are impacted by the Capitol Visitor 
Center's complete date that may give us some breathing room 
here, and funding could be made available later, and that's 
only come to light within the last week or so, but I think we 
certainly would prioritize, if you so directed us to.
    Senator Campbell. Okay. Well, I would like to, and I am 
sure Senator Durbin would also like to know more about it, if 
you do prioritize.
    Mr. Pickle. Yes.

                      ALTERNATE COMPUTING FACILITY

    Senator Campbell. What is the status of the alternate 
computing facility that was funded in the fiscal year 2002 
supplemental?
    Mr. Pickle. We had a walk-through this past week. We should 
be taking occupancy, along with the House and the Library of 
Congress, sometime in May. And we hope to start the 
installation of telecommunications equipment and data systems 
by June or July. It is a very important aspect of security for 
this body.
    You have to wonder--being new here, you have to wonder why 
this was not done before, and maybe 9/11 and October 15, 2001, 
shed some light on the vulnerability. It was a vulnerability. 
It is no longer a vulnerability.

                            MAIL PROCESSING

    Senator Campbell. You mentioned the mail processing system. 
Is that system going to be equipped to detect traces of things 
like Anthrax, and so on?
    Mr. Pickle. All mail that comes to the Capitol is 
irradiated by the Post Office. When we take custody or receive 
that mail, we do additional testing, but I would be somewhat 
reluctant to, in an open forum like this----
    Senator Campbell. Yes.
    Mr. Pickle [continuing]. Talk about----
    Senator Campbell. I do not want you to. That is good. All 
right.

                               WAREHOUSE

    The warehouse is the largest item in your budget, $13.5 
million for that warehouse. Why is that needed, and when would 
it be operational? Have you identified the site, or got the 
plans done, or anything of that nature?
    Mr. Pickle. We do not have a firm site. The dilemma that we 
face, and the Senate, in particular, faces, all the offices 
here, is: We have three very separate and distinct locations, 
one of which is part of the Russell Building. None of these are 
very suitable as warehouses. None have climate control or 
environmental controls. They are not up to GSA standards, which 
are fairly strict.
    We also pay leases. We are paying for these. At one point, 
we were in jeopardy of losing the largest warehouse we have, 
which is down in Alexandria.
    What we are attempting to do is consolidate in one 
location, and realize a cost savings in the outyears for the 
Senate, and also do a better job of providing for service to 
the Senate.
    Senator Campbell. All right. As I mentioned before, what we 
are going to do, since we have a 10:15 vote, is take turns 
chairing this while one votes, and the other ones stay here.
    But if I can cut in, did you have an opening statement, 
Senator Durbin?
    Senator Durbin. I will just submit it for the record.
    Senator Campbell. Okay. We will put that in the record.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's budget 
oversight hearing on the Senate Sergeant at Arms and the U.S. 
Capitol Police Board.
    First of all, I want to welcome you, Mr. Pickle, and 
congratulate you on your appointment as the 37th Sergeant at 
Arms. It is certainly an honor for us to have someone with your 
background serving us here in the Senate. In this time of 
heightened security enhancements and measures, your knowledge 
and expertise are truly appreciated.
    I am also delighted to see Mr. Keith Kennedy, Deputy 
Sergeant at Arms back here in the Senate. You served as Staff 
Director of the Senate Appropriations Committee under Senator 
Hatfield, and did a wonderful job. It is a pleasure to have you 
back in the Senate and here with us today. I know that you and 
Mr. Pickle will make a great team.
    I also want to welcome Chief Gainer, a native of my home 
state of Illinois. It is good to have you here representing our 
Capitol Police force.
    The excellent work of your predecessors is very apparent 
today in the Senate. When we met in this subcommittee exactly 
one year ago today, the talk of anthrax, major mail delays and 
health risks associated with irradiated mail dominated a great 
deal of our hearing. Today we don't have to deal with any of 
those subjects. This is a tremendous relief.
    The subject of security around the Capitol, however, is 
now, more than ever, a serious one. You both have your work cut 
out for you in this difficult time of international unrest. I 
am glad to see the plans that you have outlined to assure that 
our security needs are being addressed.
    I want to congratulate the Capitol Police on its 
recognition by the Commission on Accreditation for Law 
Enforcement Agencies. This is a well-deserved and highly-
respected honor, and we who are fortunate enough to be under 
your watchful eye, are thrilled for you.
    I am glad to see the aggressive increase in officers and 
civilians at the Capitol Police. I understand that the staffing 
study you are conducting is nearly complete. I look forward to 
receiving the results of this study.

                        SENATE MESSAGING SYSTEM

    Senator Campbell. Let me ask you one other thing on the 
Senate messaging system. There are 28 officers who have yet to 
be migrated over to the new E-mail system, owing to production 
limitations. What are those product limitations, and are there 
future problems that we might expect with the Senate messaging 
system? How much have you spent to date on that project?
    Mr. Pickle. To date, we have spent $26 million on the SMI 
project. There have been problems.
    Senator Campbell. What kind of problems?
    Mr. Pickle. Well, I think that the Senate poses a very 
unique challenge, even to the quality of the vendors that we 
are using, and we are using two of the most recognizable names 
in the country, and certainly two of the most technologically-
advanced companies in the country.
    We do pose some unique challenges to the Senate. When you 
view the Senate as being a large corporation with--when you 
look at 138 offices here in Washington, and approximately 440 
or so spread around the country, and you are supporting over 
8,000 PC desktops, not to mention laptops, and you have some 
very unique needs at each committee and each member office, 
even the finest technology companies find this a unique 
challenge.
    There are architecture problems, and there are software 
problems that are being addressed. Our vendors are working 
around the clock with us, and they have been here. They have 
been very supportive, and we are relying on their expertise to 
get us through this.
    We hope to have the migrations complete by the first part 
of June. That is our goal. It is working very well. There have 
been bugs, and you are going to have bugs.
    Senator Campbell. Are you going to need additional funds to 
ensure its operation?
    Mr. Pickle. It is premature at this time to say. I believe 
this: We will need maintenance funds to maintain it, but the 
final design, and the final architecture has not been arrived 
at yet. We want a system that is flawless, and we are not 
flawless yet.
    Senator Campbell. Okay. Senator Durbin, did you have any 
questions?
    Senator Durbin. I only have one question. I would like to 
apologize to Mr. Pickle that we did not have a chance to get 
together yesterday, but I certainly look forward to sitting 
down with you.

                            MAIL PROCESSING

    Are you keeping track, are records being kept of the mail 
processing for the Senate, to give us any indication as to 
whether or not we are back up to speed as to where we were 
before the Anthrax problem?
    Mr. Pickle. Yes, we are. We are not where we were before in 
that a letter earmarked for the Senate today will take 
approximately 6 days, on average, to arrive here, from postmark 
to delivery. Now, of course, that is probably not faster than 
it was prior to October 15th, but we are back up as far as 
processing. The mail handling is safe, it is efficient, and we 
are actually saving money over where we were right after 
October 15th.
    I want to, if I could just for a minute, give credit to the 
Sergeant at Arms Office for something that people call Yankee 
ingenuity. When we looked at that time on how we could get 
packaging, or packages and cargo delivered here in a safe 
manner, we had some very large cost estimates from vendors, in 
excess of $1.5 million annually. The Post Office and the 
operations folks here, led by Rick Edwards and Harry Green, our 
Postmaster, came up with a wonderful idea at a cost of $30,000, 
which is more state of the art and more efficient than the 
vendor was able to provide for us.
    So we are making progress, but the fact that we have so 
many processes and procedures to go through to ensure safe mail 
delivery are going to certainly slow down mail delivery.
    Senator Durbin. I have two other questions. Is our approach 
to dealing with mail different than the House's approach?
    Mr. Pickle. Yes. Very much so. The House is much more 
reliant on vendors at a much higher cost.
    Senator Durbin. Can you give us a comparative cost on our 
mail system, as opposed to their mail system?
    Mr. Pickle. I would have to come back to you later with 
that, Senator. I would be happy to.
    Senator Durbin. They have contracted out to a firm to 
handle this.
    Mr. Pickle. They use a vendor for most of theirs, and they 
do have--of course, we have a different amount of the mail 
volume than they have, but their process, I do know from 
dealing with them and talking with them, is much more expensive 
than ours.
    Senator Durbin. What kind of complaints do you receive from 
Senate offices from the workers who are opening mail and 
processing it, as to health complaints, or concerns about 
fumes, or reaction, or that sort of thing?
    Mr. Pickle. There have been, I believe I am correct, about 
200-plus complaints received from Senate staff, who complained 
of breathing problems, rashes, that type of complaint, smelling 
fumes. We brought in a unit of the CDC, the National Institute 
of Safety and Health, who did a very comprehensive study in 
conjunction with the Attending Physician's Office. We found a 
couple of things. There are, as they say, aromatic, hydrocarbon 
fumes being given off by this mail that has been irradiated. 
However, the levels are such that they do not pose a health 
hazard, but be that as it may, there are still a small 
percentage of people who are complaining and believe that they 
do have some illness from this, and the Attending Physician is 
monitoring this very carefully.
    Senator Durbin. Okay. Thank you.
    Mr. Pickle. Thank you.
    Senator Durbin. Thanks, Mr. Chairman.

                           STAFFING INCREASES

    Senator Campbell. All right. Just maybe one more before we 
are done. Your budget includes 17 additional staff over fiscal 
year 2003. As I understand it, you have not reached the 
approved 2003 level of 829; therefore, the real increase of 
number of people that you will be hiring will be 49. What are 
they going to be working in, if you can say that in the public 
forum?
    Mr. Pickle. Well, first of all, there are going to be--out 
of the 17 that we have asked for this year, 6 are earmarked 
towards security functions. Some of these will be working in 
mail processing and mail handling. The others will be working 
in the area of technology and central operations, to take on 
some of the additional responsibilities that we have taken on 
since September and October of 2001.
    We have not filled those positions, as you indicated, which 
we were given last year. There are a number of reasons for 
that. First of all, my predecessor was very fiscally 
responsible. He did not want to go out front and start hiring 
people, unless he knew that we had the funding for it, and I 
concur wholeheartedly. We have approximately 73 postings out 
there now, and we are not just hiring people who apply. We are 
looking for the best people to work here. We are doing it very 
aggressively, but we are doing it in a very deliberate fashion.
    Senator Campbell. I see. Okay. Before Sergeant at Arms 
Pickle is done, Senator, did you have any questions or 
comments?

                         COMMUNICATION DEVICES

    Senator Bennett. Did you talk about the Blackberries and 
the beepers being----
    Senator Campbell. No.
    Senator Bennett. Let us get to the real important stuff.
    Senator Campbell. I had hoped I got away from that one. Do 
you want to do that?
    Senator Bennett. Okay. I feel like I am wearing a 
bandolier, with all kinds of grenades hanging on it, with----
    Senator Campbell. Cell phone.
    Senator Bennett [continuing]. And a cell phone, and a 
Blackberry, and so on.
    I have stopped carrying the beeper now, because the 
Blackberry will tell me when there is a vote. Are we moving 
forward on anything to----
    Mr. Pickle. We are, Mr. Chairman. I do not want to sound 
like a broken record.
    Senator Bennett. I am no longer the chairman.
    Mr. Pickle. I am sorry. I do not want to----
    Senator Bennett. There are days when I saw the allocation 
to the Ag Subcommittee that I wished for the chairmanship of 
the Legislative Branch, because we got whacked a whole lot 
worse than this subcommittee.
    Mr. Pickle. I do not want to sound like a broken record on 
this response, but, yes, we are looking. The Blackberry, at the 
time it was selected, really was the best device out there. 
More recently, there are several competitors who offer a 
product, several products, which we are looking at now.
    We agree that to have two, three, four instruments on your 
body is just not very productive, and it is a problem, but 
trying to eliminate that single point of failure, and get it 
down to one device, or two at the most, is what our goal is.
    Senator Bennett. Thank you. It is a very serious, major 
national problem.
    Mr. Pickle. Yes.
    Senator Bennett. International.

                         EMERGENCY PREPAREDNESS

    Senator Campbell. Okay. Without giving away any information 
that you should not in a public forum, how do you feel about 
our readiness for the Capitol complex, compared to 1 year, 1\1/
2\ years ago?
    Mr. Pickle. I think there is no comparison. Post-9/11 and 
post-10/15/2001, Al Lenhardt, then Sergeant at Arms, and his 
staff, did an outstanding job, along with the police 
department, of preparing the Capitol for preventing future 
attacks.
    There are, as you say, a large number of highly classified 
projects ongoing. There are many things that we are doing which 
are visible and not classified, such as posting barriers, 
badging, mail processing, mail handling, but there are many 
things that we are doing which are not visible, and I feel that 
the posture of the police department is at the highest it has 
ever been, the alert is high, and we are doing all we can to 
support them.
    Senator Campbell. Well, I know there have been a lot of 
changes, and I still remember 9/11, when a policeman came 
running into our office and told us we had to evacuate, but 
that there was no evacuation plan, so I know we have come a 
long way. Thank you.
    If there are any further questions, we will put those in 
writing to you, if any other members have a question.
                          CAPITOL POLICE BOARD

STATEMENT OF WILLIAM H. PICKLE, CHAIRMAN, CAPITOL 
            POLICE BOARD
ACCOMPANIED BY:
        TERRANCE GAINER, CHIEF, U.S. CAPITOL POLICE
        WILSON LIVINGOOD, HOUSE SERGEANT AT ARMS
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. We will go on and take the testimony of 
Chief Gainer now, if you could come to the table there.
    Did you not have an additional statement for this, Mr. 
Pickle?

                     STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. I was going to, but realizing that time is 
short, I am going to dispense with that, and just introduce, if 
I can, the other members of the Police Board.
    Senator Campbell. Okay.
    Did Mr. Livingood also have a statement, too?
    Mr. Pickle. No. It will just be myself very briefly, and 
Chief Gainer.
    To my left is Bill Livingood, House Sergeant at Arms, Chief 
Terry Gainer, who was sworn in last June, and to my right, Alan 
Hantman, Architect of the Capitol. This board is very committed 
to doing the right thing for the Congress. We are very 
committed to supporting this police department in any way we 
can. We think they have done an outstanding job, and rather 
than take up time telling you what I think, I am going to turn 
it over to Chief Gainer, sir.
    Senator Campbell. Chief, welcome to the committee.

                 STATEMENT OF CHIEF TERRANCE W. GAINER

    Chief Gainer. Thank you, Mr. Chairman and members of the 
subcommittee. I am honored to appear before you today to 
discuss the United States Capitol Police fiscal year 2004 
budget request.
    Mr. Chairman, I would first like to thank the committee for 
their continued support of the Capitol Police. The pay and 
other incentives received in the fiscal year 2003 appropriation 
are a significant advantage in recruiting, hiring, and 
retaining good men and women in officer positions, as well as 
attracting highly qualified civilian professionals for key 
support roles and functions.
    We would also like to thank the committee for support of 
the acquisition of the new offsite delivery facility, and the 
new headquarters building, and we have been working with the 
Architect of the Capitol to develop our requirements for the 
new facilities, and look forward to the day when we can occupy 
facilities that are capable of meeting our expanded needs.
    I am pleased and proud to announce a recent and important 
accomplishment that the men and women of the Capitol Police 
have achieved. The Capitol Police is the first full-service 
federal law enforcement agency to become fully accredited by 
the Commission on the Accreditation for Law Enforcement 
Agencies, otherwise known as CALEA.
    The Capitol Police voluntarily subjected themselves, and 
were accredited after a lengthy process by CALEA. This 
accreditation by CALEA is a means of matching and scoring the 
Department against cutting edge, professionally recognized 
standards of law enforcement excellence. I congratulate the men 
and women of the Capitol Police for this outstanding 
accomplishment, and their dedication to the mission of this 
organization, and the wisdom of the previous chiefs to engage 
in this process.
    The United States Capitol Police, as you know, is in a 
period of transition. Due to the ever-increasing and underlying 
threat to Congress, the role of the Capitol Police has expanded 
to ensuring the continuity of the Legislative Branch of 
Government, and the national legislative process, as well as 
extending a sense of safety and protection to all who work in 
and visit the Capitol complex. We work very closely with the 
Sergeant at Arms, and with the leadership of both the House and 
Senate, to ensure that the security of the Congress is 
appropriately managed.
    The ability of the United States Congress to meet its 
constitutional responsibilities is very much intertwined with 
the ability of the Capitol Police to meet its mission. The 
Capitol Police are ready and willing to meet the challenges a 
changing environment poses to the structure of our operations.
    Our budget request, as you have noted, is approximately 
$290.5 million, which as a result of the supplemental, can be 
reduced to $275.5 million. It represents a reasonable, 
necessary, and balanced plan to directly address the threats of 
today, and proposes the utilization of resources to ensure the 
protection of Congress, its members, staff, visitors, and the 
legislative process in the future.
    Our proposal is robust. The implementation of the United 
States Capitol Police strategic plan, which this budget 
supports, will ensure the uninterrupted continuation of the 
Congress. This committee has begun funding, and the Capitol 
Police are engaging in an aggressive increase, in both police 
officers and civilian support personnel.
    This increase in staff is the largest and most important 
part of our budget, and hence, our plans. The attainment of our 
goals depends, in part, on having the right people in the right 
strength and numbers, organized into an effective and flexible 
blend of capabilities and skills. In order to meet this goal, 
and provide a measured approach to adequately staff the 
Department to meet the threats and challenges we face in 
security operations, we have undertaken and are in the process 
of finalizing a comprehensive staffing study of all areas 
within the Department. This study, which is tied to our 
strategic plan, represents our professional recommendations for 
adequately staffing the Capitol Police, with the right mix of 
sworn and civilian personnel, to meet the needs of the current 
threat environment.
    We will provide the committee copies of the study, with the 
appropriate staff briefings, upon its approval and review by 
the Capitol Police Board. The Capitol Police, as of today, has 
1,393 sworn personnel, and we are anticipating concluding 
fiscal year 2003 with 1,569, and a budget request to finish 
fiscal year 2004 with 1,833 sworn officers.
    We also have 227 civilians, with the goal to finish fiscal 
year 2004, with 573 onboard professionals. This substantive and 
substantial increase in the staff is the backbone of the plans 
to fully staff all the necessary law enforcement areas around 
the Capitol complex, and to be able to provide sufficient 
intelligence capabilities, robust physical security, and 
response functions, as well as adequate administrative and 
logistic support services within the Police Department.
    The fiscal year 2004 estimate for salaries is $218.3 
million, or a 25.1 percent increase over the previous year. Our 
general expense request of approximately $72.2 million will be 
reduced by the $15 million related to the fiscal year 2003 
supplemental, for a total of approximately $57.2 million to 
fund the operational and administrative capacity of the 
Department.
    We have designed and implemented security systems to 
protect and prevent unauthorized physical and electronic access 
around this complex. A good portion of this budget will go to 
maintaining these systems at peak performance, and creating 
necessary expansions. Maintenance, life-cycle replacement, and 
expansions of services will cost approximately $8 million over 
the previous year.
    Also included is the equipment required of the new off-site 
delivery facility. The Capitol Police will incorporate in the 
facility cutting-edge technologies to examine all incoming 
deliveries, and stop any harmful package from entering the 
Capitol complex. The equipment and technology required to 
appropriately complete this facility will cost approximately 
$4.3 million.
    Funding is also requested for the accommodations, such as 
personnel, equipment, new staff, modernization of core 
information technology systems, and creation of the Capitol's 
first six-person mounted horse unit. We are also developing a 
Hazardous Materials Response Team, HMRT. This highly trained 
team, with civilian professionals will stand ready to deal with 
any chemical, biological, or radiological threat which could 
occur in the Hill.
    We have other highly trained elements that deal with 
explosives, armed intruders, unruly crowds, disturbed 
individuals, or other individuals who make threats. All of our 
response teams and, in fact, all of our operations rely on 
effective communications. The technological world of 
communications is constantly changing, and we need to keep in 
step with advances in this area.
    The Capitol Police employ several modalities of 
communication for effectiveness and redundancy. This budget 
plan requests additional funds to expand and update our 
communications capabilities to provide increased effectiveness 
in our operations. Whether it is effective communications, 
effective incident response, effective staffing strengths, or 
simply effective operations, we value being the best.
    The men and women of the Capitol Police are talented, 
motivated, and engaged professionals who take great heart in 
protecting this Congress. As Chief of the Capitol Police, and 
on the Department's 175th anniversary, I take great pride in 
the many years of service that the United States Capitol Police 
have provided the Congress.
    Building on that legacy, we at the United States Capitol 
Police look forward to continuing to safeguard the Congress, 
staff, and visitors to the Capitol complex during these 
challenging times, and we look forward to working with the 
Congress, and particularly this committee.

                          PREPARED STATEMENTS

    I thank you for your time, and I am ready to take any 
questions you might have.
    Senator Campbell. Okay. Thank you.
    [The statements follow:]

                Prepared Statement of William H. Pickle

    Mr. Chairman and members of the Committee, we are honored to appear 
before you to discuss the fiscal year 2004 Budget Request for the 
United States Capitol Police. With me today are the other members of 
the U.S. Capitol Police Board, Mr. Bill Livingood, Mr. Alan Hantman, 
and Chief Terrance Gainer. As you know Chief Gainer was sworn in as 
Chief of Police in June of last year.
    Having been appointed on March 17, 2003, I have been a member and 
the Chairman of the Capitol Police Board for a relatively short period 
of time. During that time, and based on past experiences, I have 
developed a strong respect for the capabilities and professionalism of 
the men and women of the United States Capitol Police. I would also 
like to express my appreciation to Bill Livingood, Alan Hantman, and 
Chief Gainer for their outstanding contributions and for their wise 
counsel during this learning period I am traversing. We have developed 
an excellent working relationship in this short period of time. A 
spirit of cooperation and unity has developed between us that will be 
evident in the future and I feel will best serve the Members of 
Congress, staff and visitors to the Capitol complex during these times 
of uncertainty and heightened security.
    This spirit of cooperation is strengthened by our shared focus and 
mission to protect and support the Congress in meeting its 
Constitutional responsibilities. The three thrusts that the Department 
has identified--Prevention, Response, and Support are key to meeting 
their mission. I support the vision of the United States Capitol Police 
to be a model federal law enforcement agency, leveraging partnerships, 
and being in the forefront in developing and implementing state-of-the-
art security, law enforcement, and incident response programs to ensure 
the continued protection of the Congress and legislative process in a 
changing threat environment. I further support training and other 
measures being taken to enable the men and women of the Department to 
meet the increasing challenges, and to perform at the highest levels of 
professionalism. I will undoubtedly have these items in mind when 
making decisions that impact the security of the Congress and impact 
the Capitol Police.
    I know that there are issues facing the Capitol Police. Facilities 
and space requirements are one of the critical issues. It appears that 
progress is being made in this area and in the not to distant future we 
could have movement on a new headquarters facility, and an offsite 
delivery center. I feel it is critical that we make sure that this 
momentum continues, because other plans are dependent upon it. One 
plan, which is dependent upon facilities and space, is staffing 
increases. The Capitol Police began, with committee support, an 
aggressive staffing increase. This budget addresses critical security 
needs for more officers and support staff to carry out the mission of 
the Capitol Police. These staffing increases are vital and I urge your 
support of the staffing strengths laid out in this budget plan, as well 
as coming decisions regarding facilities.
    Mr. Chairman and members of the Committee, I want you to know that 
I am very excited to be here and that I am looking forward to working 
with this Board, and the Committee on the security of the Capitol 
complex and the issues facing the Capitol Police. Thank you for this 
opportunity to appear before you today, Chief Gainer will present his 
remarks regarding current operations and Capitol Police plans for the 
coming fiscal year.

                                 ______
                                 
                Prepared Statement of Terrance W. Gainer

    Mr. Chairman and Members of the Subcommittee, I am honored to 
appear before you today to discuss the United States Capitol Police 
fiscal year 2004 budget request.
    Mr. Chairman, I would first like to thank the Committee for their 
continued support of the Capitol Police. The pay and other incentives 
received in the fiscal year 2003 appropriation are a significant 
advantage in recruiting, hiring and retaining good men and women in 
officer positions, as well as attracting highly qualified civilian 
professionals for key support roles and functions.
    We would also like to thank the Committee for its support of the 
acquisition of a new off-site delivery facility and a new headquarters 
building. We have been working with the Architect of the Capitol to 
develop our requirements for the new facilities and look forward to the 
day when we can occupy facilities that are capable of meeting our 
expanding needs.
    I am pleased and proud to announce a recent and important 
accomplishment of the men and women of the Capitol Police. The Capitol 
Police is the first full-service federal law enforcement agency to 
become fully accredited by the Commission on Accreditation for Law 
Enforcement Agencies otherwise known as CALEA. The Capitol Police 
voluntarily subjected themselves and were accredited after a lengthy 
process by CALEA. This accreditation by CALEA is a means of matching 
and scoring the Department against cutting edge, professionally 
recognized standards of law enforcement excellence. I congratulate the 
men and women of the Capitol Police for this outstanding accomplishment 
and their dedication to the mission of this organization.
    The United States Capitol Police is in a period of transition. Due 
to the ever increasing and underlying threat to the Congress, the role 
of the Capitol Police has expanded to ensuring the continuity of the 
Legislative Branch of government and the national legislative process 
as well as extending a sense of safety and protection to all who work 
in and visit the Capitol complex. We work very closely with the 
Sergeants at Arms and with leadership of both the House and the Senate 
to ensure that the security of the Congress is appropriately managed. 
The ability of the U.S. Congress to meet its constitutional 
responsibilities is intertwined with the ability of the Capitol Police 
to meets its mission. The Capitol Police is ready and willing to meet 
the challenge this changing environment poses to the structure of our 
operations. Our budget request of approximately $290.5 million, which 
as a result of the supplemental can be reduced to $275.5 million, 
represents a reasonable, necessary and balanced plan to directly 
address the threats of today and proposes the utilization of resources 
to ensure the protection of Congress, its Members, staff, visitors and 
the legislative process into the future. Our proposal is robust. The 
implementation of the USCP strategic plan, which this budget supports, 
will ensure the uninterrupted continuation of the Congress.
    This Committee has begun funding, and the Capitol Police are 
engaging in, an aggressive increase in police officers and civilian 
support personnel. This increase in staff is the largest and most 
important part of our budget, and hence our plans. The attainment of 
our goals depend, in part, on having the right people, in the right 
strength and numbers, organized into an effective and flexible blend of 
capabilities and skills. In order to meet this goal and provide a 
measured approach to adequately staff the Department to meet the 
threats and challenges that face security operations of the Congress we 
have undertaken, and are in process of finalizing, a comprehensive 
staffing study of all areas within the Department. This study, which is 
tied to our strategic plan, represents our professional recommendations 
for adequately staffing the Capitol Police with the right mix of sworn 
and civilian personnel to meet the needs of the current threat 
environment. We will provide the Committee copies of the study with 
appropriate staff briefings upon completion, which is expected within 
the next few weeks. The Capitol Police, as of April 5th had 1,393 sworn 
personnel and we anticipate concluding fiscal year 2003 with 1,569 and 
a budget request to finish fiscal year 2004 with 1,833 sworn officers. 
We also have 227 civilians with a goal to finish fiscal year 2004 with 
573 on-board professionals. This substantive increase in staff is the 
backbone of plans to fully staff all necessary law enforcement areas 
around the Capitol complex and to be able to provide sufficient 
intelligence capabilities, robust physical security and response 
functions as well as adequate administrative and logistical support 
services within the Police Department. The fiscal year 2004 estimate 
for salaries is $218.3 million or a 25.1 percent increase over the 
previous year.
    Our general expense request of approximately $72.2 million will be 
reduced by $15 million, related to the fiscal year 2003 supplemental, 
for a total of approximately $57.2 million to fund the operational and 
administrative capacity of the Department. We have designed and 
implemented security systems to detect and prevent unauthorized 
physical and electronic access around the complex. A good portion of 
this budget will go to maintaining these systems at peak performance 
and creating necessary expansions. Maintenance, life cycle replacement 
and expansion of services will cost approximately $8 million over the 
previous year. Also included is the fit out of the new offsite delivery 
facility. The Capitol Police will incorporate, in the facility, cutting 
edge technologies to examine all incoming deliveries and stop any 
harmful package from entering the Capitol complex. The equipment and 
technology required to appropriately complete this facility will cost 
$4.3 million. Funding is also requested for the accommodation, such as 
personal equipment, of new staff, modernization of core IT systems and 
creation of the Capitol's first six person mounted horse unit.
    We are also developing a Hazardous Materials Response Team (HMRT). 
This highly trained team of civilian professionals will stand ready to 
deal with any chemical, biological, or radiological incident, which 
might occur on the Hill. We have other highly trained elements that 
deal with explosives, armed intruders, unruly crowds, disturbed 
individuals, and individuals who make threats, etc.
    All of our response teams and, in fact, all of our operations 
depend on effective communications. The technological world of 
communications is constantly changing and we need to keep in step with 
advances in this area. The Capitol Police employ several modalities of 
communication for effectiveness and redundancy. This budget plan 
requests additional funds to expand and update our communications 
capabilities to provide increased effectiveness in our operations.
    Whether it is effective communications, effective incident 
response, effective staffing strengths, or simply effective operations, 
we value being the best. The men and women of the Capitol Police are 
talented, motivated, and engaged professionals who take great heart in 
protecting this Congress.
    As Chief of the Capitol Police on the USCP's 175th anniversary, I 
take great pride in the many years of service this Department has 
provided to the Congress. Building on that legacy, we at the USCP look 
forward to continuing to safeguard the Congress, staff, and visitors to 
the Capitol complex during these challenging times. And we look forward 
to working with the Congress and particularly this Committee.
    I thank you for your time and am ready to take any questions you 
may have.

    Senator Campbell. Did you have any additional comments, Mr. 
Pickle?
    Mr. Pickle. No.

                           MOUNTED HORSE UNIT

    Senator Campbell. Okay. Well, we have got our second call 
to vote. Senator Durbin will be back in 1 minute, and he will 
chair until I get back.
    I have got a number of questions. Let me ask you one that I 
am particularly interested in first, and that is: You included 
in your budget funds to start a mounted horse unit. Long before 
I was ever in public office, that is what I did. I was a 
training officer in Sacramento, and part of my responsibility 
was to train police horses.
    In fact, I wrote the manual for the Sacramento Sheriff's 
Department and the Law Enforcement Academy, and we did not have 
the budget to do that, but we watched other departments, like 
San Francisco, the success they had with crowd control during 
the riots years before that, and we were convinced, based on 
what other departments were doing, that one mounted patrolman 
in a crowd control situation is the equivalent of about ten on 
foot. But it requires some additional problems, like 
transportation, stabling, all the rest of the stuff.
    We did not have the budget to do it, so we might just put 
that in your think cap. It is probably a little different here, 
because a lot of people in this part of the country, they do 
not ride. Further out West, as you probably know, a lot more 
people do ride. What we did is: We found the police officer who 
had an interest and who owned his own horse, and the department 
leased them, not for much. I think it was $15 a day, as I 
remember, and the officers provided their own transportation to 
get them to work, and it saved the department a ton of money in 
not buying horses, not worrying about stabling, not worrying 
about feed, and doing all of the rest of the things.
    So I remember, we had about 30 on the mounted division of 
patrol. They only worked summers, and then we trained them in 
the wintertime, but they made a terrific impact for that 
department. And most big departments now use horses, not only 
because they are great with crowd control, but people like 
them, too. We found that they were public relations tools in 
dealing with visitors in our county parks.
    The only bad experience we ever had, I would have to tell 
you, is that we had this old cowboy that was also a policeman, 
and he was a team roper, and we were out on patrol one day by 
the parks, and we had this guy in a motorbike that kept zipping 
through, and we could not get him to stop. He would outrun us, 
because he was on a light motorcycle.
    Unbeknownst to the rest of us, this one sheriff, one 
deputy, he brought a rope with him one day, and he tied one end 
to his saddle horn, and when the guy went by, he roped him, and 
jerked him off his motorbike.
    He did not come back, by the way. He did not do that any 
more. So that was the only bad experience we ever had with 
them. All of the rest of the experiences with mounted patrol 
horses were good, so I want to do whatever I can to help you. I 
think it would just be a real benefit.
    The Park Police get horses donated, and they have a stable, 
as you know, down here. They have one up in Rock Creek Park, 
and they have another one right down here on the mall, too. I 
do not know what you had in your long-range plans to get a unit 
going, but I just want to commend you for doing that, and I 
think it is really going to make a very strong addition to the 
department.
    Chief Gainer. Thank you, Mr. Chairman. In light of that, I 
would like to double the request from six to twelve.
    Senator Campbell. I just got you a whole bunch of 
motorcycles. We have to do one thing at a time here. I will be 
back in just a moment.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin [presiding]. How are you?
    Chief Gainer. Good. Thank you, sir. It is good to see you.
    Senator Durbin. Please proceed. I see your family all the 
time in Chicago. They are doing well.
    Chief Gainer. Thank you, Senator. I just concluded my 
remarks, and I am available for questions, sir.

                          ADDITIONAL OFFICERS

    Senator Durbin. Good. Now, it is my turn. Let me ask you, I 
think it was 1 or 2 years ago, maybe last year, we talked about 
800 new officers in the Capitol Police. Tell me what the goal 
is today, how many more officers we are talking about.
    Chief Gainer. We have just completed our staffing plan. It 
took us a number of months to do that, and it was done from top 
to bottom within the Department, and it built off an earlier 
plan that the Department had done, as well as an outside 
vendor, who came in and did an analysis. We have just submitted 
that plan in the last couple of days to our Sergeant at Arms, 
so they have not had a chance to really digest it, but as you 
know, our current sworn strength is 1,393, and we anticipate 
finishing fiscal year 2003 with 1,569, and we would like to 
move towards 1,833 at the end of 2004. That is just the sworn I 
am talking about. I know that is a substantial increase. I 
would like to break down the larger areas of that.
    We would need 138 officers to staff in accordance with that 
1998 study that we did, which was done in concert with the 
Secret Service, and the Bureau of Alcohol, Tobacco and 
Firearms, and the U.S. Marshals Service, and the outside 
vendor, but that would permit us to post one officer outside an 
entrance for deterrence and surveillance, one officer at a 
magnetometer, one officer at the X-ray machine, and then 
another officer for surveillance behind that. Some of that was 
born out of our experience when our officers were killed in 
1998.
    One hundred and six additional officers then would be 
required to fully staff our explosive detection equipment, so 
that the itemizers that we think should be at each of the 
entrances for staff, or civilian, or visitors would have that 
additional capability.
    The Capitol Visitor Center will require 135 additional 
officers, given at least eight new posts, the magnetometer 
positions that will be there. The Botanical Garden, when it is 
fully staffed, and all of our officers are deployed there, 
would require an additional 27 officers. All these additions 
end up meaning you need more first-and second-line supervisors, 
so that would require 63 more.
    In addition, because of the different vulnerability in 
attacks, and the threat of attacks that we have, we would put 
119 more officers in and about the area, this includes 
increased visibility posts, our threats section, and to our 
protection unit.
    Senator Durbin. So the original estimate of 800, I do not 
know if you are familiar with that, and I--was that last year 
or the year before last year? Has that number changed? I 
believe we are talking about uniformed officers in 800. The 
goal of finding 800 officers over a given period of time, I do 
not know how many years it was----
    Chief Gainer. That has remained about the same then.
    Senator Durbin. About the same.
    Chief Gainer. Yes, sir.

                       ADDITIONAL CIVILIAN STAFF

    Senator Durbin. The civilian requirement, though, has gone 
up.
    Chief Gainer. It has gone up significantly. We have 227 on 
board now, and we would like to finish 2004 with 573, and, 
again, I know that is a whopping increase, but let me just hit 
the highlight of those areas which are above our current 
authorization.
    Some 59, nearly 60, would be just in the physical security 
area alone, whether it is physical security systems, 
countermeasures, and construction security. Another 143 would 
be in the administrative support area. Our Human Resource 
Division, with some of the growth, and taking over the 
responsibilities that were heretofore done by either the Senate 
or House, both our financial, our procurement, and the 
management of personnel, is very taxed. I think some of the GAO 
reports and others have appropriately criticized us for not 
having enough people to do the job there. So that 
administrative support, physical services, legal, additional 
trainers, would be 143.
    Logistics, whether it is property, vehicles, or facility, 
would require another 23.
    Our strategic operations and planning and incident 
management would require another 56 people, let me break that 
down. As I have indicated, the accreditation process in my 
remarks, we have just been approved for accreditation. It does 
require some people to maintain that. Our HMRT would grow. It 
is a new unit, that I believe has been previously authorized 
for 60 people, and our strategic operation and planning, where 
we are really merging a lot of the different planning 
functions, and adding, I think, to there, would require a total 
of 56. Our canine, off-site, investigations, and security aides 
would add an additional 15.
    Senator Durbin. If you attain these goals, what will be the 
total complement of the Capitol Police?
    Chief Gainer. The total number ultimately would be 1,833 
sworn, and 573 civilians, for a fiscal year 2004 total of just 
over, as my adders are adding behind me, and we project some of 
the civilian growth that I discussed above would occur in 
fiscal year 2005.
    Senator Durbin. It is 2,400, roughly, somewhere in that 
range.
    Chief Gainer. It is 2,929 at the end of fiscal year 2005.
    Senator Durbin. Historically, give me an idea, what was it 
1 or 2 years ago, before September 11th, let us say? Do you 
have any idea?
    Chief Gainer. I do not have that immediately in front of 
me, Senator. I will get that for you, sir. [As of September 30, 
2001, the Department had a total of 1,364 employees].
    Senator Durbin. It is clear, it is substantially----
    Chief Gainer. It is a big growth.

                          RECRUITING OFFICERS

    Senator Durbin. I will be the first to acknowledge that the 
men and women who serve in the Capitol Police have done an 
extraordinary job since September 11th at great sacrifice, 
personal and family sacrifice. We cannot thank them enough. We 
had a little button made. That did not say it. I mean it was--
our gratitude is genuine.
    I need to ask a question, though, because when we asked at 
an earlier panel--I am not sure that you were part of it--how 
many people have to be interviewed before you find, 
successfully find a new uniformed officer in the Capitol 
Police. I believe the number was ten. Is that still----
    Chief Gainer. That is an accurate number, but I am really 
delighted to say that we are not having any problems with the 
recruitment issue, and I think that is in a large part due to a 
couple of things.
    The pay package that you have agreed to, especially in the 
last year, has put us in the forefront in this area, plus the 
Department continues to gain a reputation of a good place to 
work, with a lot of different opportunities. And to the extent 
that other departments, whether it is the city or the 
surrounding states are not hiring, it is to our advantage.
    So at the moment, our impediment to getting people sworn in 
is our ability to get them through the police academy at 
Glynco. We anticipate, I think, about 360 people completing 
that program next year. In addition, we are looking at a 
lateral entry process that may permit us to bring any number of 
people in who are already trained either at FLETC or other 
certified academies, and bring them in through an instruction 
program that we would have here, so we could even grow quicker.

                         STAFFING ALTERNATIVES

    Senator Durbin. This is a personnel-intensive effort. What 
efforts are you making to find alternatives that would deal 
with security in a way that would require fewer people?
    Chief Gainer. Well, one of the ways you would do that is 
through overtime. There has to be a balance between the right 
number of people and the amount of overtime that is acceptable, 
this is more of an operational and cost issue than hiring 
people.
    Senator Durbin. I do not think my question was clear. What 
I am looking for is: Is there an alternative to this personnel-
intensive increase? Have you looked to technology, and other 
means to establish security that would not require as many 
FTEs?
    Chief Gainer. Yes. I mean technology is key to how we are 
managing what we do, but at the moment, we are leveraging the 
technology to the greatest extent we can. But given the number 
of doors, and garages, and entrances, that is where a lot of 
this labor-intensive deployment comes in. Even as we get to the 
opening of the Capitol Visitor Center, there is no indication 
at this point that other doors and entrances would be closed, 
so that all the technology and security that the Capitol 
Visitor Center brings would just be added personnel.

                             PUBLIC ACCESS

    Senator Durbin. At this time, we still have limited public 
access, do we not, to Capitol Hill and some of its buildings?
    Chief Gainer. Well, the total numbers are limited, but all 
staff, member, and public tours are open.
    Senator Durbin. In terms of Capitol tours as well, is that 
back up to the level that it was before September 11th?
    Chief Gainer. It is not.
    Senator Durbin. Is it envisioned that we will open the 
Capitol again to that same group or same number in the near 
future?
    Chief Gainer. I think we have to look at that on a weekly 
or monthly basis, and work with the Senate and the House 
Sergeant at Arms to determine what the appropriate number ought 
to be. Even as the war in Iraq was beginning to wind down, and 
we had anticipated that the threat level to the United States 
was going to be changed, we were examining that and working 
with both the Sergeant at Arms in moving towards opening 
further. I think as security information changes, hopefully, we 
will be able to suggest allowing more people in the Capitol.

                           LOC POLICE MERGER

    Senator Durbin. Some people would be surprised to learn 
that there are several different police forces on Capitol Hill, 
one of them being at the Library of Congress, and this 
committee has asked to see if we can integrate the Capitol 
Police with the Library of Congress security force. Can you 
tell me what progress has been made on that?
    Chief Gainer. Well, we are moving along with that rapidly, 
as you know, the law requires that I propose a plan to this 
committee and others by mid-August, I believe August 19th. I 
have had a series of personal meetings with the Librarian of 
the Congress and the Deputy Librarian. We have formed 
committees to work through the major issues, like the joint 
operations, personnel issues, and legal issues. We have hired a 
contractor, a former chief of police, who participated in a 
large merger of a city police department and county agencies.
    So, I believe we are well on track to present the plan, and 
the costs, and the implication of doing that. I also would make 
the record clear, from my point of view, that having a single 
department, under the command of the Capitol Police and under 
our budget control is better for security, and is very doable, 
as we work through all those technical issues to achieve that.
    Senator Durbin. I support it, of course, but I want to ask 
you two questions that have come up. One is: What are the 
different standards that we have, for retirement, for example, 
between the Library of Congress, security, and Capitol Police? 
Are you taking that into consideration, so that there is some 
accommodation or grandfathering of security officers currently 
at the library?
    Chief Gainer. Senator, that is one of the things we would 
be looking at. I met personally on two different occasions with 
most of the sworn employees at the Library of Congress, and 
assured them that my understanding of the intent of the 
committee, or the Congress, of our effort would not be to harm 
anyone in this, and that during all these committee meetings, 
as we develop our plan, we are going to have to figure out who 
can make the cut and meet our standards, who might need 
additional training, who might be grandfathered in, or who 
might be pensioned out.
    Senator Durbin. The other concern that the Library of 
Congress has made, I think, a valid observation is that their 
responsibility is a little different than the responsibility in 
other places in the Hill. They have a fiduciary responsibility 
when it comes to the collections that are priceless and 
irreplaceable, and view their security requirements somewhat 
differently than perhaps someone who is guiding hundreds of 
people through a Capitol Hill building.
    Are you taking that into consideration, in terms of the 
complement for security standards that will be used, and the 
supervision that will be sensitive to that need?
    Chief Gainer. Very much so. One of the ways we are doing 
that, again, is: All of our subcommittee working groups have 
people both from our agency and theirs, and I know there are 
things that we can learn from them, and them from us. I have 
also detailed an inspector over to that building, and the 
Library of Congress was good enough to give us space there, and 
we have offered to do some exchange programs now with our 
personnel, and we have invited them to participate in any of 
the in-service training classes that we have. But I have also 
pointed out to them that there is a lot of very important and 
historical items that we are responsible for in this Capitol 
complex, so in many respects, there is commonality of tasks.
    Senator Durbin. There are some similarities, no doubt about 
it.
    Chief Gainer. Yes, sir.
    Senator Durbin. I might also note that if I am not 
mistaken, the Capitol Visitor Center is going to create an 
underground access to the Library of Congress. It just makes 
sense for us to have a common security force that works 
together and complements one another, in terms of their 
responsibilities in that regard.
    Chief Gainer. Yes, sir.

                          APPLICANT ATTRITION

    Senator Durbin. I do not have any further questions here. I 
do not know if there are any for the record that the staff has 
prepared that they would like me to consider.
    You have stated for the record, Chief Gainer, that 
recruitment retention efforts have been improved because of the 
pay package and benefits that are available, but you said that 
it also, I hope I am not misstating this, that there were still 
some ten applicants for every person who was finally accepted 
to the Capitol Police force.
    Chief Gainer. That is correct, Senator.
    Senator Durbin. What are the reasons why people do not make 
the Capitol Police force?
    Chief Gainer. Well, the first cut you need to make is the 
written exam. So you need to get past the written exam, a 
physical, a background check, a psychological test and a 
polygraph examination. Once you get past all those, and there 
is an offer of employment, the candidate is then sent down to 
FLETC. So in that process is where people continually are 
weeded out.
    Senator Durbin. Can you give me ideas, percentages of those 
who would fail the written exam, physical exam or, when 
offered, not accept the position?
    Chief Gainer. I would have to get back to you with the 
specifics of that, Senator.
    [The information follows:]

UNITED STATES CAPITOL POLICE RECRUITMENT STATISTICS FOR FISCAL YEAR 2002
                           [As of May 1, 2003]
------------------------------------------------------------------------
                                                   Number      Percent
------------------------------------------------------------------------
Candidates Tested.............................        3,578  ...........
Candidates Passed.............................        2,697         75.4
Candidates Applied............................        1,959     \1\ 72.6
Disposition of Candidates Who Applied:
    Disapproved Prior to Conditional Offer....          571         29.1
    Declined Prior to Conditional Offer.......          257         13.1
    Disapproved After Conditional Offer.......          545         27.8
    Declined After Conditional Offer..........          185          9.4
    Background Investigation Pending..........           46          2.4
    Appointed.................................          315         16.1
    Scheduled for Appointment.................           11           .6
    Recommended for Appointment...............           29          1.5
                                               -------------------------
      TOTAL...................................        1,959        100.0
                                               =========================
Total Appointed, Scheduled & Recommended......          355  ...........
Percent of Candidates Tested..................  ...........          9.9
Ratio of Appointed to Tested..................  ...........      1 of 10
------------------------------------------------------------------------
\1\ Percent of those that passed.

NOTES:
A Conditional Offer is given prior to the polygraph exam, physical exam,
  and psychological evaluation.
Appointments from the 46 candidates currently pending completion of
  background investigation would slightly increase the percentage. If
  all were appointed the Percentage would increase to 11.2.

                       STUDENT LOAN REIMBURSEMENT

    Senator Durbin. Let me ask you: One of the things that we 
talked about is student loan reimbursement, and that has been a 
program that I have pushed, and there are some skeptics on the 
Hill. I think people with children in college, or recent 
graduates, understand how important this element is when you 
start talking about a job. Can you tell me whether this has 
been used by the Capitol Police?
    Chief Gainer. Well, we just, in the past 30 days, completed 
the regulations that would put that into effect, and we, in 
fact, anticipate that it will be fully operational by the 30th 
of July. I think the mandate of that would have it in effect by 
June. June is when the educational assistance program will be 
ready to be completely available. So we have laid out the 
regulations, the amount of money has been budgeted to do that, 
and now it is a matter of putting it into our recruitment 
efforts, and making it available to our current employees.

                      DIVERSITY OF THE WORK FORCE

    Senator Durbin. Can you give me any indication of the 
diversity of the Capitol Police force?
    Chief Gainer. Let me see if I have that.
    I am sorry, sir. I will have to get back to you on that.
    Senator Durbin. If you would. What efforts are being made 
to promote diversity in recruitment for the Capitol Police?
    Chief Gainer. Part of what we do there is, where we 
advertise, and where we visit. Over the course of 1 year, I 
believe there will be about 200 visitations our recruiters will 
make throughout the United States. I think it is 200. They will 
go to various colleges, universities, military bases. And that 
will be done, whether it is a college that is traditionally 
African American, or looking at recruiting from Puerto Rico, to 
try to increase the Hispanic level. So we target where we might 
find the most minorities or gender differences.
    [The information follows:]

                      UNITED STATES CAPITOL POLICE GENDER AND RACE OR ETHNICITY STATISTICS
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                  Gender                         Race/Ethnicity
                                           ---------------------------------------------------------------------
            Number of Officers                                                      Black or  Asian or  Hispanic
                                              Male     Female     White   American   African   Pacific     or
                                                                           Indian   American  Islander   Latino
----------------------------------------------------------------------------------------------------------------
            AS OF MAY 12, 2003

1,436.....................................      81.6      18.4      65.3        .3      29.6       1.3       3.5

              AS OF JUNE 2000

1,199.....................................      82.2      17.8      67.3        .3      28.8       1.1       2.5
----------------------------------------------------------------------------------------------------------------
Note: Per Department of Justice statistics, in June 2002 the USCP had the second highest percentage of black
  police officers of all federal law enforcement agencies.

                          PAY SCALE COMPARISON

    Senator Durbin. How does your pay scale compare to the D.C. 
Police Department?
    Chief Gainer. Actually, we are above the D.C. Police 
Department in our entry-level pay, and our step increases, and 
the fact I happen to have a son who is a member of the 
Metropolitan Police Department, and was just shocked to learn, 
as he completed his 18 months, that he would not be getting a 
step increase because of budget problems that they are having 
there. That is not an issue we have.
    I will give you some examples. The entry level for a United 
States Capitol Police Officer is $43,166. For a Park Police 
Officer, it is $40,345. For a Secret Service Uniform Division, 
it is $40,349, and for the Metropolitan Police, it is $39,644. 
So just over the MPD, we are slightly better than $4,000.
    Senator Durbin. Forty-three----
    Chief Gainer. It is $43,100 for us and $39,600 for MPD.
    Senator Durbin. There was a time when we were losing 
Capitol Police officers to the Transportation Security 
Administration. Now, I see they are laying off people. Some 
3,000 more were announced yesterday, if I am not mistaken. 
Obviously, this may create a pool of talent looking to apply to 
come back to the Capitol Police. Have you noted that from any 
of the previous layoffs?
    Chief Gainer. Actually, some of the personnel that we lost 
that went over there had made inquiries about coming back here 
and, again, fortunately, the legislation that was passed by 
both the House and Senate recently permits us to do that.
    I might add that flying home from Chicago, where I was 
taking a son to look at a college, last night, I happened upon 
one of the officers who formerly worked for us. He was on that 
flight doing his duty, and we had a chance to kibbitz a little 
bit, and I suggested to him that he ought to come back home. He 
was lamenting about the travel, and some of the promises were 
not quite there, and I said we would welcome him back with open 
arms.
    Senator Durbin. Thank you, Chief.
    Mr. Chairman.

                       MOUNTED HORSE UNIT SUPPORT

    Senator Campbell [presiding]. Thank you, Chief. I 
understand Senator Durbin asked a number of questions that I 
was going to, too.
    I have a few more. While I was walking over to vote, I got 
to thinking I might have given you the wrong impression a 
little bit about the use of horses. I am very, very supportive 
of it, by the way, but I reflect back on my days when I was a 
training officer for those horses. And, you know, you see those 
old Westerns where these cowboys are running around shooting. 
Well, I want the record to reflect you can shoot off any horse 
once, and the next time you even look at your gun, you are 
probably going to go to a rodeo unless you have an awful lot of 
training.
    Chief Gainer. Noted.
    Senator Campbell. You will take that into consideration. We 
used to get a lot of help from, of all the strange places, from 
the Boy Scouts of America, and we got the local Boy Scout 
troops--and they loved it, by the way--to act as crowds. And, 
of course, it was kind of scripted, but we had them crumble up 
newspapers, for instance, and fill small water balloons, and 
throw them at us, do all kinds of stuff to get the horses used 
to these very unusual circumstances, but if they are trained 
right, they are going to do you a lot of good. So I hope you 
pursue that----
    Chief Gainer. Yes, sir.

                           LOC POLICE MERGER

    Senator Campbell [continuing]. And I will certainly help 
you.
    Let me talk a little about the merger of the Library of 
Congress. I do not know if Senator Durbin hit on that or not, 
but Speaker Hastert had a problem with that, based primarily on 
the difference of training, whether it was necessary for the 
police over at the Library of Congress to go through the same 
training or not. Do you find some additional challenges you had 
not expected in this merger?
    Chief Gainer. Well, there are a lot of issues to be worked 
through yet, and to develop the plan that we owe you by August 
19th, none the least of which is how you transfer individuals 
and make them meet our standards. One of the things that is in 
the legislation requires that any new hires would meet the 
standards of the United States Capitol Police, and we have 
talked with them about that.
    So some of our subcommittees will be working on the issue 
of who can make the cut and simply put on our uniform rather 
quickly, with a minimal amount of training, and who, because of 
either background, or physical ability, or age, would not do 
that. Then we would have to work through, if that is the case, 
if there is a group of those individuals, are there things that 
can augment the security that needs to be done either in the 
Library of Congress, or elsewhere, that would accommodate them, 
or offer them buyouts, or early retirements.
    I do not think there are any impediments, except some of 
the public statements that I have heard that would indicate 
that the Library of Congress supports the notion that the 
budget for this unit would be within their budget. I could not 
support that, and I would not recommend that to either the 
Police Board or this committee, or the notion that the ultimate 
commander of that unit, whether it is an inspector, if it is 
similar to our other divisions, would report directly and 
outside of the chain of command of the police department. I 
think those are two very key issues of command and control that 
would be essential for the successful merging of the agencies.
    Senator Campbell. When they hire, do they have the same age 
requirements as the Capitol Police?
    Chief Gainer. At the current moment, they do not.
    Senator Campbell. They do not. They have requested 54 
additional officers, as I understand it, in the fiscal year 
2004 budget. Can you, or do you, or have you done an analysis 
about the need for those positions, and how the hiring of their 
officers might affect this planned merger, for instance, if 
they are hiring of an age that is above the age restriction you 
have? Is that going to be a problem?
    Chief Gainer. The analysis of that is in the embryonic 
stage. We have to do more work on that, and figure out what the 
implication is, and why they would want that number.
    Senator Campbell. Is that included in your manpower study 
that you are doing?
    Chief Gainer. It is not.

                             STRATEGIC PLAN

    Senator Campbell. It is not. In your manpower study, is 
that part of your strategic plan?
    Chief Gainer. The merger of the Library of Congress police?
    Senator Campbell. Yes.
    Chief Gainer. It is, sir.
    Senator Campbell. It is. Has there been an outside agency 
hired to do that, or are you doing that in-house?
    Chief Gainer. The merger process, or the----
    Senator Campbell. The strategic plan, in general.
    Chief Gainer. The strategic plan, the one we just 
completed, was done largely in-house, based on earlier work the 
police department had done. But only in the last 24 hours have 
we had some conversations with the GAO to ask them to both 
please help us with the strategic plan and the staffing plan to 
make sure that they coalesce, as we think they do, and to 
ultimately deliver a strategic plan that is in conformity with 
the recent legislation that requires something done by sometime 
this summer.

                               FACILITIES

    Senator Campbell. This summer. Okay. On your facility 
needs, did we not last year provide money for a training 
building for you?
    Chief Gainer. Yes, sir.
    Senator Campbell. What is the disposition of that? Is that 
going to also house your new headquarters, or just the 
training?
    Chief Gainer. It is out in Cheltenham, Maryland. It was 
opened just about 1 year ago, this past summer, and it is part 
of the Federal Law Enforcement Training Center properties. We 
completely occupied, and staffed it. That is where we are 
training the individuals. But also in the supplemental budget, 
there was money given for a new training facility out there 
that would accommodate live fire and tactical training of our 
officers.

                                TRAINING

    Senator Campbell. Do they do 80 hours of training there? I 
thought I saw 80 hours somewhere in my notes.
    Chief Gainer. One of our goals is to increase in-service 
training for everybody to 80 hours. Now, we have fallen short 
of that thus far, mainly because of the overtime requirements, 
and the threat conditions we are operating under. Most police 
departments, progressive police departments, like 40 hours. 
Again, we want to be the best.
    Senator Campbell. Forty?
    Chief Gainer. We want to be on the cutting edge, and have 
80 hours. The average, some officers have had 80 hours. Most 
officers right now have only had 40. We instituted a training 
day. Every single day is a training day, where at a roll call, 
everybody gets 8 minutes on some type of subject. We still have 
work to do to get everybody up to 80 hours, which also, I might 
add, is one of the reasons for the manpower increase.
    So the 40-hour in-service training, morphing to 80 hours, 
is in addition to the firearms training we get. In order to do 
that, you have to have people not on post, and not working 
overtime.

                         RETENTION OF EMPLOYEES

    Senator Campbell. For a while, you had a retention problem. 
I think you alluded to it earlier. People were going through 
your training, and then trying to get into another agency, air 
marshal, or something of that nature, and that, I understand, 
has slowed down. Have you had any people who want to transfer 
in from other departments?
    Chief Gainer. We have. I just mentioned, I happened to fly 
in a plane last night with an individual who is a former member 
of our agency of 10 years, and went over to the sky marshals. I 
invited him back, and he was at least thinking it over. We also 
had some inquiries by about a half-dozen other employees who 
have left the Department.
    Senator Campbell. He was one of your former officers.
    Chief Gainer. Yes.

                         LATERAL ENTRY PROCESS

    Senator Campbell. Have you had some that were not your own 
former officers? If they come in, do they go through the same 
amount of training, or the same type, or do they have some 
abbreviated lateral transfer consideration, or something in 
lieu of that?
    Chief Gainer. It is a great question, sir. It was only in 
the past year that we received the ability to do that, and in 
the past 30 days, we have sat down with both our recruiters and 
trainers to implement a program that we hope that by the fall 
will introduce a class of only lateral-entry officers, who have 
either gone through FLETC under some other Federal agency, or 
some accredited agency, that would then only be trained from 8 
to 10 weeks at our academy at Cheltenham.
    Senator Campbell. Eight to 10 weeks. As I remember, years 
ago, our training was around 12 weeks, which was kind of an 
average in California in those days.
    Chief Gainer. Universally, it has grown. Our officers do, I 
believe, 12 down at FLETC, and another 12 up here.
    Senator Campbell. When they do the 12 up here, do they live 
at home, or are they in a dorm facility?
    Chief Gainer. They do not stay at the facility.
    Senator Campbell. I have a few other questions, that I do 
not know if Senator Durbin touched on or not. So that I do not 
duplicate those, the remaining ones I will submit. If you will 
answer them in writing, I would appreciate that.
    Chief Gainer. Thank you, Senator.

                      SHINING LIGHT OF THE NATION

    Senator Campbell. I just want to tell you that it is my 
personal hopes that the Capitol Police become the shining light 
of the police departments nationwide. There are a lot of good 
police departments out there, and since I used to be the 
Chairman of the Treasury Subcommittee, I used to visit a lot. I 
worked with the HYDA program, and the ATF, and a lot of groups, 
the CTECH transfers. I have seen a lot of them, and there are 
some really good ones.
    It has always seemed to me that the Capitol ought to be a 
step above and ahead in terms of what the American public sees 
when they think of an American police officer. I have carried, 
I think, more legislation in this Senate than any of my 
colleagues on police bills, the bulletproof vest bills, the 
cops in schools programs, I mean a hell of a bunch of them.
    One of the things I still remember from the days when I was 
a deputy, I was teaching school at the same time, and that was 
in the days when the word ``pig'' was a common word for a 
police officer. It used to bother me that so many young people, 
at least in those days, did not see policemen as people who 
have a family, and had kids, and were Dad, and coached Little 
League, and did all the stuff that normal dads or moms do.
    Part of the job, it seems to me, of a good progressive 
police department is trying to bridge that gap with young 
people, so that they could grow up respecting policeman, 
because in this day and age, I also have the view that since 9/
11, policemen, as well as firemen, EMTs, and others, they are 
going to be the real front line warriors in this whole new 
defending-America-system that we find ourselves in. And I 
cannot think of a department I would rather have be the kind of 
shining light of all police departments than our Capitol 
Police.
    I want to tell you that I intend to be very, very vocal and 
very forceful of the things that you want to do with the police 
department.
    Chief Gainer. Senator, I appreciate that. I neglected to 
take this opportunity to say: There are many members of this 
department, union representatives, both civilian and sworn, in 
the room with me, and they have done a tremendous job over 
these years, and I am so proud to be here with them, and I will 
pass your comments on to them.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Well, pass that on. I am particularly 
happy that you are going to upgrade the protection of members, 
because I am getting too old to wrestle guys down and handcuff 
them, like I did for Strom Thurmond about 5 years ago.
    With that, I have no further questions, but I will submit 
some in writing. I appreciate you being here.
    [The following questions were not asked at the hearing, but 
were submitted to the Board for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

                             MANPOWER STUDY

    Question. Your agency has been working on a manpower study to 
identify staffing needs.
    Why haven't you completed the strategic plan prior to making 
staffing decisions?
    Answer. We are approaching the Strategic Plan development in 2 
phases:
  --Phase 1--update of the October 1999 Plan by reaffirming our 
        mission, vision and values, reviewing strategic direction and 
        goals to ensure the plan addresses the changing threat 
        environment; and considering changes to format as well. We have 
        completed Phase 1 and the plan has been presented to the Board 
        who is currently reviewing the document.
  --Phase 2--Summer 2003. Rewrite the plan and prepare an 
        accountability report that shows our progress against the plan.
    The staffing study was started after the initiation of Phase I of 
the Department's strategic plan. After the initial draft of Phase I was 
completed, the Department's Command Staff performed a review of both 
the strategic plan and the draft-staffing document. This review tied 
the staffing requirements identified in the staffing analysis to the 
mission, vision and goals of the organization as stated in the Phase I 
of the strategic plan to ensure that there were no inconsistencies 
between the two documents.
    Question. What are the criteria you used in determining staffing 
needs? Have you figured out what each position is going to do and what 
contribution it will make toward accomplishing your vision for the 
Department?
    Answer. Assessing the staffing requirements of the Department 
included two components, a thorough analysis of sworn staffing 
requirements and civilian staffing requirements. Each analysis was done 
separately but each used some similar methods to derive the needed 
staffing levels of the Department. Both analyses looked at the current 
staffing needs, as well as projected needs in fiscal years 2004 and 
2005, as determined by the Department's Strategic Plan, and included 
input from key personnel throughout the Department. The analyses also 
drew on information from other staffing analyses and studies, done 
either internally or by outside consultants. Outlined below are the 
specific methodologies used for deriving sworn staffing requirements, 
and the methodology used for civilian staffing requirements.

Summary of Sworn Staffing Methodology
    In order to determine the requirements for sworn staffing levels of 
the United States Capitol Police, discussions were held with Bureau, 
Division and Section Commanders. Determining sworn staffing 
requirements is a constant project due to the every changing needs of 
the Department and is based on new assignments, additional protection 
details based on threats or directions of interest, visiting 
dignitaries, staffing for unexpected security requirements and, more 
recently, the Homeland Security threat levels. The methodology used is 
outlined below.
  --Discussed with Bureau, Division and Section Commanders to determine 
        how their responsibilities have changed since 9/11, the anthrax 
        incident and the increased threat to the Capitol complex due to 
        terrorism, chemical, biological and radiological threats.
  --Discussed with Bureau, Division and Section Commanders how 
        technology could assist and be incorporated within their area 
        of responsibility.
  --Used recommendations from the 1998 United States Capitol Police 
        Security Review and the Booz-Allen & Hamilton Personnel Audit 
        of Security Operations at the Capitol complex to establish 
        standardized criteria to compute the number of officers 
        necessary at each post throughout the Capitol Complex.
  --Reviewed the supervisory ratio within each Bureau to meet the 
        standard ratio of 1 sergeant for every 10 officers and 1 
        lieutenant for every 40 officers.
  --Standardized the posts within the Uniformed Services Bureau to 
        allow for one officer per piece of equipment i.e., x-ray, 
        itomizer, podium, magnetometer at all access points and, in 
        addition to the previous, a pre-screener at all visitor access 
        points.
  --Reviewed the staffing levels in Dignitary Protection Division to 
        allow for 2 agents per protectee per shift. In addition to 
        increased manpower, allowed for sufficient advance personnel 
        for both in and out of town operations.
  --Standardized protection details into three levels. Level one--
        Individual, who as a result of their leadership position, 
        public profile, recorded threat activity or related factors, is 
        deemed to require protection while in the Washington 
        Metropolitan Area. Level two--Individual, who as a result of 
        their leadership position, public profile, recorded threat 
        activity or related factors, is deemed to warrant protection 
        within and outside the Washington Metropolitan Area. Level 
        three--Individual, who as a result of their status as a 
        Presidential successor, leadership position, public profile, 
        recorded threat activity or related factors, is deemed to 
        require around-the-clock protection at all locations.
  --Determined the minimum number of instructors necessary to conduct 
        training programs, by the using a staffing formula. The formula 
        begins with the total number of classes/programs multiplied by 
        the number of program hours divided by the number of hours an 
        instructor is available for classroom/practical exercise 
        instruction. In utilizing this method for determining staffing 
        requirements, the Training Services Bureau can ensure that it 
        meets its mission with a calculable and logical approach.

Summary of Civilian Staffing Methodology
    In order to determine the requirements for civilian staffing levels 
within the USCP, we initiated a project team consisting of staff from 
the Offices of Financial Management (OFM), and Human Resources (OHR), 
specifically the Director of OFM, the Budget Officer, the Deputy 
Director of OHR and the Staffing Classification Specialist. The project 
was carried out over a period of five months and began as a zero-based 
civilian staffing analysis of the entire Department. The methodology 
used by the project team is outlined below.
  --Met individually with each Office Director or Bureau Commander and 
        their respective Division managers to determine the unit's role 
        in meeting/advancing the Department mission and how those 
        responsibilities have changed since the September 11th and the 
        Anthrax incidents and whether those changes in responsibilities 
        have impacted the need for civilian staffing.
  --Interviewed the Office/Bureau staff about all aspects of their 
        staffing requirements, leading to constructive discussions and 
        analysis on workload and staffing issues.
  --Analyzed, during workgroup sessions, how such items would impact 
        staffing needs: mission changes, paradigm shifts and new 
        requirements.
  --Discussed and analyzed the existing and needed administrative 
        support for the Bureaus/Offices, and benchmarked an 
        administrative structure in each Bureau/Office. The standard 
        office (or model office) would include the following 
        administrative positions: one office manager, one 
        administrative assistant and possibly one management analyst, 
        depending upon the size, complexity and unique needs of the 
        Office/Bureau.
  --Analyzed the potential for civilianization, based upon our three-
        prong criteria.
    --Does the position require police powers to effectively carry out 
            the duties assigned?
    --Does the position require law enforcement training?
    --Does the position provide required background for the upward 
            mobility of sworn staff?
  --Reviewed and analyzed any studies and analyses that have been 
        performed either internally or by outside consultants to 
        determine the optimal staffing levels for civilians within the 
        USCP. Documentation reviewed included desk audits, previous 
        staffing studies, other agency comparisons, and workload 
        assessments.
  --Developed staffing needs for each Bureau/Office. The staffing 
        requirements were broken out by immediate needs and out-year 
        needs.
    Question. What is wrong with existing security practices that 
requires change and why does that revision require additional staff?
    Answer. In 1998/99 Booz Allen Hamilton performed a validation of 
our staffing model and a standard was developed for staffing posts. 
Since that initial study, the Department had been working to achieve 
the developed standard, but had not achieved the level of staffing 
required by the model. The recent staffing study incorporated that 
model which is still appropriate for the Department. In addition to 
standard model staffing, there have been many changes since 9/11--we 
have added a significant number of posts and have been tasked with 
several additional duties, which require additional staff to adequately 
perform. The following summarizes, in general, the types of activities 
we are supporting and plan to support. Should your staff require more 
detailed information, we will be happy to provide in a closed forum.
  --Ability to fully staff posts according to a model standard--A 1998 
        study conducted by the United States Capitol Police, in concert 
        with the United States Secret Service, the Bureau of Alcohol, 
        Tobacco and Firearms, and the United States Marshall Service, 
        developed a standard for staffing of entrance posts to 
        buildings within the complex. Booz Allen Hamilton subsequently 
        validated this standard in an independent review.
  --Responsible for operating multiple technologies and sources for the 
        collection and dissemination of critical information utilizing 
        multi-media technologies to maintain situational awareness of 
        ongoing events as well as our expanding role in Hill-wide 
        communications and emergency notifications.
  --Expansion of the intelligence and investigative capabilities of the 
        Department to enable a more comprehensive analysis of 
        intelligence data and threats against Members of Congress as 
        well as an increased level of involvement and coordination with 
        Dignitary Protection Division who provide protection for 
        Congressional leadership.
  --Management of the increasing threats caseload of almost 3,000 
        threats and direction of interest cases per year.
  --Expansion of specialized tactical response capability for the 
        Congress, enhanced protection during evacuations occurring on 
        the Capitol complex, coordinated reconnaissance operations for 
        visiting Heads of State/Dignitaries, participation/coordination 
        of assault operations occurring on the Capitol complex. Conduct 
        of counter-sniper operations during special events that require 
        enhanced protective measures, and provision of specialized 
        response capabilities during hostage/barricade situations.
  --Implement new training initiatives for increases in staff and the 
        complexities of incident response and management as well as 
        other technical training requirements resulting from the 
        increasing complexity of our responsibilities.
    Question. What activities are envisioned for facilities management 
(especially given AOC's role in this)?
    Answer. The Architect of the Capitol currently manages the 
facilities for the United States Capitol Police. There are currently no 
plans to assume the functions of the AOC with respect to USCP 
facilities. However, we have established a good working relationship 
with AOC staff, since close coordination with the AOC on all projects 
is critical. As such, the coordination of projects, the defining of 
operational requirements and the facilitation of work to reduce the 
impact on operational effectiveness and OSHA and other safety reporting 
and inspection responsibilities requires Capitol Police resources. In 
addition, we envision that the facilities group, which would fall under 
the Physical Securities umbrella, would coordinate with the AOC on 
physical construction site security issues. Activities envisioned for 
facilities management include:
  --Coordinating all office, lab, training and warehouse space needs 
        for the Department. To accomplish this, we would perform space 
        analysis to meet USCP operational requirements; review and 
        verify program requirements; recommend innovative and efficient 
        use of existing space; and work with the AOC and contracted 
        vendors who supply maintenance services to the Department. 
        Coordinating the daily maintenance and improvement of space 
        occupied by USCP employees by providing innovative and 
        efficient use of existing buildings, rooms and work space.
  --Planning and managing all construction activity for the USCP by 
        performing site evaluations, overseeing the development of a 
        conceptual site plan and building plan, reviewing construction 
        documents, reviewing/establishing schedules, serving as the 
        initial point of contact for security systems, data 
        connectivity and telecommunications and furnishings 
        integration.
    Question. Has consideration been given to contracting for some 
services on an as-needed basis rather than establishing a permanent 
capability to do everything in house--assuming that is what these 
numbers intend.
    Answer. The Architect of the Capitol currently manages the 
facilities for the United States Capitol Police. There are currently no 
plans to assume the functions of the AOC with respect to USCP 
facilities. Contracts for facility maintenance, etc. will continue to 
be managed and funded by the AOC.
    Question. Who outside of the agency did you consult with in 
developing your manpower study?
    Answer. As indicated in the response above, we leveraged any 
previous studies performed on staffing levels in the Department to 
determine appropriate personnel levels. In addition, we consulted with 
GAO staff on general project direction, while we were performing the 
study. Also, at the request of the Committees, we are working with GAO, 
which is currently performing a review of our study.

                       FISCAL YEAR 2004 STAFFING

    Question. Your budget assumes the addition of 301 additional sworn 
positions next year. Is it realistic that you will be able to recruit, 
train and accommodate this many new officers next year?
    Answer. We believe we can both hire and accommodate the requested 
number of officers for fiscal year 2004 due to the success of our 
recruitment efforts and lower than expected attrition rates. We will be 
filling the 360 slots that we have been allocated at the Federal Law 
Enforcement Training Center (FLETC). In addition, attrition has been 
down substantially from fiscal year 2002. As a result of these factors, 
we are currently projecting to end fiscal year 2003 with 1,569 sworn 
personnel, which is 27 above the level planned when the fiscal year 
2004 budget request was developed.
    We have been coordinating with the AOC and additional space has 
been identified in the Government Printing Office facilities. Funding 
for additional interim leased space was provided to the Architect of 
the Capitol in the fiscal year 2003 supplemental and we anticipate 
utilizing the space very soon.
    Question. Will these additional positions allow you to eliminate 
overtime? How much in savings will be achieved by eliminating or 
reducing overtime?
    Answer. The new positions will reduce our overtime needs but 
because of special events, late sessions, extended hours of the 
dignitary protectees, demonstrations, and normal vacancies, overtime 
never will be eliminated. We have calculated that the cost of covering 
the 1,656 average productive hours of an officer with overtime is 
almost comparable to the annual cost of an employee when benefit and 
leave costs are factored in. Therefore, covering posts with overtime is 
not more expensive. However, operating and morale issues make regular 
staffing the preferred option.
    In fiscal year 2002, $27.25 million was spent on overtime. We 
currently are projecting that we will spend approximately $24.5 million 
in fiscal year 2003 for some 568,000 hours of overtime. Our fiscal year 
2004 budget request, including COLA increases, includes approximately 
$23.5 million for an estimated 513,000 hours of overtime. We have 
estimated that at full staffing levels we will be required to work 
approximately 260,000 hours of overtime to cover those type of items 
discussed above. At today's salaries, this would cost approximately 
$11.6 million. We should point out that because not all posts are being 
covered, some new staff would be assigned to cover currently unmanned 
posts.

                           CIVILIAN STAFFING

    Question. You are requesting 573 civilian positions next year--a 76 
percent increase above this year and a much more dramatic increase over 
prior years. Can you explain why this is necessary?
    Answer. The civilian staffing levels requested have been adjusted 
since the development of the fiscal year 2004 budget request to 491 to 
accommodate the most critical staffing needs and to provide for a 
rational implementation phase-in. Additional civilian positions will be 
requested in future budget years. The requested civilians will allow 
the Department to expand and improve critical ongoing functions as well 
as provide for important new initiatives. The additional staff will 
play a vital role in ensuring that each operational function is carried 
out in a manner that would ultimately enhance the Department's ability 
to fulfill its mission of protecting the Congress. In addition, the 
position of the CAO is only two years old and many new functions 
required to operate a sound administrative infrastructure are provided 
for in the request. The following summarizes the types of activities 
civilians in the Department are supporting or are proposed to support 
over the next two years.
  --Expansion of security related systems due to the dramatic increase 
        in the importance, size and complexity of physical security and 
        technical security programs to counter the threat of terrorist 
        actions. Areas of significant activity in this area include: 
        Physical security; Security support; Security surveys; 
        Technical and electronic countermeasures; and Construction 
        security.
  --Expansion of the investigative capabilities of the Department will 
        enable a more comprehensive analysis and tracking of 
        intelligence data and threats against Members of Congress, as 
        well as an increased level of involvement and coordination with 
        the various task forces associated with Homeland Security and 
        intelligence gathering efforts.
  --The consolidation of the Command Center and Communications Center 
        and related activities.
  --Bureau and Office Administrative Support to enable officers 
        currently filling administrative functions to return to the 
        field.
  --Coordination of planning within the Department for scheduled major 
        events and unexpected emergencies throughout the Capitol 
        complex as well as consolidating strategic and operational 
        planning
  --The Hazardous Material Response Team (HMRT) is being staffed and 
        will provide a response capability for detection, 
        identification, litigation, and decontamination for the Capitol 
        complex. When there is a report of a suspicious item, a team 
        comprised of sworn hazardous devices and civilian hazardous 
        material response personnel will respond to the scene. HMRT 
        also will be capable of conducting tests and sampling to 
        determine the extent of any contamination.
  --The Off-site Delivery Center (OSDC) currently utilizes civilians to 
        handle freight and as administrative assistants. In the next 
        fiscal years, 15 officers who currently screen the freight and 
        trucks will be replaced with civilian truck screeners who were 
        hired for the CVC project. These truck screeners will assume 
        the screening role at the OSDC in a phased approach over the 
        next two years. As the CVC project nears completion, the truck 
        screeners will be phased in and the officers will be phased 
        back into other assignments.
  --GAO and our external auditors have identified human resource 
        management as an area of significant weakness. The proposed 
        staffing is aimed to address the identified weaknesses, provide 
        resources to handle the significant staff increases throughout 
        the Department and build a best practices human capital 
        function.
  --Anticipated staff for the newly created Office of Employment 
        Counsel and augmentation of the Office of General Counsel to 
        provide legal counsel and representation to the Capitol Police 
        Board before federal courts and the Office of Compliance.
  --The USCP Vehicle maintenance function has grown significantly since 
        September 11th. At the direction of the Committees, we have 
        implemented a vehicle take home program for K-9, which has 
        significantly increased the maintenance cycle of these 
        vehicles. In addition, we have acquired additional, and more 
        complex, vehicles, which require personnel to maintain.
  --Property and asset management functions have increased due to 
        increased workload and the increase in equipment purchases 
        since 9/11.
  --Additional instructors are necessary to provide training to new 
        sworn positions requested to ensure all recruit and incumbent 
        officers meet training standards. Areas include lethal and non-
        lethal weapons training, legal instruction, and response to 
        nuclear, chemical, biological, and radiological threats. These 
        training initiatives require periodic re-training and 
        remediation to meet training and accreditation standards.
  --Modernization of fiscal services is necessary to provide better 
        accountability over budgets and budget execution, address the 
        backlog and delay of procurement actions, and improve the 
        Department's ability to effectively carry out the acquisition 
        planning process and move from crisis mode operations to an 
        orderly acquisition process. In addition, there are several 
        critical accounting functions which are either not being 
        performed or are not adequately being performed such as : 
        completion of full set of GAPP financial statements and all 
        treasury reporting.
  --Expansion and modernization of information technology efforts will 
        allow for the continuation and expansion of the business 
        systems modernization program to update and support legacy 
        systems as well as maintain existing systems and develop new 
        system capabilities.

                             FACILITY NEEDS

    Question. The Capitol Police have identified many facility needs, 
as your agency grows and improves its capabilities, including the need 
for a new headquarters building and a new off-site delivery facility. 
This Committee has provided partial funding for the headquarters 
facility and full funding for the delivery facility. Please update us 
on where you are with these two facilities including recent setbacks 
you have had.
    Answer.

Headquarters
    On March 12, 2003, the Capitol Police Board approved Square 695 
(New Jersey Ave. and I Street SE) as the site location for the new 
headquarters building. The Architect of the Capitol (AOC) is preparing 
letters requesting permission to proceed to negotiate for the purchase 
of the property. The Facilities Master Plan will require an update to 
reflect increased staffing levels requested in the fiscal year 2004 
budget submission and relative impact on the space required in the new 
headquarters.

Off-Site
    In October 2002, the Capitol Police Board approved the USCP/AOC 
submitted proposal to the Board for a new site for the off-site 
delivery facility to be located in NE Washington, DC. In November 2002, 
the AOC submitted letters to Senate Committee on Rules and 
Administration and the House Office Building Commission (HOBC) 
requesting approval to negotiate for the purchase of the property. 
However, the AOC did not receive approval to negotiate due to the 
elections and subsequent change in leadership. In January 2003, the AOC 
received approval to reprogram funding to purchase the property. The 
AOC also resubmitted requests to negotiate to HOBC and Senate Rules, 
and received Senate Rules approval in early February. Unfortunately, in 
April 2003 before all approvals could be received, the property owners 
sold the property to another entity. Currently, the AOC has no 
prospects on a suitable site that meets the unique characteristics 
associated with an off-site delivery center.
    Question. What is the interim solution for addressing space 
deficiencies and do you have the space you need to accommodate the 
additional staffing you have requested for next year?
    Answer. The USCP has taken several steps to accommodate increases 
in staff until a permanent headquarters solution is found. There have 
been ongoing requests through the AOC to the respective oversight 
committees for additional space in the Capitol complex to accommodate 
our growth. However, these requests have not proved fruitful. The USCP 
has identified space located in the Government Printing Office building 
at 732 North Capitol Street that could support some administrative 
functions and storage. The USCP has requested the AOC submit a request 
to the authorizing committees to secure this space as a partial interim 
solution until a new headquarters can be built. The USCP continues to 
compact existing space, exacerbating already over crowded conditions. 
In preparation of projected space deficiencies, the USCP has attempted 
to develop an interim space plan to bridge the gap until a new 
headquarters building is completed. The plan is a ``cut to the bone'' 
approach, with recommendations for utilization or, in most cases, over-
utilization of existing space assigned to the Department. The 
Department has reduced the size of training and roll call space to 
create administrative space. Emergency equipment has been re-located 
out of 119 D street and been placed in a storage container box outside. 
The closing of a corridor in 119 D has provided additional space for 
lockers, and gymnasium equipment is being relocated to an attic area to 
provide additional space for lockers. However, the adjustments within 
the current headquarters are insufficient to meet our needs. In 
addition, we are exploring possible alternatives to achieving space 
requirements by looking to other federal entities for space and then 
finally to identify lease options in proximity to the Capitol complex.

                          DIGNITARY PROTECTION

    Question. During consideration of the recent supplemental spending 
request, the Board decided to pull back its request for additional 
protective details. What is the status of your review of the adequacy 
of the dignitary protection program and when will you submit those 
results to the Committee?
    Answer. The Capitol Police maintains dignitary protection for 
Leadership and for other Members of Congress based on intelligence 
information and review of threats that warrant increased protection 
levels. This policy remains in place and remains appropriate for 
operations at this time.

                          CAPITOL POLICE BOARD

    Question. In the fiscal year 2003 appropriation bill, Congress 
required the Capitol Police Board to undertake a review of its mission 
and effectiveness.
    What is the status of that review?
    Answer. The Board currently is evaluating the implications of the 
Congressional directive contained in Public Law 108-7 and is confident 
that it can meet the statutory time requirements (initial review and 
report due August 20, 2003) to provide the necessary report and 
recommended adjustment to the Appropriations Committees. At this point 
in time, our staff has reviewed the GAO report and associated 
recommendations as well as potentially relevant corporate governance 
statutes and related materials to assess and evaluate their impact on 
the future mission, processes and direction of USCP Board. Based on the 
results of the review, recommendations will be forthcoming in August as 
required by the Statute. A vacancy announcement for the Executive 
Assistant for the Capitol Police Board has been approved by the Board. 
The implementation of administrative processes that are being developed 
will be greatly enhanced by this position.
    Question. Do you have any preliminary ideas as to whether there 
ought to be any changes to the mission and duties of the Board, 
including whether the term of the chairman ought to be a full Congress, 
rather than a session of Congress?
    Answer. Since a comprehensive analysis is ongoing and not yet 
completed, it may be premature to conjecture on additional specifics 
regarding final recommendations.

                          SUBCOMMITTEE RECESS

    Senator Campbell. The subommittee is recessed.
    Chief Gainer. Thank you.
    Senator Campbell. Thank you.
    [Whereupon, at 11:05 a.m., Thursday, May 1, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 8, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:23 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senator Campbell.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF EMILY J. REYNOLDS, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        MARY JONES, ASSISTANT SECRETARY OF THE SENATE
        DIANE SKVARLA, SENATE CURATOR
        TIMOTHY S. WINEMAN, FINANCIAL CLERK OF THE SENATE

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will be in session.
    We have had a vote rescheduled two or three times. It was 
supposed to be at 1:15. I understand it is postponed again now, 
and I am not quite sure when we are going to have to go. But we 
are going to get started a little bit early and hopefully 
finish as much as we can. Senator Durbin was not sure if he was 
going to get here or not. So we will go as far as we can.
    We will first hear from Ms. Reynolds who is requesting 
roughly $20 million for her operations. Then we will also hear 
from the Architect of the Capitol a little bit later.
    Ms. Reynolds' request for the Secretary of the Senate is a 
decrease from the current year, something we obviously rarely 
see, due to the one-time appropriation last year for the 
Senate's financial management information system.
    Ms. Reynolds, your operation has responsibility for 
everything from Senate security to the Parliamentarian. We 
welcome you. This is your first hearing before this 
subcommittee. You certainly have a large deal on your plate not 
the least of which is helping to oversee the Capitol Visitor 
Center. We wish you well in your new task.
    Following you, we will take testimony from Mr. Alan Hantman 
on the Architect's fiscal year 2004 budget. The budget request 
totals $513.9 million, with three major projects leading to the 
increase: the purchase of the alternate computing facility; a 
project to replace high-voltage switchgear in a number of 
buildings; and the Capitol Building master plan design. Funding 
is also requested to complete the West Refrigeration Plant 
expansion.
    There are a number of items in this budget we will have 
some questions about, but I think what I am going to do is just 
put the rest of my opening statement in for the record so we 
can at least get started before we are called over there to 
vote.
    So, Emily, if you would like to go ahead. I appreciate your 
being here.
    [The statement follows:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    The Subcommittee will come to order. We meet this afternoon 
to take testimony from the Secretary of the Senate, Emily 
Reynolds, and the Architect of the Capitol, on the fiscal year 
2004 budget requests. We welcome everyone here today.
    We will hear first from Ms. Reynolds, who is requesting 
roughly $20 million for her operations. This is actually a 
decrease below the current year--something we rarely see around 
here due to a one-time appropriation last year for the Senate's 
Financial Management Information System.
    Ms. Reynolds, your operation has responsibility for 
everything from Senate Security to the Parliamentarian. We 
welcome you to your first hearing before this Subcommittee. You 
have a great deal on your plate--not the least of which is 
helping to oversee the Capitol Visitor Center project for the 
Majority Leader and the Capitol Preservation Commission, and we 
wish you the best in your new role.
    Following Ms. Reynolds, we will take testimony from Alan 
Hantman on the Architect's fiscal year 2004 budget. The budget 
request totals $513.9 million with 3 major projects leading to 
the increase--the purchase of the alternate computing facility, 
a project to replace high-voltage switchgear in a number of 
buildings, and the Capitol Building Master Plan design. Funding 
is also requested to complete the West Refrigeration Plant 
expansion.
    There are a number of items in your budget we have 
questions with--such as whether we need to proceed with a 
Capitol Building Master Plan at this time, whether there has 
been sufficient plans for purchasing the alternate computing 
facility, and whether there are projects we can put off pending 
completion of the Capitol Visitor Center project and other 
major ongoing projects around this campus.
    Clearly we are interested in the status of the CVC, and 
your efforts to improve the management of your agency and 
follow-up on recommendations made by the General Accounting 
Office in the last year.
    I will turn to my ranking member, Senator Durbin, and then 
Ms. Reynolds will proceed with her opening statement.

    Ms. Reynolds. Thank you, Mr. Chairman. It is a pleasure to 
be with you this afternoon.
    As you know, we have a lengthy full statement prepared for 
the record as well.
    Senator Campbell. That will be included in the record.
    Ms. Reynolds. Thank you.
    But I would like to just give a brief overview this 
afternoon. With me is Mary Jones, our very able Assistant 
Secretary; Tim Wineman, who of course is a longtime fixture 
here in the Senate, our Financial Clerk; and a number of our 
very able department heads.
    I would be remiss also, Mr. Chairman, if I did not thank my 
predecessors in this job. As you know, I have been on the job 
about 4 months now as the 31st Secretary of the Senate, and it 
is a huge honor for me to serve in this capacity. Several of my 
predecessors have been a huge help to me in navigating these 
waters for the last few months, and I am very grateful for 
their counsel.

                            BUDGET OVERVIEW

    As you pointed out, our budget request this year is roughly 
$20 million, and thanks to the very generous appropriation last 
year on FMIS, that does take us to about a $4 million-plus 
decrease in this year's budget.
    The committee last year also appropriated $500,000 to us in 
some nonrecurring costs that will enable us to make this year 
some very badly needed, much needed technology upgrades. So 
overall, out of that roughly $20 million, $18 million is our 
salary cost. That will enable us to continue to attract and 
retain the very best individuals possible for our myriad of 
functions from the legislative to financial and our many 
administrative services.
    In addition, our operating budget will be about $1.7 
million. That will not only enable us to meet the bottom line 
needs of the Senate, the job that we perform every day, but 
also will help us to provide for some new initiatives, 
primarily for the curator and to continue to enhance our Senate 
Web site, both for our Senate community and the general public.

                            MANDATED SYSTEMS

    The two mandated systems that we have--and again, we have 
mentioned FMIS, the $5 million that you all provided us last 
year. On the financial management information side, our goal 
ultimately is to move to a paperless voucher system and also 
provide the Senate with the ability to prepare an auditable 
consolidated financial statement. At all times, one of the 
primary things we keep in mind for all of our offices here in 
the Senate is to increase efficiency and accountability and 
ease of use. So with those goals in mind, this year, with the 
$5 million in multi-year funds, we will roll out approximately 
seven either new releases or pilot projects within the FMIS 
activity. So we are making substantial progress.
    On the legislative information side, our second mandated 
system that this committee, once again, has been very generous 
in funding--and that was a $7 million no-year fund 
appropriation some 2 years ago--the LIS augmentation project 
will give us the ability, our entire Senate community over 
time, to implement Extensible Markup Language, or XML, as the 
data standard with which we will author and exchange all 
documents among the Senate, House, the Government Printing 
Office, and other legislative agencies. To date we are working 
with what we call the pioneer group, a group within the Senate 
Legislative Counsel's Office and our own enrolling clerks, in 
implementing this transition to the LIS project. Ultimately we 
will have documents that can be more easily shared, reused, and 
repurposed. So this is a huge plus for our Senate community 
overall over time.
    We will begin to work, hopefully, even this summer with the 
Appropriations Committee. We are coming to you all first to 
work with you all on the LIS augmentation project in 
determining what your requirements are going forward. As I 
said, there will be more conversation about that here in the 
coming weeks.

                   HIGHLIGHTS OF OFFICE OF SECRETARY

    I certainly this afternoon, given our brief time together, 
will not run through all 25 departments within the Office of 
the Secretary, and there are many accomplishments over the 
course of the last year. But I did want to just point out a few 
highlights, and the other details are obviously in our 
department reports.

                            CURATOR PROJECTS

    The curator. For example, we have work underway on the 
portraits of Senators Dole and Mitchell for our leadership 
collection. In addition, we have underway and hope to install 
and unveil next year the portraits of Senator Vandenberg and 
Senator Robert Wagner in our Senate Reception Room.
    One item that is coming this summer that we are 
particularly excited about is a catalog of our U.S. Senate fine 
arts collection, featuring the 160 items in our fine art 
collection in the Senate. This will be a new resource for all 
of us and something that is eagerly anticipated over the 
summer.
    The restoration of the Senate desks. That project continues 
with 61 restored to date.

                           HISTORIAN'S OFFICE

    In addition, from our historian's office, they have been 
involved in a tremendous project that was released this week by 
the Permanent Subcommittee on Investigations. Our Historical 
Office had the opportunity to help edit and annotate the 3,800 
pages of the McCarthy executive hearings from 1953-54. So we 
are particularly proud of that accomplishment. And in addition, 
they will be working with our colleagues on the House side, 
hopefully next year, for the first time since 1989, to reprint 
and update the biographical directory of the U.S. Congress.

                             SENATE LIBRARY

    Our Senate library, another outstanding resource for us 
here in the Senate community. It is interesting to note, since 
the library was moved to the Russell Building, unlike other 
information centers across the country that are actually seeing 
a downward trend in usage, our Senate library is seeing an 
upward tick in usage. That includes about 10,000 walk-in visits 
last year alone and a total of about 40,000 users over the 
course of the last year. So it is a wonderful resource.

                           EDUCATION OF PAGES

    I also just want to briefly mention, because this is one of 
the joys of the Secretary's operation, and that is the 
opportunity to educate our Senate pages. I had the chance 
yesterday to go over yesterday morning, as the pages were 
packing these wonderful care packages they have been putting 
together for our troops. This is the third class that has taken 
on this project, and watching them work for an hour yesterday 
morning, putting everything from licorice to eye drops in these 
great boxes to go overseas, and to see their enthusiasm for the 
project that really our entire Senate community has responded 
to was great fun.

                     CONTINUITY OF OPERATIONS PLANS

    On a more serious note, one of the high priorities of our 
office, of course, involves the continuity of operations 
planning. Here is where we have a very dynamic relationship 
with the Senate Sergeant at Arms. Our predecessors, Al Lenhardt 
and Jeri Thomson, certainly set the standard for Bill Pickle 
and me in terms of that cooperation, the collaboration between 
our two offices with the COOP planning. And it is my hope, 
obviously, that we will continue to meet that standard.
    When it comes to continuity of operations, our staff meets 
at least weekly, and in addition, there are numerous informal 
conversations and meetings over the course of the weeks as 
well. Each of our departments within the Secretary's office has 
their own individual COOP plan, and in addition to that, we 
will continue to work with the Sergeant at Arms, just like last 
year, on a series of tabletop exercises that will culminate 
hopefully later in the year in an overall mock session for the 
Senate, just as one was staged last year.
    We recognize obviously in the Secretary's Office that the 
most important role we can play in COOP planning is to ensure 
that the Senate can continue to carry out its legislative 
responsibilities, its constitutional responsibilities. So that 
is our primary goal in our COOP planning, and certainly 
continuing the financial operations of the Senate is first and 
foremost in our minds as well.
    I would like to close just by saying that in the 4 months 
that I have been in this job one of the great joys has been 
working with a tremendous team of people, 232 employees in the 
Secretary's Office, who are devoted to this institution, and 
combined, they have a very impressive 2,221 years of service to 
the United States Senate. I know they share our ultimate goal 
and that is simply to continue to provide the best possible 
legislative, financial, and administrative services to the 
Senate.
    With that, Mr. Chairman, I thank you for your time and I 
welcome your questions.
    [The statements follow:]
                Prepared Statement of Emily J. Reynolds
    Mr. Chairman, Senator Durbin and Members of the Subcommittee, thank 
you for your invitation to present testimony in support of the budget 
request of the Office of the Secretary of the Senate for fiscal year 
2004.
    Detailed information about the work of the 25 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the Fiscal Year 2004 Budget 
Request, Implementing Mandated Systems: Financial Management 
Information System (FMIS) and Legislative Information System (LIS), 
Capitol Visitor Center, Continuity of Operations Planning, and 
Maintaining and Improving Current and Historic Legislative, Financial 
and Administrative Services.

             PRESENTING THE FISCAL YEAR 2004 BUDGET REQUEST

    I am requesting a total fiscal year 2004 budget of $19,999,000 
which is a $4,157,000 decrease from the fiscal year 2003 total budget 
for the Office of the Secretary. Last year's budget included a five 
million dollar multi-year appropriation for the Senate's Financial 
Management Information System.
    The fiscal year 2004 budget request in the amount of $19,999,000 is 
comprised of $18,299,000 for salary costs and $1,700,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase over the fiscal year 2003 budget request as a 
result of (1) the costs associated with the annual Cost of Living 
Adjustment in the amount of $687,000; and (2) an additional $533,000 
for merit increases and other staffing. The operating budget represents 
a decrease of the fiscal year 2003 budget request in the amount of 
$377,000.
    The net effect of my total budget request for fiscal year 2004 is 
an increase of $156,000 plus funding for the annual Cost of Living 
Adjustment.
    Our request in the operating budget is a sound one, enabling us to 
both meet our operating needs, and provide us with the opportunity for 
new projects and initiatives. In that regard, we will use a portion of 
our operating budget, for example, to professionally photograph all 100 
restored Senate Chamber desks, both for historical documentation and 
emergency preparedness plans. Estimated cost is approximately $35,000. 
In addition, we hope to perform a finishes survey on the architectural 
features within the Senate wing of the Capitol for better documentation 
and historic interpretation. The first phase of this project, which 
would include the public spaces in the Senate wing, is estimated at 
$60,000.
    In addition, there are several special exhibits and presentations 
we would like to add to www.senate.gov in our continuing effort to 
improve and enhance the Senate's website. These include an online 
exhibit of the Senate's Issac Bassett collection, an online exhibit on 
the Senate desks, the expansion of the Virtual Tour of the U.S. 
Capitol, and converting exhibits prepared by the Curator (the political 
cartoons of Puck, a 19th century satirical magazine and the drawings of 
Lily Spandorf illustrating the filming of the motion picture ``Advise 
and Consent'') to a format for posting. Approximate costs of these 
projects for website enhancement is $76,000.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the U.S. Senate through our 
legislative, financial and administrative offices. We are in the 
process of completing a substantial internal compensation study for the 
Office of the Secretary which will further document our ongoing 
staffing requirements, appropriate levels of compensation, and 
additional staffing needs.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                     AMOUNT              BUDGET ESTIMATE
                                                                    AVAILABLE   --------------------------------
                              ITEM                                 FISCAL YEAR
                                                                  2003, PUBLIC     FISCAL YEAR      DIFFERENCE
                                                                    LAW 108-7         2004
----------------------------------------------------------------------------------------------------------------
DEPARTMENTAL OPERATING BUDGET:
    EXECUTIVE OFFICE...........................................        $397,800        $525,000       +$127,200
    ADMINISTRATIVE SERVICES....................................       1,422,900       1,100,000        (322,900)
    LEGISLATIVE SERVICES.......................................         256,300          75,000        (181,300)
                                                                ------------------------------------------------
      TOTAL OPERATING BUDGET...................................       2,077,000       1,700,000        (377,000)
                                                                ================================================
SENATE MANDATED PROJECTS: FINANCIAL MGMT. INFO. SYSTEMS MULTI-        5,000,000  ..............      (5,000,000)
 YEAR..........................................................
                                                                ------------------------------------------------
      TOTALS...................................................       7,077,000       1,700,000      (5,377,000)
----------------------------------------------------------------------------------------------------------------

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 100 Senate offices, 20 Committees and 20 Leadership and 
support offices. As a result of a five year strategic plan devised by 
the Disbursing Office, my predecessor recommended, and the 
Appropriations Committee subsequently approved, a $5 million 
appropriation for a multi-year program to upgrade and expand FMIS for 
the Senate.
    With these funds, the Disbursing Office is modernizing processes 
and applications to meet the continued demand by our Senate offices for 
efficiency, accountability and ease of use. Our goal is to move to a 
paperless voucher system, improve the FMIS-Web system, and make payroll 
and accounting system improvements. In addition, we are working 
cooperatively with the Sergeant at Arms to meet the mandate to prepare 
auditable financial statements for the Senate.
    In fiscal year 2002, specific progress made on the FMIS project 
included:
  --Three Web FMIS releases, one of which changed the accounting for 
        travel and petty cash advances to be obligations of Senate 
        offices.
  --Senate-wide implementation of the Senate Automated Vendor Inquiry 
        System, or SAVI, which enables Senate staff to check the status 
        of their reimbursements. In July 2002, Senate employees were 
        given the opportunity to receive all expense reimbursement 
        through direct deposit, and were informed of this change in a 
        Senate-wide mailing.
  --For vouchers of $35 or less, a new document approval process was 
        instituted. The time required to pay such vouchers has been cut 
        considerably as the vouchers are routed directly to certifying 
        accounts payable specialists in Disbursing for review and 
        posting.
  --The ability to produce auditable consolidated financial statements 
        is a primary objective of the Senate's Strategic Plan for 
        Financial Management. The Disbursing Office took a significant 
        step toward that objective by initiating a contract to develop 
        a draft or pro-forma Senate wide financial statement which 
        includes all supporting schedules and reports for fiscal year 
        2002. The required deliverables of this initiative were 
        completed in April 2002, and a number of corrective actions 
        necessary to meet our objectives were identified. As some of 
        these corrective actions impact the Sergeant at Arms Finance 
        Office, the Disbursing Office is working with them to develop 
        an implementation plan. For example, a Senate-wide 
        capitalization policy has been drafted and is currently under 
        review by both offices.
    During fiscal year 2003, the following FMIS activities are planned:
  --Implement a new Web FMIS release in April 2003 (completed) that 
        includes the functionality for:
    --A pilot of online sanctioning of vouchers by the Rules Committee 
            staff. During this pilot, vouchers from all standing, 
            select, special and joint committees will be sanctioned 
            online;
    --Senate-wide implementation of online Travel Expense Summary 
            Reports (ESR) for all Senate staff. Staff who travel are 
            now able to complete the required documentation for travel 
            expense reimbursement via a Web Site; and
    --Senate-wide implementation of the Travel ESR-import feature in 
            Web FMIS. This function enables Office Managers and Chief 
            Clerks to create a travel voucher by ``importing'' data 
            from an online Travel ESR, thus eliminating duplicate data 
            entry.
  --As requested by the Rules Committee, implement online sanctioning 
        of vouchers for all offices that prepare vouchers via Web FMIS 
        (e.g., Senators, Leadership offices).
  --Generate a random sample of vouchers $35 or less for the Rules 
        Committee post payment audit.
  --Implement a new release of online Travel ESR that will incorporate 
        suggestions made by pilot users.
  --Implement a new release of the Senate Automated Vendor Inquiry 
        (SAVI) system that incorporates suggestions made by users.
  --Conduct a pilot of direct deposit payments to vendors, without 
        online notification. This means that these vendors would be 
        paid by direct deposit but would not be able to look at deposit 
        information via the Senate Automated Vendor Inquiry (SAVI) 
        system, which would remain inside the Senate's firewall.
  --Revise requirements for imaging of supporting documentation and 
        electronic signatures.
    During fiscal year 2004 the following FMIS activities are planned:
  --Implement new technology for Web FMIS, ``Thin Client,'' which will 
        provide a substantially streamlined architecture, upgrade the 
        technology used, provide simpler disaster recovery, and provide 
        the platform for imaging of supporting documentation and 
        electronic signatures. In general, we will re-write the Web 
        FMIS functions implemented in the early releases to eliminate 
        the use of Cold Fusion and Client/Server technology. When 
        completed, all components of Web FMIS will use Intranet 
        technology on a single platform, Web Sphere. This is a 
        substantial effort, and is planned in two phases:
    --Phase I--(Winter 2004).--In this release we will implement a 
            roles-based security scheme enabling users to access 
            specific functions based on the activities they perform, 
            re-write the local list maintenance functions (used by 
            offices) and system administrative functions (used by DO) 
            to eliminate Cold Fusion, update the underlying technology 
            for Web FMIS reports, and archive data for lapsed fiscal 
            years so that users can still generate reports after the 
            data is archived from the general ledger.
    --Phase II--(Summer 2004).--In this release we will re-write the 
            budget entry and document entry functions of Web FMIS to 
            eliminate the Client/Server technology. These are the 
            functions used most by Office Managers and Chief Clerks, so 
            this will be most visible to them.
  --Begin using laser checks. This significantly simplifies our 
        disaster recovery activities.
  --Implement a new release of the Senate Automated Vendor Inquiry 
        (SAVI) system that enables e-mail notification of payments to 
        staff and vendors.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.
Legislative Information System (LIS)
    Our second mandated system, which this Committee has generously 
supported, is the Legislative Information System, or LIS, which 
provides Senators and staff with text of Senate and House legislative 
documents from their desktop computers. In addition, LIS provides real-
time access to legislative amendments and the current status of new 
legislation within 24 hours. LIS originates from the 1997 Legislative 
Branch Appropriations Act, which also established a requirement for the 
broadest possible exchange of information among legislative branch 
agencies. This exchange process is now the focus of the LIS 
Augmentation Project, or LISAP.
    The overall objective of the LISAP is to implement the extensible 
markup language, or XML, as the data standard to author and exchange 
legislative documents among the Senate, House of Representatives, the 
Government Printing Office and other legislative agencies. Two years 
ago, the Appropriations Committee appropriated $7 million to the 
Secretary for the LISAP, designed to carry out the Senate portion of 
the December, 2000, directive given to both the Secretary and the Clerk 
of the House by the Senate Rules Committee and the House Administration 
Committee respectively. Thus far, we have spent approximately $3 
million of our appropriation, and I am pleased to report that 
considerable progress has been made and the project is on budget and 
running smoothly.
    The project is currently focused on Senate-wide implementation and 
transition to a standard system for the authoring and exchange of 
legislative documents, including an XML authoring system for the Office 
of Senate Legislative Counsel (SLC) and the Enrolling Clerk for bills, 
resolutions and amendments. A database of documents in XML format and 
an improved exchange program will mean quicker and better access to 
legislative information and will provide documents that are more easily 
shared, reused and repurposed.
    The LISAP project team has demonstrated the Senate's legislative 
editing XML application (LEXA) for the Office of Legislative Counsel 
where it was greeted with enthusiasm. Over the next several months, the 
LISAP project team will continue to refine and enhance this editing 
application, release a document management system for the Senate 
Legislative Counsel, and complete the data conversion projects. The 
team will also develop and deliver a training program for the SLC, and 
begin to address the needs of other Senate offices and Committees, 
starting with the Appropriations Committee.
    A more detailed report on LIS follows the departmental reports.

                         CAPITOL VISITOR CENTER

    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operations of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee, to address the 
expansion space plans for the Senate and any issues with regard to the 
CVC's construction that may directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its education benefits will be tremendous.

                   CONTINUITY OF OPERATIONS PLANNING

    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its Constitutional 
obligations under any circumstances. Plans are in place to support 
Senate floor operations both on and off Capitol Hill, and to permit 
each of the 25 departments within the Office of the Secretary to 
perform its essential functions during and following an emergency.
    COOP planning in the Office of the Secretary has been an ongoing 
process since late 2000. Working in close cooperation with the Sergeant 
at Arms and the General Services Administration, employees in each 
department were trained to evaluate COOP requirements and subsequently 
write COOP plans specific to their departments. By the summer of 2001, 
each department had completed the first draft of a COOP plan, which 
included the identification of records, databases, equipment and 
supplies necessary to conduct essential functions, and plans to 
duplicate and store essential items offsite or to provide for their 
timely replacement. Information from all final departmental plans has 
been integrated into an overall plan for the Office of the Secretary.
    Several departments had completed their plans prior to the 
terrorist attacks of September 11, 2001, and the anthrax contamination 
in the Hart Senate Office Building in October 2001. As a result, both 
the Disbursing Office and the Office of Public Records, as well as 
other departments located in Hart, were able to continue operations 
throughout the 96 days that Hart was closed. Every payroll was met, all 
bills were paid, and every filing deadline was met.
    The implementation of COOP plans that fall provided valuable 
experience in emergency management. Both the Secretary and the Sergeant 
at Arms' operations continued to formulate plans to deal with the 
possibility of subsequent emergencies. In the spring and summer of 
2002, our offices participated in a series of tabletop drills and live 
exercises to test and refine existing emergency preparedness plans. 
Alert and notification procedures using emergency communications 
systems were tested; Emergency Operations Centers and a Briefing Center 
were activated in a trial run; and a mock Senate session was conducted 
in an alternate Senate Chamber.
    As a vital part of COOP planning, we have identified equipment, 
supplies and other items critical to the conduct of essential 
functions, and have assembled ``fly-away kits'' for the Senate Chamber, 
and for each department of the Office of the Secretary. Multiple copies 
of each fly-away kit have been produced with storage in both our 
offices and at appropriate off-site locations. This will enable the 
Office of the Secretary to resume essential operations within twelve 
hours or less.
    In the event of an emergency, the Office of the Secretary is 
prepared to do the following: activate an Emergency Operations Center 
within one hour, support Briefing Center operations within one hour, 
support Senate Floor operations in an alternate Senate Chamber (within 
twelve hours onsite and within 24 to 72 hours offsite, depending upon 
location).
    Working with Leadership offices, the Sergeant at Arms, and the 
Capitol Police, we continue to refine COOP and emergency management 
plans. All COOP plans are reviewed and updated at least annually to 
ensure their continued viability. A second series of tabletop drills is 
planned for this year to culminate in another mock exercise of the 
activation of an alternate Senate Chamber.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our COOP and emergency preparedness 
programs are necessary to ensure that the Senate can carry out its 
Constitutional duties under any set of circumstances.

 MAINTAINING AND IMPROVING CURRENT AND HISTORIC LEGISLATIVE, FINANCIAL 
                      AND ADMINISTRATIVE SERVICES
                          LEGISLATIVE OFFICES
 
   The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators in carrying out their 
daily chamber activities and, most importantly, to carry out the 
Constitutional responsibilities of the Senate. The department consists 
of eight offices: Bill Clerk, Captioning Services, Daily Digest, 
Enrolling Clerk, Executive Clerk, Journal Clerk, Legislative Clerk, and 
the Official Reporters of Debates. The Legislative Clerk is the overall 
supervisor, providing a single line of communication to the Assistant 
Secretary and Secretary, and is responsible for coordination, 
supervision, scheduling and cross-training between the eight offices. 
In addition, the Parliamentarian's operation also works in close 
coordination with the Legislative Department.
    Each of the eight offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is nineteen years. The experience of these 
senior professional staff is a great asset for the Senate. In order to 
ensure continued well-rounded expertise, the legislative team has 
cross-trained extensively among their specialities.

                             1. BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, reports, amendments, co-sponsors, public law numbers, and 
recorded votes. The Bill Clerk is responsible for preparing for print 
all measures introduced, received, submitted, and reported in the 
Senate. The Bill Clerk also assigns numbers to all Senate bills and 
resolutions. All the information received in this office comes directly 
from the Senate floor in written form within moments of the action 
involved, so the Bill Clerk's Office is a timely and accurate source of 
legislative information.
    The Bill Clerk's Office continues to provide to Senate offices and 
the public information on Senate legislative status with a high degree 
of accuracy and speed, both through the Senate LIS system and over the 
telephone. The information provided is the most quickly available and 
the most accurate information on Senate legislative activity available 
to staff.
    Here is a final cumulative summary of the 107th and the 106th 
Congresses:

------------------------------------------------------------------------
                                                   107th        106th
                                                  Congress     Congress
------------------------------------------------------------------------
Senate Bills..................................        3,181        3,287
Senate Joint Resolutions......................           53           56
Senate Concurrent Resolutions.................          160          162
Senate Resolutions............................          368          393
Amendments Submitted..........................        4,984        4,367
House Bills...................................          562          697
House Joint Resolutions.......................           29           46
House Concurrent Resolutions..................          175          151
Measures Reported.............................          653          765
Written Reports...............................          351          513
                                               -------------------------
      Total Legislation.......................       10,516       10,437
                                               =========================
Roll Call Votes...............................          633          672
------------------------------------------------------------------------

Current Projects
    Amendment Tracking System.--In the fall of 2001, Rules Committee 
staff approached our office with the task of scanning submitted 
amendments onto the Amendment Tracking System on LIS. The Rules 
Committee has identified a need for Senate staff to have all amendments 
submitted in the Senate made available to them online shortly after 
being submitted, especially during cloture. The Rules Committee also 
requested that the Secretary, through the Bill Clerk, assess the 
feasibility of lifting the page limitation for scanning amendments onto 
the ATS Indexer. In response, the Bill Clerk contacted the Technology 
Development division of the Sergeant-at-Arms office to outline the 
technical requirements needed to implement such a request; a draft has 
been completed. Once the final version is delivered, the Secretary, 
through the Bill Clerk, and in consultation with the Legislative Clerk, 
will ascertain the legislative requirements needed in order for the 
staff to implement this request. The system must be designed and 
implemented without sacrificing critical services to the functioning of 
the Senate Chamber, specifically the amendment process.
    Electrical Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerks identified the need to have a electronic version of the official 
Senate ledgers in order to ensure the integrity of the information 
recorded in the ledgers. The electronic version will be portable for 
use during possible emergency scenarios. The Technology Development 
division of the Sergeant at Arms is working to develop two separate 
functions of this electronic ledger system. One is an electronic data 
entry system which will mimic the layout of the current Senate ledgers 
printed by the Government Printing Office; the other is a search 
function. Both of these programs will be housed on a separate server to 
maintain the integrity of the ledger data. The electronic ledger system 
is currently under development.

                         2. CAPTIONING SERVICES

    Since 1991, the Office of Captioning Services has provided real-
time captioning of Senate Floor proceedings for the deaf and hard-of-
hearing along with unofficial electronic transcripts of those 
proceedings to Senate offices via the Senate Intranet. The primary 
focus of the Office of Captioning Services is caption accuracy. 
Selected on-air turns are printed and reviewed to constantly monitor 
quality and consistency.

Technology Update
    The Senate Recording Studio continues to refine a system that 
captures our caption data stream, time stamps the captions and stores 
them in a searchable database. This database contains links to the 
corresponding audio files which can be listened to over the Senate 
Intranet in Senate offices.
    During 2002, all available real-time captioning technologies were 
evaluated for the purpose of replacing our existing outdated 
technology. As a result, all captioning hardware and software will be 
replaced in 2003, using monies appropriated in fiscal year 2003 for 
this purpose.
    Voice writing (voice recognition) technologies are improving and 
the Office of Captioning Services is on the cutting edge of testing and 
evaluating these products as they evolve.

Current Projects
    There are two main objectives for the Office of Captioning Services 
in 2003. The first is to replace existing DOS-based steno-captioning 
technology with Windows-based steno-captioning technology. Second, we 
will continue to work out the details of a proposed pilot project to 
caption hearings for the Judiciary Committee.

                            3. DAILY DIGEST

    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest 
office and published in the Congressional Record.

Chamber Activity
    During the second session of the 107th Congress, the Senate was in 
session a total of 149 days, for a total of 1,043 hours and 23 minutes. 
There were 253 recorded votes. (For additional details, a Comparison of 
Senate Legislative Activity follows).

                                                                CHART ONE: YEARLY COMPARISON OF THE SENATE LEGISLATIVE ACTIVITIES
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                           1989       1990       1991       1992       1993       1994       1995       1996       1997       1998       1999       2000       2001       2002
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.......................        1/3       1/23        1/3        1/3        1/5       1/25        1/4        1/3        1/3       1/27        1/6       1/24        1/3       1/23
Senate Adjourned......................      11/21      10/28     1/3/92       10/9      11/26      12/01     1/3/96       10/4      11/13      10/21      11/19      12/15      12/20      11/20
Days in Session.......................        136        138        158        129        153        138        211        132        153        143        162        141        173        149
Hours in Session......................   1,00319"   1,25014"   1,20044"   1,09109"   1,26941"   1,24333"   1,83910"   l,03645"   1,09307"   1,09505"   1,18357"   1,01751"   1,23615"   1,04323"
Average Hours per Day.................        7.4        9.1        7.6        8.5        8.3        9.0        8.7        7.8        7.1        7.7        7.3        7.2        7.1        7.0
Total Measures Passed.................        605        716        626        651        473        465        346        476        386        506        549        696        425        523
Roll Call Votes.......................        312        326        280        270        395        329        613        306        298        314        374        298        380        253
Quorum Calls..........................         11          3          3          5          2          6          3          2          6          4          7          6          3          2
Public Laws...........................        240        244        243        347        210        255         88        245        153        241        170        410        136        195
Treaties Ratified.....................          9         15         15         32         20          8         10         28         15         53         13         39          3         17
Nominations Confirmed.................     45,585     42,493     45,369     30,619     38,676     37,446     40,535     33,176     25,576     20,302     22,468     22,512     25,091     23,633
Average Voting Attendance.............       98.0      97.47      97.16       95.4       97.6      97.02      98.07      98.22      98.68      97.47      98.02      96.99      98.29      96.36
Sessions Convened Before 12  Noon.....         95        116        126        112        128        120        184        113        115        109        118        107        140        119
Sessions Convened at 12  Noon.........         14          4          9          6          9          2         15         12         31         17         25         10         12          4
Sessions Convened after 12  Noon......         27         17         23         10         15         17         12          7          7          2         19         24         21         23
Sessions Continued after 6 p.m........         88        100        102         91        100        100        158         88         96         93        113         94        108        103
Sessions Continued after 12 Midnight..          9         13          6          4          9          7          3          1  .........  .........  .........  .........          2          3
Saturday Sessions.....................          1          3          2          2          2          3          5          1          1          1          3          1          3  .........
Sunday Sessions.......................  .........          2  .........  .........  .........  .........          3  .........          1  .........  .........          1  .........  .........
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Committee Activity
    Senate committees held a total of 961 meetings in the first session 
of the 107th Congress, and 888 meetings in the second session.

                           4. ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2002, 43 enrolled bills (transmitted to the President) and 
10 concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 526 additional pieces of legislation in one form or 
another, was passed or agreed to by the Senate, requiring processing 
from this office.
    Efforts continue on both sides of the Capitol to generate, process, 
manage and share data on a more uniform basis. XyWrite is the software 
editor currently utilized by House and Senate Enrolling Clerks, House 
and Senate Legislative Counsels, and the Government Printing Office. 
Ultimately both Chambers will generate data using an Extensible Markup 
Language (XML) editor acceptable to all involved.

                           5. EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President. Additionally, the Executive Clerk's 
office processes all executive communications, Presidential messages 
and petitions and memorials.

Nominations
    During the second session of the 107th Congress, there were 1,010 
nomination messages sent to the Senate by the President, transmitting 
23,045 nominations to positions requiring Senate confirmation and 10 
messages withdrawing nominations previously sent to the Senate during 
the 107th Congress. Of the total nominations transmitted, 463 were for 
civilian positions other than lists in the Foreign Service, Coast 
Guard, NOAA, and Public Health Service. In addition, there were 1,565 
nominees in the ``civilian list'' categories named above. Military 
nominations received this session totaled 21,017 (5,813--Air Force; 
6,182--Army; 6,044--Navy; and 2,978--Marine Corps).
    In total, the Senate confirmed 23,633 nominations this session. 
Pursuant to the provisions of paragraph six of Senate Rule XXXI, 193 
nominations were returned to the President during the second session of 
the 107th Congress.

Treaties
    There were 18 treaties transmitted to the Senate by the President 
during the second session of the 107th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 107-3 through 107-21).
    The Senate gave its advice and consent to 17 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes
    There were 12 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
107th Congress (Executive Report 107-4 through 107-15). The Senate 
conducted 42 roll call votes in executive session, all on or in 
relation to nominations.

Executive Communications
    For the second session of the 107th Congress, 4,854 executive 
communications, 143 petitions and memorials and 60 Presidential 
messages were received and processed.

                            6. JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal as required by Article 
I, Section V of the Constitution. The Senate Journal is published each 
calendar year.
    The Journal staff take 90 minute turns at the rostrum in the Senate 
Chamber, noting by hand for inclusion in the Minute Book (i) all orders 
(entered into by the Senate through unanimous consent agreements), (ii) 
legislative messages received from the President, (iii) messages from 
the House of Representatives, (iv) legislative actions as taken by the 
Senate (including motions made by Senators, points of order raised, and 
roll call votes taken), (v) amendments submitted and proposed for 
consideration, (vi) bills and joint resolutions introduced, and (vii) 
concurrent and Senate resolutions as submitted. These notes of the 
proceedings are then compiled in electronic form for eventual 
publication of the Journal, usually at the end of each calendar year.
    In 2002, the Journal Clerk completed the production of the 1,022-
page 2001 Senate Journal. The 903-page 2002 Journal was sent to the 
Government Printing Office for printing on March 19, 2003.

                          7. LEGISLATIVE CLERK

    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. This office prepares the Senate Calendar 
of Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. This office is responsible for verifying the accuracy of 
information entered into the LIS system by the various offices of the 
Secretary.
    Additionally the Legislative Clerk acts as supervisor for the 
Legislative Department providing a single line of communication to the 
Assistant Secretary and Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross training.

Summary of Activity
    The second session of the 108th Congress completed its legislative 
business and adjourned sine die on Wednesday, November 20, 2002. During 
2002, the Senate was in session 149 days, over 1,043 hours and 
conducted 253 roll call votes. There were 653 measures reported from 
committees, 523 total measures passed, and there were 311 items 
remaining on the Calendar at the time of adjournment. In addition, 
there were 2,287 amendments processed.

                    8. OFFICIAL REPORTERS OF DEBATES

    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office.

                           9. PARLIAMENTARIAN

    The Parliamentarian's Office performs extensive legislative duties. 
These include advising the Chair, Senators and staff, as well as 
committee staff, House members and staff, administration officials, the 
media and members of the general public, on all matters requiring an 
interpretation of the Standing Rules of the Senate, the precedents of 
the Senate, unanimous consent agreements, as well as provisions of 
public law affecting the proceedings of the Senate. The 
Parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as president of the Senate. The Parliamentarians monitor all 
proceedings on the floor of the Senate, advise the Presiding Officer on 
the competing rights of the Senators on the floor, and advise all 
Senators as to what is appropriate in debate. The Parliamentarians keep 
track of the amendments offered to the legislation pending on the 
Senate floor, and monitor them for points of order. In this respect, 
the Parliamentarians reviewed both more than 1,000 amendments during 
2002 to determine if they met various procedural requirements and 
thousands of pages of conference reports to determine what provisions 
could appropriately be included.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarian conducts extensive legal and 
legislative research. During 2002, the Parliamentarian and his 
assistants referred 1,584 measures and 5,058 communications to the 
appropriate Senate committees. The office works extensively with 
Senators and their staffs to advise them of the jurisdictional 
consequences of particular legislative drafts and evaluates the 
jurisdictional effect of proposed modifications in drafting.

                FINANCIAL OPERATIONS: DISBURSING OFFICE
                     DISBURSING OFFICE ORGANIZATION

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs to provide responsive, personal attention to Members and 
employees on a unbiased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgement, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.

               DEPUTY FOR BENEFITS AND FINANCIAL SERVICES

    The responsibility of this position is to serve as the Senate's 
expert on Federal retirement and benefits, payroll and front office 
processes. Coordination of the interaction between the Financial 
Services, Employee Benefits and Payroll sections is a major 
responsibility of the position. Planning and project management of new 
computer systems and programs is also a primary responsibility. 
Ensuring that job processes are efficient and up to date, modifying 
computer support systems, implementing regulatory and legislated 
changes, designing and producing up to date forms for use in all three 
sections are additional areas of responsibility.
    The first order of 2002 was to reestablish operations in the Hart 
Building after being displaced for three months following the anthrax 
incident.
    Various work during the year included working with the Computer 
Center to expand and change payroll programs, edits, and screens to 
administer: New Offset-CSRS deductions (as well as extensive payroll 
program modification), LWOP for Military Personnel, the Long Term Care 
Program, new FEGLI age bands, and major changes in TSP processing for 
new hires as well as new open TSP seasons.
    In February, the office managed a project to renovate the Senate's 
Personnel Folder Filing System. New automated, vertical storage filing 
cabinets were installed. This project included electrical work, file 
storage, cabinet removal, installation, archival and refiling, 
transportation of cabinets and archived files to an offsite storage 
facility, rebuilding of storage cabinets and reorganization of files.
    In September, work on the scanning of the Senate's Official 
Personnel & Office Folders began as part of our disaster planning. The 
plans include scanning all payroll related documents for offsite 
retrieval in the event of an emergency.
    New mainframe operating system upgrades for O/S 390 were 
implemented in December and a full set of payroll system tests were run 
to ensure that they functioned properly.
    Planning for new programs, which are due to be implemented this 
calendar year, began for flexible spending accounts for child care and 
medical expenses, as well as catch-up TSP payments for staff over age 
50.
    Also under the Deputy for Benefits and Financial Services is the 
Student Loan Repayment Program, which was included in the fiscal year 
2002 Legislative Branch Appropriations Bill. Implementation of the 
Senate Program began April 1, 2002, with 25 Senate employees and 10 
Senate offices participating. As of March 31, 2002, 816 Senate 
employees and 113 Senate offices are participating.
    The legislation establishing the Student Loan Repayment Program 
gives each Senate employing office the authority to implement the 
Program. In the educational sessions provided on the Program, the 
twofold purposes of the law--retention and recruitment--are stressed.

          FRONT COUNTER--ADMINISTRATIVE AND FINANCIAL SERVICES

    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate I.D. card. Advances are 
issued to Senate staff authorized for an advance for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers' 
checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the front 
counter and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.
    In sum, for 2002:
  --The Front Counter issued approximately 2,700 cash advances for 
        official Senate travel.
  --Received more than 19,200 checks from Senate entities.
  --Administered oath and personnel affidavits to more than 3,200 new 
        Senate staff.
  --Maintained brochures for 11 Federal health carriers and distributed 
        approximately 6,000 brochures to staff during the annual FEHB 
        open season and to new employees.
  --Provided 38 training sessions to new Office Managers.
    After a smooth transition back into the Hart Building, Front Office 
operations continued to provide the Senate community with prompt, 
courteous and informative advice regarding Front Office functions. A 
reconstruction and audit of the Funds Advance Tracking System were 
successfully completed. This was necessitated by the separate locations 
of operations used during the Hart closing. The ramification of the 
changes to the Thrift Saving Plan's (TSP) open season to employees was 
emphasized this year. Results of the November elections prompted eleven 
new offices that needed training in both Senator-elect regulations and 
assistance in the transition into member status in 108th Congress.

                            PAYROLL SECTION

    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; maintaining the Automated Clearing 
House (ACH) FEDLINE facilities for the normal transmittal of payroll 
deposits to the Federal Reserve; distributing the appropriate payroll 
expenditure and allowance reports to the individual offices; issuing 
the proper withholding and agency contributions reports to the 
Accounting Department; and transmitting the proper (TSP) information to 
the National Finance Center (NFC), while maintaining earnings records 
for distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W2 statements, prepared by this 
section. The Payroll Section is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate.
    Calendar Year 2002 started with the usual processing of TSP forms, 
effective January 1, 2002. With the implementation of new TSP 
regulations, the May 15-July 31, 2002 Open Season reflected a 60 
percent increase in the number of TSP 1 forms submitted for processing.
    The events of September 11, 2001 lingered on as the Payroll Section 
reversed the Offsite operational process by moving all the paperwork 
processed at the alternative location back to the Hart building 
location. The work flow of completed transactions had to be sorted, 
while storage and filing requirements were reviewed for necessary 
changes. Systems like the ACH Fedline program had to be switched back 
to Hart Building IT equipment. Alternative methods of receiving 
correspondence from employees and other agencies had to be expanded in 
order to receive printed data in a timely manner.
    The onset of the Student Loan Program created new objectives for 
the Section. It was first believed that all of the Financial 
Institutions issuing student loans would be able to process the loan 
payment via the ACH Fedline System. To the contrary, we found out that 
only 20 percent of the loans could adequately be processed through the 
Federal Reserve, and most of those payments also required a separate 
listing to be faxed to the processing unit. The remaining 800+ payments 
must be processed by individual checks and composite listings.
    The NFC modified its regulations by allowing payroll deductions for 
employees who have just begun Federal Service. New categories of 
deductions were programed into the Payroll/Personnel System for the TSP 
deduction classes not receiving agency contributions. As each form is 
processed, the Payroll Specialist must further analyze the employee's 
service history and determine if the employee is eligible for agency 
contributions. The TSP also changed the open season periods by moving 
them up one month.
    Members of the Payroll Section worked with members of the Accounts 
Payable Section to establish in-house procedures for processing voucher 
payments directly to vendor and employee bank accounts. Procedures were 
set up for transmitting payments, processing rejections and returns and 
balancing accounts with the Accounting Section.
    The final project of the year was the processing of both incoming 
and outgoing offices under the jurisdiction of S. Res. 344 and 458.

                       EMPLOYEE BENEFITS SECTION

    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of benefits laws and regulations. In 
addition, the sectional work includes research and verification of all 
prior federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input and once 
Official Personnel Folders and Transcripts of Service are received, 
verifies the accuracy of the information provided and reconciles as 
necessary. Transcripts of Service including all official retirement and 
benefits documentation are provided to other federal agencies when 
Senate Members and staffers are hired elsewhere in the government. EBS 
processes employment verifications for loans, the Bar Exam, the FBI, 
OPM, and the Department of Defense, among others. Unemployment claim 
forms are completed, and employees are counseled on their eligibility. 
Department of Labor billings for unemployment compensation paid to 
Senate employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment. Designations of Beneficiary for FEGLI, 
CSRS, FERS, and unpaid compensation are filed and checked by EBS.
    The year began with EBS still located in our temporary quarters at 
Postal Square (PSQ) due to the continued closure of the Hart Building. 
Upon our return to the Hart Building in late January, our initial 
priorities were to locate and respond to anything that had remained 
undone in the Hart Building and to perform those functions that could 
not be completed from our displaced location. It was necessary to pack 
up and move all the files, reports and documents from our stay in PSQ 
and combine and coordinate them with our regular information in a 
seamless fashion.
    Based on the continued call to active duty of military reservists 
and the passage late in 2001 of a Leave Without Pay (LWOP) status for 
Senate employees, EBS worked to construct and develop LWOP procedures, 
informational sheets and notices, tracking devices and computer 
modifications to accommodate this new employment status. These 
procedures were monitored and modified as needed throughout the year.
    During 2002 the new Federal Long Term Care Insurance (LTCI) Program 
was introduced and implemented government wide. EBS worked diligently 
to become educated in all aspects of the program. This required 
constant interaction with LTC Partners and OPM to establish and 
implement procedures and coordination with the Senate Computer Center 
to apply modifications and establish parameters for the implementation 
of the program. Effective introduction of LTCI required extensive 
notification to employees, which included several mail-outs, electronic 
notifications and use of streaming video on Webster. In addition, we 
hosted two seminars on the LTCI program.
    Government-wide implementation of the Centralized Enrollment 
Clearinghouse System (CLER) program for health insurance enrollment 
reconciliation occurred in 2002. The program is still a work in process 
and has required diligent efforts at detecting and eliminating errors.
    In 2002, we began an upgrade to our file room. We had our outdated 
file cabinets replaced by a new automated rotary filing system. The 
installation required the removal and return of all employee personnel 
folders, as well as the retirement to our offsite filing facility, of a 
portion of the older files.
    Based on the lessons learned during our displacement about what 
could and could not be recovered and used offsite, we began to 
aggressively investigate the development and implementation of a 
document imaging system for use in electronically reproducing employee 
personnel folders. Development with the Senate Computer Center is well 
under way and the purchase of the hardware has been made with 
implementation of the process scheduled this year.
    While retirement case processing was about average for the year, 
retirement planning and counseling were very heavy in the second half 
of 2002 due to the impending retirement of 10 Senators and the death of 
Senator Wellstone, and the dissolution of their staffs and the 
potential changes to committee staffs. This resulted in the counseling 
of hundreds of employees including extensive research and calculation 
of Statements of Tentative Retirement Computations. Approximately 100 
retirement cases were processed (including 9 death cases).
    Seminars were held for outgoing Members' staffs, as well as 
committees facing potential reorganization. Information disseminated 
spanned retirement, TSP, health and life insurance, and unemployment 
compensation. Full support was also provided to Senator Wellstone's 
staff and his next of kin following his tragic death. Due to the large 
post-election turnover, EBS also hosted a seminar with the D.C. Office 
of Employment Services for outgoing staff who wished to apply for 
unemployment compensation. This opportunity for staff was well 
received.
    During the annual FEHB Open Season, approximately 700 employees 
changed plans. These changes were processed and reported in record 
time. Once again, we hosted a FEHB Open Season Health Fair, attended by 
about 650 employees. As an additional service, it was open to all other 
federal employees on the Hill, including House, Capitol Police, 
Architect of the Capitol and Senate Restaurant employees.
    There were two TSP Open Seasons in 2002 during which employees 
could change their rate of contribution. The number of changes was 
higher during the end of year Open Season, as the allowable rates of 
contribution increased. In addition, a change to the effective dates of 
the TSP Open Seasons was implemented.
    Much additional information and many downloadable forms were added 
to the Disbursing Office Webster site, as well as the use of newer 
video technologies and links.
    In addition, EBS has been developing many computer-based forms and 
calculators for use in providing benefits information and estimates.
    Two detailed Power Point retirement seminars on CSRS and FERS were 
developed and conducted for interested Senate staff. The seminars were 
well attended and well received. Additionally, EBS staff regularly 
provided a panel participant for the monthly New Staff Orientation 
seminars and quarterly Senate Services Fairs held by the Office of 
Education and Training.
    Interagency meetings were attended on the implementation of the 
Federal LTCI Program, CLER program, and continuing TSP program 
enhancements.
    There was a great deal of turnover and rehire in 2002, as employees 
left staff to work on campaigns and then returned to the Senate after 
the elections. This caused an increase in appointments to be researched 
and processed, retirement records to be closed-out, termination 
packages of benefits information to be compiled and mailed out, and 
health insurance registrations to be processed. Transcripts of service 
for employees going to other federal agencies, and other tasks 
associated with employees changing jobs remained constant this year. 
These required prior employment research and verification, new FEHB, 
FEGLI, CSRS, FERS and TSP enrollments, and the associated requests for 
backup verification.
    Mortgage rates kept employment verifications coming in at a rapid 
pace, averaging over 100 per month. Unemployment verifications remained 
constant throughout the year with a notable spike in December.
    Telephone inquiries, though not specifically tracked, continued at 
record levels.

                 DISBURSING OFFICE FINANCIAL MANAGEMENT

    Headed by the Deputy for Financial Management, the mission of the 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities to produce an 
auditable consolidated financial statement for the Senate and to 
provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. The DOFM is 
segmented into three functional departments: Accounting, Accounts 
Payable, and Budget. The Deputy coordinates the activities of the three 
functional departments, establishes central financial policies and 
procedures, acts as the primary liaison to the HR Administrator, and 
carries out the directives of the Financial Clerk of the Senate.

                         ACCOUNTING DEPARTMENT

    During fiscal year 2002, the Accounting Department approved nearly 
129,000 expense reimbursement vouchers, processed 1,055 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Stationery Room and the Senate Gift Shop, to canceled subscription 
refunds from Member offices. General ledger maintenance also prompted 
the entry of thousands of adjustment entries that include the entry of 
all appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, stop payment requests, travel 
advances and repayments, and limited payability reimbursements.
    In March of 2002, the Accounting Department completed the testing 
of the student loans payroll interface and the set-up in FAMIS needed 
for the tracking of the student loan balances. During January 2002, the 
Accounting Department with assistance from our contractor, Bearing 
Point, completed the 2001 year end process to close and reset revenue, 
expense and budgetary general ledger accounts to zero and during July 
2002, a rollover was performed to update in FAMIS' tables and create 
the index codes needed to accommodate data for fiscal year 2003. During 
the summer, the Deputy for Financial Management worked on the task 
force headed by the Senate Gift Shop Director and the Assistant 
Secretary of the Senate to procure and select a contractor to replace 
the Gift Shop point-of-sale retail, inventory and accounting control 
system. Solicitations and written proposals were reviewed and discussed 
and a contractor was selected by the end of October.
    The Accounting and Accounts Payable Department also assisted the IT 
Department in the testing and implementation of the new travel advance 
reporting. The new travel advance reporting became effective in 
September 2002, and with this new process, started accounting for 
travel advances as obligations.
    The Accounting Department was able to test and implement the first 
document purge process in Federal FAMIS. The testing was performed 
during December and the production purge was done successfully last 
month.

Financial Reporting Requirements--External
    Monthly financial reporting requirements to the Department of the 
Treasury include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also reported to the 
Department of the Treasury is the Statement of Transactions According 
to Appropriations, Fund and Receipt Accounts that summarizes all 
activity at the appropriation level of every penny disbursed by the 
Secretary of the Senate through the Financial Clerk of the Senate. All 
activity by appropriation account is reconciled with the Department of 
the Treasury on a monthly and annual basis. The annual reconciliation 
of the Treasury Combined Statement is also used in the reporting to the 
Office of Management and Budget (OMB) as part of the submission of the 
annual operating budget of the Senate.
    Annually, the Accounting Department transmits all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank. The 
Department also performs quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes are reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations are performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP. Monthly, all employee withholdings and agency 
contributions for life and health insurance, and federal retirement 
programs are transmitted to the Office of Personnel Management. Any 
adjustment to employee contributions for any of the health, life, and 
retirement plans from previous accounting periods are also processed by 
the Accounting Department.
    On a semiannual basis, the Accounting Department prepares necessary 
reports and information to be included in the Report of the Secretary 
of the Senate. All organizations and appropriation accounts reported 
are validated 100 percent to the financial system. During 2002, no 
major changes were incorporated to the Secretary's Report. The 
Accounting Department is also working with our contractor, Bearing 
Point, on several new reports that are expected to be completed before 
the end of the fiscal year.

Financial Reporting Requirements--Internal
    Monthly, the Accounting Department prepares and reviews ledger 
statements to all Member offices and all other offices with payroll and 
non-payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. The reformatting of 
the monthly ledgers was completed during April 2002 to comply with the 
requirements of the Senate Offices.
    In addition, to better assist Senate offices and to facilitate the 
research of voucher payments within Disbursing Office, the Accounting 
Department reviewed and completed requirements to implement four new 
WEB inquiries. The new inquiries (payment number, document number, 
service date and vendor payment) were tested and moved to production in 
September 2002. The following month, the Disbursing Office financial 
management staff was trained on how to use the new inquiries.

Pro-forma Financial Statements and Auditability Assessment
    During 2001, the Disbursing Office initiated a contract with the 
outside firm (KPMG Consulting) to develop the first U.S. Senate wide 
pro-forma consolidating financial statements. This initiative was based 
on the desire to adopt to the extent possible the financial reporting 
requirements of the Government Management Reform Act of 1996 (GMRA), 
the Chief Financial Officers (CFO) Act of 1990, and comply with the 
Statements of Federal Financial Accounting Standards (SFFAS) 
promulgated by the Federal Accounting Standard Advisory Board (FASAB). 
The main objective of this contract is to develop the first pro-forma 
financial statements of the United States Senate as required by OMB 
Bulletin No. 01-09, ``Form and Content of Agency Financial 
Statements.'' This project was kicked off in November 2001. The final 
report and all required deliverables of the Senate wide financial 
statements for fiscal year 2000 were completed in April 2002. Based on 
the results of this exercise, suggestions for corrective actions were 
given and the Disbursing Office is working in conjunction and with full 
cooperation from the SAA Finance Division to establish a corrective 
action plan and schedule, including a Senate-wide capitalization 
policy. Another corrective action was the need to have written 
accounting procedures for the Secretary's Revolving Funds. With the 
assistance of the Deputy for Financial Management, all the Secretary's 
revolving funds completed their written procedures by December 2002.

                            ACCOUNTS PAYABLE

Audit Department
    One of the two sections under the Accounts Payable Department is 
the Audit Section. The Accounts Payable Audit Department is responsible 
for auditing vouchers and answering questions regarding voucher 
preparation and the permissibility of the expense, providing advice and 
recommendations on the discretionary use of funds by the various 
accounting locations, identifying duplicate payments vouchered by 
offices, monitoring payments related to contracts, training new Office 
Managers and Chief Clerks about Senate financial practices, training 
Office Managers in the use of the Senate's Financial Management 
Information System, and assisting in the production of the Report of 
the Secretary of the Senate. The Section also monitors the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances adjusted for 
reuse of the advance funds. An ``aging'' process is also performed to 
ensure that advances are repaid in the time specified by the advance 
travel regulations.
    The Accounts Payable Audit Department, currently a group of eleven, 
has the responsibility for the daily processing of expense claims 
submitted by the 160 accounting locations of the Senate. During the 
first months of the year, the Accounts Payable Audit Department had 
some turnover and some new auditors were hired. The new audit staff has 
been fully trained and during fiscal year 2002, the Department has 
processed approximately 129,000 expense vouchers. The voucher 
processing ranges in scope from providing interpretation of Senate 
rules, regulations and statute, applying the same to expense claims, 
monitoring of contracts and direct involvement with the Senate's 
central vendor file. After relocating back to the Senate Hart Building 
and once again being fully staffed, the Department was able to audit 
vouchers within two days of receipt. On average, and as long as the 
voucher did not have any issues or questions, vouchers were received, 
audited, sanctioned by Rules and paid within the required directive of 
10 business days.
    During December 2002, the Chairman of the Committee on Rules and 
Administration delegated the sanctioning authority of vouchers $35.00 
or less to the Financial Clerk of the Senate. These vouchers are 
sanctioned by the Certifying Accounts Payable Specialists and are 
received, audited, and paid within 5 business days of receipt.
    The Accounts Payable Audit Department provided training sessions in 
the use of new systems, the process for generation of expense claims, 
the permissibility of an expense, and participated with seminars 
sponsored by Secretary of the Senate, Sergeant at Arms, and the Library 
of Congress. The Section was trained 12 new Office Managers and Chief 
Clerks and conducted 4 informational sessions for Senate staff through 
seminars sponsored by the Congressional Research Service (CRS).
    The Accounts Payable Department also assisted the IT Department in 
the testing and implementation of the new travel advance reporting. The 
new travel advance reporting became effective in September 2002 and 
with this new process, travel advances are accounted for as 
obligations. The Accounts Payable Audit Department has been fully 
trained in the new travel advance system and in the use of the four new 
WEB inquiries. Disbursing staff participated in the SAVI (Senate 
Automated Vendor Information) system training to assist Senate staff 
with any questions related to their reimbursements paid either by ACH 
(Automated Clearing House) or by check.

Disbursements Department
    The second department under the Accounts Payable Department is the 
Disbursements Department. The Accounts Payable Disbursements Department 
consists of four individuals whose primary responsibility is the 
receipt of more than 129,000 individual expense vouchers and the 
writing and delivery of the resulting 53,000 checks in payment thereof.
    During the month of April, the Disbursing Office started making 
payments to Senate staff via ACH (Automated Clearing House). From April 
through December, the Department issued approximately 9,500 wire 
transfers for expense reimbursements. The Department also took over and 
currently maintains the Senate's central vendor file that includes the 
addition of approximately 2,000 to 3,000 new vendors per year to an 
existing vendor file of more than 30,000.
    The Disbursement Department is responsible for researching returned 
checks as vendors request additional information relating to payment 
allocation. The department also prepares the forms required by the 
Department of Treasury for stop payments. These stop payments result 
from employees not receiving salary or expense reimbursements, and 
vendors claiming non-receipt of expense checks.
    This year, the group processed approximately 330 stop pays. During 
the summer, a stop pay tracking table was created in Excel to better 
track their status. The process of reissuing checks and/or subsequent 
collection of erroneously issued checks also falls within the scope of 
this department. On a semiannual basis, the staff here is also 
responsible for filing, rotating and archiving all expense vouchers 
processed and paid by the Disbursing Office.
    Monthly, the Accounts Payable Disbursement Department assists the 
Accounting Department in the preparation and distribution of the 
monthly ledger statements for delivery to the 160 accounting locations 
throughout the Senate. This includes the maintenance of a central file 
of office contacts and the maintenance of a list of special 
instructions for handling the distribution of the statements. The 
ledger statements are produced, sorted, and ultimately delivered or 
picked up according to the list of special instructions.
    The Disbursements Department has been tasked to prepare the 
quarterly State tax returns. The amounts are provided in spreadsheet 
form and payment coupons are prepared for the 43 State jurisdictions. 
The payment coupons are obtained from each jurisdiction either in 
hardcopy format or on-line via the Internet. Vouchers are prepared from 
the payment coupons and checks are generated from the vouchers. Once 
the checks are written, letters of transmittal are prepared and mailed 
to the appropriate State jurisdictions and the District of Columbia.
    The Accounts Payable Disbursements Department also assisted the IT 
Department in the testing and implementation of the new travel advance 
reporting which became effective in September 2002. This Department 
also has been fully trained in the new travel advance system and in the 
use of the four new WEB inquiries. They also participated in the SAVI 
(Senate Automated Vendor Information) system training to assist Senate 
staff with any questions related to their reimbursements paid either by 
ACH (Automated Clearing House) or by check.
    Currently, the Accounts Payable Disbursements Supervisor is in the 
process of training one newly hired staff person and implementing the 
Department of Treasury--Financial Management Service (FMS) on-line stop 
pay process called PACER. This PACER system provides on-line access to 
digital images of negotiated checks for viewing and printing.

                           BUDGET DEPARTMENT

    The third component of the Disbursing Office financial management 
group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). This year the budget justification worksheets were 
mailed to the Senate accounting locations during January and responses 
were received in the first week of February. This department is also 
responsible for the formulation, presentation and execution of the 
budget for the Senate and provides a wide range of analytical, 
technical and advisory functions related to the budget process. The 
Budget Department acts as budget officer for the Office of the 
Secretary, assisting in the preparation of testimony for the hearings 
before the Committee on Appropriations and the Committee on Rules and 
Administration. The group is also responsible for reporting to the 
Office of Management and Budget, via the MAX database, the budget 
baseline estimates that were developed for fiscal year 2004.

                DISBURSING OFFICE INFORMATION TECHNOLOGY
                FINANCIAL MANAGEMENT INFORMATION SYSTEM

    The Disbursing Office Information Technology (IT) Department, 
currently operating with a staff of four, provides both functional and 
technical assistance for all Senate Financial Management activities. 
Activities revolve around support of the Senate's Financial Management 
Information System (FMIS) which is used by approximately 140 Senate 
accounting locations (i.e., 100 Senator's offices, 20 Committees, 20 
Leadership & Support offices, and the Disbursing Office). 
Responsibilities include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's Disaster Recovery activities 
        and Continuation of Operations Plan (COOP).
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2002, 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Technology staff, and contracts with 
Bearing Point (formerly known as KPMG).
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software (mainframe and servers), database software, 
and telecommunications; technical assistance for these components, 
including migration management, and database administration; and 
regular batch processing. Bearing Point is responsible, under the 
contract with the SAA, for operational support, and under contract with 
the Secretary, for application development. The DO is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work cooperatively.
    Highlights of the year include:
  --Implementation of three Web FMIS releases, one of these made Travel 
        and Petty Cash advances obligations of the office which 
        required substantial revisions to the accounting for advances 
        (March, July and September 2002);
  --Articulation of a five year Disbursing Office Strategic Initiatives 
        plan, which formed the base for Secretary of the Senate's 
        request for $5 million in multi-year funds for further work on 
        the FMIS project (April 2002);
  --Pilot and Senate-wide implementation of the Senate Automated Vendor 
        Inquiry system (SAVI), a Web site on which all Senate staff can 
        lookup the status of reimbursements (Pilot--Spring 2002; 
        Senate-wide availability--July 2002);
  --Pilot of Web-ESR, a sub-system of SAVI that enables Senate staff to 
        create a travel expense summary form on-line and submit it 
        electronically to their office manager (Fall 2002);
  --Implementation of a revised Office Information Authorization form 
        and scanning of this form. The new form combines three old 
        forms, which significantly simplifies the paperwork required by 
        the DO. Scanning the forms make them immediately available to 
        all DO staff which has improved our efficiency (October 2002);
  --Implementation of a new document approval process for vouchers of 
        $35 or less. Under this, vouchers of $35 or less do not go to 
        the Committee on Rules and Administration for sanctioning, but 
        instead are routed to certifying Accounts Payable specialist 
        for review and posting to FAMIS. This has reduced the amount of 
        time required to pay a voucher (December 2002); and
  --Implementation of Outlook as the DO's e-mail system (December 
        2002).
    In the past four years many subsystems providing additional 
functionality have been added. These subsystems are outlined in the 
table on the following page.

                                                     SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Subsystem                         Functionality                           Source                       Primary Users           Implementation
--------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)...........  Financial general ledger................  Off the shelf federal system    Disbursing Office.............  October 1999
                              Vendor file                                purchased from Bearing Point.
                              Administrative functions
                              Security functions
ADPICS (Mainframe)..........  Preparation of requisition, purchase      Off the shelf federal system    Sergeant at Arms..............  October 1999
                               order, voucher from purchase order, and   purchased from Bearing Point.  Disbursing Office
                               direct voucher documents.                                                Secretary of the Senate
                              Electronic document review functions
                              Administrative functions
Checkwriter (Client-server).  Prints checks and check registers.......  Off the shelf state government  Disbursing Office.............  October 1999
                                                                         system purchased from and
                                                                         adapted to Senate's
                                                                         requirements by Bearing Point.
Web FMIS (Client-server and   Preparation of vouchers, travel           Custom software developed       All Senators offices..........  October 2000
 intranet).                    advances, vouchers from advance           under Senate contract by       All Committee offices
                               documents, credit documents and simple    Bearing Point.                 All Leadership & Support
                               commitment and obligation documents.                                      offices
                              Entry of detailed budget                                                  Secretary of the Senate
                              Reporting functions (described below)                                     Sergeant at Arms Disbursing
                              Electronic document submission and                                         Office
                               review functions
                              Administrative functions
FATS (PC-based).............  Tracks travel advances and petty cash     Developed by SAA Technology     Disbursing Office.............  Spring 1983
                               advances (available to Committees only).  Services.
                              Tracks election cycle information
SAVI (Intranet).............  As currently implemented, provides self-  Off the shelf system purchased  Senate employees..............  Pilot--Spring
                               service access (via the Senate's          from Bearing Point.                                             2002
                               intranet) to payment information for                                                                     Senate-wide--
                               employees receiving reimbursements via                                                                    July 2002
                               direct deposit.
                              Administrative functions
Web ESR (Intranet)..........  A component of SAVI through which Senate  Custom software developed       Senate employees..............  April 2003
                               employees can create on-line Travel       under contract by Bearing
                               Expense Summary Reports and submit them   Point.
                               electronically to their Office Manager/
                               Chief Clerk for processing.
Secretary's Report            Produces the Report of the Secretary of   Custom software developed       Disbursing Office.............  Spring 2000
 (Mainframe extracts,          the Senate.                               under contract by Bearing
 crystal reports, and client-                                            Point.
 server ``tool box'').
Ledger Statements (Mainframe  Produces monthly reports from FAMIS that  Developed by SAA Technology     Disbursing Office Senate        Winter 2000
 database extracts, and        are sent to all Senate ``accounting       Services.                       Accounting Locations.
 crystal reports).             locations''.
Web FMIS Reports (mainframe   Produces a large number of reports from   Custom software developed       Senate Accounting Locations...  October 2000
 database extracts, crystal    Web FMIS, FAMIS and ADPICS data at        under contract by Bearing
 reports, client server, and   summary and detailed levels. Data is      Point.
 Intranet).                    updated as an overnight process and can
                               be updated through an on-line process
                               by accounting locations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
and the Disbursing Office Accounts Payable, Accounting, Disbursements 
and Front Office Sections. The activities associated with this 
responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staffs the FMIS ``help desk''; answer 
        hundreds of phone calls a year; and meet with Office Managers 
        and Chief Clerks as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Training--provide functional training to all Senate FMIS users. 
        During 2002, the IT Department conducted 37 classes, seminars, 
        and demonstrations on Web FMIS. The class schedule is issued 
        quarterly and the classes offered were:
      Introduction to Web FMIS--conducted eight times. This hands-on 
        class covers the basics of preparing, printing, and submitting 
        vouchers and travel vouchers, and managing your inbox. Also 
        covered are adding items to an office's lookup tables (e.g., 
        vendor and expense category), using search to find records, and 
        what information goes in the Unique Invoice Number and Account 
        Number fields.
      Web FMIS Budget & Reports Seminar--conducted eight times. This 
        demo-style seminar covers how to enter and change an office's 
        budget, and how different budgets show on an office's Summary 
        of Financial Status Report. Several budgets, from simple to 
        complex are discussed, based on the interests of the attendees. 
        Also discussed are the on-line reporting functions including 
        refreshing report data and exporting report data into another 
        application (e.g., Excel). In addition, we look in detail at 
        the Analysis by Vendor, Analysis by Expense Category, and 
        Analysis by Office Control Number Reports, at the Changed 
        Document Report, and other reports based on the interests of 
        the attendees.
      Web FMIS Reconciliation Class--conducted five times. This hands-
        on class covers how to reconcile an office's Web FMIS balance 
        with the DO's balance on a monthly basis.
      Web FMIS Special Topics--conducted three times. Occasionally a 
        ``special topics'' seminar covering different subjects is held. 
        Twice, in May and November, the seminar topic was how to use 
        commitments and obligations. This seminar is offered at the 
        points in the year when offices are most likely trying to 
        estimate expenses through the end of the fiscal year.
      User Demos--In advance of each Web FMIS release, we demonstrate 
        at a Joint Office Manager Chief Clerks meeting, the new 
        functionality included in the release. In addition, we repeat 
        this demo for those unable to attend the meeting and conduct a 
        ``hands-on'' class covering the same material for those who 
        prefer to ``do it'' rather than ``see it''. For Web FMIS 
        release 5, we presented this material four times; for release 6 
        we presented this material three times; and for release 7 only 
        a demo was offered. The release 7 demo also included a demo of 
        SAVI functionality.
      DO Staff Training--During 2002 the DO staff received the same 
        training as Office Managers and Chief Clerks. For the DO staff, 
        the DO IT section conducted a Web FMIS release 5 class twice; 
        the Budgets & Reports seminar twice; and the Reconciliation 
        class once.
  --Security--30 ADPICS, FAMIS and 80 Web FMIS users and other users as 
        requested by Senators and Chairmen, added, deleted, and changed 
        user rights for, as well as, maintaining the document approval 
        paths and creating new approved paths for vouchers less than 
        $35. One of the most important functions the DO IT staff 
        perform is maintaining user rights for all ADPICS, FAMIS, and 
        Web FMIS users.
  --System Administration--design, test and make entries to tables that 
        are intrinsic to the system (i.e., preparation for change in 
        fiscal year, change in Senate organization tables or new 
        office, new accounting transaction codes, new approval path for 
        vouchers of $35 or less, 108th Congress); and
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities. During 2002, the following 
        activities were performed--Upload of files into FAMIS, Year End 
        rollover, SAVI Information Letter, and Ad hoc queries.
            Infrastructure changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew and help-desk provider. During 2002, the following 
components of this infrastructure were changed:
  --Mainframe hardware and software--upgrade of the mainframe security 
        software (ACF/2), database (DB/2v7), and operating system 
        (OS390/2.10 [including CICS and CA/7 upgrades], OS Upgrade for 
        mainframe upgrade, and Mainframe Upgrade) required that the 
        Disbursing Office extensively test all FMIS subsystems both in 
        a testing environment and in the production environment which 
        in turn enabled installation of a new mainframe in December 
        2002;
  --Printing online via ``Reveal''--installation of the ``Reveal'' 
        software enables the DO staff to examine mainframe reports 
        online and eliminated daily printing of large reports; and
  --Senate ``Helpdesk'' support vendor--the SAA contracted with a new 
        company, Signal/Veridian, to provide hardware and software 
        installation services for offices and to provide a 
        ``helpdesk''. Met with representatives of the company to 
        demonstrate the Web FMIS application and answer questions about 
        system implementation.

Managing and testing new system development
    During 2002, we supervised development, performed extensive 
integration system testing and implemented changes to the following 
FMIS subsystems: Web FMIS; Senate Vendor Information (SAVI); Web ESR; 
and Checkwriter.
    Web FMIS.--Three major releases of Web FMIS were done in 2002, and 
one mini release was completed in 2002 but not implemented until the 
beginning of January 2003, detailed requirements for a fourth were 
completed, and general requirements for a fifth were begun. These are:
  --Web FMIS r5--Implemented in March 2002.--This release included a 
        number of ease-of-use features in the document entry function 
        (e.g., automatic population of end date from start date) and in 
        the inbox functions, the ability to refresh report data on user 
        demand (i.e., instead of having to wait for the nightly batch 
        report cycle to run), the ability to unsubmit a document, and 
        the ability to void a document;
  --Web FMIS r6--Implemented in July 2002.--This release included nine 
        new or revised reports, the most important of which are two 
        cross-FY summary reports that enable easy comparison of data 
        from up to four funding periods; a FY-independent research 
        function; and improvements in the status and history 
        information shown on each document;
  --Web FMIS r7a--Implemented in September 2002.--This release included 
        six new or revised reports, the most important of which is the 
        Summary of Financial Status by Month; submitting travel advance 
        requests and treating advances as obligations of the office, 
        which required substantial changes to the accounting underlying 
        the travel advance and voucher from advance transactions; 
        introduction of a credit document to accompany repayments; 
        addition of equipment certification language which eliminates 
        stamping the invoice that the equipment is Senate-owned or 
        leased; and addition of disbursement type information (i.e., 
        check or direct deposit) in the payment information field on 
        each document and in the vendor file;
  --Web FMIS r7a for Windows XP--Implemented in January 2003.--This was 
        a technical release that made changes necessary for Web FMIS to 
        run on Windows XP PCs, which is the operating system that new 
        Senators' offices received. No new functionality was involved 
        in this release, but Bearing Point made technical changes to 
        the software which we tested;
  --Web FMIS r7b--Implemented April 2003.--This release enables the 
        Rules Committee to review documents and perform sanctioning on-
        line. During 2002, we met with Rules Committee Audit staff and 
        Bearing Point to complete requirements and detail design 
        discussions for this new functionality. Bearing Point completed 
        the programming for this functionality as well. Implementation 
        of this release was originally scheduled for December 2002, but 
        was postponed to April 2003, due to installation of a new 
        mainframe computer in November 2002, during the time that this 
        release was scheduled for testing. Due to the timing of this 
        release, it will also include technical changes to the 
        underlying mainframe software, WebSphere, from ``compliance 
        mode'' to ``compatibility mode,'' which is required before the 
        software can be upgraded to WebSphere release 4, currently 
        scheduled for June 2003, and will apply the changes required 
        for the Windows XP PC operating system to all supported PC 
        operating systems;
  --Web FMIS r8--Release not currently scheduled.--During 2002, we 
        began requirements discussions on changing the underlying 
        security paradigm of Web FMIS. This would allow us to more 
        exactly control the user rights to different kinds of Web FMIS 
        users. Implementation was originally scheduled for April 2003, 
        but has been postponed due to the revised release 7b 
        implementation date;
  --Senate Automated Vendor Inquiry (SAVI).--One of the Senate's goals 
        in implementing FMIS was reimbursing employee expenses and 
        paying vendors via direct deposit. We have been prepared to pay 
        via direct deposit for some time, however the benefit of doing 
        so was limited if a notice acknowledging payment still had to 
        be sent to the employee. In other words, if we have to send a 
        check stub-like notice via mail, why not just send the check 
        with check stub via mail? With the Spring 2002 pilot and then 
        the Senate-wide implementation of SAVI in July 2002, the Senate 
        resolved this issue and took a major step towards meeting the 
        direct deposit payment goal. SAVI, an intra-net enabled system, 
        allows Senate employees to inquire on the status of payments, 
        and provides the deposit information that would be on a check 
        stub.
      Since this system is inside the Senate's firewall, it is 
        available only to Senate staff. As of July 2, 2002, all Senate 
        employees who receive their paycheck via direct deposit were 
        given an option to receive any expense reimbursements via 
        direct deposit. Implementing direct deposit reimbursements 
        required coordination with the Federal Reserve and the Senate 
        Credit Union. All Senate staff were notified of this change in 
        a Senate-wide mailing, and new staff are notified in a new 
        employee mailing. Provisions were made for Senate staff who 
        preferred to continue to receive check reimbursements and for 
        staff who wanted reimbursements to be deposited to an account 
        different from the account for their paychecks. Thus, staff 
        ``opt-out'' if they don't want to receive reimbursements via 
        direct deposit. On the other hand, Senators have to ``opt-in'' 
        if they want to receive reimbursements via direct deposit.
      Two releases of SAVI were implemented in 2002. The first was used 
        by the pilot and for the July Senate-wide implementation. Based 
        on comments from the pilot, we also defined requirements for a 
        second release of SAVI that substantially improved the display 
        of payment information and provided more useful search 
        criteria. This was released in September 2002;
  --Web ESR.--This system, a subsystem of SAVI, enables Senate staff to 
        complete an on-line Travel Expense Summary Report (ESR) and 
        submit it so that their office manager can ``import'' the data 
        and create a voucher, without retyping the ESR data. As of the 
        end of December 2002, it was in use by employees in 10 pilot 
        offices and was to be implemented in new Senators offices and 
        in offices with new office managers. Currently, this 
        application is Intra-net based, but its first implementation, 
        to a pilot group in the Spring of 2002, was as a client-server 
        application. The original application was well received, but 
        the pilot users requested enhancements that were difficult to 
        provide in a client-server application. We decided to re-write 
        the application and tie it to SAVI so that Senate staff could 
        use one system to create ESRs and to check the status of 
        reimbursements. In the Fall of 2002, the pilot offices gave us 
        additional feedback on Web ESR, and during 2002 we began 
        defining requirements for the next release of Web ESR. 
        Implemented with Web FMIS r7b in April 2003; and
  --Checkwriter.--During 2002, we defined requirements for, tested and 
        implemented several new versions of the checkwriter software, 
        which enables printing U.S. Treasury Checks, and compiling the 
        direct deposit file transmitted to the Federal Reserve. We also 
        defined requirements for additional checkwriter releases that 
        will be implemented in 2003. In addition, we began 
        investigating alternatives for the checkwriter printer to find 
        one that provides more flexibility in the event of a disaster.

Planning
    There are two main planning activities: schedule coordination--
planning and coordinating a rolling 12 month schedule; and strategic 
planning--setting the priorities for further system enhancements.
    Schedule Coordination.--While we were evacuated from the Hart 
Building due to anthrax contamination, the DO staff worked at Postal 
Square in the same space as the SAA and Bearing Point staff. This 
enabled ad-hoc meetings and easy communication. When the DO staff 
returned to the Hart Building in January 2002, we wanted to continue 
the effectiveness of our co-location. Meetings with the DO, SAA and 
Bearing Point staff have evolved into three types of meetings:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings);
  --Technical meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and Bearing Point to 
        discuss co-ordination among the active projects, including 
        scheduling activities and resolving issues; and
  --``Project Office''--a monthly meeting among senior Senate staff 
        (e.g.,the Financial Clerk, Rules Committee staff), the Bearing 
        Point engagement partner, SAA technical and functional staff, 
        DO IT and functional staff, and Bearing Point staff to discuss 
        progress on each project.
    Strategic Planning.--The FMIS strategic plan has a longer time 
horizon than the rolling 12-month time frame of the technical meeting 
schedule. It is designed to set the direction and priorities for 
further enhancements. In 2002, a five year strategic plan was written 
by the IT and Accounting staff for Disbursing Office Strategic 
Initiatives. This detailed description of five strategic initiatives 
formed the base for Secretary of the Senate Jeri Thomson's request for 
$5 million in multi-year funds for further work on the FMIS project. 
The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        again occur;
  --Web FMIS--Requests from Accounting Locations.--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System--Requests from Accounting Locations.--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Sub-system Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.

Administering the Disbursing Office's Local Area Network (LAN)
    The DO administers its own Local Area Network (LAN), which is 
separate from the LAN for the rest of the Secretary's Office. We 
facilitated two major upgrades to our LAN during 2002, installation of 
new PCs and migration of our e-mail to Outlook, completed several 
projects for the Payroll and Employee Benefits sections, and installed 
new software for the DO staff working on the Report of the Secretary of 
the Senate.
  --New PCs and Laptops.--In August 2002, the 50 DO staff received new 
        PCs with the Windows 2000 professional operating system. In 
        order for all PCs to be identical, it is our practice to create 
        a DO-specific PC template, which is used when the new PCs are 
        set up by the vendor. This enables testing of all applications 
        that the DO uses, including mainframe applications that are 
        used solely by the DO. Thus conflicts between the new operating 
        system and the applications we use can be identified and 
        resolved prior to installation of 50 PCs. The creation and 
        testing of the DO Windows 2000 professional workstations was 
        completed before the August 2002 installation date. Following 
        this, we co-ordinated the purchase, installation and testing 
        for replacement of the DO's ten laptops with laptops using the 
        Windows 2000 professional operating system;
  --Outlook.--In December 2002, we migrated our e-mail system from 
        cc:Mail to Outlook. This upgrade required installation of a new 
        server, training for all the DO staff, and extensive work to 
        recreate office mailing lists;
  --Projects for Payroll and Employee Benefits Sections.--We supported 
        activities of the Payroll and Employee Benefits sections with 
        four specific projects:
    --Coordinated the development of a Payroll Imaging system to 
            electronically capture payroll documents turned in at the 
            DO front counter, including ordering all required system 
            components. This system is still being implemented;
    --Installed the required software and worked with the SAA to 
            establish proper communication protocols to provide the 
            Employee Benefits section the ability to transmit employee 
            health plan information electronically to the National 
            Finance Center in order to participate in a new program 
            called Centralized Enrollment Clearinghouse System (CLER);
    --Posted Overtime Schedules for different work weeks along with a 
            generic time sheet on the DO website. This eliminated 
            maintaining hard copies of the various work weeks at our 
            front counter;
    --In October 2002, we implemented a revised permissions form, the 
            Office Information Authorization form, which combined three 
            old forms. This significantly simplified the paperwork that 
            offices are required to submit in order to add, delete or 
            change user rights for Web FMIS users. Additionally, these 
            forms are now scanned and therefore available to all DO 
            staff the same day that the document is received. This has 
            eliminated the need for a database of users and improved 
            efficiency; and
    --Migrated the DO Fedline system from a DOT matrix printer to a 
            laser printer.
  --Software for the Report of the Secretary of the Senate.--Several DO 
        staff review and edit data for the Report of the Secretary of 
        the Senate. This requires special software and dictionaries. We 
        performed the following on this software: Coordinated the 
        update and installation of the ``Toolbox'' software (provided 
        by Bearing Point) on the new PCs; reviewed existing spell check 
        dictionaries, and worked with Bearing Point to make the 
        required updates; and established procedures to ensure that 
        dictionaries are maintained after each reporting cycle.

Coordinating the Disbursing Office's Disaster Recovery Activities
    The DO's disaster recovery activities include two related 
activities:
  --Disaster Recovery Testing--participating in the computer system 
        disaster recovery tests conducted by the SAA; and
  --Coordinating the Continuation of Operations Plan (COOP)--the COOP 
        is the broader focused activity and addresses all aspects of DO 
        operations, not just computer operations.
    Disaster Recovery Testing.--Since 1995, the SAA has contracted with 
an offsite contractor for backup services in case of a disaster 
affecting the Senate's main data center. The Senate's Payroll system 
and FMIS are included in this recovery process. Since the contract's 
inception, the Senate has tested its ability to restore systems and 
perform normal activities at least once, and often twice a year. 
Disbursing Office staff and SAA Procurement staff are active 
participants in the planning and execution of these tests. For 2002 two 
tests were planned: one in late February and one in the late fall. Only 
one test, the February test, was actually held. In this test, the 
mainframe subsystems of FMIS (i.e., ADPICS and FAMIS) were tested 
successfully, but two critical subsystems, checkwriter and Web FMIS, 
were not tested successfully. The checkwriter testing failed for the 
second disaster recovery test in a row, and Web FMIS was not tested at 
all. Both were scheduled to be included in the fall 2002 test, but that 
test was cancelled because the contractor's computer was not running 
the same version of the mainframe operating system, OS390 v2.10, which 
the Senate implemented in August 2002. The tests were subsequently 
rescheduled for February of 2003 and subsequently conducted with 
favorable results.
    Disaster Recovery Background.--Every night, data and software from 
the Senate's mainframe computer systems are backed up to a magnetic 
cartridge and taken to First Federal Corporation, which provides a 
secure off-site facility. In the event of a disaster in the SAA 
computing facilities at Postal Square, SAA technical staff would 
immediately arrange to have the data, software, and appropriate 
operating instructions forwarded from the off-site facility to one of 
the contractor's data centers. Senate staff would travel to this 
facility to oversee the restoration of all software and data on the 
contractor's computer. By contract, restoration would be complete 
within 24 hours and systems would then be available to users. Sungard's 
facilities can currently support up to 48 concurrent Senate users.
    Disaster Recovery of the Payroll System.--Several key components 
are necessary for access to the payroll system after the restoration of 
data at the contractor's facility is complete. At least one terminal 
identification (term-ID) must be coded in the payroll system to allow 
CICS access because the payroll application has an internal security 
module that ties a user to a specific term-ID that controls user 
access. Another key component is FTP software that allows the movement 
of files from point to point.
    Most payroll payments are made via Direct Deposit to the Federal 
Reserve Bank using the Automated Clearing House (ACH). After the 
payroll system is closed-out for the payroll period, the SAA 
programmers provide an ACH data set which is transmitted to the Federal 
Reserve Bank in Atlanta, Georgia, via a specially configured PC 
containing an encryption board and a specialized modem. During our 
evacuation from the Hart Building, the DO did not have access to the 
Fedline PC. The DO entered into an open-ended agreement with the Senate 
Federal Credit Union that allows the DO to transmit from their facility 
in Alexandria, VA. The Federal Reserve Bank of Atlanta must be notified 
prior to any transmission changes, but this agreement gives us the 
flexibility to transmit from an alternate access point in the event we 
encounter transmission problems in the future.
    Disaster Recovery for FMIS.--The DO has participated in disaster 
recovery testing of mainframe FMIS facilities since the system was 
implemented in October 1998. For the February 2002 test, DO and SAA 
Procurement staff tested the various modules of the mainframe 
application to ensure they were functioning correctly at the back-up 
site. Using workstations connected to the Senate's fiber network as 
well as laptop computers dialing into the offsite location, users have 
tested various types of document preparation and posting to FAMIS. In 
addition, batch report testing, and system inquiries into both the 
procurement and financial modules were tested. Finally, various batch 
processing tasks were tested to ensure that they perform as expected. 
In the February 2002 testing, these tests were completed 
satisfactorily.
    Three components of FMIS, checkwriter, Web FMIS, and printing of 
ADPICS purchase orders and vouchers, have not been tested 
satisfactorily. Testing of the ``checkwriter'' process, which generates 
checks in payment to vendors, failed in the February 2002 test because 
communications between the check writing facilities in the Hart 
Building and the contractor's data center could not be completed in the 
testing time frame allowed under the Senate's contract. This was a 
repeat of the problem experienced in the spring 2001, despite a longer 
testing time frame for the February 2002 test.
    No disaster recovery testing of Web FMIS was accomplished during 
2002. Such testing required installation of additional hardware and 
software at the contractor's facility. Testing of Web FMIS was 
scheduled for the fall 2002 recovery testing, but did not happen due to 
the cancellation of the fall 2002 disaster recovery test described 
above.
    Printing of ADPICS purchase orders and vouchers is not possible 
with the current disaster recovery communications infrastructure of 
``dial-up'' lines. Workaround facilities or a revised infrastructure 
have not been finalized for this functionality. As a result, entities 
that prepare ADPICS purchase orders and vouchers, primarily the 
Secretary of the Senate and the SAA, would not be able to print these 
documents in the event of a disaster. The proposed Alternate Computer 
Facility would have more advanced infrastructure and thus such 
documents would be able to be printed.
    Coordinating COOP.--During the summer of 2001, the DO staff wrote a 
Continuation of Operations Plan (COOP). This document addresses issues 
beyond the scope of disaster recovery. The plan was activated on 
October 21, 2001, when the DO staff were evacuated from the Hart 
Building due to anthrax contamination, and deactivated in January 21, 
2002, when we returned. Prior to our reoccupation of our Hart office 
space, we tested all DO office systems to ensure that they were 
operational and facilitated a review of our office space by a disaster 
restoration specialist from an outside contractor. Additionally, we 
participated in the planning and execution of the June 22, 2002 COOP 
exercise.

                         ADMINISTRATIVE OFFICES

                    1. CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include: 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate Leadership.
    As part of several Senate traditions, for more than 22 years, this 
office has bound a copy of Washington's Farewell Address for the annual 
Washington's Farewell Address ceremony. In 2002, a volume was bound and 
read by Senator Jon S. Corzine, and this year, Senator Saxby Chambliss 
read the Address and received a copy of the bound edition.
    In addition, the office continued its work for the Leader's Lecture 
Series with the fabrication of two speech holder boxes and leather 
notebooks. The office also fabricated for the Office of 
Interparliamentary Services, seven marbled paper slipcases for the 
book, The United States Capitol: Photographs by Fred J. Maroon.
    At the direction of the Secretary of the Senate, and the Senate 
Gift Shop, marbled paper liners were fabricated for twelve mahogany 
boxes to house a ceremonial gavel presented at the Commemorative Joint 
Meeting of the Congress of the United States in New York City. A Bible 
was gold embossed for the occasion on September 6, 2002.
    The Office of Conservation and Preservation also completed the 
following: gold-embossed 148 mats for the Senators' group picture of 
the 107th Congress, embossed 140 books for the Senate Leadership, and 
matted and framed 406 items for the Senate Leadership.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2002, conservation 
treatments were completed for 95 volumes of a 7,000 volume collection 
of House hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. In 2003, the 
Office of Conservation and Preservation will continue preservation of 
the remaining 4,277 volumes.
    In addition, this office sent 481 books from the Senate Library to 
the Library section of Government Printing Office for binding, and 
assisted the Senate Library with four exhibits located in the Senate 
Russell building basement corridor. For the Curator's office, 
Conservation and Preservation assisted with the Brumidi exhibit located 
on the first floor of the Capitol.
    On an ongoing basis, this office assists Senate offices with 
conservation and preservation of documents, books, and various other 
items.

                               2. CURATOR

    The Office of Senate Curator, under the direction of the Secretary 
of the Senate, who is the Executive Secretary of the Senate Commission 
on Art, administers the museum programs of the Senate for the Capitol 
and Senate office buildings. The curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings; and exercises supervisory responsibility for the chambers 
in the Capitol under the jurisdiction of the Senate Commission on Art. 
All records of research and documentation related to these areas of 
responsibility are available for use by Senators' offices, the media, 
scholars, and the public. With the establishment of the United States 
Capitol Preservation Commission, the Senate Commission on Art has 
become the designated recipient of objects with Senate association 
received by the Preservation Commission, and is tasked to ``provide to 
the Capitol Preservation Commission such staff support and assistance 
as the Preservation Commission may request.''

Collections: Commissions, Acquisitions, and Management
    The Senate Commission on Art unveiled new portraits of Senators 
Blanche Kelso Bruce and James Eastland last year. Other commissions 
currently in progress include paintings of Senators Bob Dole and George 
Mitchell for the Senate Leadership Portrait Collection; Senators Arthur 
Vandenberg and Robert Wagner for the Senate Reception Room; and 
Margaret Chase Smith.
    Thirty-one objects were accessioned into the Senate collection this 
year. These included three notable items associated with 19th century 
Assistant Doorkeeper Isaac Bassett: a snuff box; walking stick; and 
scrapbook of news clippings, letters, and various mementos related to 
Bassett's Senate years. The majority of the newly accessioned objects 
were historic prints.
    Twenty-six new foreign gifts were reported to the Select Committee 
on Ethics and deposited with the Curator's Office. These have been 
catalogued and are maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Many of these gifts reflect the 
historic, unprecedented visit of senators to countries such as 
Uzbekistan and Afghanistan.
    The Senate collection and Foreign Gifts collection were inventoried 
in 2002. A cyclical schedule to complete a wall-to-wall inventory of 
all collections every three years was established by the Registrar. 
Every year all objects on display in the Capitol and all Senate Office 
Buildings are inventoried in order to verify that no changes in 
location or condition have occurred. In addition, an inventory was 
completed of all fine and decorative arts, memorabilia, publications, 
and manuscripts located in a 4th floor storage room in the Capitol and 
the offsite warehouse. In 2003, all prints, drawings, and advertising 
images in storage will be inventoried.
    The Sergeant at Arms also approved the Secretary's request to 
obtain a lease through General Services Administration (GSA) for museum 
quality off-site storage, as the Senate Curator was asked to vacate its 
existing space. Fifty-one items, primarily historic furniture, which 
had been stored at the warehouse were temporarily relocated in October 
2002, to an off-site until such time as a GSA lease is negotiated. The 
final result will be an environmentally controlled storage space 
suitable for the storage and preservation of historic objects.
    The Associate Registrar and Curatorial Assistant initiated a 
project to professionally photograph the more than 1,000 historic 
prints in the Senate's collection. For emergency purposes, a pair of 
4''  5'' color transparencies will be created for each print, allowing 
for one complete set to be stored off-site. The in-office working copy 
will be used for image requests, future publications, and new web site 
postings. This year, the transparencies will be transferred to CD's, 
along with adding the images and associated database information to the 
Senate web site, and compiling an updated checklist publication of the 
Senate's entire historic print collection. 861 prints have been 
photographed to date.

Conservation and Restoration
    A total of 25 objects received conservation treatment in 2002. 
These included three historic clocks, one gilded window valance, 
fifteen Senate Chamber desks, and six Russell Senate Office Building 
chairs.
    This year the major project of conserving all one hundred Senate 
Chamber desks passed the halfway point. Twice a year, during Senate 
recess periods, desks are removed from the Senate Chamber and sent out 
for restoration. Treatment is extensive, and follows a detailed 
protocol developed in 1997 to address the wear and degradation of these 
historic desks due to continued heavy use. Sixty-one desks have been 
restored to date, and the project is on schedule for completion in 
August 2005. The program also involves thorough documentation of the 
condition, construction details, wood type, and measurements. 
Additional initiatives will include: professional photography; posting 
desk information on the Senate web site; developing a maintenance 
program to continue to preserve the desks; and treating the inkwells 
and sand blotters located in each desk. As part of its preventive 
maintenance program, the Curator's office continues to work with the 
Senate Sergeant at Arms Cabinet Shop to install rubber bumpers on the 
end of the Senate Chamber chairs to further eliminate damage to the 
desks.
    Six historic chairs, originally purchased for the Russell Senate 
Office Building in 1909, were studied and restored. The chairs were 
examined by professional conservators in order to determine the 
original finish and upholstery methods, and to serve as prototypes. A 
detailed protocol treatment to restore all 1909 Russell chairs to their 
historic appearance was established.
    A comprehensive Collection and Historic Structures Care manual has 
been developed. The manual will provide basic, practical information 
needed to enable non-curatorial staff within the Capitol complex to 
plan and implement sound collections care and building maintenance 
programs. The primary purpose of the manual is to teach specialized 
handling practices, identify acceptable repair, maintenance, and care 
treatments, and establish necessary monitoring and maintenance 
schedules. In addition, the Associate Curator and Registrar conducted 
training sessions for the Capitol Police on the care and protection of 
art in the Capitol. The staff also continues to work with housekeeping 
personnel on maintenance issues related to the fine and decorative arts 
collection.

Historic Preservation
    One of the office's directives is to work with the Architect of the 
Capitol to ensure the preservation of the architectural and decorative 
elements within the Senate wing of the Capitol, with emphasis on those 
spaces of primary historic and architectural significance. After making 
substantial progress in 2001, on the development of the Senate 
Preservation Program by defining a policy and procedures, the office 
spent much of the year focusing on the functionality of the program and 
how it could effectively interact with the Office of the Architect of 
the Capitol and congressional offices. Based on such considerations, 
the office identified infrastructure systems and effective procedures 
that will allow the staff to conduct and collect research, document 
current projects, respond to and approve upcoming project scopes in a 
timely manner, and develop and direct preservation projects. The 
results of those efforts include: an historic structures report 
program; a detailed index to Bill Allen's History of the U.S. Capitol; 
a draft historic context and period of significance statement for the 
Capitol; paint analysis guidelines; and office attendance at the 
Architect of the Capitol's project update meetings.
    In an effort to significantly advance the preservation program by 
putting policies and procedures into practice (in order to test and 
refine them), the office outlined two Senate-controlled preservation 
projects as test cases: the Senate Reception Room preservation project 
and the Historic American Building Survey (HABS) documentation project. 
The first phase of the Reception Room project, the development of an 
Historic Structures Report, is currently underway and will continue 
through 2003. Regarding the HABS project, the office has developed a 
plan and first phase proposal for review.
    Along with the important work of developing and implementing a 
Senate Preservation Program, the Curator's office, working in 
partnership with the Architect of the Capitol, continued to serve as 
project coordinator for the Democratic leadership suite rehabilitation 
project. Over the past year, the following tasks were completed: 
application of tinted varnish on the S-223 and S-224 enframements; 
painting the walls and enframements in S-222; painting the enframements 
in S-221; application of gold leaf in S-222, S-223, and S-224; 
restoration of the ceiling murals in S-222 and S-223; consolidation of 
the ceiling plaster in S-221; conservation of the crystal chandeliers 
in S-222, S-223, and S-224; restoration of three 1909 Russell Senate 
Office Building chairs for S-223; installation of gilded window cornice 
replicas in S-221 and S-223; and installation of new curtains in S-222 
and new rugs in S-222 and S-224.
    Serving as the Senate's authority on preservation, the office has 
extended professional advice, guidance, and services to the Architect 
of the Capitol and various congressional offices on numerous upgrade, 
renovation, preservation, and repair projects in the Senate wing of the 
Capitol. These projects include testing and stabilization planning for 
the President's Room ceiling plaster; preservation of the second floor 
corridor; mural conservation and restoration of the Brumidi Corridors; 
handicap access for the Old Supreme Court Chamber; and renovation of S-
312.

Historic Chambers
    The Curator's staff maintains the Old Senate and Old Supreme Court 
Chambers, and coordinates periodic use of both rooms for special 
occasions. By order of the U.S. Capitol Police, the Old Senate Chamber 
has been closed to visitors since September 11, 2001. Twenty-nine 
requests were received from current Members of Congress for after-hours 
access to the chamber. Four special events were held in the room. Of 
significance was former Vice President Walter Mondale's lecture 
delivered in the chamber as part of the Leader's Lecture Series. In 
addition, the Chamber was used for an educational interview with former 
Majority Leader Bob Dole conducted by the National Constitution Center 
in Philadelphia regarding the history of debate in the Senate. Senate 
Historian Richard Baker also presented a lecture to the newly-elected 
Senators of the 108th Congress. The Chamber was also used for the re-
enactment swearing-in ceremony for Senator Dean Barkley of Minnesota, 
and again on January 7, 2003, for the opening of the 108th Congress. In 
addition, B-roll footage of the room was taken by NBC to illustrate the 
historic significance of the 19th century Senate Disbursing Office 
ledgers recently found.
    On April 1, 2002, the Old Supreme Court Chamber was opened to the 
public for the first time since September 11, 2001. Nineteen requests 
were received by current Members of Congress for admittance to the Old 
Supreme Court Chamber after-hours. New carpeting was installed in the 
public area of the Old Court, and two exhibits were de-installed to 
allow easier access to the room for visitors.

Loans To and From the Collection
    A total of 63 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership in the Capitol. 
The Curator's staff returned eleven paintings to the South Dakota Art 
Museum at the expiration of their loan period, and requested nine new 
paintings from the museum for display in the Democratic leadership 
suite. One outgoing loan from the Senate collection was approved for 
the Octagon Museum; two objects from the collection and two replicas 
were loaned for display as part of the exhibition, Inside the Temple of 
Liberty.
    The Curator's office began work to assemble information on Senate 
objects under consideration for loan to the exhibition space in the 
main gallery of the Capitol Visitor Center. Approximately 50 objects 
have been identified at this time. In addition, the office facilitated 
a loan request to the Smithsonian Institution's National Museum of 
American History on behalf of the Senate Commission on Art. The 
Curator's office has identified two large, historic vases for display 
in the public area of the Capitol Visitor Center, and tentative 
approval was received from the Smithsonian pending final confirmation 
of conditions in the display location.
    The Secretary's china was distributed and returned three times in 
2002. It was used for events such as a dinner for the retiring 
Republican Senators of the 107th Congress and a Senate leadership 
dinner. The official Senate chinaware was inventoried and used at 31 
receptions for distinguished guests, both foreign and domestic.

Publications and Exhibitions
    Much of the office's focus in 2002, was devoted to producing the 
five-hundred page catalogue entitled U.S. Senate Fine Art Collection, 
which will provide previously unpublished information on the 160 
paintings and sculptures in the U.S. Senate. Each work of art is 
illustrated with a full-page color photograph, accompanied by an essay 
and secondary images that place the object in historical and aesthetic 
context. The publication features an introductory essay by art 
historian and principal author William Kloss to provide a comparative 
perspective on the collection. The book is the definitive new resource 
on the fine art in the United States Senate. Staff worked with the 
Government Printing Office on all aspects of the design and proofing of 
the publication. A printer has been selected and delivery of the 
publication is expected in the summer of 2003.
    Several brochures were reprinted, including: The United States 
Congress & Capitol: A Walking Tour Handbook, volumes I and II; The 
Senate Vestibule; and The President's Room. In addition, the office 
published a new brochure, The Republican Leadership Suite.
    The office deinstalled I Do Solemnly Swear, an exhibition of 
presidential inauguration images and a photographic diary of 
Inauguration Day 2001, and reinstalled the exhibition The United States 
Capitol: Photographs by Fred J. Maroon. The first phase of the 
exhibition Constantino Brumidi: Artist of the Capitol was installed 
under the west stairwell of the Brumidi Corridors, on the first floor 
of the Senate wing. The second phase of the exhibit will be completed 
in 2003.

Policies and Procedures
    The office undertook a major initiative to create a strategic plan, 
and started by reorganizing and prioritizing office objectives and 
developing a mission statement.
    Progress continued on preparation of a Collections Management 
Policy to be approved by the Commission on Art. The introductory 
section of the policy was reorganized to create a clear statement of 
the principles and goals that guide the Office of Senate Curator in the 
development and care of the Senate collections.

Collaborations, Educational Programs, And Events
    As part of the seminar series conducted under the auspices of the 
Secretary of the Senate and the Sergeant at Arms, the Curator's staff 
continued to deliver periodic addresses on various aspects of the 
Senate's art and history. Staff conducted or assisted with several 
sessions, including ``Congress & the Capitol: Tour Guide Series'' and 
``The Vice Presidential Bust Collection.''
    Curator staff participated as team members for the redesign of the 
Senate web site, which was launched in the fall of 2002. For the first 
time, visitors to the Senate web site can view images and catalogue 
information for all fine art in the Senate collection. Results of this 
increased visibility have already been seen, as the number of requests 
from the public for images of art in the Senate collection has nearly 
doubled.

Objectives for 2003
    Conservation and preservation concerns remain a priority. Projects 
in 2003, will include the restoration of 15 Senate Chamber desks during 
the August and fall recess periods, conservation of the frame for 
Pocahontas; and the restoration of two historic overmantel mirrors.
    Policy initiatives and strategic planning are a major endeavor. 
Additionally, the Collections Management Policy will be completed and 
submitted for peer review by museum professionals.
    A comprehensive restructuring of the Senate collection database 
will be completed. Once an outside contractor has organized the files 
and reports to the specifications of the office, collections staff will 
complete the work of cleaning up data contained in fields and create 
all additional reports and layouts needed for current collections 
related projects. An additional goal is to evaluate the options for 
display of object images in the layouts used to view the Senate 
collection database and to establish image field standards.
    Regarding the Senate Preservation Program, the Curator's office 
will begin to establish the systems necessary for the office to meet 
its preservation responsibilities and to function as the Senate's 
authority on preservation issues. The office will complete the first 
phase of the Senate Reception Room preservation project. In addition, 
the office will present to the Senate Commission on Art a proposal for 
the HABS documentation project, with emphasis on the establishment of 
CAD-related databases and documentation procedures. In the area of 
physical preservation, the office will continue to serve as the project 
coordinator for the Democratic leadership suite renovation and provide 
assistance with preservation issues related to Architect of the 
Capitol's Senate projects. In conjunction with the Architect of the 
Capitol, the office will develop a system that will assure the 
involvement of the Curator's staff in all Senate wing project planning. 
Such a plan will require the Curator's office to review all Senate wing 
projects for their effect on historic resources.
    Publications scheduled for 2003, include a brochure on the history 
of the Senate Democratic leadership suite; the Senate Appropriations 
Committee, Room S-219; and on 19th century Senate employee Isaac 
Bassett. The office will install informational panels for important 
Senate art work as part of its educational mandate with the paintings 
of George Washington at Princeton and The Recall of Columbus the first 
to be highlighted.
    Internet exhibits scheduled include web sites on the political 
cartoons of Puck, a 19th century satirical magazine, the drawings of 
Lily Spandorf illustrating the filming of the motion picture Advise and 
Consent, the Senate Chamber desks, and information on current 
conservation/preservation projects.
    As part of its emergency preparedness plan, the office will 
microfilm several important record series. Collections and history 
files, and the Isaac Bassett Papers, will be reproduced in microfilm or 
fiche, as well as digitized for both research and web publication.

               3. JOINT OFFICE OF EDUCATION AND TRAINING

    The Joint Office of Education and Training, a shared responsibility 
between the Secretary of the Senate and the Sergeant at Arms, provides 
employee training and development opportunities for 7,000 Senate staff 
both in Washington D.C. and in the states. There are four branches 
within the department:
  --The technical training branch is responsible for providing 
        technical training support for approved software packages used 
        in either Washington or the state offices.
  --The computer training staff provides instructor-led classes; one-
        on-one coaching sessions; specialized vendor provided training, 
        computer based training; and informal training and support 
        services.
  --The professional training branch provides courses for all Senate 
        staff in areas including: management and leadership 
        development, human resources issues and staff benefits, 
        legislative and staff information, new staff and intern 
        information.
  --The health promotion branch provides seminars, classes and 
        screenings on health related and wellness issues. This branch 
        also coordinates an annual Health Fair for all Senate employees 
        and four blood drives each year.
    In 2002, The Joint Office of Education and Training offered 565 
classes with 5,566 Senate employees participating. The registration 
desk handled 13,248 requests for training and documentation.
    Of the above total, in the technical training area 321 classes were 
held with a total attendance of 1,883 students. An additional 1,686 
staff received coaching on various software packages and other computer 
related issues.
    In the professional development area, 244 classes were held with a 
total attendance of 3,683 students. Individual managers and supervisors 
were also encouraged to request customized training for their offices 
in areas of need.
    The Office of Education and Training made itself available to work 
with teams on issues related to team performance, communication or 
conflict resolution. During 2002, 50 requests for special training or 
team building were met. Professional development staff also traveled to 
State offices to conduct specialized training/team building during the 
year.
    In health promotion, 896 Senate staff participated in Health 
Promotion activities throughout the year. These activities included: 
cancer screening, bone density screening and seminars on health related 
topics. Additionally 1,163 staff participated in the Annual Health Fair 
held in September.
    The Office of Education and Training continues to coordinate with 
the Office of Security and Emergency Preparedness to provide security 
training for Senate staff. In 2002, the Office of Education and 
Training coordinated 87 sessions of Escape Hood Training for 3,514 
Senate staff.
    Since most of the classes offered are practical only for D.C. based 
staff, the Office of Education and Training continues to offer the 
``State Training Fair,'' now three years old. In 2002, three sessions 
of this program were offered to state staff. We also implemented the 
``Virtual Classroom,'' an internet based training library of 300+ 
courses. To date, 134 state office staff representing 49 Senators are 
using the training option.

                    4. CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (``SCCE'') is 
a non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
became subject to the requirements, responsibilities and obligations of 
11 employment laws. The SCCE is charged with the legal representation 
of Senate offices in all employment law cases at both the 
administrative and court levels. Also, on a day-to-day basis, the 
office provides legal advice to Senate offices about their obligations 
under employment laws. Accordingly, each of the 180 offices of the 
Senate is an individual client of the SCCE, and each office maintains 
an attorney-client relationship with the SCCE.
Background
    Each of the SCCE attorneys came to the office after having 
practiced as employment law litigators in major, national law firms 
representing Fortune 100 corporations. All services the office provides 
are the same legal services the attorneys provided to their clients 
while in private practice. The areas of responsibilities of the SCCE 
can be divided into the following categories: Litigation (Defending 
Senate Offices in Federal Court); Mediations to Resolve Lawsuits; 
Court-Ordered Alternative Dispute Resolutions; Preventive Legal Advice; 
Union Drives, Negotiations and Unfair Labor Practice Charges; OSHA/
Americans With Disability Act (``ADA'') Compliance; Layoffs and Office 
Closings In Compliance With the Law; and Management Training Regarding 
Legal Responsibilities.
Litigation, Mediations, Alternative Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states. The SCCE 
represents a defendant Senate office from the inception of a case 
through U.S. Supreme Court review. The office handles all work 
internally without the assistance of outside law firms or the 
Department of Justice.
    During 2002, the SCCE defended Senate offices against 33 lawsuits, 
which required approximately 11,000 attorney work hours \1\. No case 
was lost.
---------------------------------------------------------------------------
    \1\ Attorney hours spent on each case include, but are not limited 
to, time for conducting the initial investigation of allegations; 
mediation with employee; negotiating settlements; reviewing employing 
office files; interviewing witnesses; investigating and responding to 
the complaint; preparing for pretrial and trial proceedings, including 
taking witness depositions, conducting extensive discovery with 
opposing counsel (propounding and responding to interrogatories, 
requests for production of documents, etc.), interviewing expert 
witnesses, preparing, researching and filing any necessary motions with 
the court, preparing witnesses for trial, preparing exhibits for trial; 
trying the case; preparing post-trial briefs; preparing appellate 
briefs; arguing before the appellate courts.
---------------------------------------------------------------------------
Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice and/or that the SCCE negotiate with the employee's attorney 
before the employee files a lawsuit. The successful resolution of such 
matters substantially reduces an office's liability.
    Also, the SCCE advises and meets with Members, chiefs of staff, 
office managers, staff directors, chief clerks and general counsels at 
their request. The purposes of the advice and meetings are to educate 
and inform Members, officers and employees and to prevent litigation 
and to minimize liability in the event of litigation. For example, on a 
daily basis, the SCCE advises Senate offices on matters such as 
disciplining/terminating employees in compliance with the law, handling 
and investigating sexual harassment complaints, accommodating the 
disabled, determining wage law requirements, meeting the requirements 
of the Family and Medical Leave Act, and management's rights and 
obligations under union laws and OSHA.

Union Drives, Negotiations, and Unfair Labor Practice Charges
    The Office provides the following with respect to a union drive: 
conducts training sessions for managers and supervisors regarding their 
legal obligations during a union campaign, negotiates an election 
agreement with the union, advises the client in selecting its 
representatives for the election, conducts training sessions for the 
employer representatives regarding improper conduct at elections, and 
conducts an investigation to determine whether ground rules exist to 
challenge the election results.

OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued. In 
2002, the SCCE handled 8 OSHA complaint procedures.

Layoffs and Office Closings in Compliance with the Law
    The SCCE provides legal advice and strategy to individual Senate 
offices regarding how to minimize legal liability in compliance with 
the law when offices reduced their forces.
    In addition, pursuant to the Worker Adjustment and Retraining 
Notification Act (``WARN''), offices that are closing must follow 
certain procedures for notifying their employees of the closing and for 
transitioning them out of the office. The SCCE tracks office closings 
and notifies those offices of their legal obligations under the WARN. 
In 2002, the SCCE advised 10 Senate offices of their legal obligations 
under this law.

Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws, thereby reducing 
their liability. In 2002, the SCCE gave 59 legal seminars to Senate 
offices. Among the topics covered were: Preventing and Addressing 
Sexual Harassment in the Workplace; The Congressional Accountability 
Act of 1995: What Managers Need to Know About Their Legal Obligations; 
Managers' Obligations Under the Family and Medical Leave Act; The Legal 
Pitfalls of Hiring the Right Employee: Advertising, Interviewing, Drug 
Testing and Background Checks; Disciplining, Evaluating and Terminating 
an Employee Without Violating Employment Laws; Management's Obligations 
Under the Americans With Disabilities Act; and Equal Pay for Equal 
Work: Management's Obligations Under the Equal Pay Act.

Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices in 
preparing and updating employee handbooks, office policies, 
supervisors' manuals, sample job descriptions, interviewing guidelines, 
and job evaluation forms to ensure that they are legally compliant.

Technological Advances
    The SCCE is continuing its implementation of two electronic systems 
that put the office at the forefront of electronic offices. First, the 
SCCE has installed and implemented a comprehensive document management 
system. The system profiles and indexes every document in the office, 
regardless of whether the document was created internally or received 
from an outside source. Thus, the office maintains all-electronic 
files. The system saves hours of time by eliminating electronic 
directory/folder-type searches, and filing cabinet searches. It also is 
instrumental in preserving institutional knowledge.
    Second, the SCCE continues its conversion to a ``paperless'' 
office. It has completed Phases I and II and most of Phase III of the 
3-phase process, which involves scanning and OCRing every document the 
office receives from an outside source. This means that all paper in 
the office, whether created on our computers or received from outside 
the office, is electronically accessible. This paperless system saves 
time and office space. In addition, it allows staff members to access 
electronically every office document from remote locations, such as a 
courtroom, and it allows the office to remain fully operational in the 
event of an unanticipated closing of the Hart building.

                              5. GIFT SHOP

    With each successive year since its establishment, the Senate Gift 
Shop has continued to provide outstanding products and services that 
maintain the integrity of the Senate as well as increase the public's 
awareness of the mission and history of the U.S. Senate. The Gift Shop 
provides services to Members, Officers and employees of the Senate, as 
well as constituents and visitors. Products include a wide variety of 
souvenirs, collectibles, and fine gift items created exclusively for 
the Senate. Services include special ordering of personalized products 
and hard-to-find items, custom framing, gold embossing, engraving, and 
shipping.

Facilities
    For several years, the services offered by the Senate Gift Shop 
were over-the-counter sales to walk-in customers at a single location. 
Today, after 10 years in operation, and as a result of extended 
services and continued growth, the Gift Shop now provides service from 
three different locations. Services from these locations include walk-
in sales, telephone orders, fax orders, mail orders, and a variety of 
special order and catalog sales.

Sales Activity
    The Gift Shop's gross sales for fiscal year 2002 are recorded at 
$1,418,065.88. The cost for goods sold during this same period was 
$1,102,433.12. This accounts for a gross profit of $315,632.76. Records 
show total gross sales in fiscal year 2001 were $1,585,062.49. This 
represents a decrease in sales of $166,996.61 from fiscal year 2001 to 
fiscal year 2002, largely due to the impact of September 11, 2001, and 
the anthrax incident.
    In addition to tracking profit from gross sales, the Senate Gift 
Shop maintains a revolving fund and a record of on-hand inventory. As 
of October 1, 2002, the balance in the revolving fund was $880,022.88 
with on-hand inventory valued at $1,997,419.86.
    At the request of the Secretary, the General Accounting Office will 
conduct an audit of the fiscal year 2002 transactions of the Senate 
Gift Shop's Revolving Fund.

Technology Upgrades
    One of the most important objectives for 2003, is replacing our 
outdated software application, Basic Four, which is more than 20 years 
old and no longer meets the increasingly unique needs of the Gift Shop. 
During the first three quarters of 2002, the Secretary of the Senate, 
through the Senate Gift Shop, and with the assistance of staff from the 
Senate Offices of Disbursing, and the Customer Support Division of the 
Sergeant at Arms, studied proposals in search of an outside vendor who 
would provide and install the most suitable retail and financial 
management software package. The necessary funds for this upgrade were 
included in the Secretary's budget request for fiscal year 2003 and 
have been appropriated. The selected vendor will provide required 
technical assistance during implementation, training of Gift Shop 
staff, and continued technical support of the new system.

Accomplishments and New Products in 2002

            Official Congressional Holiday Ornaments
    The year 2002 marked the beginning of the Gift Shop's third 
consecutive ``four-year ornament series.'' Each ornament in the 2002-
2005 series of unique collectibles will feature an architectural 
milestone of the United States Capitol with each image of the Capitol 
and corresponding historical text taken from the book, History of the 
United States Capitol: A Chronicle of Design, Construction, and 
Politics by William C. Allen, architectural historian in the office of 
the Architect of the Capitol.
    The 2002 ornament, our 10th annual ornament, pictures the original 
architectural design of the Capitol by William Thornton. In keeping 
with tradition, the authentic colors of the original drawing were 
reproduced onto white porcelain stone and set with a brass frame 
finished in 24kt gold.
    Holiday sales of this ornament in 2002 were strong and additional 
sales are expected throughout 2003. Revenue from the sale of more than 
35,000 of these ornaments has generated more than $40,000 in 
scholarship funding for the Senate Child Care Center.

            Pickard China Porcelain ``Liberty'' Box
    The ``Liberty'' box is the first in a series of four porcelain 
boxes that will display different images from the Constantino Brumidi 
fresco painted on the ceiling of the President's Room located in the 
Senate Wing of the United States Capitol. ``Liberty'' is one of four 
allegorical figures that represents the foundations of the government--
the other three are Executive, Religion, and Legislation. These boxes 
will be released on an annual basis.

            Temple of Liberty Greeting Cards
    Peter Waddell, a local artist, created the ``Temple of Liberty'' 
collection. His oils on canvas depict the interiors of the Capitol 
Building, and the visitors to it, as they might have appeared in the 
19th century when the Capitol was still in its early years of 
construction. The Senate Gift Shop secured exclusive rights to 
reproduce these images onto greeting cards which are now sold as boxed 
sets. The beautiful tones and colors of Mr. Waddell's works have been 
faithfully reproduced on the face of the cards. On the reverse of each 
of these cards is the artist's written interpretation of that 
particular painting. The Gift Shop reviewed the written interpretation 
to confirm both clarity and factuality.

            Capitol Visitor Center Coins
    When the U.S. Mint terminated its promotion and sale of the Capitol 
Visitor Center (CVC) coin in June 2002, the Gift Shop, with the 
assistance and guidance of Senate Legal Counsel, arranged to purchase 
the balance of the more than 22,000 already minted CVC coins. In order 
to better promote the CVC and to better showcase the CVC coins, the 
Gift Shop has successfully incorporated the coin into a variety of 
appropriate gift items:
  --CVC coins encased in Lucite paperweights have sold well since their 
        development last year.
  --During the latter half of 2002, the Gift Shop worked with a vendor/
        manufacturer to create ladies' and men's wristwatches and 
        pocket watches with CVC coins serving as the face.
  --Other items incorporating the use of the coins are in various 
        stages of development and will be introduced later in 2003.

            Products Created for the Commemorative Joint Session of 
                    Congress
    The Secretary of the Senate worked with the Senate Gift Shop to 
create and develop an official gavel and a variety of presentation and 
gift items suitable for the Commemorative Joint Session of Congress 
held in New York City on September 6, 2002.
    In an attempt to create a unique gavel that appropriately defined 
this moment in history, the Gift Shop first consulted with the masonry 
team under the Architect of the Capitol to determine if marble that was 
once part of the Capitol could be used. Next, the Gift Shop selected a 
contractor to produce a replica of the original ivory gavel used to 
preside over Senate proceedings. Upon completion of the prototype of 
the gavel, the Senate Gift Shop enlisted the assistance of the Senate 
Office of Conservation and Preservation to modify a wooden box, 
provided by the Gift Shop, to showcase the commemorative gavel. In the 
meantime, the Senate Gift Shop researched appropriate historical text 
and composed custom insert cards that were reproduced with the 
assistance of the Senate Service Department. A dozen marble gavels were 
presented at the Commemorative Joint Session.

Projects and New Ideas for 2003

            United States Senate Fine Art Guide
    The Gift Shop is working with the Senate Curator in order to secure 
copies of the forthcoming publication, United States Senate Fine Art 
Guide. The book will be sold in both the Dirksen and Capitol Gift 
Shops.

            Capitol Trees
    During the early construction stages of the CVC, the Senate Gift 
Shop contracted with a company to recover felled trees from the Capitol 
grounds. The recovered trees have been milled and kiln dried. The 
resultant 12,000 board feet of cut lumber is stored in a warehouse in 
West Virginia. The Gift Shop is in the process of developing products 
from the recovered trees. Items will include presentation pieces for 
official use and a variety of commemorative collectors' items available 
for sale to the general public.

            108th Congressional Plate
    The series of Official Congressional Plates will continue this year 
with the design, development, and manufacture of the 108th 
Congressional Plate. The first stage of choosing a design for the 108th 
Congressional Plate will begin soon. After reviewing proofs and working 
through the many design changes, the goal is to have a finished product 
arrive in mid-November, in time for holiday sales.

                          6. HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by Members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,775 former Senators. It 
edits for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations, and conducts 
oral history interviews with key Senate staff. The photo historian 
maintains a collection of approximately 40,000 still pictures, slides, 
and negatives that includes photographs and illustrations of most 
former Senators, as well as news photographs, editorial cartoons, 
photographs of committees in session, and other images documenting 
Senate history. The Office develops and maintains all historical 
material on the Senate website.

Fiscal Year 2002 and Continuing Editorial Projects
    The Senate Leader's Lecture Series.--This series brings 
distinguished speakers to the Senate to present insights about the 
Senate's recent history and long-term practices. From 1998 through 
2002, lectures featuring former Senate presidents and party floor 
leaders on the topic of Senate leadership were held in the Capitol's 
historic Old Senate Chamber before an audience of current Senators and 
invited guests. The Historical Office has provided editorial and 
production support for the series, including the September 4, 2002, 
lecture by former Vice President Walter Mondale. Text and video of all 
nine lectures are available on the Senate's website, and the Historical 
Office is preparing a book edition for publication in 2003.
    Executive Session Transcripts of the Permanent Subcommittee on 
Investigations, 1953-1954.--The Historical Office completed editing and 
annotating 3,800 pages of previously unpublished executive-session 
hearing transcripts produced by the Senate Permanent Subcommittee on 
Investigations (PSI) under the chairmanship of Senator Joseph R. 
McCarthy (1953-1954). The Government Printing Office has recently 
delivered all five volumes to the PSI for a public announcement and 
press conference within the next few weeks. This publication will allow 
researchers nationwide to have equal access to these highly sought 
after and richly revealing historical documents.
    Biographical Directory of the United States Congress.--Since the 
most recent printed edition of the Biographical Directory of the United 
States Congress appeared in 1989, the assistant historian has added 
dozens of new biographical sketches and has revised and updated most of 
the database's 1,875 Senate entries. A current version of the database 
is available online at http://bioguide.congress.gov. The assistant 
historian has recently completed necessary revisions and additions of 
data to allow for expanded online search capabilities. Work is 
proceeding on the next print edition, tentatively planned for 
publication in 2004.
    Administrative History of the Senate.--During 2002, the assistant 
historian revised an earlier chapter structure and focused on the years 
1789 to 1861 in this historical account of the Senate's administrative 
evolution. This study traces the development of the offices of the 
Secretary of the Senate and Sergeant at Arms, considers nineteenth and 
twentieth-century reform efforts that resulted in reorganization and 
professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified over the past two 
centuries.
    Documentary History of the Senate.--The Historical Office is 
conducting an ongoing documentary publication program to bring together 
fundamental source materials that will help explain the development of 
the Senate's constitutional powers and institutional prerogatives. 
Currently in production are volumes on Senate impeachment trials, the 
Senate's consideration of controversial treaties, and the evolution of 
the Senate's standing rules. For the impeachment trial volume, working 
drafts have been prepared to summarize each case, with selection of key 
documents and writing of textual notes underway. For the controversial 
treaties volume, much of the research has been completed and major 
chapters have been drafted. Work on the rules volume has proceeded to 
provide coverage from 1789 through the 1850s.
    ``The Senate of the United States''.--Between 1988 and 1994, the 
Government Printing Office published The Senate, 1789-1989, a four-
volume reference work by Senator Robert C. Byrd. During 2002, the 
Historical Office began work on a consolidated, updated, and 
illustrated one-volume edition of ``Byrd's History.'' This work will be 
available for distribution in 2005 through the Senate Gift Shop.
    Senate web site redesign.--Historical Office staff played a key 
role on history content in the redesign of the Senate web site. The 
history content amounts to about 60 percent of the static content on 
the site, or more than 5,000 pages. The office has continuing 
responsibility for expanding and updating the history content and for 
adding history-based features to illuminate ongoing Senate news events, 
as well as coordinating efforts among the various content teams.
    ``Idea of the Senate''.--This narrative book will be based on the 
memoirs of Senators, providing eyewitness accounts of the Senate from 
its early years to the modern era. Each chapter in the book will focus 
on the writings of one Senator. Additional primary and secondary 
sources will be examined for contextual information. The Historical 
Office's researcher-writer has completed preliminary project research 
and has begun drafting the first chapter on John Quincy Adams.
    Capitol Visitor Center Exhibition Content Development.--The Senate 
historian assisted in preparing detailed plans for the 20,000 square-
foot exhibition gallery of the Capitol Visitor Center. Three staff 
historians prepared scripts for major exhibitions on the historical 
role of Congress in helping to realize the nation's basic aspirations 
and on the chronological history of the Senate.
    Member Services.--At the request of the Senate Democratic Leader, 
the Senate historian prepared and delivered a ``Senate Historical 
Minute'' at each of thirty-five Senate Democratic Conference weekly 
meetings during the year. These four-hundred-word Minutes are designed 
to enlighten members about significant events and personalities 
associated with the Senate's institutional development, and with 
familiar objects and places within the Capitol. The nearly 200 Minutes 
prepared since 1997, are available as a feature on the Senate website.
    Members' Office Records Management and Disposition Assistance.--The 
Senate archivist continued to assist Members' offices with planning for 
the preservation of their permanently valuable records, with special 
emphasis on archiving electronic information from computer systems and 
transferring valuable records to a home state repository. Forming a 
team with customer support service staff from the Office of the 
Sergeant at Arms, the archivist worked with all Senators' offices that 
closed at the end of the 107th Congress, including the office of 
Senator Paul Wellstone, to prepare the collections for donation. The 
handbook entitled ``Closing a Senate Office'' was updated, and 
assistance was given in the compilation of ``Opening a Senate Office.'' 
The latter was published and also broadcast on the transition office 
intranet site. As a follow-up to the Congressional Papers Forum that 
was held in August 2001, the archivist edited The Congressional Papers 
Forum: The Third Report of the Advisory Committee on the Records of 
Congress. The archivist began a comprehensive revision of Records 
Management Handbook for United States Senators and Their Archival 
Repositories which will be published in 2003.
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance on preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. Over 3,000 feet 
of records were transferred to the Archives. The Office's archival 
staff continued to provide processing assistance to committees and 
administrative offices in need of basic help with noncurrent files. The 
archivist worked with the House of Representatives' archivist to 
inventory the records of the anthrax contamination cleanup and is 
working with Secretary of the Senate and Clerk of the House counsels to 
develop protocols for the transfer of these records to the Center for 
Legislative Archives. In 2003, a records disposition guidelines for the 
offices under the Secretary's jurisdiction will be published.
    Oral History Program During Fiscal Year 2002.--The Historical 
Office concluded its series of twenty-three debriefing interviews with 
staff involved with the dislocation following the attacks of September 
11, 2001, and the October 2001 delivery of letters containing anthrax 
to the Hart Senate Office Building. This adds to the already extensive 
collection of oral history interviews that provide personal 
recollections of Senate careers dating from 1910 to the present. Oral 
history interviews were also conducted with Tom C. Korologos, former 
administrative assistant to Senator Wallace Bennett and White House 
Senate liaison; Jade West, former staff director of the Republican 
Policy Committee; and J. Stanley Kimmitt, former Secretary for the 
Majority and Secretary of the Senate.
    Photographic Collections.--The photo historian continued to expand 
the Office's 40,000-item photographic collection by obtaining images of 
former Senators not previously represented in the collection, and 
documenting Senate life by photographing historically significant 
Senate events, including hearings of Senate committees. Digital images 
of frequently used photographs were created in order to promote their 
use and safeguard the originals. Images can now be transmitted to 
patrons via e-mail or CD, or can be printed onto photographic paper in 
the Historical Office. The photo historian also continued to catalog 
photographic negatives into an image database in order to increase 
intellectual control over the Office's image collection.
    Conference of Congressional Research Center Directors.--The Senate 
Historical Office, the Center for Legislative Archives at the National 
Archives, and the Robert C. Byrd Center for Legislative Studies just 
completed a conference at the Byrd Center in Shepherdstown, West 
Virginia. This first-of-its kind meeting brought together the directors 
of 20 university-based congressional research centers. Among those who 
attended were the directors of center associated with the public 
service careers of the following U.S. Senators: Howard Baker, Bob Dole, 
Everett Dirksen, Margaret Chase Smith, Strom Thurmond, George Aiken, 
Thomas Dodd, Wendell Ford, Hubert Humphrey, Richard Russell, John 
Stennis, John Glenn and Robert C. Byrd.
    Historic Senate Salary and Mileage Ledger, 1790: 1880.--The Library 
of Congress has scanned all 400 pages in an electronic version of this 
major resource, which documents the administrative operations of the 
Senate during its first 90 years. It will be available to researchers 
on senate.gov within the next few weeks.

                           7. HUMAN RESOURCES

    The Office of Human Resources (HR) was established in June 1995, as 
a result of the Congressional Accountability Act. The Office focuses on 
the development and implementation of human resources policies, 
procedures, and programs for the Office of the Secretary of the Senate, 
both to fulfill the legal requirements of the workplace and to 
complement the organization's strategic goals and values.
    This includes recruiting and staffing; providing guidance and 
advice to managers and staff; training; performance management; job 
analysis; compensation planning, design, and administration; leave 
administration; records management; employee handbooks and manuals; 
internal grievance procedures; employee relations and services; and 
organizational planning and development.
    HR also administers the Secretary's Public Transportation Subsidy 
program and the Summer Intern Program that offers college students the 
opportunity to gain valuable skills and experience in a variety of 
Senate support offices.

Classification and Compensation Review
    The Secretary of the Senate is conducting a complete classification 
and compensation study which entails a thorough review of the entire 
system. This classification study will include a comprehensive 
collection of current job classifications and specifications for every 
position in the Office and the pay plan and bands will reflect the 
accurate and equitable layout of all staff within the organization. HR 
staff has conducted job audits/interviews with each incumbent to ensure 
all roles and responsibilities are accurately factored into the study.

Policies and Procedures
    HR will annually update and revise the Employee Handbook of the 
Office of the Secretary.

Assisting the Secretary and Department Heads
    HR continues to work with the Executive Office and department heads 
to establish objectives that reflect the mission of the Senate and the 
Secretary's Office. HR has met with each department head and discussed 
their departmental and personal objectives, challenges and results of 
the past year, and to assist each department head in establishing new 
objectives for this calendar year and beyond.

Attraction and Retention of Staff
    HR is responsible for the advertisement of new vacancies or 
positions, screening applicants, interviewing candidates and assisting 
with all phases of the hiring process. HR works closely with the 
applicable department to ensure the process moves smoothly and 
expeditiously. HR acts as the liaison to the Secretary before any 
payroll actions are presented, so that the Secretary has ample 
knowledge of all hiring decisions or recommendations. As new staff 
joins the office, HR is in charge of the orientation to the office's 
policies.
    HR is also responsible for the management of performance-related 
issues. In addition, the HR staff finds ways to solicit suggestions and 
feedback from the Secretary's department heads and staff in an ongoing 
effort to continually improve processes and procedures.

New Programs
    HR has initiated development of an Elder Care Fair that will be 
available for all Senate staff interested in learning more about local 
and nationwide services available to assist the elderly and those 
responsible for their care. HR is working closely with the Senate 
Office of Education and Training and the Employee Assistance Program to 
identify and contact agencies that may be of assistance to Senate 
staff.

Training
    In conjunction with the Senate Chief Counsel for Employment, HR has 
worked to prepare training for department heads and staff. Some of the 
topics include Sexual Harassment, Interviewing Skills, Conducting 
Background Checks, Providing Feedback to Employees and Goal Setting. 
These skills will further enhance the ability of our staff to comply 
with office policies and advance in their professional development.

                         8. INFORMATION SYSTEMS

    The staff of the Department of Information Systems provide 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The Department provides 
computer related support for the all LAN-based servers within the 
Office of the Secretary of the Senate. Information Systems staff 
provide direct application support for all software installed 
workstations, evaluate new computer technologies, and implement next 
generation hardware and software solutions.
    The primary mission of Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the office of Secretary of 
the Senate. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies.
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software support provided by the Information Systems 
Department, and augment that support with assistance from the Sergeant 
at Arms whenever required. The Secretary's Network supports 
approximately 300 user accounts and patron accounts in the Capitol, 
Hart, Russell and Dirksen, along with the Page School.
    For information security reasons, Secretary departments implement 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of inter-departmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.
    In addition, the staff of Information Systems has continued to 
expand its responsibilities. Information System staff has helped to 
backfill the retirement of Senate Library technical personnel. Improved 
diagnostic practices were adopted to stretch support across all 
Secretary departments. Several departments, namely Disbursing, Office 
of Public Records, Chief Counsel for Employment, Office of Public 
Records, Page School, Senate Security, and Stationery/Gift Shop have 
dedicated information technology staff within those offices. 
Information Systems personnel continue to provide first level escalated 
hardware and software support for these office staff members.

Summary

            Senate Mail Infrastructure Project (SMI)
    The original plan involved replacing all CC:MAIL servers and 
gateways with a de-centralized Microsoft Outlook solution. The 
Secretary's office previously had six post offices in six different 
server domains. There was no central Public Address Book for all 
Secretary employees. Additionally, Secretary mail requirements needed 
to be refined to insure the implemented solution was both cost-
effective and reliable for the Office of the Secretary.
    The Microsoft Outlook Client implementation began in August within 
the Disbursing Office. The SAA scheduled implementation for the 
remainder of the office staff occurred in December 2002. The initial 
plan, which outlined all staff employees be enrolled in one central 
server, was modified to implement three independent Mail servers; the 
first for Disbursing, the second for Chief Counsel, and all other 
office staff enrolled in the third post office. Support for each 
Exchange server is provided by that appropriate office. Five of the six 
cc:mail post offices were completed in 2002. The Office of Employment 
Counsel is pending further review by the SAA Design Team.

            Disbursing Office Hardware/Software Upgrade
    Desktop systems in the Disbursing Office were over 4 years old and 
required replacement. New hardware and web-based applications, along 
with several legacy applications were installed in 2002. All 
workstations, monitors, and printers were replaced for Disbursing 
office staff.

            Office of Public Records Upgrades
    FileNet servers were retired in fiscal year 2002. This was based on 
the SAA Application Development Branch rewriting the existing OPR 
software. Three Microsoft SQL servers were consolidated into one server 
configuration, and then replicated at the Postal Square location. For 
archival purposes, a Volkswagen-size optical jukebox was retired and 
replaced with Quantum snap server Updated scanners. Software was 
purchased to upgrade existing office equipment. In the event of a 
possible office relocation, arrangements have been made for the OPR 
staff to operate and continue their scanning operation.

            Digital Sender Project
    A Secretary wide-initiative was developed to provide all staff with 
the ability to scan, save, and electronically capture paper documents 
in pdf format for archival purposes. In 2002, six additional HP Digital 
sender scanners were purchased for the following departments: Chief 
Counsel, Stationery, Gift Shop, Page School, Webmaster, and Bill Clerk.

Hardware and Software Upgrades
    Approximately 88 percent of all department computer workstations 
were upgraded and all legacy applications migrated to the Microsoft 
Windows 2000 operating system in 2002. These departments include: 
Disbursing, Human Resources, Public Records, Historian, Chief Counsel, 
Interparliamentary Services, Bill Clerk, Legislative Clerk, Enrolling 
Clerk, Parliamentarian, Daily Digest, Executive Clerk, Senate Library, 
Stationery, Gift Shop, and Webster Hall.

                     9. INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) has completed its 
21st year of operation. IPS is responsible for administrative, 
financial, and protocol functions for all interparliamentary 
conferences in which the Senate participates by statute, for 
interparliamentary conferences in which the Senate participates on an 
ad hoc basis, and for special delegations authorized by the Majority 
and/or Minority Leaders.
    The statutory interparliamentary conferences are: 1. NATO 
Parliamentary Assembly; 2. Mexico-United States Interparliamentary 
Group; 3. Canada-United States Interparliamentary Group; and 4. 
British-American Parliamentary Group.
    In May 2002, the 43th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Rhode Island. Arrangements for 
this successful event were handled by the IPS staff.
    Planning is now underway for the 42nd Annual Meeting of the Mexico-
U.S. Interparliamentary Group and the British-American Parliamentary 
Group meetings to be held in the United States in 2003. Advance work, 
including site inspection, will be undertaken for the 45th annual 
Canada-U.S. Interparliamentary Group meeting to be held in the United 
States in 2004. Preparations are also underway for the spring and fall 
sessions of the NATO Parliamentary Assembly.
    All foreign travel authorized by the Leadership is arranged by the 
IPS staff. In addition to delegation trips, IPS provided assistance to 
individual Senators and staff traveling overseas. Senators and staff 
authorized by committees for foreign travel continue to call upon this 
office for assistance with passports, visas, travel arrangements, and 
reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.

                              10. LIBRARY

    The Senate Library provides legislative, legal, business, and 
general reference services to the United States Senate. The Library's 
comprehensive legislative collection consists of congressional 
documents dating from the Continental Congress. In addition, the 
Library maintains executive and judicial branch materials and an 
extensive book collection on politics, history, and biography. These 
sources, plus a wide array of online systems, assist the Library staff 
in providing nonpartisan, confidential, timely, and accurate 
information services.

Information Services

            Patron Services
    Information Services responded to 40,359 requests during 2002, a 
4.6 percent increase above the 2001 total. This total included 24,205 
phone, fax, and e-mail requests and 10,145 walk-in visits by Senate 
staff who used resources in the Library. Tabulated for the first time 
are the 6,009 times Hill staff accessed the Hot Bills List on LIS. 
Patrons borrowed 1,952 books and documents and 4,467 information 
packages were delivered to Senate offices.
    The Library's request totals have increased at an annual rate of 
four percent over the past two years. The Senate's information needs 
are dramatically changing with desktop access to major online services 
and research products. The Library has responded to these changing 
information needs by offering new services and products and by 
continuing an aggressive outreach program to the Senate community. New 
services include the LIS training sessions, regularly scheduled, two-
hour sessions which utilize the librarians' extensive online skills and 
considerable legislative experience. The Library's LIS telephone help 
line provides continuing assistance. The Library has also made many key 
sources available through the Senate Intranet, such as Information 
Resources in the Senate Library, a 55-page annotated bibliography that 
is tailored to the needs of Hill offices; and Presidential Vetoes, a 
two-volume set that traces the legislative history of every veto since 
1789. The provision of this effective database training and valuable 
access to resources quickens the transition for new Senate staff in 
particular.
    Additional indicators that reflect the continued strong activity 
are the 3,847 faxes sent and the 132,903 photocopies produced by the 
Library. In addition, the Micrographics Center produced 4,421 printed 
pages from the extensive collection of newspapers, magazines, and 
executive branch and congressional materials.

------------------------------------------------------------------------

------------------------------------------------------------------------
Phone, Fax, E-mail.........................................       24,205
Walk-in Visitors...........................................       10,145
Hot Bills List on LIS......................................        6,009
                                                            ------------
      TOTAL REQUESTS.......................................       40,359
------------------------------------------------------------------------

            Client Relations
    Public relations has always been an integral part of the Library's 
activities. The constant arrival of new staff underscore the importance 
of successful outreach programs. Senate staff were introduced to the 
many Library services during the 44 tours and seminars conducted during 
2002. The schedule includes the quarterly ``Services of the Senate 
Library Seminars,'' two ``State Fairs,'' five ``District-State 
Seminars,'' and eight ``New Staff Seminars.'' In addition, the Library 
conducted two special seminars for the Senate Page School. The success 
of these efforts can be seen in the 364 new Library accounts that were 
established for Senate staff during 2002.
    The Library regularly assists researchers, authors, and academics, 
and gives special tours to professional groups and students. During 
2002, scholars from Tokyo University and the University of Cairo 
conducted research in the Library. Researchers from England included 
Paul Lennon, a House of Commons staff member, and author Dr. Michael 
Dunne from Cambridge University. Special tours were given to staff from 
the State Department, Government Printing Office, Congressional 
Research Service, Justice Department, and Trinity College, and to 
Parliament librarians from India and representatives from Tokyo's Far 
Eastern Booksellers.
    For the fifth year, the Library hosted activities in honor of 
National Library Week. The events for 2002, included an open house, 
dessert reception, and a book discussion. The guest speaker for the 
book discussion was Senator Bill Frist, who discussed his book When 
Every Moment Counts: What You Need to Know about Bioterrorism from the 
Senate's Only Doctor. Forty-seven staff attended the book discussion 
and 125 attended the afternoon dessert reception. These annual events 
are an excellent public relations tool that appeal to frequent users 
and also introduce new Senate staff to the wide array of Library 
services.
    The Russell Building corridor displays continue to be popular, 
informative, and educational. The displays provide staff and visitors 
an excellent opportunity to enjoy rare and unique books from the 
Senate's rich collection. During 2002, the displays included The Nine 
Capitals of the United States; Montgomery C. Meigs, Capitol Builder; 
and one honoring African-American History Month.
    A major goal is to provide the Library's online catalog through 
Webster, the Senate's Intranet site, to the entire Senate community. 
The catalog has more than 150,000 items providing access to the books, 
legislative documents, periodicals, newspapers, and legal materials. 
With funds appropriated for fiscal year 2003, new Oracle-based software 
will be purchased, as soon as it is available, to move this project 
along. Patron access to library catalogs is a standard service and the 
Library will continue to work to make the catalog available to every 
Senate office. In other outreach activity, the Library received a new 
Webster address that makes it easier for Senate staff to access the 
valuable information posted on the site (webster.senate.gov/library).

            LIS
    A major Library objective is to increase and improve access to the 
wealth of data and information on the Legislative Information System 
(LIS). Two key sources were added to the LIS homepage: the Hot Bills 
List and the Fiscal Year 1988 to Fiscal Year 2003 Appropriations 
Tables. These two sources list legislation and key documents associated 
with the legislation, along with links to the full text of documents. 
The availability of LIS to every Capitol Hill office ensures that all 
congressional staff will be able to access these resources.
    The Library's role in LIS development continues to expand as staff 
work closely with the Congressional Research Service, Senate Computer 
Center, and Senate staff. The Library teamed with CRS on major 
redesigns of the bill summary and status pages; provided definitions 
and documentation for the Amendment Tracking System; and initiated a 
numbering system for issues of the Senate Executive Calendar. Other 
ongoing projects include improvements in the Congressional Record 
search requirements, LIS Alert Service training, and a proposed 
database tracking congressional committee hearings. In all of these 
efforts, the Library's 28 years of experience in legislative systems 
(starting with Aquarius 1975) is invaluable to the success of LIS.

            Senate.gov
    The 2002 redesign of senate.gov involved extensive participation by 
Library staff. The Library has developed and maintains more than 200 
site pages that provide informative text and hundreds of information 
links to additional source material. The staff's extensive knowledge of 
the legislative process was critical to the success of Active 
Legislation, a selective listing of key legislation with electronic 
links to the full text of all related documents through Thomas and GPO 
Access. The Virtual Reference Desk is an online vertical file that 
traces 200 years of American history, congressional activity, and 
legislative initiatives. Other contributions include annotated 
bibliographies on a variety of subjects including books by current 
Senators, Capitol art and architecture, and key sources on Congress and 
politics. Informative How To guides have been expertly developed to 
assist researchers identify and locate government documents online and 
through local libraries.

Technical Services

            Acquisitions
    The Library acquired 9,797 new items in 2002, which includes books, 
congressional and executive branch documents, and microforms. This 
represents a 4 percent increase over the previous year. Included in the 
new items were 628 books and reference volumes (an 80 percent increase 
from last year), 5,799 congressional documents, and 3,370 executive 
branch publications. The 80 percent increase in new book arrivals was 
due to the fourth quarter 2001 mail delivery embargo and the resulting 
large number of arrivals during the first quarter of 2002.
    Two major acquisitions were the Unpublished U.S. Senate Committee 
Hearings, 1977-1980 and Presidential Executive Orders and 
Proclamations, 1921-1983. The 1,040 unpublished Senate hearings were 
previously only available at the National Archives, and the executive 
orders completes a collection that totals more than 58,000 presidential 
documents. These titles, which provide the full text of the documents 
with excellent indexes, are important additions to the permanent 
collection.
    The Acquisitions Librarian selected several titles for the 
Library's collection throughout 2002. Works on the early republic, 
constitutional history, biographies of the founders, and American 
expedition were very prominent. Representative titles include Journals 
of Benjamin Henry Latrobe, 1795-1820; Latrobe's View of America, 1795-
1820; John Marshall and the Heroic Age of the Supreme Court; Aaron 
Burr: Conspiracy to Treason; Original Journals of the Lewis and Clark 
Expedition, 1804-1806; John Adams and the Founding of the Republic; 
Martin Van Buren and the Emergence of American Popular Politics; and 
John Hancock: Merchant King and American Patriot. New acquisitions are 
announced in the monthly New Books List. The list is available through 
the Library's Intranet site and distributed to Senate offices.
    In other acquisitions activity, the Congressional Documents Clerk 
captured 2,000 pages from committee Web sites. Congressional sites are 
carefully monitored for those elusive materials that are only available 
online and often only available for a limited time. The Senate Finance 
Committee made a significant addition to the permanent collection by 
donating materials dating from the 1930s, and the Clerk prepared five 
volumes of hearings and 11 volumes of committee prints from these 
previously unavailable materials. The Library received 100 committee 
print volumes from the House Appropriations Committee following the 
loss of their storage area due to the Capitol Visitor Center 
construction. These volumes were reviewed, prepared and added to the 
Senate's collection.

            Cataloging
    The cataloging team added a total 4,558 new titles to the Library's 
catalog, which included 3,451 congressional publications. Efforts 
focused on rare Senate treaties, executive reports, and older committee 
hearings. The Senate Library is often the only depository for these 
rare items and the cataloging requires great skill and considerable 
experience with legislative materials. This original cataloging is 
extremely time consuming and demands great care to meet the Library's 
quality standard. As the important retrospective cataloging project 
continues, the overall cataloging totals will decline, which occurred 
during 2002 with a 22 percent decline.

            Government Publications Collection
    Although the total number of government documents received during 
2002 was virtually unchanged from the previous year's level, a dramatic 
change did take place: there is a one-third decline in paper documents 
in favor of electronic dissemination. The Cataloguing Technician and 
the Reference Librarians are reviewing the list of electronic titles 
provided through GPO. Once selections are finalized, URL links to the 
documents will be added to the Library's online catalog.
    This is the second year of the Library's ongoing review of 
executive branch publications received through the Federal Depository 
Library Program. In this two-phase project, librarians review every 
title received and then evaluate the existing holdings. The review team 
is headed by the Cataloging Technician, who is joined by the Government 
Documents Clerk and the Head of Information Services. In 2002, 6,730 
outdated, superseded, or surplus items were withdrawn from the 
collection, and 4,385 of these items were offered to other federal 
depository libraries. It was gratifying that 2,587 items (59 percent) 
were claimed and delivered to requesting libraries. During the second 
phase, 185 item numbers were deselected from the Library's depository 
selection list. Retention or removal decisions are determined by patron 
use and alternative access, primarily online availability.

            Warehouse
    A detailed review of the Library's offsite storage requirements was 
submitted to the Sergeant at Arms in September 2002. The proposal 
considered growth for both ten and twenty years, utilized fixed 
shelving, and provided for industry standard environmental controls and 
security. Current storage facilities are less than optimum, creating 
some potential risk to our rare collections. However, the Library 
continues to work with the Sergeant at Arms to address this issue.

            Library.Solution, the Library's Integrated Online Catalog
    The Library's computerized catalog, Library.Solution, provided by 
The Library Corporation (TLC), was installed in January, 2000. The 
system houses 152,149 items containing bibliographic records to 
legislative and legal materials, books, periodicals, serials, and 
microforms. Through the watchful oversight and perseverance of the Head 
of Technical Services, the system's performance has dramatically 
improved. In 2002, there were several new software upgrades for 
circulation and serials that improved module flexibility and 
functionality. The increased functionality reduced daily maintenance 
and improved search capabilities (regular catalog maintenance is 
necessary for efficient and accurate retrieval). During 2002, 25,495 
maintenance transactions were recorded, which included creating and 
editing authority headings, editing existing records, barcoding new 
volumes, editing PURLS from electronic resources, and withdrawing 
records for discarded materials.

Collection Maintenance, Preservation, Binding, and Equipment
    Maintenance and preservation projects have resulted in a better-
organized and environmentally protected collection. The Library's 
historic collection of more than 125,000 volumes requires constant 
monitoring of environmental conditions. The prevention of mold is 
accomplished by maintaining temperatures below 70 degrees and humidity 
levels below 50 percent. However, these levels can be very difficult to 
achieve in the Russell Building location. Dehumidifiers operate 24 
hours a day and satisfactorily control the humidity, but the 
ventilation system is not always capable of maintaining acceptable air 
quality and temperature levels. Another major concern is the 
crisscrossing maze of century-old water pipes hovering just a few feet 
above the historic collection. To mitigate this concern, constant 
monitoring is necessary and historic volumes have been moved to safer 
areas.
    The Library has begun to develop in-house expertise in regard to 
bookbinding and paper conservation. The Congressional Documents Clerk 
works closely with the Secretary's Department of Conservation and 
Preservation to learn basic skills.
    In response to the Senate's transition to electronic access to 
information, the Library acquired a book scanner and a second microform 
reader printer. It is now possible to scan documents from text sources 
and microform and electronically transmit those images to any 
workstation anywhere. The versatility of this technology cannot be 
overstated since images can be stored, edited, or reproduced to meet 
the individual needs of the user.

Staff Development
    During 2002, Library staff participated in 58 training sessions, 
workshops, and professional development seminars. New Library staff 
have a particularly active training schedule and veteran staff are 
required to maintain and upgrade skill levels. Database training 
sessions included Lexis-Nexis, Westlaw, OCLC, Excel, CQ Online, 
PhotoShop, and Web publishing. Technical Services staff attended 
several skill enhancement classes including copy cataloging, Library of 
Congress subject headings, serial holdings, and cataloging concepts. 
Reference Librarians completed the CRS Advanced Legislative Process 
Institute in November, and other staff completed Documentum Web 
Publishing Training in October. Other activities included seminars on 
the legislative process, bookbinding techniques, legal research, 
disaster recovery, effective writing, and several seminars focused on 
Capitol history.

UNUM, Newsletter of the Office of the Secretary of the Senate
    UNUM, Newsletter of the Office of the Secretary of the Senate, was 
published four times during 2002. The Chief Editor continues to lead a 
team of talented volunteers and cope with constant deadlines and 
revised text. Joined by two experienced co-editors, along with other 
contributors from the Library staff, the newsletter includes detailed 
profiles of offices and individuals within the Secretary's Office, 
institutional histories and book reviews, in addition to other current 
and pertinent topics of interest to the Senate community.

Other Projects
    The Library continued to support the Friends of Tyler School, a 
tutoring program for Capitol Hill's Tyler Elementary School, by making 
weekly donations of unneeded magazines. These are basic educational 
resources that would be unavailable to most of the children. Other 
surplus magazines were sent to the Senate Page School for inclusion in 
the packages sent to soldiers stationed overseas.
    The Senior Reference Librarian proofread and copyedited the soon-
to-be published catalog of the Office of Senate Curator.

Budget
    The sixth year of aggressive budget reviews delivered reductions 
totaling $12,511.52. The targeted expenditure categories were 
subscriptions and standing orders ($5,011.52) and online service 
contracts ($7,500.00). The reductions for the past six years total 
$59,205.34, and these efforts have been critical in offsetting cost 
increases for core materials. The Senate's ever-changing information 
needs require comprehensive annual reviews of collection expenditures. 
These evaluations can be difficult, but they ensure that the Senate 
will receive the highest level of service using the latest technologies 
and the best available resources. These considerable goals will be 
accomplished within budget and without compromising service.

Major Library Goals for 2003
    Major 2003 goals are the continuation of the active client 
relations program and personalized service that have been key to the 
Library's success. Our long-term goal of 40,000 annual requests was 
reached in 2002. The goal now is to build on this success with an 
additional 3 percent increase in 2003.
    The aggressive budget review program will continue in 2003, with 
the target for another three percent reduction. During the six years of 
budget reviews, most of the major reductions have been implemented, so 
future reductions will be less substantial. The key to all reductions 
is that they not comprise information services to the Senate.
    Document preservation is a critical issue, and the Library will 
continue working with the two major recovery firms, BMS Catastrophe and 
Munters. These firms can restore critical working papers and historic 
documents that have suffered from fire or water damage.
    The senate.gov design team will continue to maintain existing pages 
and expand the offerings made available to the public. The site will 
provide many new products, including several that will provide a 
greater understanding of Congress, the legislative process, and 
representative democracy.
    Teams from Technical Services and Information Services will 
continue the review of executive branch materials and significant 
portions of that collection will be deaccessioned. The titles will be 
discontinued from Library's depository selections list and deleted from 
the online catalog. All deaccessioned holdings will be offered to other 
libraries and information centers.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2002--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       Books           Government Documents             Congressional Publications
                                             ------------------------------------------------------------------------------------------------
                                                                                                                                   Reports/      Total
                                                Ordered    Received      Paper       Fiche     Hearings     Prints       Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.....................................          20          37         194          53         300          12          23         114         733
February....................................          27          35         179         108         154          15          21          61         573
March.......................................          30          25         201          23         223          10          25          62         569
                                             -----------------------------------------------------------------------------------------------------------
      1st Quarter...........................          77          97         574         184         677          37          69         237       1,875
                                             ===========================================================================================================
April.......................................          20          44         301          43         294          18          65         166         931
May.........................................          16          45         183         230         267          11          72         119         927
June........................................          25          51         175          80         235          18          76         169         804
                                             -----------------------------------------------------------------------------------------------------------
      2nd Quarter...........................          61         140         659         353         796          47         213         454       2,662
                                             ===========================================================================================================
July........................................          28          60         296         138         244          10          79         107         934
August......................................           5          65         134          86         284          13          29         196         807
September...................................          30          67         144          41         364           9          36         287         948
                                             -----------------------------------------------------------------------------------------------------------
      3rd Quarter...........................          63         192         574         265         892          32         144         590       2,689
                                             ===========================================================================================================
October.....................................          30          81         167         135         237          13          99         421       1,153
November....................................          15          73         151          43         241          10          25         120         663
December....................................          17          45         162         103         251          13          26         155         755
                                             -----------------------------------------------------------------------------------------------------------
      4th Quarter...........................          62         199         480         281         729          36         150         696       2,571
                                             ===========================================================================================================
      2002 Total............................         263         628       2,287       1,083       3,094         152         576       1,977       9,797
      2001 Total............................         321         347       3,431         724       3,054         293         391       1,225       9,465
                                             ===========================================================================================================
Percent Change..............................      -18.07       80.98      -33.34       49.59        1.31      -48.12       47.31       61.39        3.51
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2002--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           OCLC Records Produced
                                                   Hearing #s ------------------------------------------------------------------------------    Total
                                                    Added to                  Government Documents          Congressional Publications         Records
                                                     LEGIS        Books    -----------------------------------------------------------------   Produced
                                                                               Paper        Fiche       Hearings      Prints    Docs./Pubs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.........................................            0           53           10           85          130           14           41          333
February........................................           15           35           51            1          437            3           69          596
March...........................................            1           33           17           13          249            7           50          369
                                                 -------------------------------------------------------------------------------------------------------
      1st Quarter...............................           16          121           78           99          816           24          160        1,298
                                                 =======================================================================================================
April...........................................           23           29           13            1          207           16           30          296
May.............................................           10           24           29           43          388            3           33          520
June............................................            9           33            8            2          255           17           55          370
                                                 -------------------------------------------------------------------------------------------------------
      2nd Quarter...............................           42           86           50           46          850           36          118        1,186
                                                 =======================================================================================================
July............................................            0           39           30           10          384            6           55          524
August..........................................            0           11           35            0          134            6           26          212
September.......................................            5           35          203            7          205           13           59          522
                                                 -------------------------------------------------------------------------------------------------------
      3rd Quarter...............................            5           85          268           17          723           25          140        1,258
                                                 =======================================================================================================
October.........................................            0           60           20            0          144           17           12          253
November........................................           36           48           18            0          215           14           21          316
December........................................            0           30           54           21          125            7           10          247
                                                 -------------------------------------------------------------------------------------------------------
      4th Quarter...............................           36          138           92           21          484           38           43          816
                                                 =======================================================================================================
      2002 Total................................           99          430          488          183        2,873          123          461        4,558
      2001 Total................................          103          772          411          531        3,668          236          207        5,825
                                                 =======================================================================================================
Percent Change..................................        -3.88       -44.30        18.73       -65.54       -21.67       -47.88       122.71       -21.75
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2002--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         219         384         743           651        10,436
February.......................................         155         386         631           356         8,230
March..........................................         200         406         650           966        10,125
                                                ----------------------------------------------------------------
      1st Quarter..............................         574       1,176       2,024         1,973        28,791
                                                ================================================================
April..........................................         203         511         389           195        14,912
May............................................         142         366         640           139        11,026
June...........................................         203         402         648           733        14,524
                                                ----------------------------------------------------------------
      2nd Quarter..............................         548       1,279       1,677         1,067        40,462
                                                ================================================================
July...........................................         284         410         732           160         9,220
August.........................................          97         322         482           252        10,647
September......................................         127         310         625           208        15,976
                                                ----------------------------------------------------------------
      3rd Quarter..............................         508       1,042       1,839           620        35,843
                                                ================================================================
October........................................         154         429         622           275         9,626
November.......................................          96         261         486           342         9,295
December.......................................          72         280         500           144         8,886
                                                ----------------------------------------------------------------
      4th Quarter..............................         322         970       1,608           761        27,807
                                                ================================================================
      2002 Total...............................       1,952       4,467       7,148         4,421       132,903
      2001 Total...............................       2,148       4,791       4,551         7,810       168,769
                                                ================================================================
Percent Change.................................       -9.12       -6.76       57.06        -43.39        -21.25
----------------------------------------------------------------------------------------------------------------


                         11. SENATE PAGE SCHOOL

    The United States Senate Page School provides a smooth transition 
from and to the students' home schools. The pages are given as sound a 
program, both academically and experientially, as possible during their 
stay in the nation's capital, balancing a unique work situation with 
the Senate's demanding schedule.

Summary of Accomplishments
    Accreditation for the page school continues until December 31, 
2008. The Middle States Commission on Secondary Schools reviewed the 
progress report filed by the U.S. Senate Page School and determined no 
further reports are required.
    In the last school year, two page classes successfully completed 
their semester curriculum. Closing ceremonies were conducted on June 7, 
2002, and January 24, 2003, the last day of school for each semester.
    Extended educational experiences were provided to pages. Nineteen 
field trips, seven guest speakers, opportunities to compete in writing 
contests, to play musical instruments, and to continue foreign language 
study with the aid of tutors were all afforded pages. Twelve field 
trips to educational sites were provided for summer pages as an 
extension of the page experience. National tests were administered for 
qualification in scholarship programs as well.
    Given the uniqueness of the pages' roles, greater coordination of 
communication among all responsible parties--the Secretary's Office, 
the Sergeant at Arms, Page Program, Page School, and Cloakrooms--has 
been established. In addition, an evacuation plan and COOP have been 
completed. Pages and staff have practiced evacuations to primary and 
secondary sites. Escape hood training is provided to all pages, staff, 
and tutors and staff have been retrained in CPR.
    Faculty have also pursued professional development opportunities 
with additional courses.
    A community service project has been embraced by pages and staff, 
now for three classes. Items for gift packages were collected, 
assembled, and shipped to military personnel in Afghanistan, Kuwait, 
Oman, Germany, Japan and the U.S.S. Essex. Pages included letters of 
support to the troops participating in Operation Enduring Freedom. In 
gratitude, letters, a certificate of appreciation and flags were sent 
to the Page School by the 145th and the 774th Expeditionary Airlift 
Squadrons.

Summary of Goals
    For the coming year, the goals of the administration and staff of 
the Senate page school include:
  --Tutoring by teachers on an as-needed basis, and individualized 
        small group instruction will be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, and German.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance.
  --Staff development options will include additional computer 
        training, seminars conducted by Education and Training, subject 
        matter conferences conducted by national organizations, and 
        formal graduate work.
  --Creation of curriculum to support a summer academic session will be 
        completed for consideration.

                   12. PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services is responsible for 
managing the printing and/or distribution of the Senate's official 
Title 44, U.S. Code printing requirements. The office manages Senate 
Printing expenses, and functions as the Government Printing Office 
(GPO) liaison to schedule and/or distribute Senate bills and reports to 
the Senate Chamber, staff, and the public. The department provides page 
counts of Senate hearings to commercial reporting companies and Senate 
committees; orders and tracks all paper and envelopes provided to the 
Senate; provides general printing services for Senate offices; and 
assures that all Senate printing is in compliance with Title 44, U.S. 
Code, as it relates to Senate documents, hearings, committee prints, 
and other official publications.
    During 2002, OPDS staff maintained all services and fulfilled all 
daily requirements of the office. Additionally, the office has 
continued to implement efforts to consolidate duties and cross-train 
personnel, thereby ensuring office continuity. Under this ``cross- 
working'' program newly learned skills are continually honed and 
customer service is upgraded. Printing department staff and document 
specialists work hand-in-hand to provide quick response to changes 
within the department and provide better human resource management.
    During 2002, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 952 billing verifications of 
Senate hearings and business meetings. This is an average of 50 
hearings/meetings per committee, a 4.1 percent increase over 2001. 
Billing verifications are how the reporting committees request payment 
from a Senate committee for transcription services. Although some 
hearings are cancelled or postponed, they still require payment to the 
reporting company.
    The OPDS utilizes a program developed in conjunction with the 
Sergeant at Arms Computer Division that provides more billing accuracy 
and greater information gathering capacity, while adhering to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                       PERCENT
                                                                  2000         2001         2002     CHANGE 2002/
                                                                                                         2001
----------------------------------------------------------------------------------------------------------------
Billing Verifications.......................................          910        1,004          952         -5.4
Average per Committee.......................................           43           48           50          4.1
Total Transcribed Pages.....................................       61,898       72,799       71,558         -1.7
Average Pages/Committee.....................................        2,814        3,467        3,766          8.6
Transcribed Pages Cost......................................     $401,231     $479,921     $471,807         -0.2
Average Cost/Committee......................................      $18,238      $22,853      $24,832          8.6
----------------------------------------------------------------------------------------------------------------

    During fiscal year 2002, the OPDS prepared 5,794 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. This is an 
increase of 8.2 percent over the number of requisitions processed 
during fiscal year 2001. Because the requisitioning done by the OPDS is 
central to the Senate's printing, the office is uniquely suited to 
perform invoice and bid reviewing responsibilities for Senate Printing. 
Within the OPDS cost accounting duties lies its ability to review and 
assure accurate GPO invoicing as well as play an active role in helping 
to provide the best possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates job scheduling, proof handling and job tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices, 
including the Curator, the Historian, Disbursing, and Legislative 
Clerk, along with the U.S. Botanic Garden, U.S. Capitol Police and the 
Architect of the Capitol. Last year's major printing projects included 
the Report of the Secretary of the Senate, the New Senator's Guide, the 
Senate Manual, Leader's Lecture Series brochure, the U.S. Senate 
Catalogue of Fine Art, as well as a 500 page four-color case bound 
book, History of the United States Capitol.
    The Service Center within the OPDS is staffed by experienced GPO 
detailees that provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
as committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
    The DocuTech Service Center within the OPDS is also staffed by 
experienced GPO detailees that provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports, as 
well as supplementing depleted legislation. In 2002, the DocuTech 
Center produced 656 jobs for a total of 801,888 printed pages.
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands.

                                     DOCUMENT SERVICES--CONGRESSIONAL RECORD
----------------------------------------------------------------------------------------------------------------
                                                                       2000            2001            2002
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          28,232          25,051          29,690
    For the Senate..............................................          12,469          14,084          14,489
    For the House...............................................          15,763          10,967          15,201
Total Copies Printed & Distributed..............................       1,300,000       1,300,000       1,268,603
    To the Senate...............................................         450,842         318,572         439,953
    To the House................................................         308,842         459,477         301,383
    To the Executive Branch and the Public......................         540,316         492,915         532,813
Total Production Costs..........................................     $14,966.755     $15,428,530     $13,488,381
    Senate Costs................................................      $6,364,265      $7,452,933      $6,339,539
    House Costs.................................................      $7,920,490      $7,333,134      $6,609,307
    Other Costs.................................................        $682,000        $642,462        $539,535
Per Copy Cost...................................................          $11.51          $12.14          $10.63
----------------------------------------------------------------------------------------------------------------

    In 2002, a total of 29,690 pages were printed in the Congressional 
Record. Of this total, 14,489 were printed for the Senate, and 15,201 
pages were printed for the House of Representatives. These page counts 
are comprised of the Proceedings of the Senate and the House of 
Representatives, Extension of Remarks, Daily Digest and miscellaneous 
pages. This is 4,639 more pages than were produced in 2001, an increase 
of 18.5 percent. A total of approximately 1.3 million copies of the 
Congressional Record were printed and distributed in 2002. The Senate 
received 439,953 copies, the House 301,383, with the remaining 532,813 
delivered to the Executive Branch agencies and the general public.
    The OPDS continually tracks demand for all classifications of 
Congressional legislation. Twice a year the office adjusts the number 
of documents ordered by classification. The goal is to adjust numbers 
ordered in each classification to closely match demand and thereby 
reduce waste. In recent years, the OPDS has taken a more aggressive 
approach to reducing waste of less requested legislation. The office 
supplements depleted legislation where needed by producing additional 
copies in the DocuTech Service Center as previously mentioned. While 
OPDS curtails waste, at the same time, the office pledges never to run 
out of copies of legislation.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility to the 
general public, the press, and other government agencies is virtually 
indistinguishable from these services provided to the Senate. Requests 
for material are received at the walk-in counter, through the mail, by 
fax, phone, and e-mail. Recorded messages, fax, and e-mail operate 
around the clock and are processed as they are received, as are mail 
requests.

                                          SUMMARY OF ANNUAL STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                CONGRESS/    CALLS      PUBLIC      FAX                 COUNTER
                 CALENDAR YEAR                   SESSION    RECEIVED     MAIL     REQUEST     E-MAIL    REQUEST
----------------------------------------------------------------------------------------------------------------
1999..........................................    106/1st     27,570      6,872      5,162        N/A    156,454
2000..........................................    106/2nd     17,356      4,066      3,129        112     95,186
2001 \1\......................................    107/1st     16,186      3,449      2,093        621     88,769
2002 \1\......................................    107/2nd     15,732      3,637      1,866        662     55,930
----------------------------------------------------------------------------------------------------------------
\1\ NOTE: From October 17, 2001 until January 22, 2002, the Document Room was displaced to the Capitol and
  operated with one telephone and one computer.

Online Ordering
    The OPDS is continuing to seek new ways to use technology to assist 
Members and staff with added services and enhancements to current 
methods. Beginning in late 2000, Senate offices, by way of a link to 
the Secretary of the Senate's home Web page, could order legislative 
documents online. Via the same link, a Legislative Hot List Link was 
launched where Members and staff can confirm arrival of printed copies 
of the most sought after legislative documents. The site is updated 
several times daily, and each time new documents arrive from GPO in the 
Document Room. Efforts are also under way to provide the capability of 
online ordering of blank paper for Member offices and Senate 
committees.

                           13. PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October, 2001, through September, 2002, the 
Public Records office staff assisted more than 2,000 individuals 
seeking information from reports filed with the office. This figure 
does not include assistance provided by telephone, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 95,630 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.

Fiscal Year 2002 Accomplishments
    The office deployed its disaster recovery plan prepared in fiscal 
year 2001 with the closure of the Hart Senate Office Building. Based 
upon the review of that plan and a ``look backward'' to see how the 
plan worked, the office made changes to the plan in order to be even 
better prepared. An off-site scanning facility was established in 
coordination with the Sergeant at Arms. Additionally, the identical 
hardware and software are nearly in place in the Public Records office 
to allow for reciprocity for Public Records and SAA scanning functions. 
The office staff was also involved as participants on the content teams 
for senate.gov.

Automation Activities
    During fiscal year 2002, the Senate Office of Public Records 
transferred its public financial disclosure and FECA records from WORM 
disk storage to digital storage on a server by rewriting these two 
applications. The value to the Senate is that in the event of a COOP 
activation, these records become easily accessible off site.

Federal Election Campaign Act, as amended
    The Act required Senate candidates to file quarterly reports in an 
election year. Filings totaled 3,320 documents containing 213,968 
pages. The page count represents a greater than 100 percent increase 
over last year. This was due to changes in the FECA forms that reduced 
the amount of information that could be disclosed on a page.

Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2002, 5,536 registrants represented 17,575 
clients and employed 21,089 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports were 36,587.

Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2002. The reports were available to the public and press by Friday, 
June 14th. Copies were provided to the Select Committee on Ethics and 
the appropriate State officials. A total of 2,457 reports and 
amendments were filed containing 14,084 pages. There were 359 requests 
to review or receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received over 1,320 reports 
during fiscal year 2002.

Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 655.

Plans for Fiscal Year 2003
    The Public Records office plans to enhance its lobbying web site by 
offering an on-line tutorial video that provides e-filers with 
information that makes the program easier to use. The office is also in 
the process of developing a manual detailing the policies and 
procedures of the Public Records Revolving Fund. In addition, at the 
request of the Secretary, the General Accounting Office will conduct an 
audit of the fiscal year 2002 transactions of Public Records' Revolving 
Fund. At the request of the Secretary, the General Accounting Office 
will conduct an audit of the fiscal year 2002 transactions of the 
Public Records' revolving fund.

                          14. SENATE SECURITY

    The Office of Senate Security is responsible for the administration 
of classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate.

Personnel Security
    In 2002, OSS processed 1,833 personnel security actions. Seventy-
two investigations for new security clearances were initiated last 
year, and eighty security clearances were transferred from other 
agencies. Senate regulations, as well as some Executive Branch 
regulations, require that individuals granted Top Secret security 
clearances be reinvestigated at least every five years. Staff holding 
Secret security clearances are reinvestigated every ten years. During 
the past 12 months, reinvestigations were initiated on 59 Senate 
employees. OSS processed 140 routine terminations of security 
clearances during the reporting period and transmitted 288 outgoing 
visit requests.
    The remainder of the personnel security actions consisted of 
updating access authorizations and compartments. In addition, 206 
records checks were conducted at the request of investigative agencies 
supporting the personnel security program.

Security Awareness
    OSS conducted or hosted 78 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings.

Document Control
    OSS received or generated 2,419 classified documents consisting of 
69,670 pages during calendar year 2002. Additionally, 114,712 pages 
from 3,244 classified documents which were no longer required for the 
conduct of official Senate business were destroyed. OSS transferred 674 
documents consisting of 27,275 pages to Senate offices or external 
agencies. Overall, Senate Security completed 6,337 document 
transactions and handled over 211,657 pages of classified material in 
2002, an increase of 17.2 percent.
    In addition to the classified documents destroyed by OSS, 
approximately 866 linear feet of sensitive but unclassified material 
was destroyed for various committees.
    Secure storage of classified material in the OSS vault was provided 
for 106 Senators, committees, and support offices. This arrangement 
minimizes the number of multiple storage areas throughout the Capitol 
and Senate office buildings, thereby affording greater security for 
classified material.

                          15. STATIONERY ROOM

    The Senate Stationery Room's principal functions are: (1) to sell 
stationery items for use by Senate offices and other authorized 
legislative organizations, (2) to select a variety of stationery items 
to meet the needs of the Senate environment on a day-to-day basis and 
maintain a sufficient inventory of these items, (3) to purchase 
supplies utilizing open market procurement, competitive bid and/or GSA 
Federal Supply Schedules, (4) to maintain individual official 
stationery expense accounts for Senators, Committees, and Officers of 
the Senate, (5) to render monthly expense statements, (6) to insure 
receipt of all reimbursements for all purchases by the client base via 
direct payments or through the certification process, (7) to make 
payments to all vendors of record for supplies and services in a timely 
manner and certify receipt of all supplies and services, and (8) to 
provide delivery of all purchased supplies to the requesting offices.

------------------------------------------------------------------------
                                           Fiscal Year      Fiscal Year
                                               2002            2001
                                           Statistical      Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales............................      $4,628,342       $3,610,804
Sales Transactions.....................          61,479           62,970
Purchase Orders Issued.................           6,218            6,770
Vouchers Processed.....................           7,376            7,951
Metro Fare Media Sold..................          41,558           19,621
    $20.00 Media.......................         (36,943)  ..............
    $10.00 Media.......................          (1,978)  ..............
    $5.00 Media........................          (2,637)  ..............
------------------------------------------------------------------------

    The Stationery Room continues to work on the final phase of the 
voucher upload process. Fiscal year 2002 was the first full year in 
which voucher information was submitted using a customized spreadsheet 
interface with the Disbursing Office to pay vendors. This process has 
eliminated the duplicate efforts previously required in the voucher 
payment process between the Stationery Room and the Disbursing Office. 
The final phase to be completed in fiscal year 2003 will incorporate an 
automated voucher payment reconciliation.
    During fiscal year 2002, the Stationery Room completed the 
formation, development and deployment of its automated physical 
inventory process. This process utilizes radio frequency technology 
which is transmitted from the inventory data collectors back to the 
application software residing on the servers. This new process has 
eliminated the download time which was previously required to transfer 
data.
    The Accounts Receivable interface with the Disbursing Office was 
finalized after development and testing. Initially started in the 
middle of fiscal year 2000, this process involves importing expenditure 
information from each customer account that is certified for 
reimbursement in a Disbursing Office system format. It is then 
transmitted via e-mail and uploaded to the Disbursing Office system for 
reimbursement to the Stationery Room Revolving Fund. This process has 
eliminated the need for issuance of paper checks which required 
considerable staff time for both organizations in the past.
    Implementation of the Web FMIS access for the Stationery Room was 
installed for testing during March 2002, and additional programming was 
needed to address issues to accommodate Revolving Fund accounts. This 
project will eventually allow for key Stationery Room staff to access 
the Disbursing Office via the Web to perform a number of operations, 
which were previously time consuming and staff intensive. This project 
has been three years in the making due to the shear volume of 
transactions generated by the Stationery Room. Time-out errors also 
occurred because of this volume and were recently resolved by the FMIS 
project team.
    The Stationery Room will draft a requirements report during fiscal 
year 2003, that will outline upgrading to new application software for 
the operation, using appropriated monies for fiscal year 2003. It is 
envisioned that this document will be all inclusive and will take into 
account the latest technologies in the industry and the unique needs of 
the Senate.
    In addition, at the request of the Secretary, the General 
Accounting Office will conduct an audit of the fiscal year 2002 
transactions of the Stationery Room's Revolving Fund.

                             16. WEBMASTER

    The Webmaster is responsible for the three web sites that fall 
under the purview of the Secretary of the Senate: the public Senate Web 
site, www.senate.gov (except individual Senator and Committee pages); 
the Secretary web site on the Senate intranet, Webster; and an intranet 
site currently under construction that is intended for use by Secretary 
staff only. The focus of the past year was a redesign of the Senate Web 
site.

The Senate Web Site: http://www.senate.gov
            Background
    The senate.gov Web site was created in 1995. A 1998 redesign for 
the 106th Congress included a database for Senator/Committee 
information; daily updates on legislative activities; roll call vote 
tallies; and an expanded section, Learning About the Senate section. A 
project to redesign www.senate.gov and implement a Web Content 
Management System (WCMS) began in the fall of 2001 and continued 
through 2002. The new web site was launched October 30, 2002, and work 
continued through the rest of the year on further enhancements. Plans 
are underway to launch special presentations and micro-sites in phased 
launches in 2003 and 2004.
    Implementation of a Web Content Management System provided many 
advantages to the Senate including: allowing content to be published by 
content owners without web formatting skills; completing a content 
analysis and restructuring using XML tags allowing for repurposing of 
content; a new design and navigation structure based on the content 
analysis, best practices and customer usability studies; and the 
creation of seven content teams to identify new content and maintain 
current content on the site. Over thirty Senate staff worked on the 
project.

            Training and Support Requirements
    Documentation and how-to manuals for working with the WCMS were 
provided by a contractor. Senate staff are continually training and are 
constantly working to support the WCMS and the Web site.

            Future www.senate.gov Projects
    Possible further enhancements to the web site over the next two to 
three years include increasing content, improving content presentation, 
and creating special multimedia presentations such as using XML to 
structure and present the Isaac Bassett collection; converting to a web 
format two animated features developed by the Curator for the Capitol 
kiosk; developing a special feature on Senate desks; and producing a 
retrospective on inaugurals. These special presentations are small 
projects that may be priced and contracted separately.

            Webster
    Webster, the Senate Intranet, is available only to Senate staff 
within the Senate complex and in state office locations. The Webster 
intranet navigation is currently divided by organization. Senate staff 
must know which organization provides a service in order to locate 
information about that service on the web site. The Secretary and the 
Sergeant at Arms are currently evaluating the feasibility of initiating 
a project to redesign Webster to include a comprehensive list of 
services across all service organizations and a common navigation and 
user interface that would be agreed on by the major contributors.
    The Secretary's presence on Webster would be redesigned 
accordingly. A requirements analysis would be necessary to determine 
which of the Secretary's many services Senate staff want to access 
online and how best to deliver them. The Disbursing Office and the 
Office of Public Records already offer fillable forms online and staff 
can order documents from the Document Room via an online ordering form. 
Any redesign plan will likely include development of an online ordering 
system for Stationery supplies. The Documentum 4i Content Management 
System used for senate.gov could also be used for Webster.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project and oversees the Senate's outside 
contractors.

Background: LIS
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program and recommended the Standard 
Generalized Markup Language (SGML) as ``an appropriate technology on 
which to base the preparation of legislative information and document 
management systems.'' Since that time, as anticipated, a subset of SGML 
known as the eXtensible Markup Language (XML) became an industry 
standard, and in December 2000, the Senate Committee on Rules and 
Administration and the Committee on House Administration jointly 
accepted XML as the primary data standard to be used for the exchange 
of legislative documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January 2000, and the transfer of operations and maintenance 
of the LIS to the Office of the Sergeant at Arms (SAA) in March 2000, 
the LIS Project Office shifted its focus to procuring system 
development services in support of an LIS Augmentation Project (LISAP). 
The LISAP is focused on the data standard component to provide a 
Senate-wide implementation and transition to XML for the authoring and 
exchange of legislative documents. This component of the LISAP also 
includes the review and update of existing document type definitions 
(DTD), development of new DTDs, the conversion of legacy documents to 
XML formats, and conversion of documents in other formats to XML.
    A database of documents in XML format and an improved exchange 
process will result in quicker and better access to legislative 
information and will provide documents that can be more easily shared, 
reused, and re-purposed. Parts of one XML document can be reused in 
another XML document because the document structure is similar and the 
format of the data (XML) is standard. As more and more documents are 
created in the XML format, the necessity for re-keying or converting 
from one format to another (HTML to WordPerfect or XyWrite locator to 
Word or Word to WordPerfect, etc.) will disappear.
    The LISAP incremental development approach has helped the LIS 
Project Office build user acceptance, manage costs and adjust quickly 
when needed. The initial focus for the LISAP is to develop an XML 
authoring system for the Office of the Senate Legislative Counsel (SLC) 
and the Office of the Enrolling Clerk for bills, resolutions and 
amendments. Collaboration of Secretary of the Senate and Sergeant at 
Arms staff, augmented with strong contractor support, provides a great 
team effort and much progress has been achieved in the past year.

LISAP: 2002
    In October 2001, the LIS Project Office added a software engineer 
and provided oversight for two consultants to conduct an eight week 
evaluation of an XML authoring application being built by the Office of 
the Clerk for the House Office of the Legislative Counsel and the House 
Enrolling Clerk. The application, built in XMetaL, was in limited use 
for House simple resolutions, and the Senate contract looked at its 
applicability for Senate simple resolutions, as well as its potential 
for use for larger, more complex documents. Although the House 
application proved to be a very ambitious, well-conceived effort that 
provided most of the high priority requirements identified by the SLC, 
it did not support their general editing activities in an easy, 
straight-forward manner. Following a briefing for the Clerk and House 
developers, the Senate chose to move forward with XMetaL as the XML 
editor on which the Senate authoring application would be built.
    Two Senate staff were added to the LIS Project Office in 2002. A 
systems analyst was hired by the Office of the Sergeant of Arms in 
February and a systems analyst was hired by the Office of the Secretary 
in June. Two consultants returned in March to assist in the design and 
development of several functions with the editor to address the general 
editing requirements of the SLC. By the end of the contract, the 
project team had determined that it was possible to solve the SLC's 
general editing issues, and the Senate staff began building the 
authoring application in June. The first release of the Senate's 
Legislative Editing in XML Application (LEXA) was completed in 
September, followed by a release of additional functionality in 
December. In January 2003, eight attorneys and one staff assistant from 
the SLC began testing LEXA and providing feedback to the developers. 
LEXA was greeted with praise and enthusiasm from the SLC, and the 
testing/feedback cycle has yielded valuable information for the Senate 
development team. The development team will continue to refine and 
enhance LEXA over the next few months, adding the ability to create 
amendments, reported bills, and documents with tables.
    While LEXA was being developed by Senate staff, a contractor was 
engaged in June 2002 to begin addressing the requirements and design of 
a Document Management System (DMS) for the SLC. The first phase of 
development will be completed in February, and a second phase of 
development and implementation is planned to begin in March. The DMS, 
which will be integrated with LEXA, will provide the ability for the 
SLC to track and manage all work requests, legislative drafts, and 
internal office documents in a variety of formats including XML, 
XyWrite, Word, WordPerfect, e-mail, and PDF. The DMS will also provide 
search and retrieval and a means to exchange documents with the Senate 
Enrolling Clerk, the GPO, the House Office of the Legislative Counsel, 
and the Senate Appropriations Committee. The expansion of a DMS 
approach into other Senate offices will facilitate greater 
accessibility to legislative documents.
    Prior to roll-out of LEXA and the DMS, the contractor will develop 
a training program that will provide transition training for the entire 
office of the SLC and the Senate Enrolling Clerk, a printed and online 
reference manual, and computer-based training for new hires. The 
Contractor completed a short contract in January 2003, to gather the 
training requirements and prototype the products. Training will begin 
late this year, most likely immediately following adjournment.
    Another important element of the LISAP involves data conversion. In 
June 2002, the Senate contracted to convert Senate bills and 
resolutions and the SLC's drafts from the 106th and 107th Congresses 
from their current ``locator-coded'' format to XML. This conversion 
effort is to be completed by the end of March, and the documents will 
be loaded into the SLC's DMS for use in subsequent legislative 
documents authored in XML. The conversion software will be integrated 
into LEXA/DMS in order to provide the ability to convert a single 
document or batch of documents from earlier Congresses as needed. The 
Senate has also contracted on a project to convert the XML data back to 
locator codes for printing through GPO's Microcomp composition software 
and for exchange with offices that are still working in Xywrite and not 
yet ready to work with XML documents. Concurrent work on the bi-
directional conversions has greatly benefitted both conversion 
projects.
    Another project undertaken in 2002 was a move toward creating the 
Congressional Record in XML. The Congressional Record is an important 
research tool and historical document, and having the electronic data 
available in XML format will one day provide the ability to produce a 
much more useful and powerful searchable database than is possible 
today. One of the first steps in that direction is to create a document 
type definition (DTD) that describes the structure and contents of the 
Record. The Senate contracted to create a DTD for the Senate portions 
of the Record. The contractor also developed a high level strategy for 
a phased transition to an XML Congressional Record including time and 
resources required, hardware and software requirements, and change 
management considerations.
    To support the applications and interfaces for the authoring and 
exchange of legislative documents, LISAP deliverables include project 
plans; requirements and design documents; implementation, deployment 
and training plans; documentation; training materials; and training 
classes.

LISAP: 2003
    Plans for 2003, include the completion and deployment of LEXA and 
the DMS for the SLC and the Enrolling Clerk. Deployment to those 
offices must include the development and delivery of the training 
program and conversion of documents already created for the 108th 
Congress. One other set of documents that needs to be converted is the 
compilation documents of existing law that are created and maintained 
by the House and Senate Legislative Counsels.
    Completion of LEXA for the SLC for bills, resolutions and 
amendments will establish a framework on which to build applications 
for other offices and other legislative documents. Elements in bills 
are common to other legislative document types including conference 
reports, compilations, committee reports, the U.S. Code and the 
Congressional Record. Authoring applications for additional document 
types produced in other offices can be constructed by reusing certain 
functions built for the bill's application where common elements and 
requirements exist.
    The LISAP will also begin to address the needs of other Senate 
offices, starting with the Appropriations Committee. A contract project 
to determine unique requirements for drafting appropriations bills and 
to assess the feasibility and requirements for a document management 
system for the Committee is under development.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and reverified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more useful searches.

                                 ______
                                 
                Prepared Statement of Timothy S. Wineman

    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2004.
    Mr. Chairman, the fiscal year 2004 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
fiscal year 2004. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$753,747,000 which reflect an increase of $79,416,000 or 11.78 percent 
over the amount appropriated for fiscal year 2003 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2003 are $674,331,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2004 are divided into three 
major categories as follows:

------------------------------------------------------------------------

------------------------------------------------------------------------
Senate Items............................................    $133,968,500
Senate Contingent Expense Items.........................     612,279,500
Senate Joint Items......................................       7,499,000
                                                         ---------------
      TOTAL.............................................     753,747,000
------------------------------------------------------------------------

    Specifically, Mr. Chairman, the fiscal year 2004 budget estimates 
reflect increases over the fiscal year 2003 enacted levels as a result 
of: (1) the anticipated 3.9 percent cost-of-living adjustment for 
fiscal year 2004, and the annualization costs of the fiscal year 2003 
4.27 percent cost-of-living adjustment; (2) the cumulative under 
funding of previous fiscal years in the Senators' Official Personnel 
and Office Expense Account due mainly to increases in population 
categories of various states and increases in the Administrative and 
Clerical Assistance Allowance authorized by the Legislative Branch 
Appropriations Acts, 1999, 2000, 2002, and 2003; (3) personnel 
adjustments, other than the cost-of-living; (4) increases in agency 
contributions applicable to the cost-of-living adjustments and other 
personnel increase requests; and (5) other miscellaneous and 
administrative expense increases.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2004.

    Senator Campbell. Thank you. Some of the questions require 
an extensive answer, so I will submit them in writing since we 
have a very short time. That is unless you want to wait until 
we get done voting twice, which will be 45 minutes or more with 
you sitting around.
    Ms. Reynolds. Your preference. So whichever you would like.

                   SELECTION OF ARTISTS FOR PORTRAITS

    Senator Campbell. Let me ask you a couple of easy ones 
first because I am particularly interested in the arts, having 
made my living in it for years and years before I ever got in 
public office. How are the portraits you mentioned of Senator 
Dole and one other.
    Ms. Reynolds. Mitchell?
    Senator Campbell. Yes. Are those done by bid or how do you 
pick who does those?
    Ms. Reynolds. I am going to defer, if I might, to our 
curator on that. She is here to come up and educate us on that.
    Senator Campbell. Please, your name for the record.
    Ms. Skvarla. Diane Skvarla.
    Senator Campbell. Why don't you come up here, Diane.
    Ms. Skvarla. Diane Skvarla, Senate curator.
    We select an advisory group of curators and historians to 
help us in the selection process of the artists. In the case of 
Mitchell and Dole, there are such curators as the curator of 
the National Portrait Gallery, the director of the National 
Gallery of Art, and a variety of other curators from the home 
State.
    Senator Campbell. So that becomes a committee and they 
decide? If an artist is out there and wants to have his name in 
the hopper, what do they do? Write a letter saying I----
    Ms. Skvarla. That is it exactly. They send their portfolio 
to our office and we consider them. Absolutely. And we keep 
them on file.
    Senator Campbell. And is there a standard fee that you pay 
them?
    Ms. Skvarla. The Senate Commission on Art has established a 
standard fee for the leadership work.
    Senator Campbell. How much is it for a painting?
    Ms. Skvarla. $40,000.

                              CURTIS CHAIR

    Senator Campbell. Thank you. Another thing that I want to 
become one of the joys of the Secretary's Office is retrieving 
some things for the new visitor center. I talked to you about 
it before. One was a chair. That sounds kind of crazy, thinking 
of a chair as an art piece. But it was hand-carved years ago 
for Charles Curtis who was the Vice President of the United 
States. It was a chair he used on the podium. Somebody called 
me about it 15 or 18 years ago. I may have mentioned this. It 
was a private antique store I think, and they wanted to sell it 
to me. And I was not in the market to buy a chair for the price 
they wanted. I could have bought a car cheaper than that chair. 
So I passed on it, but I know that Senator Dodd and several 
others now are really trying to get some interest going to 
reacquire some of the things that historically were in the 
Senate and now are somewhere else.
    I have gotten a couple of partial pictures of that chair, 
and I do not know where it is, but I understand it is in 
private hands somewhere now. I would hope maybe you would help 
us try to find the owner of that and see if they would like to 
sell it to the Senate or donate it and get a tax write-off or 
do something where we could reacquire that with some of the 
other things we are looking for.
    Ms. Reynolds. With the help of the curator's office, I can 
tell you we are very much in the hunt for that chair.
    Senator Campbell. A good chair.
    Ms. Reynolds. Your chair.
    Senator Campbell. No, it is not mine. It was a good chair.
    Ms. Reynolds. Senator Curtis' chair I should say. That is 
right. The chair.
    As of close of business yesterday, we had talked with the 
just-previous owner and we are in hopes of----
    Senator Campbell. Was it an antique store or a private 
owner?
    Ms. Skvarla. It was the antique store that we actually had 
spoken to, the owner of the antique store, but it now is in 
private hands and she is trying to locate it. She sold it about 
2 years ago.
    Senator Campbell. Well, hopefully when we do find that, 
maybe we can convince them of the importance to not only the 
Senate but to the country to try to preserve some of the things 
where all Americans will be able to see things like that in the 
new visitor center.

                         CAPITOL VISITOR CENTER

    Speaking of the visitor center, I know you have only been 
here 4 months. What is your assessment on how it is coming 
along? I know they have had to make some changes after 9/11 and 
that is going to add to the cost of it. When I look out there, 
not being an engineer, it just looks like a big hole so far, 
but I know there is definite progress being made and you are 
much more tuned in to it than I am.
    Ms. Reynolds. Thank you for asking. Obviously, I know we 
will all look forward to hearing Mr. Hantman's comments this 
afternoon on the visitor center.
    I will tell you that in my time here the work on the 
visitor center in terms of the time that it occupies on my own 
schedule and our staff, as we facilitate weekly meetings, both 
a joint meeting with our colleagues on the House side and then 
again here on the Senate side, both on Mondays and Thursdays, 
the time that it takes is extraordinary, but certainly 
worthwhile. The project is one of such complexity and 
magnitude. I share your thoughts. As someone who is obviously 
not an engineer, not a construction manager, it is mind-
boggling in many respects.
    Again, I know Mr. Hantman will address this. Clearly the 
awarding of the sequence 2 contract was a major goal that we 
got through just before the recess.
    They are making tremendous progress. You may notice as you 
come in, even in the mornings--and I have noticed this. I walk 
to work sometimes and come up the Hill. As early now as 6:30 in 
the morning, those big dumptrucks are loaded up to move that 
dirt out of here every day. So they are making progress. But 
again, it is a project of enormous complexity and magnitude and 
one that each day, there is a different moving piece to the 
puzzle, if you will. But it is an exciting project.
    And it is for all of us to remember that at the end of the 
day, we moved in this direction for security concerns when we 
lost our officers here in that tragic shooting, but clearly 
since 9/11, since October 15th with our anthrax incident, the 
world has changed for us once again. So the security 
enhancement, both for our whole community here, in addition to 
our visitors--you know, the short-term pain and long-term gain 
will be well worth this.
    And in addition, the educational component for our visitors 
will be so greatly enhanced.
    So I think we will end up in 2005 with a project of which 
we can all be very proud and one that will serve this 
institution very well in the years to come.
    Senator Campbell. Well, I am excited about that too. Before 
9/11, the halls were just full of children. You almost could 
not get through to get to vote because there were so many. I 
really miss the little buggers now.
    I did not realize how I could miss those crowds of kids, 
but I do. When that visitor center is opened, I am sure that is 
going to one of the main places they go before they come into 
the Capitol.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, thank you, and I will submit some questions for you 
dealing with employment retention and two or three other 
things, if you could get back to us on those. Thank you.
    Ms. Reynolds. Thank you, sir. I appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Secretary Reynolds, your office has numerous 
initiatives underway to improve the operations of the Senate. 
What are your highest priorities for the year ahead?
    Answer. Our single highest priority is to continue to 
provide the best possible legislative, financial and 
administrative services to the U.S. Senate. To that end, in the 
year ahead, I would cite five specific areas of concentration:
    1. We will continue to make significant progress on our two 
mandated projects, the Financial Management Information System 
and the Legislative Information System Augmentation Project, 
for which we have received substantial appropriations.
    2. Our ongoing work with the Sergeant at Arms in Continuity 
of Operations and Continuity of Government planning will enable 
us to support carrying out the Senate's constitutional 
functions in the event of an emergency or some unforeseen 
circumstance.
    3. We will continue to strengthen our bench in each of our 
25 departments to ensure that our personnel continue the 
tradition of outstanding talent and skill in serving the 
Senate. Succession planning and cross-training, especially 
among our legislative specialities, remain a critical component 
of this focus and our overall operation.
    4. We take very seriously our curatorial role in protecting 
and preserving the Senate wing of the Capitol, and through the 
Historical Office, providing the Senate's institutional memory. 
With the approval of the Senate Commission on Art, we hope to 
approve a preservation policy this year and develop initiatives 
that will allow us to further enhance the Senate's collection 
with historic furnishings and fine art acquisitions.
    5. Using our appropriated dollars from fiscal year 2003, we 
will make much needed technology upgrades, particularly in 
Captioning Services and the Gift Shop. In addition, we hope to 
enhance www.senate.gov, for the further benefit of the general 
public.
    Question. The fiscal year 2002 legislative branch bill 
provided authority for repayment of student loans to Senate 
employees. It is my understanding that 109 of the roughly 900 
employees participating in the first year of the program were 
terminated from the program. Termination occurs if one fails to 
meet the one-year service requirement. This is an 
extraordinarily high termination rate. What is your sense as to 
the effectiveness of the student loan program as a recruitment 
and retention tool for the Senate? Could your office proceed 
with a study of the program, through a survey of offices, to 
determine how it is operating?
    Answer. Since the program is so new, it has yet to reach 
the maturation point where one could point definitively to its 
impact. In addition, while my office has responsibility for 
establishing the sample student loan agreement and addressing 
payment issues, each Senate office oversees the program in 
regard to its own employees.
    Although the rate of those breaking the student loan 
repayment contract appears substantial, continued favorable 
responses from Senate offices give us an overall impression 
that the program has been well-received. Moreover, we know that 
the number of offices using the program and consequently, the 
number of employees participating, has grown steadily during 
each month of this past year. Anecdotal evidence from 
participating offices also seems to indicate that the program 
has been used, at least through the first year, almost 
exclusively for retention purposes.
    In the next few days, I will meet with Senate office 
managers and administrators, and plan to discuss this subject. 
My goal is to create a small working group from several Senate 
offices to devise a means, perhaps through an informal, 
confidential survey, to give us both additional anecdotal 
evidence and statistical evidence of the program's use and 
effectiveness as a retention and recruitment tool. I look 
forward to reporting back to the Committee on our progress and 
results.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
    Senator Campbell. We will now hear from Mr. Hantman. If you 
will come up and just grab a chair and pull it up there.
    As we did with Ms. Reynolds, if you want to submit your 
complete written testimony, that will be fine because we are 
going to simply run out of time unless you want to wait around 
for an hour. That does not appeal to me either.
    Mr. Hantman. No. I appreciate that, Mr. Chairman. I would 
appreciate doing that.
    Mr. Chairman, I welcome this opportunity to testify today 
and I thank this committee for its support over the years. It 
has allowed us to complete many critical projects and assure 
continuously improving service at the Capitol, the Senate 
office buildings, and throughout the Capitol complex.
    My budget request for fiscal year 2004 meets my 
responsibilities for facilities management, for project 
delivery, and the stewardship at the Capitol complex.
    But just as importantly, it responds to the demands of our 
customers, the requirements for fire and life safety, as well 
as new security requirements. It has been a challenge, Mr. 
Chairman, to build this budget request in this fiscally 
constrained environment and balance these requirements against 
our current workload.
    We are requesting $513.9 million for fiscal year 2004, 
which is $57 million, or 12.5 percent, above the enacted fiscal 
year 2003 budget, including the fiscal year 2003 supplemental. 
The most significant factor in this increase is the request for 
funds to purchase the shared alternate computer facility at 
some $61 million.
    Other significant projects in this request include $40.8 
million to continue with the West Refrigeration Plant expansion 
project, $26.5 million for phase two of the design of the U.S. 
Capitol Building master plan, and $18.7 million to replace the 
high-voltage switchgear in nine buildings on the campus. Some 
other key items include $6.5 million to improve Capitol power 
plant operations, and $4.7 million for steam humidifiers in the 
Hart Senate Office Building. Details of each project, of 
course, are included in the formal statement so I will not go 
into them.
    These projects are in addition to more than 200 projects 
now underway. Among them are substantial projects necessary to 
meet the demand for heightened security as a result of our 
ongoing war on terrorism. In this environment, the AOC is 
carrying out its mission to provide Congress and the public 
with a wide range of professional expertise and services to 
preserve and enhance the Capitol complex and related facilities 
by completing many important projects.
    We have also undertaken significant efforts to improve the 
agency and take on what I like to call the magnificent 
challenges associated with maintaining and preserving our 
Capitol. One of our greatest challenges, Mr. Chairman, is to 
sensitively incorporate modern systems for health, safety, 
security, and accessibility into these historic buildings.
    Although our workload is immense, I am proud to say in the 
first quarter of 2003, 98 percent of our projects were 
completed within budget.
    Not only are we working to complete projects on time and 
within budget, we are doing our work much more safely, and with 
the generous support of Congress, we have increased our safety 
and our professional staff. We have modified our work practices 
and procedures and reduced our total injury and illness rate by 
some 53 percent and our lost time injury/illness rate by 36 
percent in just the last 2 years.
    There is an awful lot of good story over there, Mr. 
Chairman, and most of it is in the written record. So I will 
end my public testimony at this point in time and welcome any 
questions you might have.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Mr. Chairman, members of the Committee, I welcome this opportunity 
to testify before you today. The Office of the Architect of the Capitol 
(AOC) has always worked closely with the Sub-Committee for the 
Legislative Branch on Appropriations in a successful and collaborative 
relationship. I thank the Committee for its generous support which has 
allowed us to complete many critical projects, provide exemplary 
service, and assure continuity of operations at the Capitol, the Senate 
Office Buildings and throughout the Capitol complex. My budget request 
for fiscal year 2004 meets my responsibilities for facilities 
management, project delivery, and the stewardship of the Capitol 
complex. But just as importantly this budget responds to the demands of 
our customers, the requirements for fire and life safety, as well as 
new security requirements. It has been a challenge to build this budget 
request in this fiscally constrained environment and balance these 
requirements against our current workload. I have personally reviewed 
the budget request with each of my Superintendents to ensure we fulfill 
our responsibilities as effectively and efficiently as possible 
reviewing the base amounts and looking for areas of savings.
    We are requesting $513.9 million for fiscal year 2004, ($447.1 
million excluding the items for the House of Representatives)--$57.1 
million or 12.5 percent above the enacted fiscal year 2003 budget 
including the fiscal year 2003 supplemental. This does not include the 
authority to use $4.4 million reimbursement of utilities provided to 
non-legislative branch agencies. The most significant factor in this 
increase is the request for funds to purchase the shared Alternate 
Computer Facility at $61 million. Other significant projects in this 
request are: $40.8 million to continue with the West Refrigeration 
Plant Expansion project; $26.5 million for Phase II of the design of 
the U.S. Capitol Building Master Plan; $18.7 million to replace the 
high-voltage switchgear in nine buildings; and $12.6 million for the 
design of new Library of Congress facilities and a condition assessment 
for the Library of Congress Buildings and Grounds. Other key items in 
my budget request include $6.5 million to improve Capitol Power Plant 
operations; $4.7 million to replace steam humidifiers in the Hart 
Senate Office Building; $4.3 million to refurbish Bartholdi Park; $4.2 
million to prepare a Capitol Complex Master Plan; $4.2 million to build 
an underground fuel storage tank for the Capitol Power Plant, and $4.1 
million to install a fire protection water tank at Ft. Meade.

                          PROJECT DESCRIPTIONS

Alternate Computer Facility--$61,000,000
    This request will fund the purchase of the land and buildings for 
the Alternate Computer Facility (ACF). Per Public Law 107-206, Section 
905(a), the AOC is authorized, subject to the availability of 
appropriations, to acquire buildings and facilities for use as computer 
backup facilities for offices in the legislative branch. The AOC 
entered into a 10-year lease in November 2002, with a single option of 
an additional ten years, for such a facility in Manassas, Virginia. The 
facility selected was one of two adjoining buildings, with the 
legislative branch occupying one building and the other occupied by 
commercial tenants. Included in the lease, is an option for the AOC to 
buy both buildings and the surrounding land within the first five 
years. Due to the design and interdependencies between the two 
buildings (e.g., common utility systems and mechanical rooms) it is not 
feasible to buy only one of the two buildings. Based on preliminary 
analysis in June of 2002, it is more advantageous to the government to 
procure both buildings than to continue a full 20-year lease for one 
building based on comparing the present value of the cost of ten years 
worth of lease payments to the cost of purchasing the entire building. 
We will undertake full due diligence in support of this purchase this 
summer. Continued leasing of the ACF will result in fiscal year 2005 
acquisition costs rising to $63,000,000 as priced in the lease 
agreement.

West Refrigeration Plant Expansion--$40,800,000
    This project provides funding for the final increment for the West 
Refrigeration Plant Expansion Project. The total project cost is $81.8 
million. The existing West Refrigeration Plant operates at its maximum 
capacity during peak summer load conditions and if the project is not 
funded, the Capitol Power Plant will be unable to meet the cooling 
needs of the Capitol complex. The Capitol Visitor Center (CVC) will 
also impose additional loads when it becomes operational in 2005. These 
demands make it critical that this project be completed before the CVC 
is completed. Construction of the West Refrigeration Plant Extension 
will accommodate new chillers and include all necessary auxiliary 
equipment, such as cooling towers, pumps, heat exchangers, piping and 
controls. It is imperative that this project be completed in time to 
meet future demands.

U.S. Capitol Master Plan Phase II--$26,500,000
    This project will provide initial design funding to implement the 
U.S. Capitol Master Plan which addresses upgrades to the 
infrastructure/support systems of HVAC; fire protection and life 
safety; security; electrical; lighting; vertical transportation; 
telecommunications; system integration; and plumbing systems throughout 
the Capitol Building. The scope is fundamentally an infrastructure 
upgrade coupled with limited architectural changes designed to meet 
fire and life safety codes for the interior of the U.S. Capitol. The 
proposed work includes upgrades to the Senate and House Chambers; a 
building-wide sprinkler system; an upgrade of the HVAC system to 
include smoke evacuation features; an essentially new electrical system 
to include new distribution wiring and panels and new or refurbished 
lighting and special electronic systems; additional vertical 
circulation; and upgraded public toilet facilities. The new special 
electronic systems include security, fire alarm, information 
technologies fiber optic backbone and legislative call systems. The 
Master Plan will not affect existing architectural design except in 
those areas where upgrades necessitate architectural modifications. We 
are currently in the process of engaging a consultant to conduct a 
feasibility and constructability analysis for construction phasing with 
emphasis on accelerating the life safety, fire protection, and other 
Master Plan recommendations and initiatives that can be accomplished 
with minimum disruption to building occupants and business operations. 
The analysis will also include the feasibility of accelerating life 
safety and fire protection recommendations on the House and Senate 
Chambers. If this phase of the Master Plan is not funded, the 
correction of basic fire and life safety deficiencies will be deferred, 
potentially resulting in harm to human life in the event of a fire or 
emergency evacuation.

Replace High Voltage Switchgear in Nine Buildings--$18,672,000
    This project will provide funds to replace High Voltage Switchgear 
in nine Capitol complex buildings. High Voltage Switchgear ensures 
adequate reliable electric power supply through power distribution 
interfaces with the PEPCO incoming feeders. It works at 13,800 volts 
and contains high voltage power breakers and system protective metering 
devices and constitutes the backbone of the electric power distribution 
system. The replacement switchgear will ensure maximum technical 
uniformity between switchgear in different buildings and simplify 
maintenance. The switchgear in all buildings are very old (in most 
cases 42 to 50 years old) and are either at the end of their life 
expectancy or are no longer logistically supported by the manufacturer. 
Currently, a single failure of high voltage equipment will not, in most 
cases, interrupt normal power supply. However, two consecutive failures 
(if the first one cannot be promptly fixed) would result in a major 
power supply breakdown to a building, possibly for days entailing 
significant costs to repair.

Design, Study and Condition Assessment for Library of Congress--
        $12,602,000
    This line item provides flexibility to meet the needs of the 
Library of Congress by performing studies, designs and condition 
assessments to improve project planning and programming. Specific 
initiatives under this category are:
  --Replace Drinking Water System.--Design revisions to the drinking 
        water system to ensure long-term safety and reliability of 
        water supply.
  --Logistics Warehouse Facility, Ft. Meade.--New warehouse facility at 
        Ft. Meade enabling the LOC to consolidate, increase service and 
        eliminate current leased facilities.
  --Offsite Storage Facility.--Design of new off-site facility to house 
        platinum level collections for the LOC.
  --Book Storage Module 5, Ft. Meade.--Design new Book Storage Module 5 
        at Ft. Meade to house general collections to alleviate safety 
        and overcrowding issues.
  --Master Plan, Ft. Meade.--Continuation of conceptual level master 
        plan study at Ft. Meade to plan and resolve utility issues.
  --Replace Bathroom Exhaust Systems, Jefferson Building.--Design 
        upgrades to mechanical exhaust system to alleviate building 
        code violations.
  --Upgrade Book Conveyor System.--Design upgrades to the book conveyor 
        system fire wall penetration resulting from a Citation from the 
        Office of Compliance.
  --Study, Damper Smoke Control.--Design a comprehensive smoke 
        management system to ensure safe egress of building occupants 
        and respond to a Citation from the Office of Compliance.
  --Upgrade Emergency Lighting.--Design upgrades to all emergency 
        lighting systems to ensure code compliance and the safety of 
        building occupants.
  --Steam-to-Steam Humidification.--Design upgrades to all building 
        humidification systems to improve operations, indoor air 
        quality and collections preservation.
  --Repair/Replace Copper Roof, Adams Building.--Design repairs to 
        deteriorated copper roof currently leaking and at the end of 
        its expected life cycle.
  --ADA Bathroom Renovations, Adams Building.--Design upgrades to 
        bathrooms in fire stairs resulting from a Citation from the 
        Office of Compliance.
  --Repair Clean Convector Units.--Study methods to clean existing 
        convector units to increase indoor air quality.
  --Provide Electrical Upgrade, Madison Building.--Study alternatives 
        to increasing available power throughout the Madison Building.
  --Conservation of Murals.--Ongoing study and conservation of historic 
        artwork in LOC facilities.
  --Design, Replace Windows.--Design and install prototype windows for 
        evaluation in accordance with the Capitol Police Blast-Cad 
        Study.
  --Condition Assessment.--Comprehensive condition assessment of all 
        facilities and equipment to facilitate a capitol improvement 
        plan & preventative maintenance plans.

Installation of Distributed Control System--$6,500,000
    This project will replace the existing pneumatic controls in the 
Capitol Power Plant Boiler Plant with digital controls. Existing 
obsolete controls utilize mercury, which is an environmental hazard. A 
``fieldbus'' protocol will be used in the new control system, which 
will allow accurate and remote monitoring of the plant. The controls to 
a boiler must be fully functional and accurate to ensure safe plant 
operation and compliance with environmental restrictions. Due to the 
age, inaccuracy, and unavailability of replacement parts, the system 
must be replaced. If not funded, the Capitol Power Plant will continue 
to use unreliable controls. The plant will not operate as safely or as 
efficiently as it should. Also, this installation will support future 
potentially more restrictive permit limits for environmental 
compliance.

Replace Steam Humidifiers, Hart Building--$4,715,000
    This project will fund the removal of the existing humidification 
systems in 25 major air handling units and retrofit them with new 
``Clean Steam'' chemical-free humidification equipment in the Hart 
Building. To enhance steam quality and reduce maintenance by in-house 
personnel, a water softening system will be incorporated to work in 
conjunction with the steam generators. The remaining air handlers will 
be supplied with cabinet-style humidifiers (located adjacent to air 
handlers) that will enable ``clean steam'' humidification. If not 
funded, a ``clean steam'' chemical-free humidification system, intended 
to improve indoor air quality, will not be installed.

Bartholdi Park Fountain Restoration and Park Renovations--$4,280,000
    This project will provide funding to restore the Bartholdi fountain 
which was purchased from the 1876 International Centennial Exhibition 
in Philadelphia, and was moved to Washington, DC in 1877. The 
restoration of the fountain to its cast iron metal base in 1986, was 
expected to last approximately 10 years. The four top coatings have 
disintegrated and the cast iron is exposed in areas. Although the 
fountain is functional, both the top and lower basins leak and many of 
the water sprays function sporadically. This project will renovate and 
restore the existing fountain and basin. This includes providing and 
applying a coating treatment to the deteriorating metal finish; 
upgrading and replacing all plumbing; upgrading the electrical 
components; installing a new utility vault, basin, light fixtures, and 
19th century replicas of the original light fixtures and basin 
standards. All irrigation to the fountain and Bartholdi Park will be 
replaced. Most of the park does not have an irrigation system and 
requires high maintenance and manpower during the summer months. 
Additionally, the deteriorating sidewalk will be removed and replaced. 
If not funded, the Bartholdi sculpture will continue to deteriorate and 
the fountain will become inoperable.

Capitol Complex Master Plan--$4,200,000
    This project provides funding to prepare a Capitol Complex Master 
Plan. The existing master plan is 22 years old and does not address 
facility requirements brought about by the Congressional Accountability 
Act, nor does it relate to the present need for a heightened security 
environment. A comprehensive Facilities Conditions Assessment (FCA) has 
not yet been performed, and there is insufficient global input to fully 
address all necessary decision factors. Therefore, a new master plan 
for the Capitol complex needs to be developed to:
  --Assess the present physical condition of the buildings;
  --Assess the buildings' capacities and functionalities to accommodate 
        current and future Congressional occupant requirements;
  --Identify and document current and future Congressional programmatic 
        needs;
  --Address code, environmental, and security requirements;
  --Address visitor and traffic circulation (including parking) and;
  --Address new technology opportunities.
    The resulting master plan will serve as a blue print to aid the AOC 
and Congress in determining capital expenditure requirements and 
priorities. Funding for the Facilities Conditions Assessment is being 
provided in fiscal year 2003 for the Capitol, Senate, and House 
facilities. In addition, a workshop was convened by the National 
Academy of Sciences to assist in identifying key issues and factors 
that need to be addressed by a master plan for the Capitol complex. 
Based on the results of the workshop, a Request for Proposal will be 
developed to solicit proposals from firms with demonstrated expertise 
in campus-type master planning. The scope will include identifying and 
documenting all of the critical factors that will affect the planning, 
funding, and implementation of future capital projects on the campus. 
The scope will also call for recommendations on a means of prioritizing 
the factors. Without this comprehensive master plan for the Capitol 
complex, capital projects will not be planned, developed, or 
prioritized within an appropriate comprehensive framework.

Install Oil Storage Tanks--$4,200,000
    This project will provide funding to install a 400,000-gallon 
underground fuel oil storage tank in the Capitol Power Plant auxiliary 
coal yard. The fuel oil tank will supply oil to the Capitol Power Plant 
boilers through a utility tunnel being installed as part of the Interim 
Coal Handling Project. The current fuel oil storage on the site does 
not provide sufficient capacity in the event of a gas curtailment. This 
additional 400,000 gallons of storage along with the existing 200,000 
gallons of storage will give a total of seven days storage at full load 
operation. Environmental restrictions have effectively limited the 
flexibility of burning coal, thus making the plant more dependent on 
fuel oil to stay within limits. If not funded, the Capitol Power Plant 
will be forced to continue to pay higher costs for natural gas. The 
plant would continue to operate on limited fuel storage capacity.

Water Tank, Ft. Meade--$4,103,000
    To meet fire code requirements of the Book Storage Module 2 Project 
at Fort Meade, a water tank is necessary as a second reliable water 
source for this and future projects. This project will include a 
500,000 gallon on-grade water tank, pumps and an associated 
distribution network. This is a code-required installation and Book 
Storage Module 2 cannot be occupied until the water tank and associated 
pumps and distribution network are provided.

                            EMPLOYEE SAFETY

    Not only are we working to complete our projects on time and within 
budget, we also want to complete them safely. I am pleased to report 
that, according to the most recent figures from the Occupational Safety 
and Health Administration, we have cut our total injury/illness rate by 
53 percent and our lost time injury/illness rate by 36 percent in the 
last two years. Our lost time rate for fiscal year 2002 was only 
slightly higher than the Federal agency average--a substantial 
achievement for a predominantly shop-oriented, blue collar work force. 
These significant injury reductions are a result of the priority I have 
placed on safety, the attention and commitment of the AOC management 
team, the hard work and dedication of AOC employees, and the ongoing 
support of this Committee.
    With the generous support of Congress, since 2000 we have increased 
our safety professional staff, modified work practices and procedures, 
and provided protective equipment and safety training to our employees. 
We also have greatly improved our ability to anticipate and prevent 
injuries and illnesses from occurring. While this is a substantial 
achievement, I believe our total injury rate remains high. I am 
committed to continue reducing this rate and achieving my ultimate goal 
of eliminating all injuries and work-related illnesses.
    Another achievement of note: There were no citations issued by the 
Office of Compliance (OOC) to the AOC in 2002. In fact, in its 2002 
Biannual Report, the OOC noted the ``improved workplace safety'' it 
witnessed during its inspections.

                  SENATE OFFICE BUILDINGS IMPROVEMENTS

    Over the past two years, we have made significant improvements to 
the three Senate Office Buildings. We have been systematically 
modernizing the passenger and freight elevators to improve their 
performance and reliability. As part of the overall security plan, we 
expeditiously installed blast resistant film on all the office windows. 
The Dirksen Building has undergone a major renovation to modernize the 
building systems in the areas of fire protection, life safety, 
electrical power, telecommunications, heating, ventilation, and air 
conditioning. Major improvements include new telecommunications systems 
infrastructure to support the upgrade of equipment and technologies; 
expansion of the existing sprinkler system to provide 100-percent 
building sprinkler protection for increased life safety and property 
protection; and energy-efficient lighting. Many of the restrooms in the 
Dirksen and Hart buildings are now fully ADA compliant, and the modular 
furniture replacement program was recently rolled out in the Hart 
Building.
    The AOC has made significant improvements to the Senate Office 
recycling program by implementing a combined paper program recommended 
as a best practice by an industry consultant. The combined paper 
program allows mixing of different types of paper which simplifies 
separation and collection, thereby increasing participation and 
reducing contamination. As a result, contaminated waste has been 
reduced from a high of 75 percent in fiscal year 2000 to nine percent 
in the first half of fiscal year 2003. There has been a 21 percent 
increase in the amount of combined paper products collected; a 200 
percent increase in the number of bottles and cans recycled; a 1,300 
percent increase in newspapers recycled; and a 66 percent increase in 
the amount of scrap metal recycled.
    In June 2002, we asked our Legislative customers to provide us with 
feedback regarding their satisfaction with the level of building 
services we provide. This will be an on-going process with the second 
survey scheduled for June 2003. In response to the feedback we 
received, we have modified and improved our cleaning procedures. 
Specific inspection procedures have been implemented to identify 
consistency and quality of cleaning operations, specific cleaning goals 
are set, and we are recognizing outstanding employee performance. As a 
result of the process changes, from July 2002 to January 2003, the 
Senate Office Buildings night cleaning division reached a performance 
score of 96.8 percent. (The performance score is the percentage of 
satisfactorily cleaned items over total inspected items based on stated 
objective criteria.)

                CAPITOL AND CAPITOL GROUNDS IMPROVEMENTS

    In the Capitol Building, we have orchestrated hundreds of projects 
from painting rooms, to the first phase of the Dome rehabilitation, and 
the preparation of construction documents for the major work yet 
remaining. One of the larger projects we have undertaken is the 
modernization of all elevators. Work has been completed on nine 
elevators, three are currently under construction, and the remaining 
one is scheduled for modernization in fiscal year 2004. In addition, we 
will complete the stairwell extension from the third floor to the 
fourth floor on the Senate side on time and within budget.
    We have achieved full compliance with ADA requirements at all the 
main building entrances and in the public restrooms. Smoke detectors, 
strobe signaling devices, emergency lighting, and other fire safety 
devices are continually being installed throughout the building. We are 
busily cleaning, restoring, and preserving the artwork, statues, and 
architectural features inside the Capitol Building. Outside the 
building, we have been tending to the grounds to assure that pathways 
were cleared of ice and snow during the many snow storms we endured 
this winter and planting bulbs so that we would be graced with a 
beautiful array of flowers now that spring has finally arrived.
    This is only a short list of our many accomplishments. I expect an 
even more significant list of successes through the implementation of 
our Strategic Plan which will help unify the Agency's priorities and 
provide the business management tools needed to accomplish our 
organizational goals.

                           STRATEGIC PLANNING

    When I testified before this Committee last year, I discussed the 
AOC's continuing improvements in planning and managing its projects and 
resources more effectively. Over the past year, the AOC has undergone a 
management review by the General Accounting Office (GAO). In January 
2003, GAO issued its final report that validates the initiatives that 
we had underway, such as structuring and implementing a Strategic Plan 
and a Performance Management Plan, and makes additional recommendations 
that we are incorporating into our operations. These plans will assure 
that the Agency better achieves its mission; improves its performance; 
reaches its goals; and employs best practices to achieve results. We 
are in the process of obtaining stakeholder feedback on drafts of both 
plans and we will finalize them shortly. In unifying the Agency's 
priorities, the Strategic Plan will concentrate the AOC's efforts on 
planning and excellence in the most critical areas of our work: state-
of-the-art facilities management and project management; business 
processes; and human capital planning and allocation.
    The foundation of our Strategic Plan is a commitment to our 
stakeholders to provide exceptional client service and to preserve and 
protect the national treasures entrusted to our care. It is our pledge 
to respond quickly to requests; to find the most efficient way to solve 
problems; to provide the services necessary for Members of Congress and 
their staffs to perform their jobs; and to appropriately accommodate 
the many visitors to the Capitol complex each year.

                             HUMAN CAPITAL

    We employ a diverse workforce consisting of individuals with a 
variety of skills and institutional knowledge. Because we are a 
service-based organization, these individuals comprise AOC's most 
valuable assets and are most critical to its success. AOC's focus on 
the strategic management of human capital covers all aspects of our 
staff assets, from recruitment to skill development to job motivation 
and satisfaction. We believe this strategic focus on human capital will 
ensure AOC's ability to deliver on our promises now and in the future.
    As part of our strategic planning initiatives, we have published a 
number of new or revised human capital policies and will continue to 
review and identify others that may need to be updated or developed. We 
are also focusing on further improvement in areas of recruitment and 
employee development, and on significantly increasing the quantity and 
quality of data collection to enable us to develop better projections 
of our workforce needs--in terms of succession planning, recruitment, 
and development--based on our strategic goals.
    Fiscal year 2003 marked the beginning of the third annual cycle of 
our individual performance management program for employees. The 
Performance Communication Evaluation System (PCES) has enabled AOC to 
complete non-executive employee performance plans and evaluations 
regularly and systematically.
    We developed and implemented a Performance Review Process that 
provides for performance plans and evaluations for our executives. We 
now plan to align our executive performance plans with our Strategic 
Plan to enable a top-down approach to cascading strategic goals 
throughout AOC.
    Establishing formal processes to gather and respond to employee 
feedback is extremely important. As we implement new programs and 
processes as part of our transition to a performance-based 
organization, there will likely be many changes. An established 
feedback process will ensure that AOC leaders and employees both 
understand and respond to each other's concerns. This form of 
communication will assist the AOC in achieving its mission in the 
fairest and most efficient way. We have formed a team to develop a 
comprehensive employee feedback program that will utilize focus groups, 
surveys, and other feedback mechanisms.
    In addition to these communications efforts, we continue to provide 
outreach and support to employees through the omsbudsperson, and our 
EEO/CP and Human Resources Offices.

                         INFORMATION TECHNOLOGY

    We are committed to adopting an agency-wide approach to managing 
Information Technology (IT) to provide the consistent direction needed 
to enhance mission performance across the agency. As such, we are 
implementing a portfolio-based approach to IT investment decision 
making; developing an Enterprise Architecture (EA) that will help drive 
the agency-wide approach to IT management while aligning business 
processes with IT; revising our structured system life cycle to include 
processes for IT system acquisition and development with quality 
standards built in during each phase of the process; monitoring the 
performance of AOC's information technology programs and activities; 
and building a comprehensive information security program.

                          FINANCIAL MANAGEMENT

    One key IT investment has been the implementation of the Financial 
Management System (FMS). The GAO noted in its management review report 
that the financial team has made great strides in improving the flow of 
financial data. The fiscal year 2004 budget continues to support this 
effort with funds to build policies and procedures and move us toward 
auditable financial statements. Our budget reflects the structure 
implemented under FMS with program groups and provides the recommended 
budget schedules and analysis of change formats from the Legislative 
Branch Financial Managers Council that details the individual 
appropriation budget requests.

                          FACILITY MANAGEMENT

    The ability to measure performance related to strategic goals will 
be improved by the continuing implementation of the Computer-Assisted 
Facilities Management (CAFM) system. In 2004, the application will be 
upgraded to a web-enabled environment, preventative maintenance will be 
rolled out for electrical and plumbing systems, handheld scanners will 
help employees in the field maintain more up-to-date work order 
information, and we are planning to interface the facility management 
system to the financial management system to help insure accurate 
material, labor, and asset costs associated with maintenance work.

                         CAPITOL VISITOR CENTER

    The most significant and most challenging project that began 
construction since I last appeared before this Committee is the Capitol 
Visitor Center (CVC). This is a much-needed project of momentous and 
historic importance. As the ninth increment of growth of the ``People's 
House,'' it will offer free and open access to all people in a safe and 
secure atmosphere so that they may witness the workings of democracy 
and the legislative process.
    This is a brief status report on the very significant progress we 
have made. The work is proceeding in several overlapping phases. In the 
winter of 2001-02, project bids were sought and the first major 
construction contract was awarded in spring 2002. This contract, called 
``Sequence 1--Foundation/Structure'' and worth $99 million, was awarded 
to a Northern Virginia contractor. The contract involves site 
demolition, slurry wall construction, excavation, installation of site 
utilities, construction of the concrete and steel structure, 
waterproofing, and construction of a new truck service tunnel.
    The contractor has nearly completed the installation of the 
perimeter foundation walls and has begun major excavation activities 
that will continue through the summer of 2003. The outer perimeter wall 
is essentially complete and full excavation of the site is beginning as 
some 300-400 truckloads of soil are being removed daily in a manner 
least invasive to our Capitol Hill neighbors. Excavation will continue 
into the summer and the contractor will begin erecting steel columns 
and begin pouring portions of the roof slab later this summer.
    With Sequence 1 moving at full throttle, we have just recently 
awarded the contract for Sequence 2, which includes installation of 
electrical, mechanical, and plumbing services, and all stone and 
architectural build-out and finishes of the CVC. A Source Selection 
Evaluation Board, headed by the General Services Administration (GSA), 
evaluated the bid proposals for this contract and I made the award with 
the approval of an obligation plan for Sequence II.
    While the contract award is approximately 10 percent above the 
government estimate, a range that is considered to be within an 
acceptable and reasonable range per GSA and Department of Defense 
governmental standards, I am currently reviewing the entire project 
scope and the total cost-to-complete with the assistance of an outside 
independent contractor and oversight by the General Accounting Office.
CVC Budget
    With regard to the overall budget, the original CVC project budget 
of $265 million was established in 1999. At that time, the budget 
provided for the core CVC facilities, including the Great Hall, 
orientation theaters, exhibition gallery, cafeteria, gift shops, 
mechanical rooms, unfinished shell space for the future needs of the 
House and Senate, and the truck service tunnel. After September 11, 
2001, new security requirements, pedestrian tunnels, et cetera, 
prompted the appropriation of $38.5 million in additional funds, which 
were provided in the Emergency Supplemental Appropriation. In November 
2001, the CVC team was then tasked to design and build-out the House 
and Senate shell space, requiring an additional $70 million, which was 
provided in the Legislative Branch Appropriations bill. These 
additional requirements to the original scope bring the total amount of 
the project to date to $373.5 million. I would like to emphasize this 
point--despite how these figures may have been reported in the papers--
additional new requirements to the original scope have resulted in the 
appropriation of additional funds.
Project Complexities
    As I mentioned, this project is arguably our most challenging. For 
example, many utility lines crisscrossing beneath the East Front Plaza 
had to be rerouted out of the project footprint before excavation could 
begin. During the past 100-plus years, water, sewer, electrical, and 
communication lines have been installed, and many of these lines were 
poorly or inaccurately documented on the existing building drawings--
some of them dating back to the early 1900s. As a result, we 
encountered many unforeseen site conditions related to this effort, 
including an incorrect elevation for the top of the Amtrak tunnel as it 
crosses beneath First Street, N.E. This necessitated a costly rerouting 
of a 30-inch water main that needed to cross above it. As it became 
increasingly apparent that existing drawings were unreliable, much of 
the utility work was completed at night or on weekends. To some extent, 
we also worked around the legislative calendar in an effort to minimize 
disruption to the business being conducted in the Capitol.
    There were many other tasks that we needed to accomplish before we 
put the first shovel in the ground. We are committed to preserving and 
protecting the trees on the East Capitol Grounds, and therefore hired a 
full-time tree preservation contractor; erected fencing and installed 
canopy misting systems to keep the trees free from dust; installed a 
new irrigation system; and relocated many significant, affected trees 
to safe locations. We removed and stored all of the original Frederick 
Law Olmsted features, including the fountains, lanterns and retaining 
walls. All of these historic features will be restored and reinstalled 
in their original locations on the Plaza. New visitor screening 
facilities were constructed on both the north and south sides of the 
Capitol and ramps were installed along the West Front to provide a 
respectful and ADA accessible visitor path into the building.
    To assure as little disruption as possible to the day-to-day 
activities in and around the Capitol, we continued to work closely with 
the Leadership, the Sergeants-at-Arms, the Capitol Police, and other 
key offices to address the following:
  --Alternate parking and pedestrian zones for the Senate and House.--
        The CVC team successfully offset every parking space that has 
        been impacted by construction activities.
  --Noise reduction.--Noise reduction window units were installed over 
        every window on the East Front. These windows have cut the 
        construction noise down significantly to the extent that 
        Senate-side occupants have not voiced a single noise complaint 
        since construction began.
  --Relocated staff.--A number of offices located in the East Front 
        Extension have been temporarily closed or relocated due to the 
        construction, with staff moves coordinated to assure smooth 
        transitions into alternate space.
  --Media Sites.--New media sites off the Plaza were established to 
        allow press operations to continue.
  --Security.--All of our pre-construction activities were accomplished 
        in an atmosphere of extremely tight security following the 
        terrorist events of September 11, 2001. Increased screening 
        requirements and more secure site logistics procedures 
        presented additional challenges. However, the Capitol Police 
        have been very accommodating in assisting us in maintaining a 
        secure site without impacting the work schedule.

Schedule
    Despite these many challenges--including the fact this was one of 
the wettest winters on record--with the timely award of Sequence 2, we 
are on schedule to complete the project in 2005 and to support the 
Inaugural in January 2005. We are in meetings now with the Rules 
Committee to determine what level of support is required. We will 
partner with the Sequence 2 contractor to examine what is needed for 
the Inaugural and determine the associated costs, if any.
    Regarding the schedule for substantial completion of the CVC in the 
fourth quarter of 2005, the Sequence 2 contract documents clearly 
stipulate that the facility will be--and I quote--``substantially 
complete and capable of being occupied and used by the Government for 
the intended purpose.''

                              MASTER PLAN

    In recent years the number and magnitude of our projects has 
greatly increased. Therefore, we are improving our ability to 
coordinate and efficiently complete our many projects by taking steps 
to implement a series of project management plans. These initiatives 
will help the AOC to baseline and compare building conditions; plan and 
evaluate funding requirements; set goals; and track progress. To 
formulate the shorter term plan for project prioritization and 
implementation, a five-year Capital Improvements Plan is under 
development. This effort began with the development of a process for 
project prioritization and will ultimately incorporate the findings of 
the facility condition assessments which will begin later this year.
    To provide consistent management and oversight of these efforts, a 
new Director of Planning and Programming has recently been hired. He 
has direct responsibility for both the Capitol Complex Master Plan and 
the Capital Improvements Plan as well as coordination of all planning 
and programming efforts.
    Additionally, a new Project Management Director has been hired to 
support and manage a myriad of on-going projects. For example, 
following an expansive ``best practices'' analysis of AOC project 
delivery processes, we have published several manuals to improve the 
consistency of design and project delivery processes including: the AOC 
Design Standards Handbook to assure consistency in our project designs; 
an A/E Design Manual to assist our architects and engineers with 
project design and delivery processes; and an AOC Project Manager's 
Manual to help institutionalize the project management process. We are 
also conducting ``lessons learned'' studies on several of our projects 
and are incorporating the results into these manuals to assure they 
remain current and practicable.

                    U.S. CAPITOL POLICE MASTER PLAN

    In 1999, the AOC and the United States Capitol Police (USCP) 
published the United States Capitol Police Master Plan. Since that 
time, other events have necessitated a comprehensive update of that 
plan as well as a clear implementation strategy that reflected the new 
demands on the Capitol Police.
    This implementation strategy focuses on two issues: changes to the 
USCP operational scenario and the need for a new Police Headquarters 
facility that responds to those changes. A specific site for this new 
structure has been identified and approved by the Capitol Police Board.
    Other ongoing Police projects include the construction of new 
chemical explosives handling and K-9 structures at D.C. Village; a new 
vehicle maintenance facility at 67 K Street, S.W.; reconfiguration of 
existing areas within the Capitol, Senate and House Office buildings 
and existing Police Headquarters; and the site selection for an Off-
Site Delivery Screening Center to replace the current P Street 
Warehouse.
    We have contracted with the Naval Facilities Engineering Command to 
assist us in project management and delivery for these projects to 
assure that this additional workload is addressed in a responsive and 
timely manner.

                           SENATE RESTAURANTS

    The Senate Restaurants have made strides in reducing economic 
dependency over the last five years through cost reductions and the 
marketing of its services. The effects of September 11, 2001, on the 
number of visitors to the Capitol complex have delayed our ability to 
reach the objective of a self-sufficient operation. The Senate 
Restaurants are committed to continuing its efforts to improve the 
quality of service, reduce costs, and market services.
    In the past year, the cash register stations in the Dirksen 
cafeteria have been redesigned to allow greater customer flow. We began 
offering new services designed to provide Senate offices with new menu 
options when planning small, in-office functions that are less 
expensive than fully catered events. We have also introduced a ``heart 
healthy'' menu in the Senate Dining Room. Senate staffers can log on to 
our expanded web site and check out the daily specials in each 
restaurant and look for special events. The site is registering more 
than 5,000 hits per month. We've also made available to the public our 
famous Senate Bean Soup mug. They have sold well and have appeared in 
stories in the Wall Street Journal and on NBC's ``Today'' show.
    In addition, we have installed the Food Trak inventory and cost 
control software package to enhance our operating systems. This 
program, together with the upgraded point-of-sale system, gives us the 
capability of interfacing our various systems to match items sold with 
up-to-date cost data and provides nutritional content information from 
the U.S. Department of Agriculture's data base.
    Finally, I am especially pleased to inform you that for the fifth 
straight year, independent auditors have found no reportable conditions 
or material weaknesses in financial controls.

                               CONCLUSION

    Mr. Chairman, the AOC has undertaken significant new projects and 
responsibilities, while at the same time improving the safety and 
efficiency of our employees. Our request for funds are in direct 
response to customer requests and the level of cleanliness, 
preservation, safety and security expected on the Capitol Complex. We 
have met challenges, developed a Strategic Plan, and hired skilled 
managers and employees to help us achieve our immediate and future 
goals. We have completed thousands of work orders, become more 
responsive to our clients, and are adjusting to the heightened security 
demands of a post-September 11th world.
    I am dedicated to providing a safe, secure, and productive 
environment for all who work in the Capitol complex and for all those 
who visit each year. We would not have made the progress we have 
without the dedication of all of our AOC employees. I am very 
privileged to lead a hard-working and professional team committed to 
exceeding the expectations of Congress and the American people.
    The Committee's support in helping us achieve these goals is 
greatly appreciated. Once again, thank you for this opportunity to 
testify today. I'm happy to answer any questions you may have.

    Senator Campbell. Thanks. I will also submit some questions 
in writing for you too. But we will go as far as we can before 
the bell rings.

                         GAO MANAGEMENT REVIEW

    Senator Campbell. The GAO issued a general management 
review of your operation in January and they made a number of 
recommendations to improve management. I believe one of them 
had to do with hiring a chief operating officer. Are you making 
progress on that?
    Mr. Hantman. We absolutely are, Mr. Chairman. I have gone 
through many dozens of resumes. In fact, we are starting the 
interview process next week. We have some good candidates from 
a variety of backgrounds in Government and in the private 
sector as well.
    Senator Campbell. They also found some problems with 
facilities management, day-to-day activities such as cleaning, 
moving offices, maintenance and preservation of buildings, 
things of that nature. What do you consider the biggest 
challenges in facilities management, and have you started a 
plan for improving those areas that they noted?
    Mr. Hantman. We basically accepted all of GAO's 
recommendations, Mr. Chairman, and our plan is to complete the 
vast majority of them by the end of this year. Some of them are 
going to go into the following year's annual performance plan, 
and the most major of them, of course, is the completion of a 
strategic plan. We are currently reviewing our draft with 
stakeholders on both the Senate and the House side, and we 
clearly plan to incorporate the changes and the input from 
those stakeholders into the strategic plan before we finalize 
it.
    Also, as we select the COO, we plan to review this 
strategic plan with the COO and look at what potential 
organizational changes need to flow from that, so that person 
can buy into it and play a key role in the agency as we go 
forward.

                         CAPITOL VISITOR CENTER

    Senator Campbell. Looking through my notes, it says that 
you have over 200 projects underway at this time, the biggest 
one, obviously, being the visitor center. One of them proposes 
$26 million for the initial design of overhauling the Capitol 
Building to address life-safety and other deficiencies. Some of 
these large items like this--do we need to move them at the 
same time as the visitor center?
    Mr. Hantman. If we never did a visitor center, Mr. 
Chairman, we would still need to make these changes. It is 
really a question of the fact that over 200 years our Capitol 
has grown in eight different increments of growth, and we 
actually need additional stairways, additional means of egress, 
things to make the building safe on a primary level, including 
sprinkler systems in that building. So whether or not, again, 
we did the CVC, this work would have to be done.
    Our problem, of course--and we have talked to stakeholders 
on both the Senate and the House side--is how much discomfort, 
how much dislocation can the Members take while we are still 
completing the visitor center and doing the perimeter security 
and other things on the Capitol grounds. So what we have done 
is we have redirected the plan to take a look at the low-
hanging fruit, if you will, that really would not require major 
dislocations to how the Capitol Building works so that the 
business of the Capitol can be done on a day-to-day basis. So 
that is what we are looking at.
    Senator Campbell. Was the last kind of major overhaul of 
the rotunda a few years ago?
    Mr. Hantman. There certainly was scaffolding going from the 
floor of the rotunda up to the Apotheosis of Washington at the 
top and that was cleaned, conserved and repainted.
    In fact, we had a project, Mr. Chairman, several years ago 
where we did the first phase of restoration of the Capitol 
dome. The second phase actually would require doing major 
patches of existing cracks and things of that nature, 
repainting the exterior of the Capitol dome once we stripped it 
down to its base metal, all those kind of things. That major 
piece of work we put on hold also just because of the level of 
dislocation we have currently with the CVC.
    What we are really concerned with in the Capitol Building 
itself is safety, and we plan to look at some projects with the 
funding we are requesting in 2004 to be able to make it safer, 
again without dislocating the Senate and the House and allowing 
them to continue their business.

                      CAPITOL POLICE HEADQUARTERS

    Senator Campbell. You have also been working with the 
Capitol Police to develop a master facilities plan, including a 
new headquarters building. The Capitol Police testified last 
week about it. We have already appropriated roughly $60 million 
for that project. What is the status? Have you found a place 
yet that you expect to build on?
    Mr. Hantman. The Capitol Police Board has accepted a 
recommendation from the Capitol Police for square 695 at the 
corner of New Jersey Avenue and I Street, Southeast. We believe 
it meets the best requirements for the new headquarters 
facility.
    There was a potential conflict, Mr. Chairman, with the use 
of square 695, though. There was a Department of Energy study 
that recommended that same site for construction of a new 
replacement power plant. Now, in separate----
    Senator Campbell. What is there now? Is it just bare 
ground?
    Mr. Hantman. Basically it is low-use industrial works, some 
vacant land, truck storage area, things like that. It is a 
privately owned lot at this point in time, a couple of lots 
adjacent to our coal storage yard for the Capitol power plant. 
We agree that this is the right location for the Capitol Police 
headquarters.
    The recommendations coming out of this DOE study had talked 
about putting a replacement power plant potentially and a 
cogeneration plant on that site. We believe that the hundreds 
of millions of dollars that would be required by this project 
is really not necessary, that we continue to use our tri-fuel 
approach to running our power plant for using coal as a primary 
fuel, also oil and gas so that we can meet the EPA criteria for 
the site. But we think we can retrofit our existing buildings, 
use the existing site we have our Capitol power plant on, and 
release the site for the use of the Capitol Police 
headquarters.
    Senator Campbell. Well, when you are working with them, 
safety and security have got to be paramount in your plans and 
theirs too, and also some of the things that they are talking 
about but have not implemented but probably will be at a later 
time. They are expanding, as you know, very quickly. When 
taking their testimony the other day, it looks to me like 
anything we put in place now is going to be too small 5 years 
from now at the rate they are growing. So we will consider that 
too.
    Mr. Hantman. One of the things we do have to do, Mr. 
Chairman, is take a look at the program size of that building 
itself. The House has indicated that they prefer that the 
Capitol Police move out of the Capitol area and the House 
office buildings, and if we need to take those components of 
the police into the headquarters, the police are currently 
looking at that criteria right now so we can take a look at the 
magnitude of the size, just in response to what you are saying.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Thank you.
    The rest of the questions I will submit. If you could 
answer them in writing at your earliest convenience, I would 
appreciate that.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell

                     STATUS OF GAO RECOMMENDATIONS

    Question. Mr. Hantman, GAO issued a general management review of 
your operation in January and made a number of recommendations to 
improve management. Can you provide an update on the implementation of 
GAO's recommendations and the progress you have made in the last year? 
How will you ensure that there is accountability for implementing the 
strategic plan you are developing?
    Answer. Our work with the GAO on the Management Review resulted in 
a number of recommendations which we have integrated into our Strategic 
Plan and Annual Performance Plan. We accepted all of GAO's 
recommendations. Our plan is to complete the vast majority of the 
recommendations by the end of this year; some carry over into the 
following year's Annual performance plan. The GAO recommendations 
include:
  --Completion of an AOC Strategic Plan;
  --Continuing to strengthen Human Capital policies and procedures;
  --Continuing to improve Financial Management processes and systems;
  --Developing and implementing a strategic approach to IT management;
  --Continuing initiatives to achieve a safer workplace;
  --Institutionalization of best practices in Project Management;
  --Continue to improve the Recycling Program.
    We are in the final phase of implementing a performance management 
approach that includes strategic planning, annual planning and 
reporting, and assessment of our performance based on meeting specific 
milestones and measures. The Strategic Plan serves as the cornerstone 
of this process.
    We are currently soliciting stakeholder feedback on drafts of our 
first Strategic Plan and Annual Performance Plan. Our goal is to 
finalize the Strategic Plan and Performance Management Plan shortly.
    The Strategic Plan and Annual Performance Plan will concentrate the 
Agency's focus to continue to improve productivity and service 
excellence. To ensure accountability and results we are: establishing 
specific goals and milestones for each of the strategic objectives; 
linking our senior managers' performance standards to the milestones of 
the performance plan; identifying and developing specific business 
process improvements based on client feedback (i.e. office cleanliness, 
timeliness of response to requests, and quality of work); identifying 
and developing new workplace programs/policies based on employee 
feedback; integrating best practices into our operational strategies 
(i.e. facilities management, project management; and IT systems 
development and implementation).
    A significant challenge, once we reach agreement with our 
stakeholders on our Strategic and Annual Performance Plans, will be to 
address the unexpected construction, renovation, or other mission 
impacting requests from our customers. In order to be responsive to the 
high priority needs of our customers and to be able to initiate and 
complete projects on time, we will need to use the strategic and 
performance plan as a basis to shift already agreed to projects to meet 
new or unexpected demands.

                         FACILITIES MANAGEMENT

    Question. GAO found problems with facilities management. What are 
your biggest challenges in facilities management and what is your plan 
for improvement?
    Answer. The Architect of the Capitol (AOC) is entrusted with 
preserving, maintaining, and enhancing the national treasures that make 
up the Capitol complex. The Capitol complex is comprised of more than 
two dozen buildings, nearly 14 million square feet of space, and more 
than 270 acres of grounds. AOC is responsible for the maintenance, 
renovation, and new construction in and around the Capitol Building, 
the House and Senate office buildings, the Library of Congress, and the 
Supreme Court. The historic nature and high-profile use of these 
buildings creates a complex environment in which to carry out AOC's 
work. AOC must also perform its duties in an environment that requires 
balancing the needs of multiple stakeholders, including congressional 
leadership, committees, individual members of Congress, congressional 
staff, other clients, and the visiting public.
    Facilities Management is one of four focus areas that embody our 
Mission and Vision. Aligned with the facilities management area is a 
strategic goal that emphasizes core services and critical processes to 
deliver effective and efficient support and services.
    There are several focus areas in facilities management that were 
identified as areas of concern. Three major objectives were identified 
to facilitate improvements in facilities management: (1) Develop a 
comprehensive understanding of the condition of facilities under AOC's 
jurisdiction; (2) Address maintenance and care needs proactively; and 
(3) Preserve significant and historic heritage assets.
    In our effort to develop a comprehensive understanding of the 
condition of these facilities we are developing a scope of work and 
requirements document to procure consultant services to conduct a full 
conditions analysis and document current conditions of the facilities 
in the Capitol Complex. The assessment will be conducted in two phases. 
The first phase will include the Capitol Building, House Office 
Buildings, and Senate Office Buildings. The second phase will 
incorporate the remaining buildings in the AOC's jurisdiction.
    To address maintenance and care needs proactively, we have resolved 
several of the issues raised through procedural controls. Instituting 
these controls established a more consistent process for generating 
work schedules and providing feedback to the client as to when work 
will be accomplished. We also follow up with the client upon completion 
of work to ensure their requirements have been met and we ask them to 
complete a customer survey form to evaluate the work performed.
    To address general maintenance concerns, we are instituting a 
preventive maintenance tracking and scheduling program. The Architect 
of the Capitol's Office of Facilities Management is working with the 
Office of the Superintendent to begin loading assets into the 
preventive maintenance system program. The first phase for loading 
assets is scheduled for completion in fiscal year 2003. Full 
implementation of this system will be directly dependent upon funding 
availability. The program implementation will provide a systematic and 
consistent approach for performing routine recurring maintenance. The 
system will enable maintenance work to be effectively and efficiently 
planned and performed. In addition, the system will provide information 
for performance measures that can be used as a management tool to 
evaluate and effectively manage work performance.
    In addition, the following are the areas and the actions taken to 
address other concerns:
    Cleanliness.--Quality inspections are being performed regularly and 
the results of the inspections are forwarded to the Quality Manager for 
analysis and recommended actions. Also, monthly management meetings 
have been established to review inspection results and to discuss 
actions instituted to correct any noted patterns of concern.
    Wayfinding Signs.--A project is scheduled for award in fiscal year 
2003 to address the wayfinding signage concerns. The project will 
include the installation of interior and exterior signage for building 
directions, building exits, elevator locations, ADA access, etc. 
Completion of this effort is scheduled for fiscal year 2005.
    Elevators.--A project to modernize all the elevators in the Capitol 
is underway. The effort commenced in fiscal year 2002, and to date, 19 
of 27 elevators have been modernized and 3 are currently under 
construction. The remaining 5 will be completely modernized by fiscal 
year 2004.
    Heating, Cooling, Air Quality.--Air quality studies have been 
performed and continue to be performed on a case-by-case basis whenever 
there is a concern raised regarding air quality. Air monitoring/
sampling is performed and actions are recommended and implemented to 
address any negative air quality results.
    Preserve significant and historic heritage assets.--This effort is 
underway and will include defining the standards, verifying assets, 
establishing and facilitating a Congressional Working Group to define 
responsibilities for subcollections in question, and developing a 
memorandum of understanding. This effort was begun in January 2003 and 
is scheduled for completion in the third quarter of fiscal year 2004.
    Senate Office Buildings.--For the Senate Office Buildings there are 
many challenges in the daily management of these facilities. Cleaning 
and policing of public areas is challenging due to the heavy 
intermittent loading of our buildings. As waves of visitors move 
through the Senate Office Buildings, at various times of the day the 
need for immediate cleaning and policing becomes necessary, often after 
area cleaning cycles have been completed and at the expense of normal 
operations. Other challenges that face our cleaning operations include 
intensive contractor oversight and contractual administrative 
requirements to facilitate and manage contractor performance. 
Additionally, this type of work has a high personnel turnover rate 
resulting in reduced productivity and/or quality. To help resolve these 
conditions, additional staffing has been added to the day policing 
contract to increase the level and frequency of cleaning of public 
areas such as restroom facilities, entry ways and stairwells. The 
Senate Superintendent's Office has also increased its inspection 
efforts of public spaces in and around the Senate Office Buildings and 
implemented processes to facilitate quick remedies to identified 
deficiencies as part of a comprehensive Quality & Assurance Program.

              MAJOR PROJECTS--MASTER PLAN CAPITOL BUILDING

    Question. The Architect's office has over 200 major projects under 
way at this time--the most visible one being the Capitol Visitor 
Center. Your budget proposes $26 million for the initial design for 
overhauling the Capitol building to address various deficiencies. Why 
do we need to proceed with this very large undertaking at this time? 
Can you give me an idea of the magnitude of this proposed project, what 
would be involved, and a rough estimate of the cost to implement the 
master plan for the Capitol after you complete the design?
    Answer. The U.S. Capitol Building Master Plan Study proposes to 
coordinate five projects into one that would consist of (1) Capitol 
Infrastructure Master Plan, (2) Sprinkler System installation 
throughout the building, (3) House Chamber Study, (4) Senate Chamber 
Study, and (5) Security Work. As a once-in-a-lifetime project, 
coordination of these five projects ensures that the disruption of 
these spaces occurs only once.
    Public Law 104-1 passed on January 23, 1995, established the 
``Congressional Accountability Act (CAA) of 1995.'' Since Congress 
enacted this Act, the Office of Compliance (OOC) has conducted periodic 
inspections of the facilities under the AOC's jurisdiction. Those 
inspections identified a series of fire and life safety code 
deficiencies requiring corrective action. Most of these deficiencies 
have been corrected, but there are some that would require in-depth 
analysis and study to determine how best to integrate the solutions 
with the Capitol's unique architectural configuration and historical 
features. Since it is the AOC's responsibility to take necessary 
corrective actions to abate violations identified by the OOC and/or 
those identified through self-inspection and analysis, it became 
necessary to undertake a study to review the existing building 
conditions against the applicable building, life safety, and fire 
codes.
    The main purpose of this study (Capitol Building Master Plan) is to 
review code deficiencies and develop a series of recommendations on the 
corrective actions necessary to comply with the codes in a prescriptive 
manner or through alternate means called ``equivalencies,'' while 
upgrading the Capitol Building's support systems and infrastructure.
    The Capitol Building Master Plan Study is significantly complete 
pending identification of final security requirements and funding. The 
Master Plan addresses the provision of: adequate means of egress to 
safely evacuate building occupants during emergency situations; a 
building-wide sprinkler system; smoke control at vertical openings such 
as the Grand Stairs; security controls at all outside fresh air intakes 
entering the building's ventilation systems; ducted air return; and 
infrastructure improvements such as: electrical power and lighting 
upgrades, emergency power needs, elevator upgrades, smoke detectors, 
evacuation alarms, telecommunications & cable TV upgrades, plumbing 
renovations, and modernization to the heating, ventilation, and air 
conditioning systems to meet energy standards and security related 
requirements.
    The Capitol Building Master Plan Study, as proposed conceptually 
will take at least seven years to implement based on a phased approach 
and will require emptying sections of the building for periods of time 
to allow for full implementation of the recommended upgrades. This 
approach will require that swing space outside the Capitol Building be 
provided to house persons and functions displaced during a given phase 
of the project. The Master Plan Study's conceptual schedule recommends 
six construction phases.
    To achieve the proposed construction phasing suggested by the 
Capitol Building Master Plan Study, design development and the 
preparation of construction documents need to commence in fiscal year 
2004 and continue through fiscal year 2006 in the order reflected by 
the construction phases. Prior to beginning the design development and 
preparation of construction documents, extensive graphic documentation 
of the existing systems of the building's infrastructure and 
development of schematic designs are necessary to form the basis of the 
construction documents. Currently, the fiscal year 2003 budget includes 
funding necessary to begin the graphic documentation of existing 
building systems. The fiscal year 2004 budget submission included a 
request for $26.5 million to initiate design development and 
construction documents preparation for a phased approach.
    Prior to and during a March 21, 2003, briefing to House and Senate 
leadership staff, we sought feedback on the Capitol Building Master 
Plan Study recommendations and the proposed construction phases. The 
main concern of leadership staff is the physical impact of this project 
in addition to disruptions as a result of CVC construction. They noted 
the need to accomplish those recommendations while having a minimum 
impact on the building's occupants and operations. With these concerns 
in mind, the AOC was asked to explore options for the incremental 
implementation of Capitol Building Master Plan Study recommendations.
    Based on the recommendations from leadership staff, and upon 
approval to utilize available fiscal year 2003 funding we will initiate 
a Constructability and Phasing Analysis that emphasizes those life-
safety, fire protection, and security recommendations and initiatives 
that could be accomplished with minimum disruptions to the building 
occupants and business operations. Emphasis also will be placed on 
accelerating similar work for the House and Senate Chambers.

                   MAJOR PROJECTS--POSSIBLE DEFERRALS

    Question. Are there any areas in your budget request that could be 
deferred in order to allow you to complete the CVC and other major 
projects currently underway?
    Answer. There are several projects which could be deferred or 
phased in to reduce the workload during fiscal year 2004 and subsequent 
years. The projects listed below, by appropriation, could be eligible 
for deferral or phased approaches, if agreed to in consultation with 
our clients:

General Administration

            Conduct Energy Survey of Capitol Complex, $1,600,000
    The Legislative Branch Appropriations Act, Public Law 105-275, 
Section 310 requires the Architect to perform an energy survey of the 
Capitol complex. A total of $1.6 million is requested to perform the 
energy survey.
    The survey could be phased by jurisdiction, if so directed. The 
Architect could develop a phasing plan to accomplish the energy survey 
over a two or three year period based on the Committee's direction.

            Replace High Voltage Switchgear in Nine Buildings, 
                    $18,672,000
    Replacement of the high voltage switchgear is a critical project 
due to its advanced age. Failure of any of the switchgear units would 
result in power failure in the building. Additionally, the poor 
condition of the equipment creates a hazard to the employees who must 
perform routine maintenance. However, the funding stream could be 
phased over three years. The project ideally would be bid as a base 
option for the first year, with two succeeding option years. This would 
allow for a single procurement for construction to occur. A single 
contract will streamline the procurement process, project management, 
construction management, and contract administration functions. It will 
also increase the likelihood that equipment manufacturers remain 
consistent throughout the AOC, saving future training costs and 
replacement parts.
    Due to the age of the switchgear, and in some cases, its 
dilapidated condition, the period of phasing should not exceed three 
years. A potential funding stream is fiscal year 2004--$7.5 million, 
fiscal year 2005--$6.8 million, and fiscal year 2006--$4.3 million. The 
work would be based on a prioritization of age and condition of the 
buildings.

            Alternate Computer Facility, $61,000,000
    The request to purchase was presented because the initial lease 
purchase analysis indicates that purchasing the facility sooner rather 
than continuing to lease it will save the government money. Also 
because of the critical and sensitive nature of the facility and the 
operations it houses, the security of the building, and the grounds 
surrounding it would be further enhanced if it is for legislative 
branch or government use only. As such, the $61 million could be 
executed in fiscal year 2004. However, deferring the purchase will 
allow time to resolve due diligence issues which will take about six 
months. We also need to work the landlord/tenant authority legislation 
and better understand the costs of being the landlord.

Senate Office Buildings--Replace Steam Humidifiers, HSOB, $4,717,000
    While all projects this office requests are important and 
necessary, our project request Replace Steam Humidifiers, in the Hart 
SOB, could be deferred with moderate impact. We plan to install local 
steam generators to provide necessary capacity for building 
humidification following industry best practices. Currently, the Hart 
Building is humidified via plant steam which is not an industry best 
practice. This current system is capable of humidifying to acceptable 
guidelines, however it does not have the capacity to humidify to 
desired levels which can cause indoor air quality complaints during 
colder days of the winter.

Capitol Building--Capitol Building's Master Plan, $26,500,000
    A phased approach to this project could be taken based on feedback 
from key leadership staff. Based on this approach, the original fiscal 
year 2004 request of $26.5 million would be reduced to $10.7 million. 
This will provide for the design of short-term incremental work; 
perform a space utilization study for the House and Senate sides of the 
Capitol; construct the means of egress by the West Brumidi corridor; 
develop to 100 percent completion construction documents for the House 
and Senate Chamber restorations; perform additional plaster 
assessments; and construct a back-up fire pump.

            MAJOR PROJECTS--PERFORMANCE BY NON AOC ENTITIES

    Question. What percent of your major projects are not being handled 
``in-house'', through the Corps of Engineers or other outside entities?
    Answer. There are currently 24 projects of which a major portion of 
the project management or construction management efforts are being 
performed by those other than AOC permanent staff. They include: the 
Capitol Visitor Center; the West Refrigeration Plant Expansion; the 
various Perimeter Security projects; several projects for the Library 
of Congress at Fort Meade; several projects for the USCP located at 
D.C. Village and elsewhere; and security-related projects at the 
Library of Congress. While these projects represent approximately 11 
percent of the current AOC projects, they represent the majority of the 
project funding and include over $700 million of total project costs. 
They are being managed, partially or fully, by temporary employees 
assigned to the specific project, construction management firms hired 
for the specific project, firms which are providing project and 
construction management to the AOC on an IDIQ basis, the Army Corp of 
Engineers, NAVFAC and other external entities. The AOC continues to 
evaluate the services which can be provided by these entities and will 
utilize them where we believe they can provide the best project 
delivery support.

                         CAPITOL VISITOR CENTER

    Question. You have indicated that the CVC will cost more than has 
been appropriated to date. Can you explain why this is?
    Answer. Before discussing the need for additional funds, it is 
important to understand that the original project budget of $265 
million, which included the core CVC facilities, the service tunnel, 
and only the shell space for the House and Senate, was established four 
years ago. That estimate was made based on the best information 
available at that time, but I must stress that the estimate was made 
before the construction drawings were finished, before the first shovel 
was put in the ground, and before we had the chance to really look long 
and hard at what it would take to keep the Capitol fully operational 
while the CVC was constructed. No one could have anticipated or 
predicted the myriad of challenges we faced, in particular, 
encountering unforeseen site conditions, adapting to changes in scope, 
mitigating project impacts, maintaining Capitol operations, and 
accommodating increased security requirements following the events of 
9/11.
    The first challenge we encountered during pre-construction 
activities, neither my team, nor our construction manager, Gilbane 
Building Co., nor two independent estimators, could have anticipated. 
The level of work that was required went above and beyond our original 
pre-construction expectations. We've had additional requirements 
related to our tree preservation effort, our historic preservation 
effort, our visitor screening, parking accommodations for Members and 
staff, noise reduction, and requirements related to alternate House and 
Senate media sites. But by far, our greatest challenge has been in the 
area of utility relocation.
    Utility lines within the project footprint needed to be relocated 
prior to excavation of the project site. Many of these lines have been 
installed at various times during the last 100 years as technology 
changed and new utility systems were installed. Relocation of these 
lines, while keeping the Capitol itself fully functional, has proved to 
be a delicate and, complex pre-construction task. Part of the 
difficulty is due to the fact that many of the utility lines were 
poorly or inaccurately documented on the building drawings that were 
available to us, some of which date to the early 1900s. As it became 
increasingly apparent that existing drawings were unreliable, we 
attempted to do much of the utility work at nights or on weekends, and 
to some extent, we worked around the legislative calendar, all in an 
effort to minimize disruption to the Capitol and its occupants. Those 
restrictions, however, do have a cost associated with them. Yet, 
despite all these challenges, it is a credit to our team that we were 
able to avoid any significant disruption to the Capitol building 
operations during this process. Last summer, the project footprint was 
successfully cleared of utilities.
  --A specific example: on First Street NE, we had intended on 
        rerouting a large water line across the road at a location we 
        believed suitable to accommodate the necessary excavation. City 
        drawings showed an existing Amtrak tunnel to be approximately 
        18 feet below ground at this location, more than enough 
        clearance to reroute our water line. Upon excavation, we found 
        the Amtrak tunnel wall to begin, in fact, less than 2 feet 
        below the surface. We were forced to back away, reroute the 
        line again, adding a few hundred feet to the overall length to 
        the utility line and a few extra weeks of work, and nearly 
        $400,000 in extra costs. Though not as dramatic as this, we 
        have had many other occurrences of utility lines not being 
        where they were expected, or being where they weren't expected 
        at all. But I must emphasize, all the costs associated with 
        this work were valid and reasonable, they just weren't 
        predictable.
    There also were challenges as a result of 9/11. First, the tragic 
events of that day prompted a reassessment of the projects' security 
elements. As a credit to the original design by our architectural firm, 
RTKL, the team recommended no significant changes to the overall 
design. However, additional requirements, which necessitated more 
robust mechanical systems, were imposed. Structural changes were needed 
to accommodate these new systems and these changes came at a very late 
stage in the design process. In fact, Sequence 1 design documents were 
already complete and Sequence 2 documents were about one month from 
completion. Despite these changes, our completion milestones did not 
change.
    There has also been an increase in site logistics security. New 
security screening measures imposed on all vehicles coming to the 
construction site, while necessary, add time to every trip made. When 
we reach the peak of excavation, we will have approximately 50 dump 
trucks working at the same time, each attempting to make six to eight 
trips a day to and from the site each day. Additional time to make 
these trips translates to an extension of the excavation period. 
Further, we were required to build a new screening station. That meant 
adding telecommunications conduits, additional paving, additional 
fencing and installation of security elements. Design and construction 
of the new screening facility required significant planning and 
coordination with the Capitol Police, but again, our completion 
milestone did not change.
    Finally, we are all aware that we had one of the wettest winters on 
record. Rain and snow have the potential to wreak havoc on a 
construction site, especially one involving excavation and very large 
equipment, which tends to get bogged down in the mud. Nevertheless, our 
construction crews have tried to offset any time lost due to weather by 
working, at times, 24 hours a day, 7 days week, the Sequence 1 project 
has been impacted by approximately 48 days due to unforeseen challenges 
and other conditions I noted. However, to date, our major completion 
schedule milestones still have not changed. One thing to note, 
subsequent to the 48-day delay impact, last month, we hit a 200-year 
old stone well situated directly in the path of our perimeter wall and 
just a few feet away from the Capitol. The demolition of the stone and 
attempts to reestablish a solid foundation for the perimeter wall has 
proved extremely difficult. In short, what was scheduled to last four 
days, for the routine construction of three wall panels, required weeks 
instead. Our construction manager is currently gathering facts and is 
in the process of assessing the impact to the project's milestones, if 
any. We will report the results to Leadership after we have completed 
this assessment.
    If four years ago we knew, what we know today, we would have had 
the information necessary to budget for the project more accurately. 
However, the project has received two clean audit opinions from the 
General Accounting Office, and we have put additional controls in place 
on the budgeting process for the project.
    Question. As you know, we are looking to mark up the fiscal year 
2004 appropriations bill shortly and we need your best estimate for 
completing the project as soon as possible. When will you have the 
cost-to-complete? When will you need the additional funds?
    Answer. We have been working with the General Accounting Office 
(GAO) and an independent consultant to thoroughly analyze the CVC 
project's budget, expenditures, future requirements, and contingencies 
to provide a firm cost-to-complete analysis. The GAO is planning to 
have the results in early June 2003.
    The funding timeline for the project is being updated to reflect 
the obligation plan authority we received for Sequence 2. The project 
team, including our construction manager who maintains our overall 
project schedule, has identified the next immediate need for additional 
funding in June 2003. This request includes funding for the East Front 
interface portion of the CVC project and to keep Sequence 1 moving 
forward. The East Front work includes a number of tasks and is not 
currently part of the Sequence 1 or 2 contracts. With the award of the 
Sequence 2 contract we are proceeding with maintaining our milestone 
schedule. However, we still have a critical portion of the project, 
within the East Front interface, that needs to be funded, or funds 
reprogrammed, to allow us to keep on schedule. The East Front portion 
of the CVC project is work that was always part of the base project, 
and includes complex structural and mechanical/electrical elements to 
support the vertical transportation (elevators and stairways) and air 
shafts that connect the CVC to the Capitol building. This work was not 
included in the contracts for Sequences 1 or 2 since the requirement to 
extend the existing east front elevators was given to the CVC at the 
time the Sequence 1 design was being finalized, thus it was too late to 
include in the Sequence 1 bid documents. During design development of 
the East Front (which was originally planned to be part of Sequence 2) 
the engineers realized how extremely complex the structural work was to 
extend the existing elevators. An acceptable engineering solution could 
not be found which would mitigate the risk to the existing Capitol 
building, thus I made a decision to reduce the depth of these elevators 
and the new air shafts. The engineers revised their design which 
reduced the risk. We have finalized the design and have obtained three 
independent estimates for this work. We plan to negotiate this work 
with one of the contractors on-site and will incorporate it into their 
contract.
    The next need for funds is anticipated to be in October/November 
2003 to meet the other elements of the project. We are currently 
reviewing the updated schedule, which includes the Sequence 2 
contractor, to obtain a more precise spending plan for October 2003 and 
beyond. We plan to have this completed by the end of the month also.
    Question. What major challenges might you encounter as you continue 
the project, and the biggest risk areas that could lead to budget 
pressures?
    Answer. Unforeseen site conditions remain our biggest risk. 
Whenever you dig a 50-foot hole over an area covering five acres 
immediately adjacent to our nation's most historic building, it is 
difficult to predict exactly what we will find. As an example is the 
underground well I mentioned in a prior response.
    Additional security requirements also present another risk to 
budget and schedule. Increased security requirements or work stoppages 
prompted by external events can certainly have a significant impact on 
the project.
    Other potential risks are those associated with additional changes 
in scope and requirements. We can only change so much while executing 
day-to-day management of the project before changes have real impacts 
to budget and schedule. Providing additional funds for additional work 
doesn't necessarily mean we can maintain our original schedule. So many 
elements of this project are tied together where a new requirement, for 
example, could have a ripple effect on several other elements.
    Also, based on our recent experience with the demolition of the 
well, we are concerned that work along and within the East Front can be 
disruptive to the point that we must perform much of the work during 
off hours. Obviously, such restrictions reduce the opportunity to keep 
on schedule.
    Question. What procedures have you put in place to ensure that you 
keep a tight reign on the budget?
    Answer. The biggest areas of budget pressures are directly related 
to the challenges I previously enumerated. However, there is also a 
risk to the schedule if additional funds are not made available or 
reprogrammed to start the East Front construction this summer. If 
additional unforeseen conditions arise during construction that require 
contingency funds, that too can prevent the project from moving 
forward. We will work with the Committees to provide detailed budget 
information. We also will work closely with House and Senate Leadership 
to reconcile the budget based on the conditions I discussed in a cost-
to-complete estimate with an independent consultant. We meet every 
Monday with the Capitol Preservation Commission (CPC) to provide a 
current update on the project, discuss issues of concern, and resolve 
problems. Let me take this opportunity to thank them for their 
steadfast support and consistent leadership as we have moved from 
design and into construction.
    We are currently working on revising the monthly financial report 
to follow the format and funding of the approved obligation plans to 
clearly show where the funds have been used. Also, I have put in place 
budget monitoring procedures that include reviewing potential 
construction change orders (PCOs) on a daily basis within my CVC 
project office. Our CVC project team reviews these changes daily, to 
determine if they are within the scope of the project and to code them 
by funding source and to be noted as client requested, unforeseen 
condition, or design change due to existing conditions (or other 
categories as yet to be defined). Then with support from my AOC budget 
office, who will ensure that the changes are in line with the 
obligation plans, the CVC team will assess the impact to the future 
budget and determine if there is a cause for concern. I will review 
this with the CVC project team on a weekly basis (or sooner if the need 
is great) and will brief the CPC leadership staff on the potential 
changes and their impact to the project.
    Through the monthly reports and controls, cost-to-complete estimate 
and GAO oversight, our construction management staff has placed the 
highest priority to ensure the successful completion of the project in 
a fiscally responsible and timely manner.
    Question. What is being done to prepare for the operations of the 
CVC when it opens in 2005?
    Answer. A consultant is developing options and suggestions for a 
CVC operations plan which will provide the following information:
  --Three-year estimate of operating expenses;
  --Facility management plan;
  --Food service plan;
  --Visitor experience plan, including wayfinding, visitor flow and 
        Guide Service recommendations;
  --Space allocation recommendations;
  --Recommendations for in-house staffing vs. contracting out for 
        certain services; and
  --Training schedules and pre-opening recommendations.
    The operations plan is scheduled to be completed this summer and 
will be referred to the CPC for review.

                     CAPITOL POLICE FACILITY NEEDS

    Question. You have been working with the Capitol Police for some 
time to develop a master facilities plan, including a new headquarters 
facility. As I understand it, a site has been identified. This 
Committee has already appropriated roughly $60 million for the project. 
What is the status of the project and how much in additional funding 
will be needed? Will that be part of your fiscal year 2005 request? 
When can we expect the facility will be complete? What is the status of 
the off-site delivery facility which has been fully funded ($22 
million)?
    Answer. The Capitol Police Board has recommended a specific site, 
to best meet the needs of a new Capitol Police headquarters facility, 
based on current requirements identified in the facilities master plan. 
Our plan is to use existing funds to pursue due diligence and purchase 
real property, with appropriate oversight committee approvals, and 
design the facility. We will then program the remaining funds in our 
normal budget cycle. We anticipate the earliest request for funds to 
complete the project will be in fiscal year 2006. The total funding 
will construct and fit-out the new headquarters facility and the 
command center. We will initially need to hire two temporary full-time 
equivalents (FTE) exceeding our FTE ceiling to assist with this 
project. The conference report accompanying Public Law 108-11 directs 
us to use the Naval Facilities Command to execute this project.
    It is important to bring to your attention two issues that could 
affect the remaining cost of the new Capitol Police headquarters, 
currently estimated at $113 million, as well as the identification of 
the preferred site. The current estimate is based on the Capitol Police 
operational model used for the recently completed facilities master 
plan. This operational model recommended retaining a significant 
portion of existing police spaces in the Capitol, House and Senate 
Office Buildings. The Capitol Police are currently assessing the 
operational impacts of reducing their footprint within existing 
facilities, as well as substantially reducing their surface parking 
requirements within the jurisdictions. Once this assessment is 
complete, we will then analyze the impact to the overall facilities 
master plan. If relocating functions to the new Police headquarters 
requires additional space and ancillary facilities, the cost of the 
project will increase accordingly. Offsetting costs for release of 
existing space are minor in comparison. The second issue that could 
affect the new headquarters' cost is the recently completed Capitol 
Police Comprehensive Staffing Analysis for Sworn and Civilian 
Personnel. This analysis recommends significant increases in the number 
of sworn and civilian personnel and, if approved, some of these people 
would be located in the new Police headquarters building along with 
their additional parking requirements. We will work with the Capitol 
Police and our oversight committees to resolve these issues.
    Given the early stages of this project, it is too early to 
establish an estimated completion date. Once requirements are finalized 
and property acquired, we will work with the Navy to establish a 
realistic completion date.
    The Offsite Delivery/Screening Facility is now fully funded. 
Unfortunately however, the Capitol Police Board recommended site was 
sold by the owner to another entity before we received approval to make 
an offer. We are working with the Capitol Police to identify and 
evaluate options for an alternative location. Once our evaluation is 
complete, we will work with our oversight committees to move forward.

                      ALTERNATE COMPUTER FACILITY

    Question. The single largest project request in your budget is $61 
million to purchase the alternate computer facility, currently being 
leased. Could you explain why it makes sense to buy this facility 
rather than continue to lease it? If a decision is made to buy the 
building, we will have double the space at that location than is 
currently available (2 connected buildings rather than one). What is 
the status of plans for using the additional space? Who is leading the 
effort to develop those plans?
    Answer. Project background: Following the attacks of September 11, 
2001, for continuity of operations, the Architect of the Capitol 
received authorization and funding to acquire an alternate computer 
facility in case primary data centers became inoperative. The AOC 
entered into a ten-year lease agreement for a facility within a 50 mile 
radius of the Capitol in November 2002. We also have a single option 
for a second ten years within the lease. The building under lease is 
one-half of a twin building complex with the other building available 
for lease to other tenants by the owner. The AOC has the right to a 
security suitability review of any potential tenants in the other 
building. The primary tenants within the Alternate Computer Facility 
are the House of Representatives, Senate, Library of Congress, and 
Architect of the Capitol. The building owner was given five months from 
November 2002 to design and construct modifications to the facility to 
meet tenant requirements for individual data centers. The target 
completion date for these modifications was April 19, 2003.
    Why should we purchase the facility? In short, the need is 
permanent. The building is sound and very desirable as determined by 
the ACF task force. Security is enhanced and, by purchasing it, we save 
the federal government money.
    There are several advantages to buying the building:
    First, the need for a backup data center is perpetual.
    Second, the very same reasons the building is attractive to 
purchase are the same reasons the particular building was attractive to 
lease.
  --Remote, but convenient location (within 50 miles of the Capitol);
  --Strength and redundancies in infrastructure and utilities;
  --On-site land around the building and excellent setback from public 
        roads;
  --Building in overall good condition;
  --Building contained millions of dollars of prior-tenant build-out 
        that we re-used without much additional expense;
  --Secure facility type of building layout, i.e., no room has an 
        exterior wall;
  --Excellent Aesthetics;
  --Available for quick occupancy;
  --Floor load capacity of the building (1st floor) is 300 psf (which 
        is very high);
  --Electrical feeders from 2 separate power substations, for 
        redundancy;
  --30 Mega Volt-Amperes (MVA) of electrical capacity per transformer; 
        building electrical capacity of 50 watts psf; and
  --Diversity of fiber optic providers available.
    Third, purchase would increase security by allowing the legislative 
branch to control both halves of the building, and the land around it. 
It would also prevent the landlord from developing the large tract of 
land around the building (which if we do not exercise the purchase 
option he can develop intensely up to 200 feet from our leased space). 
Purchase would allow us to control the common heating, ventilation and 
air conditioning, power, and water utility systems of the building, 
which are located in the side of the building that we do not lease.
    Fourth, based on a simple cost/benefit analysis, ten years of rent, 
taxes and security premium equates to about $55 million. This, coupled 
with our more than $10 million investment in fitting out the facility 
to accommodate our specific requirements means that we will have 
invested approximately $65 million in the facility over the 10 year 
lease and not own anything. If we purchase the facility at the maximum 
price of $61 million, we double our building space and gain control of 
91 acres of undeveloped land around the facility. We also save the 
second ten-year lease costs, which will exceed $58 million over the 
term of the lease. To leverage our purchase, it would be ideal to use 
the other half for other legislative branch requirements, for the 
Senate, House, Library, AOC, GPO or GAO for data center expansion, 
backup data centers, or other legislative branch requirements, such as 
continuity of operations. Of course, if other legislative branch 
requirements are not sufficient to fill the other building, then we 
could lease the remaining space to other government agencies, or 
commercial tenants. If the other half of the building is leased to 
other tenants, we would desire a statutory provision allowing us, 
rather than Treasury, to retain the rent to offset operating costs. 
Based on market rental rates, we could conservatively expect to lease 
the other building for approximately $20-$30 per square foot per year. 
For 167,831 square feet, this equates to over $3 million per year in 
revenue. There is no lead agency for developing plans for the other 
half of the building as no firm decision has been made to acquire it. 
Should that decision be finalized, the AOC will be happy to take the 
lead in developing plans for its use if so directed. We are, however, 
working with another legislative branch agency to determine the 
feasibility of developing part of the surrounding 91 acres, or an 
adjacent 25-acre parcel under the same owner.
    Another issue centers around existing and future development of the 
other building. The building owner has the right, and intends to 
exercise it, for leasing available space within the facility. While we 
have the right, and pay a premium for that right, to review potential 
tenants for security suitability, we do not have authority to prevent 
the landlord from leasing available space. As the landlord acquires new 
tenants, purchase of the facility becomes more complicated and 
potentially more costly as lease terminations may be required, with 
appropriate compensation. This potentially increases our financial 
liability as new leases are granted and space is encumbered.

                        WEST REFRIGERATION PLANT

    Question. Your budget includes $40.8 million for the final 
increment for the West Refrigeration Plant Expansion. Is this project 
on time and on budget? When will it be completed? What are your plans 
for the East Refrigeration Plant, which will be decommissioned, and 
what cost requirements can we expect?
    Answer. The coal handling relocation project, which was phase I of 
the West Refrigeration Plant Expansion project is approximately 90 
percent complete, within budget and on schedule for a June 15th 
completion date.
    Phase II of this critical project, construction of the actual 
refrigeration plant expansion, was competitively bid and subsequently 
awarded to HITT Construction who is subcontracting the mechanical work 
out to Poole & Kent Inc, mechanical contractor who has worked with HITT 
on other projects. Notice to proceed (NTP) with construction was issued 
on March 26, 2003. Subsequent to contract award and prior to NTP, two 
of the unsuccessful offerors, Bell Construction and Fru-Con 
construction filed bid protests with the General Accounting Office 
(GAO). GAO declined to hear the cases on an expedited basis and Bell 
Construction filed in Federal Claims Court to stop construction and 
revisit the procurement and bid selection process. On May 9th, the 
court declined to issue a restraining order against the project and 
commented in the order that, ``It is clear from the arguments this 
morning (court, 5/9), that plaintiff does not have a likelihood of 
prevailing on the merits''.
    Construction is proceeding with demolition of existing structures 
and site civil work. The general contractor has obligated approximately 
75 percent of the awarded fiscal year 2003 funding, the project is 
within budget and on schedule to be completed in May 2005.
    The fiscal year 2004 budget submission has requested appropriated 
funds to conduct a comprehensive utilization study for the East 
Refrigeration Plant which will generate a report with the best 
available options to utilize the building after decommissioning. 
Options under consideration include addition of limited on-site power 
generation or relocation of existing industrial and repair shops from 
the Capitol Hill complex.

                           PERIMETER SECURITY

    Question. What is the status of the second phase of perimeter 
security work on the Senate side of the Capitol, funded in the fiscal 
year 2002 emergency response fund? When is construction scheduled to 
complete? Are funds on-hand sufficient to complete the project as 
planned?
    Answer. Approval of the conceptual plan for the second phase of the 
perimeter security project for the Senate Office Buildings was recently 
received and final designs and schedules are currently being developed. 
It is anticipated that work will begin this summer and will take 2 to 3 
years to complete. Without the final design it is not possible to be 
certain that there is adequate funding for this project, however, based 
on similar projects, it is anticipated that the current funding will be 
adequate. When final designs are developed and cost estimates are 
completed, they will be fully coordinated with the Senate.

                         CONCLUSION OF HEARINGS

    Senator Campbell. Since we will be getting our second beep 
to vote in just a minute, if there are no further things before 
the committee, the subcommittee will be called recessed. Thank 
you.
    [Whereupon, at 1:50 p.m., Thursday, May 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Association of Law Libraries, Prepared Statement of.....    38
American Library Association, Prepared Statement of..............    38
Anderson, Barry B., Deputy Director, Congressional Budget Office.    41
Association of Research Libraries, Prepared Statement of.........    38

Billington, Dr. James H., Librarian of Congress and Chairman of 
  the Board of Trustees for the Center for Russian Leadership 
  Development, Library of Congress...............................    55
    Prepared Statement of........................................    58

Campbell, Senator Ben Nighthorse, U.S. Senator from Colorado:
    Opening Statements of...........................1, 55, 99, 125, 151
    Prepared Statement of........................................   152
    Questions Submitted by........................34, 95, 143, 214, 230
Cicco, Anthony, Jr., Chief Information Officer and Deputy Chief 
  Mission Support Officer, General Accounting Office.............     1
Czerwinski, Stanley J., Controller, General Accounting Office....     1

Dodaro, Gene L., Chief Operating Officer, General Accounting 
  Office.........................................................     1
Durbin, Senator Richard J., U.S. Senator from Illinois:
    Prepared Statements of......................................31, 121
    Statement of.................................................   131

Gainer, Terrance, Chief, U.S. Capitol Police, Capitol Police 
  Board..........................................................   125
    Prepared Statement of........................................   129
    Statement of.................................................   125

Hantman, Alan M., FAIA, Architect of the Capitol and Capitol 
  Police Board.................................................125, 217
    Prepared Statement of........................................   218
Holtz-Eakin, Douglas, Director, Congressional Budget Office......    41
    Prepared Statement of........................................    42

James, Bruce R., Public Printer, Government Printing Office......    23
    Prepared Statement of........................................    25
Jones, Mary, Assistant Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   151

Livingood, Wilson, House Sergeant at Arms, Capitol Police Board..   125
Lopez, Kenneth E., Director of Security, Library of Congress.....    55

Mulhollan, Daniel P., Director, Congressional Research Service, 
  Prepared Statement of..........................................    77

Partlow, Frank A., Jr., Chief of Staff, Government Printing 
  Office.........................................................    23
Peters, Marybeth, The Register of Copyrights, Prepared Statement 
  of.............................................................    73
Pickle, William H., Sergeant at Arms, Office of the Sergeant at 
  Arms and Doorkeeper, U.S. Senate and Chairman, Capitol Police 
  Board.........................................................99, 125
    Prepared Statements of.....................................102, 128
    Statement of.................................................   125

Reynolds, Emily J., Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   151
    Prepared Statement of........................................   155
Russell, Judith C., Superintendent of Documents, Government 
  Printing Office................................................    23

Scott, General Donald L., Deputy Librarian, Library of Congress..    55
Skvarla, Diane, Senate Curator, Office of the Secretary, U.S. 
  Senate.........................................................   151

Taylor, George A., Deputy Public Printer, Government Printing 
  Office.........................................................    23

Walker, David Comptroller General, General Accounting Office.....     1
    Prepared Statement of........................................     2
Wineman, Timothy S., Financial Clerk of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   151
    Prepared Statement of........................................   211


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional Committee Questions...................................   229
Alternate Computer Facility......................................   238
Capitol and Capitol Grounds Improvements.........................   222
Capitol Police:
    Facility Needs...............................................   237
    Headquarters.................................................   229
Capitol Visitor Center....................................224, 228, 234
Employee Safety..................................................   222
Facilities Management............................................   230
Facility Management..............................................   224
Financial Management.............................................   224
GAO Management Review............................................   227
Human Capital....................................................   223
Information Technology...........................................   224
Major Projects:
    Master Plan Capitol Building.................................   232
    Performance by Non AOC Entities..............................   234
    Possible Deferrals...........................................   233
Master Plan......................................................   226
Perimeter Security...............................................   239
Project Descriptions.............................................   218
Senate Office Buildings Improvements.............................   222
Senate Restaurants...............................................   226
Status of GAO Recommendations....................................   230
Strategic Planning...............................................   223
U.S. Capitol Police Master Plan..................................   226
West Refrigeration Plant.........................................   239

                          CAPITOL POLICE BOARD

Additional Civilian Staff........................................   132
Additional Committee Questions...................................   143
Additional Officers..............................................   132
Applicant Attrition..............................................   136
Capitol Police Board.............................................   148
Civilian Staffing................................................   146
Dignitary Protection.............................................   148
Diversity of the Work Force......................................   137
Facilities.......................................................   140
Facility Needs...................................................   147
Fiscal Year 2004 Staffing........................................   146
Lateral Entry Process............................................   141
LOC Police Merger..............................................135, 139
Manpower Study...................................................   143
Mounted Horse Unit...............................................   130
    Support......................................................   139
Pay Scale Comparison.............................................   138
Public Access....................................................   134
Recruiting Officers..............................................   133
Retention of Employees...........................................   141
Shining Light of the Nation......................................   142
Staffing Alternatives............................................   134
Strategic Plan...................................................   140
Student Loan Reimbursement.......................................   137
Training.........................................................   141

                      CONGRESSIONAL BUDGET OFFICE

Accomplishments in Fiscal Year 2002..............................    43
Changes Since Terrorist Attacks..................................    50
Internal Management Strategy: Progress and Priorities for Fiscal 
  Years 2003 and 2004............................................    47
Overview of CBO's Budget Request for Fiscal Year 2004............    42
Overview of the Congressional Budget Office's Budget Request.....    41
Priorities for Fiscal Years 2003 and 2004........................    45
Resources to Improve Baseline Forecasting........................    51
Student Loan Repayment Program...................................    52

                       GENERAL ACCOUNTING OFFICE

Emergency Wartime Supplemental...................................    22
Field Offices....................................................    21
    Closures.....................................................    21
Fiscal Year 2002 Performance and Results.........................     3
GAO's Fiscal Year 2004 Budget Request............................    11
Human Capital Flexibilities......................................    20
Maximizing GAO's Effectiveness, Responsiveness and Value.........     8
Walker v. Cheney.................................................    21

                       GOVERNMENT PRINTING OFFICE

Additional Committee Questions...................................    34
Challenges at GPO................................................    34
Contracting Costs................................................    36
Federal Depository Library Program...............................    37
GPO:
    Operating at a Loss..........................................    35
    Workforce....................................................    32
In-plant Capacity................................................    36
Office of Innovation and Partnerships............................    37
Privatization....................................................    33
Revolving Fund...................................................    31
Technology.......................................................    32

                          LIBRARY OF CONGRESS

Adding CRS Capacity for Data Base Management Activities..........    80
Additional Committee Questions...................................    94
Assisting the Congress in a Changed World Setting................    77
Automated Hiring System..........................................66, 87
Books for the Blind and Physically Handicapped...................    97
Center for Russian Leadership Development........................    67
Collections Security and Management..............................    63
Congressional Research Service...................................    64
    Contracting..................................................    96
    Hiring Problems..............................................    95
Continuity of Business Operations to Serve the Needs of Congress 
  at All Times...................................................    79
Copyright Office.................................................    64
Digital Future Initiative........................................    83
Digital Initiatives..............................................    95
Emergency Supplemental Appropriations............................    56
Emerging Democracies.............................................    84
FEDLINK Program..................................................    66
Fiscal Year 2002 Accomplishments.................................    62
Fiscal Year 2004 Budget Request Summary..........................    74
Hiring Problems..................................................    95
Investing in the Future: Incentives that Encourage Staff 
  Retention......................................................    80
Library Buildings and Grounds....................................    66
Library of Congress:
    Funding Priorities...........................................    57
    Police Force.................................................    82
National Digital Information Infrastructure and Preservation 
  Program [NDIIPP]...............................................    88
National Library Service for the Blind and Physically Handicapped    65
New Website......................................................    58
Other Core Programs and Mandated Projects........................    64
Physical Security................................................    62
Police:
    Merger.......................................................    81
    Request......................................................    95
    Staffing Study...............................................    83
Remote Access to CRS Material....................................    97
Retail Sales Activities..........................................    92
Review of Copyright Office Accomplishments and Future Plans......    74
Russian Leadership Program--Open World...........................    81
Security--Capitol Visitor Center.................................    86
Status of Fiscal 2003 New Capacity Initiative....................    81
The Copyright Office Mission.....................................    73
The Library of Congress Today....................................    61
Upcoming Challenges..............................................    56
Use of Library Resources.........................................    91
Veterans History Project.........................................    89

                              U.S. SENATE

                        Office of the Secretary

Additional Committee Questions...................................   214
Administrative Offices...........................................   181
Budget Overview..................................................   153
Capitol Visitor Center.........................................158, 213
Continuity of Operations:
    Planning.....................................................   158
    Plans........................................................   155
Curator Projects.................................................   154
Curtis Chair.....................................................   212
Disbursing Office Information Technology.........................   172
Education of Pages...............................................   154
Financial Operations: Disbursing Office..........................   165
Highlights of Office of Secretary................................   154
Historian's Office...............................................   154
Implementing Mandated Systems....................................   156
Legislative Offices..............................................   159
Maintaining and Improving Current and Historic Legislative, 
  Financial and Administrative Services..........................   159
Mandated Systems.................................................   153
Presenting the Fiscal Year 2004 Budget Request...................   155
Selection of Artists for Portraits...............................   212
Senate Library...................................................   154

             Office of the Sergeant at Arms and Doorkeeper

Alternate Computing Facility.....................................   120
Budget Built on Business Model...................................   111
Budget Priorities................................................   119
Capitol Police Budget Request....................................    99
Communication Devices............................................   123
Emergency Preparedness...........................................   124
Mail Processing................................................120, 122
Ongoing Initiatives..............................................   101
Recording Studio.................................................   101
Role of Sergeant at Arms.........................................   101
Security and Emergency Preparedness..............................   103
Senate Messaging System..........................................   121
Sergeant at Arms:
    Budget Request...............................................    99
    Staff........................................................   101
    Statement....................................................   100
Service and Support for the Senate...............................   108
Staffing Increases...............................................   123
Warehouse........................................................   120
    Facility.....................................................   100

                                   

</pre></body></html>
